<html>
<title> - PROCEEDINGS OF THE FULL COMMITTEE MARKUP ON H.R. 1224, NIST CYBERSECURITY FRAMEWORK, ASSESSMENT, AND AUDITING ACT OF 2017</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    COMMITTEE MARKUPS OF H.R. 1224,
                    
              H.R. 1430, H.R. 1431, H.R. 2105, H.R. 2809,
              H.R. 2763, H.R. 1159, H.R. 4376, H.R. 4377,
              H.R. 4378, H.R. 4375, H.R. 4323, H.R. 4254,
              H.R. 3397, H.R. 4675, H.R. 5345, H.R. 5346,
              H.R. 5086, H.R. 5509, H.R. 5503, H.R. 5905,
              H.R. 5907, H.R. 5906, H.R. 6227, H.R. 6229,
              H.R. 6226, H.R. 6398, S. 141, AND H.R. 6468

=======================================================================

                         COMPILATION OF MARKUPS

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                       FIRST AND SECOND SESSIONS

                               ----------                              

                               2017-2018

                               ----------                              

                          Serial No. CP: 115-1

                               ----------                              

                                Volume 1

                               ----------                              

 Printed for the use of the Committee on Science, Space, and Technology
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


               
 
                    COMPILATION OF MARKUPS, VOLUME 1




                    COMMITTEE MARKUPS OF H.R. 1224,
              H.R. 1430, H.R. 1431, H.R. 2105, H.R. 2809,
              H.R. 2763, H.R. 1159, H.R. 4376, H.R. 4377,
              H.R. 4378, H.R. 4375, H.R. 4323, H.R. 4254,
              H.R. 3397, H.R. 4675, H.R. 5345, H.R. 5346,
              H.R. 5086, H.R. 5509, H.R. 5503, H.R. 5905,
              H.R. 5907, H.R. 5906, H.R. 6227, H.R. 6229,
              H.R. 6226, H.R. 6398, S. 141, AND H.R. 6468

=======================================================================

                         COMPILATION OF MARKUPS

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                       FIRST AND SECOND SESSIONS

                               __________

                               2017-2018

                               __________

                          Serial No. CP: 115-1

                               __________

                                Volume 1

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov      
     
                 
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-710 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
    
          


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
                   
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
BARRY LOUDERMILK, Georgia            JERRY McNERNEY, California
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
ANDY BIGGS, Arizona                  MARK TAKANO, California
ROGER W. MARSHALL, Kansas            COLLEEN HANABUSA, Hawaii
NEAL P. DUNN, Florida                CHARLIE CRIST, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona
                                 ------                                

                         Subcommittee on Energy

                 HON. HON. RANDY K. WEBER, Texas, Chair
                 
DANA ROHRABACHER, California         MARC A. VEASEY, Texas
FRANK D. LUCAS, Oklahoma             ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             JACKY ROSEN, Nevada
THOMAS MASSIE, Kentucky              JERRY MCNERNEY, California
STEPHEN KNIGHT, California           PAUL TONKO, New York
GARY PALMER, Alabama                 BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
NEAL P. DUNN, Florida                EDDIE BERNICE JOHNSON, Texas
RALPH NORMAN, South Carolina
LAMAR S. SMITH, Texas
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
                 
F. JAMES SENSENBRENNER, JR.,         SUZANNE BONAMICI, Oregon
    Wisconsin                        DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              ALAN GRAYSON, Florida
RANDY WEBER, Texas                   AMI BERA, California
JOHN MOOLENAAR, Michigan             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas            EDDIE BERNICE JOHNSON, Texas
GARY PALMER, Alabama
RALPH LEE ABRAHAM, Louisiana
LAMAR S. SMITH, Texas

                                  (ii)


                       Subcommittee on Oversight

            HON. RALPH LEE ABRAHAM, Louisiana, Chair
BILL POSEY, Florida		     DONALD S. BEYER, JR., Virginia
THOMAS MASSIE, Kentucky		     JERRY MCNERNEY, California
BARRY LOUDERMILK, Georgia	     ED PERLMUTTER, Colorado
ROGER W. MARSHALL, Kansas	     EDDIE BERNICE JOHNSON, Texas
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
LAMAR S. SMITH, Texas                
                                     
                                     
                                     
                                     
                                     
                                     
_________________________________________________________________


                Subcommittee on Research and Technology

                HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma		DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois		ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California		JACKY ROSEN, Nevada
BARRY LOUDERMILK, Georgia		SUZANNE BONAMICI, Oregon
DANIEL WEBSTER, Florida			AMI BERA, California
ROGER W. MARSHALL, Kansas		DONALD S. BEYER, JR., Virginia
DEBBIE LESKO, Arizona			EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas                
                                     
                                   
_____________________________________________________________

                         Subcommittee on Space

                      HON. BRIAN BABIN, Texas, Chair
                      
DANA ROHRABACHER, California		DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma		AMI BERA, California
MICHAEL T. McCAUL, Texas		ZOE LOFGREN, California
MO BROOKS, Alabama,			ED PERLMUTTER, Colorado
BILL POSEY, Florida			MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma		DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio			EDDIE BERNICE JOHNSON, Texas
STEVE KNIGHT, California
Brian Babin, Texas
LAMAR S. SMITH, Texas                
                                   
                                   (iii)


                         C  O  N  T  E  N  T  S

                               2017- 2018

                                                                   Page
H.R. 1224--NIST Cybersecurity Framework, Assessment, and Auditing 

  Act of 2017
    Proceedings of the markup held by the Full Committee, March 
      1, 2017....................................................     1

H.R. 1430--Honest and Open New EPA Science Treatment Act of 2017, 

  or the HONEST Act
    Proceedings of the markup held by the Full Committee, March 
      9, 2017....................................................    39

H.R. 1431--EPA Science Advisory Board Reform Act of 2017
    Proceedings of the markup held by the Full Committee, March 
      9, 2017....................................................    63

H.R. 2105--NIST Small Business Cybersecurity Act of 2017
    Proceedings of the markup held by the Full Committee, May 2, 
      2017.......................................................    91

H.R. 2809--American Space Commerce Free Enterprise Act of 2017
    Proceedings of the markup held by the Full Committee, June 8, 
      2017.......................................................   109

H.R. 2763--Small Business Innovation Research and Small Business 
  Technology Transfer Improvements Act of 2017
    Proceedings of the markup held by the Full Committee, June 
      22, 2017...................................................   247

H.R. 1159--United States and Israel Space Cooperation Act 
    Proceedings of the markup held by the Full Committee, 
      September 28, 2017.........................................   305

H.R. 4376--Department of Energy Research Infrastructure Act of 
  2017
    Proceedings of the markup held by the Full Committee, 
      November 15, 2017..........................................   315

H.R. 4377--Accelerating American Leadership in Science Act of 
  2017
    Proceedings of the markup held by the Full Committee, 
      November 15, 2017..........................................   322

H.R. 4378--Nuclear Energy Research Infrastructure Act of 2017
    Proceedings of the markup held by the Full Committee, 
      November 15, 2017..........................................   327

H.R. 4375--STEM Research and Education Effectiveness and 
  Transparency Act
    Proceedings of the markup held by the Full Committee, 
      November 15, 2017..........................................   332

H.R. 4323--Supporting Veterans in STEM Careers Act
    Proceedings of the markup held by the Full Committee, 
      November 15, 2017..........................................   334

H.R. 4254--Women in Aerospace Education Act
    Proceedings of the markup held by the Full Committee, 
      November 15, 2017..........................................   338

H.R. 3397--Building Blocks of STEM Act
    Proceedings of the markup held by the Full Committee, 
      November 15, 2017..........................................   343

                                  (iv)

H.R. 4675--Low-Dose Radiation Research Act of 2017
    Proceedings of the markup held by the Full Committee, January 
      10, 2018...................................................   397

H.R. 5345--American Leadership in Space Technology and Advanced 
  Rocketry Act
    Proceedings of the markup held by the Full Committee, March 
      22, 2018...................................................   415

H.R. 5346--Commercial Space Support Vehicle Act
    Proceedings of the markup held by the Full Committee, March 
      22, 2018...................................................   421

H.R. 5086--Innovators to Entrepreneurs Act of 2018
    Proceedings of the markup held by the Full Committee, March 
      22, 2018...................................................   422

 

                  PROCEEDINGS OF THE FULL COMMITTEE
                          MARKUP ON H.R. 1224,
                     NIST CYBERSECURITY FRAMEWORK,
                  ASSESSMENT, AND AUDITING ACT OF 2017

                              ----------                              


                        WEDNESDAY, MARCH 1, 2017

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:03 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lamar 
Smith [Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recess at any time, and without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Pursuant to Committee Rule 2(e) and House Rule 
112(2)(h)(4), the Chair announces that he may postpone roll 
call votes.
    Today we meet to consider H.R. 1224, the NIST Cybersecurity 
Framework, Assessment, and Auditing Act of 2017. I recognize 
myself for an opening statement.
    In the last Congress, the Science Committee held a dozen 
hearings related to oversight and policy aspects of Federal 
cybersecurity issues. The hearings included the examination of 
data breaches at the Office of Personnel Management, the 
Internal Revenue Service and the Federal Deposit Insurance 
Corporation. These hearings underscored the need for a robust 
approach to protect U.S. cybersecurity capabilities.
    Two weeks ago, the Research and Technology Subcommittee 
held a hearing on this issue where experts testified on 
recommendations in two recent reports that involve the National 
Institute of Standards and Technology (NIST). The bill we 
consider today, H.R. 1224, the NIST Cybersecurity Framework, 
Assessment, and Auditing Act of 2017, implements key ideas and 
strengthens Federal Government cybersecurity. I thank 
Representative Abraham for his initiative on this legislation.
    H.R. 1224 ensures that NIST remains a global leader in 
cybersecurity knowledge, scientific standards-setting, and 
research and analysis of Federal agencies' cybersecurity 
readiness. This commonsense legislation takes advantage of 
NIST's unique capabilities to both develop cybersecurity 
standards and guidelines, which NIST does now, and go further 
and evaluate and assess the extent of Federal agencies' 
compliance with them. Creating more working groups and 
guidelines without a determination of whether anyone is using 
them or using them correctly does not protect our cyber 
infrastructure. NIST has the experts who develop the standards 
and guidelines under the Federal Information Security 
Modernization Act, which apply to the Federal Government.
    NIST experts also developed a Cybersecurity Framework, 
through collaborations between government and private sector 
that are accepted and used by many private organizations to 
address and manage their cybersecurity risks in a cost-
effective way.
    H.R. 1224 directs NIST to promote the Cybersecurity 
Framework by providing Federal agencies with guidance on how to 
implement it. Who better to determine if an agency is following 
these recognized standards than NIST?
    We do not make NIST an enforcement agency. The bill does 
not give the agency authority to exact fines, issue 
injunctions, or pursue further proceedings beyond assessing, 
auditing, and reporting. NIST's assessment, audits, and the 
resulting reports are for Federal agencies only and will not 
affect the private sector.
    We recognize NIST will need resources to accomplish this 
work, and we will address that in a NIST authorization bill 
later this year.
    The Federal Government collects personally identifiable 
information about every person in our country. Unfortunately, 
the Federal Government is the world capital of cyber 
insecurity.
    Two years ago, Chinese hackers broke into OPM's computer 
systems and stole the personally identifiable information and 
sensitive background check information on approximately 26 
million people, including fingerprint records of 5.6 million 
individuals. Chinese cyber-criminals also repeatedly hacked and 
may still be hacking the FDIC computer network. The FDIC hacks 
threaten everything from large-scale manipulation of our entire 
financial system to looting individuals' checking, savings, and 
retirement accounts.
    At the IRS, 2016 tax-refund fraud is projected to set a new 
record at $21 billion. An enterprising crook needs only a name, 
date of birth and a Social Security number to enter made-up W-2 
information, submit a fraudulent return, and receive a refund 
from the IRS within 30 days. Unless we take new and aggressive 
steps to prevent rapidly increasing cyber-attacks by foreign 
criminals and unfriendly governments, our economy and national 
security are at risk. Not doing this is a vote for the status 
quo, which will allow continued security breaches to occur.
    Representative Abraham's bill serves an important purpose 
and expands our ability to protect Americans from cybersecurity 
attacks. I again thank him for his work and I urge my 
colleagues to support H.R. 1224.

                  Prepared Statement of Chairman Smith

    Good morning and welcome to today's Full Committee mark up 
of an important and timely bill.
    In the last Congress, the Science Committee held a dozen 
hearings related to oversight and policy aspects of federal 
cybersecurity issues.
    The hearings included the examination of data breaches at 
the Office of Personnel Management (OPM), the Internal Revenue 
Service (IRS) and the Federal Deposit Insurance Corporation 
(FDIC).
    These hearings underscored the need for a robust approach 
to protect U.S. cybersecurity capabilities.
    Two weeks ago, the Research and Technology Subcommittee 
held a hearing on this issue where experts testified on 
recommendations in two recent reports that involve the National 
Institute of Standards and Technology (NIST).
    The bill we consider today, H.R. 1224, the NIST 
Cybersecurity Framework, Assessment, and Auditing Act of 2017, 
implements key ideas and strengthens federal government 
cybersecurity. I thank Representative Abraham for his 
initiative on this legislation.
    H.R. 1224 ensures that NIST remains a global leader in 
cybersecurity knowledge, scientific standards-setting, and 
research and analysis of federal agencies' cyber security 
readiness.
    This common sense legislation takes advantage of NIST's 
unique capabilities to both develop cybersecurity standards and 
guidelines, which NIST does now, and go further and evaluate 
and assess the extent of federal agencies' compliance with 
them.
    Creating more working groups and guidelines without a 
determination of whether anyone is using them or using them 
correctly does not protect our cyber infrastructure.
    NIST has the experts who develop the standards and 
guidelines under the Federal Information Security Modernization 
Act, which apply to the federal government.
    NIST experts also developed a Cybersecurity Framework, 
through collaborations between government and private sector, 
that are accepted and used by many private organizations to 
address and manage their cybersecurity risks in a costeffective 
way.
    H.R. 1224 directs NIST to promote the Cybersecurity 
Framework by providing federal agencies with guidance on how to 
implement it. Who better to determine if an agency is following 
these recognized standards than NIST?
    We do not make NIST an enforcement agency. The bill does 
not give the agency authority to exact fines, issue 
injunctions, or pursue further proceedings beyond assessing, 
auditing, and reporting.
    NIST's assessment, audits, and the resulting reports are 
for federal agencies only and will not affect the private 
sector.
    We recognize NIST will need resources to accomplish this 
work. We will address that in a NIST authorization bill this 
year.
    The federal government collects personally identifiable 
information about every person in our country. Unfortunately, 
the federal government is the world capital of cyber 
insecurity.
    Two years ago, Chinese hackers broke into OPM's computer 
systems and stole the personally identifiable information and 
sensitive background check information of approximately 26 
million people, including fingerprint records of 5.6 million 
individuals.
    Chinese cyber-criminals also repeatedly hacked--and may 
still be hacking--the FDIC computer network. The FDIC hacks 
threaten everything from large-scale manipulation of our entire 
financial system to looting individuals' checking, savings, and 
retirement accounts.
    At the IRS, 2016 tax-refund fraud is projected to set a new 
record at $21 billion. An enterprising crook needs only a name, 
date of birth and a Social Security number to enter made-up W-2 
information, submit a fraudulent return, and receive a refund 
from the IRS within 30 days.
    Unless we take new and aggressive steps to prevent rapidly 
increasing cyber-attacks by foreign criminals and unfriendly 
governments, our economy and national security are at risk.
    Not doing this is a vote for the status quo, which will 
allow continued security breaches to occur.
    Representative Abraham's bill serves an important purpose 
and expands our ability to protect Americans from cybersecurity 
attacks. I again thank him for his work and I urge my 
colleagues to support H.R. 1224.

    Chairman Smith. That concludes my opening statement, and 
the gentlewoman from Texas, Eddie Bernice Johnson, the Ranking 
Member, is recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I understand and sympathize with the Chairman's desire to 
move cybersecurity legislation. Cybersecurity is a critically 
important topic, and one that invites significant press 
attention.
    We had a good hearing before the Research and Technology 
Subcommittee just 2 weeks ago, during which we heard many good 
recommendations from widely respected experts. Some of those 
recommendations fell within our Committee's jurisdiction, and 
others did not. I do remember the panel unanimously praising 
NIST's role in cybersecurity. I also remember discussion about 
developing metrics for the adoption of NIST's Cybersecurity 
Framework. Witnesses also discussed requiring Federal agencies 
to incorporate the Framework into their information security 
programs.
    I can see where Mr. Abraham has attempted to incorporate 
some aspects of those recommendations into his legislation. 
However, I specifically recall GAO's recommendation that the 
Department of Homeland Security, and not NIST, carry out 
surveys and assessments of the adoption and effectiveness of 
the Cybersecurity Framework. NIST itself has steadfastly 
maintained that they are the wrong agency to do it, and not 
just because of limited resources. I do not remember a single 
witness or a single expert recommendation suggesting that OSTP 
should be given any role in evaluation or oversight of 
cybersecurity in the private sector or the Federal Government. 
Perhaps if we substituted OMB or DHS for OSTP everywhere in 
this bill, it might make more sense.
    The Majority has inserted an entirely new agency into a 
policy matter in which they have no expertise and no business 
being a part of. In doing so, the bill also duplicates 
authorities and responsibilities clearly assigned to OMB and 
DHS in current law.
    Finally, and speaking to what may be the strangest part of 
this bill, I do not remember any expert recommending that NIST 
be given the responsibility to conduct annual cybersecurity 
audits of other agencies. NIST is not an auditing agency. They 
have no such history, expertise, or capacity. They are a 
standards and technology agency.
    In addition, a single FISMA audit costs between a few 
hundred thousand dollars to a couple of million dollars, 
depending on the size and mission of the agency. Nowhere in 
this bill do we provide NIST with the tens of millions of 
dollars of additional funding to become the cybersecurity 
auditing agency of the Federal Government. This is a massive 
unfunded mandate levied on an agency which is already over 
tasked.
    Moreover, current law already assigns this very 
responsibility to agency Inspectors General. And no expert I 
know of has questioned the quality or integrity of the 
Interrogatories' work. In fact, IGs know and understand their 
own agencies' business operations and information systems 
infrastructure better than NIST ever will. In short, I remain 
thoroughly baffled by this proposal in the legislation before 
us today.
    Mr. Chairman, I have said this before, and I will say it 
again here. I stand ready to collaborate and cooperate with you 
on cybersecurity legislation and oversight. We've been able to 
do so in the past, including for the Cybersecurity Enhancement 
Act of 2014. However, the bill before us today has a number of 
controversial new elements which were clearly not vetted with 
the cybersecurity community or the Administration. I will not 
support passage today of legislation which will undermine the 
very agency we are tasking with keeping our cyber 
infrastructure secure.
    I would hope that after this markup, the Majority will take 
the time to address the concerns that have already been raised 
in the short time this bill has been publicly available.
    I thank you, and yield back.

                   Prepared Statement of Ms. Johnson

    I understand and sympathize with the Chairman's desire to 
move cybersecurity legislation. Cybersecurity is a critically 
important topic, and one that invites significant press 
attention. We had a good hearing before the Research & 
Technology Subcommittee just two weeks ago, during which we 
heard many good recommendations from widely respected experts. 
Some of those recommendations fell within our Committee's 
jurisdiction, others did not.
    I do remember the panel unanimously praising NIST's role in 
cybersecurity. I also remember discussion about developing 
metrics for the adoption of NIST's Cybersecurity Framework. 
Witnesses also discussed requiring Federal agencies to 
incorporate the Framework into their information security 
programs.
    I can see where Mr. Abraham has attempted to incorporate 
some aspects of those recommendations into his legislation. 
However, I specifically recall GAO's recommendation that the 
Department of Homeland Security, and not NIST, carry out 
surveys and assessments of the adoption and effectiveness of 
the Cybersecurity Framework. NIST itself has steadfastly 
maintained that they are the wrong agency to do it, and not 
just because of limited resources.
    I do not remember a single witness, or a single expert 
recommendation suggesting that OSTP should be given any role in 
evaluation or oversight of cybersecurity in the private sector 
or the Federal government. Perhaps if we substituted OMB or DHS 
for OSTP everywhere in this bill, it might make more sense. The 
Majority has inserted an entirely new agency into a policy 
matter in which they have no expertise and no business being a 
part of. In doing so, the bill also duplicates authorities and 
responsibilities clearly assigned to OMB and DHS in current 
law.
    Finally, and speaking to what may be the strangest part of 
this bill, I do not remember any expert ever recommending that 
NIST be given the responsibility to conduct annual 
cybersecurity audits of other agencies. NIST is not an auditing 
agency.
    They have no such history, expertise, or capacity. They are 
a standards and technology agency. In addition, a single FISMA 
audit costs between a few hundred thousand to a couple of 
million dollars, depending on the size and mission of the 
agency. Nowhere in this bill do we provide NIST with the tens 
of millions of dollars of additional funding to become the 
cybersecurity auditing agency of the Federal government. This 
is a massive unfunded mandate levied on an agency which is 
already over tasked. Moreover, current law already assigns this 
very responsibility to agency inspectors general. And no expert 
I know of has questioned the quality or integrity of the IGs' 
work. In fact, IGs know and understand their own agencies' 
business operations and information systems infrastructure 
better than NIST ever will. In short, I remain thoroughly 
baffled by this proposal in the legislation before us today.
    Mr. Chairman, I've said this before, and I will say it 
again here. I stand ready to collaborate and cooperate with you 
on cybersecurity legislation and oversight. We've been able to 
do so in the past, including for the Cybersecurity Enhancement 
Act of 2014. However, the bill before us today has a number of 
controversial new elements which were clearly not vetted with 
the cybersecurity community or the Administration. I will not 
support passage today of legislation which will undermine the 
very agency we are tasking with keeping our cyber 
infrastructure secure.
    I would hope that after this markup, the Majority will take 
the time to address the concerns that have already been raised 
in the short time this bill has been publicly available.
    I yield back.

    Chairman Smith. Thank you, Ms. Johnson.
    Pursuant to notice, I now call up H.R. 1224, the NIST 
Cybersecurity Framework, Assessment, and Auditing Act of 2017, 
and the clerk will report the bill.
    The Clerk. H.R. 1224, a bill to amend the National 
Institute of Standards and Technology Act to implement a 
framework, assessment and audits for improving United States 
cybersecurity.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    I'll recognize the sponsor of the bill, Mr. Abraham, for an 
opening statement.
    Mr. Abraham. Thank you, Mr. Chairman.
    H.R. 1224, the NIST Cybersecurity Framework, Assessment, 
and Auditing Act of 2017, is an extension of my ongoing 
interest over the state of our Nation's cybersecurity.
    Hardly a month goes by without some news of a cyber-attack 
leading to the successful breach of millions of Americans' 
financial, health, or other personal data.
    During an informative Research and Technology Subcommittee 
hearing 2 weeks ago, a witness reporting the U.S. Government 
Accountability Office (GAO) testified, and I quote, ``Cyber-
based intrusions and attacks on Federal systems and systems 
supporting our Nation's critical infrastructure, such as 
communications and financial services, are evolving and 
becoming more sophisticated.'' The GAO witness also explained 
that ``over the past several years, GAO has made about 2,500 
recommendations to Federal agencies to enhance their 
information security programs and controls. As of February 
2017, about 1,000 recommendations had not been implemented.''
    These are not pieces of information to be taken lightly. 
Last fall, this Committee marked up a bill I introduced that 
reflected a need for accountability, responsibility, and 
transparency by Federal agencies relative to their 
cybersecurity capabilities. The bill under discussion today 
takes the same general approach as last year's bill, which the 
Committee approved by voice vote. H.R. 1224 also reflects 
recommendations from two recent reports that were the focus of 
the Subcommittee hearing 2 weeks ago, and I'll give you some 
highlights of that bill that include: Amending NIST's mission 
to emphasize the principle that expanding cyber threats require 
the engineering of security from the beginning of a system's 
life cycle; promoting Federal implementation of the NIST 
Framework for Improving Critical Infrastructure Cybersecurity--
that's the Framework portion; establishing a Federal working 
group to develop quantifiable metrics to help Federal agencies 
analyze and assess the effectiveness of the Framework in 
protecting their information and information systems; directing 
NIST to complete an initial assessment of the cybersecurity 
preparedness of Federal agencies; directing NIST to initiate 
individual cybersecurity audits of each agency to assess the 
extent to which they are meeting the information security 
standards developed by the Institute; and last, providing 
agencies and Congress with an audit report.
    The Committee's jurisdiction over NIST provides it the 
ability to present the Institute with the flexibility to expand 
its functions in an effort to address the cybersecurity 
emergency facing our Nation. It is to NIST's credit that the 
Committee regards the Institute as part of the solution, and 
not the problem.
    H.R. 1224 reflects the Committee's resolve to provide 
Federal agencies all the tools it may be able to use to help 
remedy the Federal Government's cybersecurity shortcomings.
    It's easy to sit back and State, with the benefit of NIST's 
reputation as an exemplatory agency, that we should not 
consider changing the way the Institute operates because of 
what might happen or how the Institute's reputation or 
effectiveness might suffer.
    But the current state of affairs do not suggest that the 
best way forward is to keep taking the path of least 
resistance. Much as the nature of cyber-attacks continue to 
evolve to reflect the sophistication of the cyber criminals, we 
in the government must also be willing to evolve to protect 
Americans and our government. That evolution starts with 
thinking outside the box instead of maintaining a business-as-
usual approach.
    H.R. 1224 establishes the Committee's mark on a very 
important issue. It sets the tone for future cybersecurity 
discussions by taking some first steps to strengthen Federal 
cybersecurity defenses, and holding the Federal agencies 
accountable through regular cyber audits.
    I urge my colleagues to support this bill, and I yield 
back.

                   Prepared Statement of Mr. Abraham

    H.R. 1224, the NIST Cybersecurity Framework, Assessment, 
and Auditing Act of 2017 is an extension of my ongoing interest 
over the state of our nation's cybersecurity.
    Hardly a month goes by without some news of a cyber-attack 
leading to the successful breach of millions of Americans' 
financial, health, or other personal data.
    During an informative Research and Technology Subcommittee 
hearing two weeks ago, a witness representing the U.S. 
Government Accountability Office (GAO) testified that ``Cyber-
based intrusions and attacks on federal systems and systems 
supporting our nation's critical infrastructure, such as 
communications and financial services, are evolving and 
becoming more sophisticated.'' The GAO witness also explained 
that ``over the past several years, GAO has made about 2,500 
recommendations to federal agencies to enhance their 
information security programs and controls. As of February 
2017, about 1,000 recommendations had not been implemented.''
    These are not pieces of information to be taken lightly. 
Last fall, this Committee marked up a bill I introduced that 
reflected a need for accountability, responsibility, and 
transparency by federal agencies relative to their 
cybersecurity capabilities.
    The bill under discussion today takes the same general 
approach as last year's bill, which the Committee approved by 
voice vote. H.R. 1224 also reflects recommendations from two 
recent reports that were the focus of the Subcommittee hearing 
two weeks ago.
    Highlights of the bill include:
    <bullet> LAmending NIST's mission to emphasize the 
principle that expanding cyber threats require the engineering 
of security from the beginning of a system's life cycle;
    <bullet> LPromoting federal implementation of the NIST 
Framework for Improving Critical Infrastructure Cybersecurity 
(Framework);
    <bullet> LEstablishing a federal working group to develop 
quantifiable metrics to help federal agencies analyze and 
assess the effectiveness of the Framework in protecting their 
information and information systems;
    <bullet> LDirecting NIST to complete an initial assessment 
of the cybersecurity preparedness of federal agencies;
    <bullet> LDirecting NIST to initiate individual 
cybersecurity audits of each agency to assess the extent to 
which they are meeting the information security standards 
developed by the Institute; and
    <bullet> LProviding agencies and Congress with an audit 
report.
    The Committee's jurisdiction over NIST provides it the 
ability to present the Institute with the flexibility to expand 
its functions in an effort to address the cybersecurity 
emergency facing our nation. It is to NIST's credit that the 
Committee regards the Institute as part of the solution, and 
not the problem. H.R. 1224 reflects the Committee's resolve to 
provide federal agencies all the tools it may be able to use to 
help remedy the federal government's cybersecurity 
shortcomings.
    It is easy to sit back and state, with the benefit of 
NIST's reputation as an exemplary agency, that we should not 
consider changing the way the Institute operates because of 
what might happen or how the Institute's reputation or 
effectiveness might suffer.
    But the current state of affairs do not suggest that the 
best way forward is to keep taking the path of least 
resistance. Much as the nature of cyber-attacks continue to 
evolve to reflect the sophistication of the cyber criminals, we 
in the government must also be willing to evolve to protect 
Americans and our government. That evolution starts with 
thinking outside the box instead of maintaining a business as 
usual approach.
    H.R. 1224 establishes the Committee's mark on a very 
important issue. It sets the tone for future cybersecurity 
discussions by taking some first steps to strengthen federal 
cybersecurity defenses, and holding federal agencies 
accountable through regular cyber audits.
    I urge my colleagues to support this bill, and I yield 
back.

    Chairman Smith. Thank you, Mr. Abraham.
    We will now proceed with amendments in the order listed on 
the roster. The first amendment is going to be the Manger's 
Amendment, and the clerk will report the amendment.
    The Clerk. Amendment to H.R. 1224 offered by Mr. Smith of 
Texas, amendment #008.
    Chairman Smith. Without objection, the amendment will be 
considered as read, and I'll recognize myself to explain the 
Manager's Amendment.
    This amendment makes some edits for consistency and 
clarity. The amendment adds the Office of Management and 
Budget, OMB, to the Federal Working Group established and 
chaired by NIST and specifies the involvement of OMB in 
developing and publishing the annual report based on 
information compiled by the Federal Working Group.
    These commonsense additions will ensure the Federal Working 
Group has the best representation to effectively guide Federal 
agencies and that its reports have the weight of the White 
House behind it.
    OMB's role under the Federal Information Security 
Modernization means the Office is familiar with agency 
cybersecurity reporting requirements.
    These edits further improve an already good bill, and I 
urge my colleagues to support the amendment.
    Is there further discussion on the amendment? The 
gentlewoman from Texas.
    Ms. Johnson. Thank you very much, Mr. Chairman. I move to 
strike the last word.
    Chairman Smith. The gentlewoman is recognized for 5 
minutes.
    Ms. Johnson. I oppose this amendment. As I noted in my 
opening statement, I oppose the underlying bill. This amendment 
doesn't do anything to fix the underlying problems with the 
bill, and in one instance might actually make the bill worse.
    I'm happy to see that you're adding OMB to at least 
somewhere in some of what belongs in the bill. However, your 
amendment does nothing to fix the inappropriate inclusion of 
OSTP in the bill while the last paragraph of the amendment will 
be moot if Mr. Abraham's amendment is accepted. That paragraph 
has implications beyond this bill, so I want to register my 
concerns thereto.
    The last paragraph contains a blanket prohibition on the 
use of any information collected under this bill for the 
purposes of oversight and promulgation of regulations. While I 
appreciate the desire to engage with industry openly, blanket 
prohibitions on the use of information seem to me to be 
shortsighted.
    The pitfalls associated with forcing the government to 
ignore data in a field as vitally important as our national 
security or cybersecurity seem too numerous to count. The 
Majority spent much of the last Congress taking the 
Administration to task for various cybersecurity issues. To now 
force the government to ignore relevant cybersecurity 
information seems like a mechanism to ensure the government 
fails in the future. That seems like a bad idea to me.
    I yield back.
    Chairman Smith. Thank you, Ms. Johnson.
    Is there any further discussion on the amendment?
    If not, the question is on agreeing to the Manager's 
Amendment.
    All those in favor, say aye.
    Those opposed, say no.
    The ayes have it, and the amendment is agreed to.
    The next amendment on the roster is offered by the 
gentleman from Louisiana, Dr. Abraham, and does the gentleman 
wish to be recognized?
    Mr. Abraham. No, sir, I'm good.
    Chairman Smith. I think you may have an amendment at the 
desk.
    Mr. Abraham. OK.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment to H.R. 1224 offered by Mr. Abraham of 
Louisiana, amendment #021.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
his amendment.
    Mr. Abraham. Thank you, Mr. Chairman.
    My amendment strikes the public-private working group 
provision and any reference to it and the accompanying report. 
The language was developed as a natural extension of a similar 
provision for a Federal working group established to help 
Federal agencies determine the effectiveness of the Framework 
in protecting Federal information systems.
    However, since most of the bill focuses on the Committee's 
concern with making Federal cybersecurity system more secure, I 
believe this provision aimed at helping private entities would 
be better addressed in a separate legislative vehicle.
    The work of this Committee over the past few years and the 
testimony from witnesses 2 weeks ago in the Research and 
Technology Subcommittee hearing reinforce the need for us to 
focus on Federal agency issues. And you heard Chairman Smith 
describe the Committee's review of specific agencies, namely 
the Office of Personnel Management and the IRS and the Federal 
Deposit Insurance Corporation.
    I urge my colleagues to support the amendment, and I yield 
back.
    Chairman Smith. I appreciate the gentleman's amendment, and 
I recommend it to my colleagues.
    And is there any further discussion on the amendment?
    If not, the question is on agreeing to the amendment 
offered by Mr. Abraham.
    All in favor, say aye.
    Those opposed, say no.
    The ayes have it, and the amendment is agreed to.
    The next amendment on the roster is going to be offered by 
the gentleman from Illinois, Mr. Lipinski, and he is recognized 
for that purpose.
    Mr. Lipinski. Mr. Chairman, I have a revised amendment at 
the desk.
    Chairman Smith. The clerk will report the amendment.
    The Clerk. Amendment to H.R. 1224 offered by Mr. Lipinski 
of Illinois, amendment #013.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
his amendment.
    Mr. Lipinski. Thank you.
    Cybersecurity is a real and growing challenge for our 
government, businesses and individuals. While new authorities 
for information sharing on cyber threats, the increased 
investments in network security have been put in place, we 
continue to see vulnerabilities get exploited, our systems or 
devices hacked, and cyber intrusions occur. These often lead to 
significant cost or security consequences.
    While Federal agencies have been tasked to develop 
cybersecurity systems based on their individual agency risk 
assessments, little has been done to assure the effective 
implementation of cyber protections based on those risk 
determinations or even that those risks are adequately 
characterized.
    We tend to be reminded of this any time a Federal agency is 
the target of a major hack. So I agree there's legitimate needs 
to conduct regular oversight and to audit agency risk 
assessments in cybersecurity implementation. But I'm not 
convinced that NIST or at least NIST alone is the appropriate 
agency for this task for a few reasons.
    First, while the Institute is capable of supporting the 
development of a cyber framework and standards, conducting 
audits would be a different task. It would require a larger 
work force with new skill sets and expertise in computer 
security, audit methodologies, and more. Other agencies such as 
the GAO are more experienced in conducting audits while 
Inspectors General are going to have greater understanding of 
other respective agencies' business models, computer networks 
and services that would allow for more comprehensive audit.
    There are also concerns that having NIST develop 
cybersecurity framework for private-sector entities could be 
perceived as oversight or regulatory approach which could turn 
private parties away from working with the Institute and other 
technical standards and activities.
    I believe that this concern has been addressed in part at 
least through Mr. Abraham's amendment.
    Finally, over the last few years, an array of new cyber 
authorities, information-sharing regimes and technical 
capabilities have been stood up by legislation and executive 
action, which appear to not be integrated into the bill we have 
before us.
    We passed the Cybersecurity Information Sharing Act 14 
months ago to enable threat-based cybersecurity information to 
be shared between private entities and the U.S. Government. DHS 
has continued to develop its EINSTEIN system to detect and 
block cyber intrusions at Federal agencies and to use that 
threat information to better protect the rest of the 
government. DHS is also tasked with working alongside the 
private sector to protect private and public critical 
infrastructure including cyber-based systems. It is also joint 
lead agencies with NIST in developing a better qualified cyber 
work force.
    I think we should be cautious in adding to NIST this new 
cyber--these new cyber responsibilities without considering how 
we integrate them with other existing cybersecurity programs 
across our government.
    What my amendment would do is before conducting the audits, 
direct the Institute to first develop a plan for how it would 
carry out the very broad and intensive work of cyber auditing 
of every Federal department. We should know how much manpower 
this will take, what it will cost, where and if such expertise 
exists in the Federal Government at NIST or elsewhere, or if 
there will be a need to contract out this type of work. We also 
need to know what type of methods or approach NIST and/or other 
agencies would use in conducting cyber audits. Once the 
Institute has developed that plan and sent it to Congress, 
we'll know the cost and requirements to fulfill this task and 
support NIST effectively in carrying out its mission.
    My amendment had originally sought to delay the onset of 
the audits so that it would follow the plan, but I understand 
the Chairman's interest in the audits commencing as soon as 
possible. I hope we can continue to work to perfect this as the 
bill moves ahead.
    We do not want to ask NIST or any other agency to take on 
the vital task of assuring our Federal agencies have prepared 
their networks to be safe but then provide it with the 
manpower, funding, expertise or knowledge to do the job right 
the first time. We have seen far too many times computer 
network security get shorted in attention and resources and 
then we complain about the outcomes. We should not do that now, 
and this amendment will help to hopefully ensure that we do not 
do that here.
    So I ask for support of this amendment, and I yield back.
    Chairman Smith. Thank you, Mr. Lipinski. I appreciate the 
thoughtful amendment, and I recommend it to my colleagues, and 
yes, we will continue our discussions on the general subject.
    Is there any further discussion on the amendment?
    If not, the question is on agreeing to the amendment 
offered by Mr. Lipinski.
    All in favor, say aye.
    Those opposed, say no.
    The ayes have it, and the amendment is agreed to.
    The next amendment on the roster will be offered by the 
gentleman from Illinois, Dr. Foster, and he is recognized for 
that purpose.
    Mr. Foster. Thank you, Mr. Chairman. This amendment is from 
myself and Mr. Takano, and it simply asks----
    Chairman Smith. The clerk will report the amendment.
    The Clerk. Amendment to H.R. 1224 offered by Mr. Foster of 
Illinois, amendment #010.
    Chairman Smith. And without objection, the amendment will 
be considered as read. I'm going to reserve a point of order 
against the amendment for being non-germane but nevertheless 
the gentleman is recognized to explain the amendment.
    Mr. Foster. Thank you, Mr. Chairman.
    This amendment is from myself and Mr. Takano, and it simply 
adds a sense of Congress that the Office of Technology 
Assessment, or OTA, should be reinstated. For more than two 
decades, the OTA provided relevant, unbiased and technical and 
scientific assessments for Members of Congress and their staff, 
and although the OTA remains authorized to this day, foolishly, 
the Office was defunded in 1995, stripping Congress of a 
valuable resource that understood emerging technologies as well 
as the intricacies of the legislative process and the needs of 
policymakers.
    The expertise provided by the OTA saved taxpayers billions 
of dollars by identifying cost-effective areas for future 
investment and avoiding wasting money on technologies and 
policies that did not and could not work. The OTA's 24-year 
body of work encompasses some 750 reports and assessments on 
issues as far-ranging as arms control to bioterrorism to 
computer network and security and privacy issues. 
Interestingly, the last report the OTA issued was on network 
security and privacy issues and was published in 1995, just 
before it was defunded. Imagine how useful such a report would 
have been if it could have been paid attention to and updated 
through today.
    As technology continues to advance and non-defense budgets 
continue to shrink, this sort of trustworthy, nonpartisan 
analysis is no less necessary today than it was when the OTA 
was first started over 40 years ago.
    We cannot slow down the rapid pace of technology but we can 
give ourselves back an important and proven tool. Congress 
needs the OTA now more than ever, and what we should be talking 
about is this rather than other things we're discussing today. 
And if we really want to get ahead of the next cybersecurity 
threats, we should be doing everything we can to make informed 
policy decisions. Instead of straining the authority and the 
resources of NIST just so this Committee can claim that we did 
something relevant about cybersecurity, we should be making 
smart policy with input from nonpartisan experts. This is 
exactly what the Office of Technology Assessment used to do, 
and I'm very grateful to my colleague on the Committee, Mr. 
Takano, for his efforts in this area and for cosponsoring this 
amendment as well as to my colleague, Mr. Chaffetz of Utah, who 
has worked with me for several years advocating for the OTA.
    And I'd now like to yield 1 minute to my cosponsor, Mr. 
Takano.
    Mr. Takano. Thank you, Mr. Foster.
    I have been proud to work with you in raising awareness and 
support for the Office of Technology Assessment, or OTA.
    As you say, for more than two decades OTA provided unbiased 
technical and scientific assessments for Members of Congress 
and staff. The OTA was defunded in 1995, stripping Congress of 
a valuable resource. Twenty years later, many of the topics OTA 
studied are still relevant today. I certainly believe that we 
would be better able to tackle the complexity of an issue like 
cybersecurity if we had OTA today.
    This amendment expresses the sense of Congress that OTA 
should be funded. In a world of alternative facts, the unbiased 
and thorough analysis of OTA provided--that the OTA provided is 
more important than ever.
    I yield back to Mr. Foster.
    Mr. Foster. Thank you, Mr. Takano.
    Mr. Chairman, I understand that we are unlikely to have the 
votes to prevail against your technical point of order against 
this amendment and so I hereby withdraw my amendment, but I do 
urge my colleagues to think critically about the time and money 
that we could have saved rather than legislating for an 
uncertain and poorly understood future of technology, and urge 
my colleagues to work every way we can to try to restore 
funding for the OTA.
    Thank you, and I yield back.
    Chairman Smith. Mr. Foster, Mr. Takano, thank you for your 
comments. As tempted as I am to support an amendment that would 
allow the President to appoint more individuals, I nevertheless 
appreciate the gentleman withdrawing the amendment. Without 
objection, it is withdrawn.
    Are there any further amendments?
    If not, a reporting quorum being present, I move that the 
Committee on Science, Space, and Technology report H.R. 1224 to 
the House as amended with the recommendation that the bill be 
approved.
    The question is on favorably reporting H.R. 1224 to the 
House as amended.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably----
    Ms. Johnson. Mr. Chairman.
    Chairman Smith. The gentlewoman from Texas.
    Ms. Johnson. I'd like to request a record vote on this.
    Chairman Smith. A roll call vote has been requested. 
Without objection, the clerk will call the roll.
    The Clerk. Mr. Smith?
    Chairman Smith. Aye.
    The Clerk. Mr. Smith votes aye.
    Mr. Lucas?
    Mr. Lucas. Aye.
    The Clerk. Mr. Lucas votes aye.
    Mr. Rohrabacher?
    Mr. Rohrabacher. Aye.
    The Clerk. Mr. Rohrabacher votes aye.
    Mr. Brooks?
    Mr. Brooks. Aye.
    The Clerk. Mr. Brooks votes aye.
    Mr. Hultgren?
    Mr. Hultgren. Aye.
    The Clerk. Mr. Hultgren votes aye.
    Mr. Posey?
    Mr. Posey. Aye.
    The Clerk. Mr. Posey votes aye.
    Mr. Massey?
    Mr. Massey. Aye.
    The Clerk. Mr. Massey votes aye.
    Mr. Bridenstine?
    [No response.]
    The Clerk. Mr. Weber?
    Mr. Weber. Aye.
    The Clerk. Mr. Weber votes aye.
    Mr. Knight?
    Mr. Knight. Aye.
    The Clerk. Mr. Knight votes aye.
    Mr. Babin?
    [No response.]
    The Clerk. Mrs. Comstock?
    Mrs. Comstock. Aye.
    The Clerk. Mrs. Comstock votes aye.
    Mr. Palmer?
    [No response.]
    The Clerk. Mr. Loudermilk?
    [No response.]
    The Clerk. Mr. Abraham?
    Mr. Abraham. Aye.
    The Clerk. Mr. Abraham votes aye.
    Mr. LaHood?
    Mr. LaHood. Aye.
    The Clerk. Mr. LaHood votes aye.
    Mr. Webster?
    [No response.]
    The Clerk. Mr. Banks?
    Mr. Banks. Aye.
    The Clerk. Mr. Banks votes aye.
    Mr. Biggs?
    [No response.]
    The Clerk. Mr. Marshall?
    Mr. Marshall. Aye.
    The Clerk. Mr. Marshall votes aye.
    Mr. Dunn?
    Mr. Dunn. Aye.
    The Clerk. Mr. Dunn votes aye.
    Mr. Higgins?
    Mr. Higgins. Aye.
    The Clerk. Mr. Higgins votes aye.
    Ms. Johnson?
    Ms. Johnson. No.
    The Clerk. Ms. Johnson votes no.
    Ms. Lofgren?
    [No response.]
    The Clerk. Mr. Lipinski?
    Mr. Lipinski. Aye.
    The Clerk. Mr. Lipinski votes aye.
    Ms. Bonamici?
    Ms. Bonamici. No.
    The Clerk. Ms. Bonamici votes no.
    Mr. Bera?
    Mr. Bera. No.
    The Clerk. Mr. Bera votes no.
    Ms. Esty?
    Ms. Esty. No.
    The Clerk. Ms. Esty votes no.
    Mr. Veasey?
    Mr. Veasey. No.
    The Clerk. Mr. Veasey votes no.
    Mr. Beyer?
    Mr. Beyer. No.
    The Clerk. Mr. Beyer votes no.
    Ms. Rosen?
    Ms. Rosen. No.
    The Clerk. Ms. Rosen votes no.
    Mr. McNerney?
    Mr. McNerney. No.
    The Clerk. Mr. McNerney votes no.
    Mr. Perlmutter?
    Mr. Perlmutter. No.
    The Clerk. Mr. Perlmutter votes no.
    Mr. Tonko?
    Mr. Tonko. No.
    The Clerk. Mr. Tonko votes no.
    Mr. Foster?
    Mr. Foster. No.
    The Clerk. Mr. Foster votes no.
    Mr. Takano?
    Mr. Takano. No.
    The Clerk. Mr. Takano votes no.
    Ms. Hanabusa?
    Ms. Hanabusa. No.
    The Clerk. Ms. Hanabusa votes no.
    Mr. Crist?
    Mr. Crist. No.
    The Clerk. Mr. Crist votes no.
    Mr. Babin?
    Mr. Babin. Aye.
    The Clerk. Mr. Babin votes aye.
    Mr. Loudermilk?
    Mr. Loudermilk. Aye.
    The Clerk. Mr. Loudermilk votes aye.
    Mr. Chairman.
    Chairman Smith. The clerk will report the vote.
    The Clerk. Mr. Chairman, 19 Members voted aye and 14 
Members voted no.
[GRAPHIC] [TIFF OMITTED] T5710.001

    Chairman Smith. The ayes have it, and H.R. 1224 is reported 
favorably to the House as amended.
    Without objection, the Motion to Reconsider is laid upon 
the table. H.R. 1224 is ordered reported to the House.
    I ask unanimous consent that staff authorized to make any 
necessary technical and conforming changes. Without objection, 
so ordered.
    If there is no further discussion, that completes our 
business, and this concludes the Science Committee markup. 
Without objection, the Committee stands adjourned.
    [Whereupon, at 10:37 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


  H.R. 1224, Amendment Roster, Section-by-Section Analysis, Letter of 
                                Support


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




                   PROCEEDINGS OF THE FULL COMMITTEE
                     MARKUP: H.R. 1430, HONEST AND
                     OPEN NEW EPA SCIENCE TREATMENT
                       ACT OF 2017 (HONEST ACT);
                           AND H.R. 1431, EPA
                         SCIENCE ADVISORY BOARD
                           REFORM ACT OF 2017

                              ----------                              


                        THURSDAY, MARCH 9, 2017

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 9:37 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lamar 
Smith [Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recess at any time, and without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Pursuant to Committee Rule II(e) and House Rule 
112(2)(h)(4), the Chair announces that he may postpone roll 
call votes.
    Today we meet to consider two bills. The first is H.R. 
1430, the Honest and Open New EPA Science Treatment Act of 
2017, or the HONEST Act, and H.R. 1431, the EPA Science 
Advisory Board Reform Act of 2017. I'll recognize myself for an 
opening statement and then the Ranking Member.

    H.R. 1430

    Chairman Smith. Pursuant to notice, I now call up H.R. 
1430, the Honest and Open New EPA Science Treatment Act for 
2017, or the HONEST Act. The clerk will report the bill.
    The Clerk. H.R. 1430, a bill to prohibit the Environmental 
Protection Agency from proposing, finalizing or disseminating 
regulations or assessments----
    Chairman Smith. OK. And without objection, the bill is 
considered as read and open for amendment at any point, and 
I'll continue with my opening statement.
    H.R. 1430 is a short, 4-page, commonsense bill that simply 
requires the Environmental Protection Agency to base its 
regulations on science that is publicly available, not secret. 
In the last Congress, a similar bill, the Secret Science Act, 
passed the House with bipartisan support.
    Today's legislation, which I introduced with Democratic 
Representative Henry Cuellar, ensures sound science is the 
basis for EPA decisions and regulatory actions. The days of 
trust-me science are over. In our modern information age, 
Federal regulations should be based only upon data that is 
available for every American to see and can be subjected to 
independent review. That's the scientific method.
    We can all agree that the government should rely on the 
best available science. Unfortunately, the government does not 
always hold to this standard. Looking at the EPA's past record, 
it is clear that the Agency has not followed an open and honest 
process. For example, nearly every major air quality regulation 
from the previous Administration was justified by studies using 
data that even the EPA had not seen. This means that the EPA's 
claims about the costs and benefits of its regulations and the 
real risks they are meant to address cannot be independently 
evaluated by unbiased experts. If EPA's mandates are really 
based on sound science, then show Americans the data. EPA's 
refusal to cooperate leads to the question: What are they 
hiding?
    Perhaps the most burdensome Obama-era regulation is the 
Clean Power Plan. This rule mandates what types of energy we 
can and cannot use and would regulate all of the Nation's 
electricity supply. The proposal would cost billions of dollars 
annually, kill thousands of jobs, and increase electricity 
costs for everyone, all while having a minimal benefit on the 
environment.
    In fact, the Clean Power Plan would only reduce global 
temperatures by three one-hundredths of a degree Celsius and 
reduce sea-level rise by the thickness of only three sheets of 
paper. How can these miniscule benefits be justified, 
particularly given the adverse impacts of the regulation? 
Again, the EPA should show Americans the data they claim 
justifies their regulations.
    We all care about the environment. We share a common goal 
to protect the lands we farm and the water we drink. But if 
policies aren't based on legit science, stringent regulations 
and unachievable results in economic hardship with little or no 
environmental benefit. In other words, the regulations would be 
all pain and no gain.
    Instead of producing policies that protect the environment, 
it appears that the EPA is more concerned with pushing a 
political agenda. This is why outside independent review should 
be required. It's impossible to conduct a policy debate without 
all the facts.
    The bill before us strengthens previous House-passed 
legislation in the 114th Congress, the Secret Science Reform 
Act. That bill also required the EPA to base its decisions on 
information available to scientists and the American public. 
This year's legislation improves on the bill that passed in the 
last Congress. It adds provisions to better protect personally 
identifiable information and confidential business information 
as well. It also stipulates that this bill does not 
retroactively apply to past regulations, but instead focuses on 
new regulations. It stipulates that this bill does not 
retroactively apply to the past regulations. This allows the 
EPA to focus its limited resources on quality science that all 
researchers can examine.
    This bill will promote sound science and restore confidence 
in the EPA decisionmaking process. This bill ensures that the 
EPA is not promoting a one-sided ideological agenda. The 
legislation provides an opportunity for the type of honest and 
accountable government that the American people want and 
deserve.
    So I urge my colleagues to support the HONEST Act.

                  Prepared Statement of Chairman Smith

    H.R. 1430, the Honest and Open New EPA Science Treatment 
Act of 2017, or HONEST Act, is a short, four page, common-sense 
bill that simply requires the Environmental Protection Agency 
(EPA) to base its regulations on science that is publicly 
available, not secret.
    In the last Congress, a similar bill, the Secret Science 
Act, passed the House with bipartisan support.
    Today's legislation, which I introduced with Democratic 
Representative Henry Cuellar, ensures sound science is the 
basis for EPA decisions and regulatory actions.
    The days of trust-me ``science'' are over. In our modern 
information age, federal regulations should be based only upon 
data that is available for every American to see and can be 
subjected to independent review. That's the scientific method.
    We can all agree that the government should rely on the 
best available science. Unfortunately, the government does not 
always hold to this standard.
    Looking at the EPA's past record, it is clear that the 
agency has not followed an open and honest process. For 
example, nearly every major air quality regulation from the 
previous administration was justified by studies using data 
that even the EPA hadn't seen.
    This means that the EPA's claims about the costs and 
benefits of its regulations and the real risks they are meant 
to address cannot be independently evaluated by unbiased 
experts.
    If EPA's mandates are really based on sound science, then 
show Americans the data. EPA's refusal to cooperate leads to 
the question: What are they hiding?
    Perhaps the most burdensome Obama era regulation is the 
Clean Power Plan. This rule mandates what types of energy we 
can and cannot use and would regulate all of the nation's 
electricity supply.
    The proposal would cost billions of dollars annually, kill 
thousands of jobs, and increase electricity costs for everyone, 
all while having a minimal benefit on the environment.
    In fact, the Clean Power Plan would only reduce global 
temperatures by three onehundredths of a degree Celsius and 
reduce sea level rise by the thickness of only three sheets of 
paper.
    How can these miniscule benefits be justified, particularly 
given the adverse impacts of the regulation? Again, the EPA 
should show Americans the data they claim justifies their 
regulations.
    We all care about the environment. We share a common goal 
to protect the lands we farm and the water we drink.
    But if policies aren't based on legit science, stringent 
regulations and unachievable standards will result in economic 
hardship with little or no environmental benefit. In other 
words, the regulations would be all pain and no gain.
    Instead of producing policies that protect the environment, 
it appears that the EPA is more concerned with pushing a 
political agenda. This is why outside independent review should 
be required. It's impossible to conduct a policy debate without 
all the facts.
    The bill before us strengthens previous House-passed 
legislation in the 114th Congress, the Secret Science Reform 
Act. That bill also required the EPA to base its decisions on 
information available to scientists and the American public.
    This year's legislation improves on the bill that passed in 
the last Congress. It adds provisions to better protect 
personally identifiable information and confidential business 
information.
    It also stipulates that this bill does not retroactively 
apply to past regulations, but instead focuses on new 
regulations.
    This allows the EPA to focus its limited resources on 
quality science that all researchers can examine. This bill 
will promote sound science and restore confidence in the EPA 
decision-making process.
    This bill ensures that the EPA is not promoting a one-sided 
ideological agenda. The legislation provides an opportunity for 
the type of honest and accountable government that the American 
people want and deserve. I urge my colleagues to support the 
HONEST Act.

    Chairman Smith. Before yielding to the Ranking Member, 
without objection, I'd like to add the following letters of 
support for H.R. 1430 into the record. They would be US Chamber 
of Commerce, Independent Petroleum Association of America, 
American Exploration and Production Council, Princeton and CO2 
Coalition, Cato, National Association of Home Builders, the 
Small Business and Entrepreneurship Council.
    With that, I'll yield to the Ranking Member, the 
gentlewoman from Texas, Eddie Bernice Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Today we will be revisiting two bills this Committee 
considered in the previous two Congresses: The Secret Science 
Reform Act, which is now renamed the HONEST Act, and the EPA 
Science Advisory Board Reform Act. As in those prior 
congresses, today I will be strongly opposing passage of each 
of these misguided pieces of legislation.
    At the outset, let me say that the cosmetic changes that 
were made to the Secret Science Reform Act in arriving at the 
HONEST Act do nothing to address the larger issues with this 
bill. Under the current legislation, the EPA would have to 
publicly distribute any scientific data relied upon for a 
covered action. EPA could withhold from public distribution 
items containing trade secrets or personal information. 
However, under this bill, anyone could then access this 
sensitive data after signing a confidentiality agreement with 
the EPA. Since the EPA is not authorized to issue 
confidentiality agreements for third-party researchers, this 
legislation would have the same effect as the Secret Science 
Reform Act: Limiting the ability of the EPA to use the best 
science.
    Since we have some new Members on the Science Committee, I 
think it might be instructive to remind folks how we got to 
today's markup of the HONEST Act. Several years ago a tobacco 
industry consultant attempted to obtain access to the American 
Cancer Society's epidemiology data. He was denied access to 
that data due to his extensive prior connections with the 
tobacco industry and prior misuse of American Cancer Society 
data. Then the Chairman came to his aid, by subpoenaing the EPA 
to provide the Committee with the data used in two seminal 
health studies conducted by Harvard and the American Cancer 
Society, not the EPA or the government. This data contained the 
personal health histories of tens of thousands of American 
citizens. Thankfully, since EPA did not possess this data, they 
were unable to provide it to the Committee. I say this because 
the Chairman had indicated his intent to publicly distribute 
these tens of thousands of people's health histories over the 
internet--a horrifying prospect.
    However, that answer didn't satisfy the Majority. The 
Majority's solution to this manufactured problem was the Secret 
Science Reform Act. At the legislative hearing on this bill, 
the Majority invited three witnesses with extensive ties to the 
tobacco industry. And this would be a theme that would 
continue. The groups that endorsed the Majority's bill are a 
who's who of toxic chemical manufacturers.
    On the other hand, groups that opposed the bill included 
the American Association for the Advancement of Science, the 
American Lung Association, the American Association for 
Justice, the Union of Concerned Scientists, the Natural 
Resources Defense Council, and a host of other public health 
and environmental groups. The differences in those two groups 
underscores the real intent of this legislation: To undermine 
the science that EPA can use in their work, and ultimately, 
make it easier to pollute in our country.
    If this bill were enacted, EPA could be crippled, and the 
result would be more sick Americans and more dead Americans.
    Now, before I conclude, I'd like to say to Mr. Chairman and 
the Committee, I have several letters of opposition that I'd 
like to place in the record from the Union----
    Chairman Smith. Without objection.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Johnson [continuing]. Of Concerned Scientists, the 
Environmental Defense Fund, the American Geophysical Union, the 
American Thoracic Society, and the American Lung Association 
all opposing these bills and all who recognize the danger these 
bills pose to the private health information of Americans. 
Trade secrets of industries, and the ability of the 
Environmental Protection Agency to protect the public health 
and environment.
    Thank you, Mr. Chairman. I yield back

                   Prepared Statement of Ms. Johnson

    Thank you Chairman Smith. Today we will be revisiting two 
bills this committee considered in the previous two congresses: 
The Secret Science Reform Act, which is now renamed the HONEST 
Act, and the EPA Science Advisory Board Reform Act. As in those 
prior congresses, today I will be strongly opposing passage of 
each of these misguided pieces of legislation.
    At the outset, let me say that the cosmetic changes that 
were made to the Secret Science Reform Act in arriving at the 
HONEST Act do nothing to address the larger issues with this 
bill. Under the current legislation, the EPA would have to 
publicly distribute any scientific data relied upon for a 
covered action. EPA could withhold from public distribution 
items containing trade secrets or personal information. 
However, under this bill anyone could then access this 
sensitive data after signing a confidentiality agreement with 
the EPA. Since the EPA is not authorized to issue 
confidentiality agreements for third party researchers, this 
legislation would have the same effect as the Secret Science 
Reform Act: Limiting the ability of the EPA to use the best 
science.
    Since we have some new Members on the Science Committee, I 
think it might be instructive to remind folks how we got to 
today's markup of the HONEST Act. Several years ago a tobacco 
industry consultant attempted to obtain access to the American 
Cancer Society's epidemiology data. He was denied access to 
that data due to his extensive prior connections with the 
tobacco industry and prior misuse of American Cancer Society 
data. Then the Chairman came to his aid, by subpoenaing the EPA 
to provide the Committee with the data used in two seminal 
health studies conducted by Harvard and the American Cancer 
Society. This data contained the personal health histories of 
tens of thousands of American citizens. Thankfully, since EPA 
did not possess this data, they were unable to provide it to 
the Committee. I say this because the Chairman had indicated 
his intent to publicly distribute these tens of thousands of 
people's health histories over the internet - a horrifying 
prospect.
    However, that answer didn't satisfy the Majority. The 
Majority's solution to this manufactured problem was the Secret 
Science Reform Act. At the legislative hearing on this bill, 
the Majority invited three witnesses with extensive ties to the 
tobacco industry. And this would be a theme that would 
continue. The groups that endorsed the Majority's bill are a 
``who's who'' of toxic chemical manufacturers. On the other 
hand, groups that opposed the bill included the American 
Association for the Advancement of Science, the American Lung 
Association, the American Association for Justice, the Union of 
Concerned Scientists, the Natural Resources Defense Council, 
and a host of other public health and environmental groups.
    The differences in those two groups underscores the real 
intent of this legislation: To undermine the science that EPA 
can use in their work, and ultimately, make it easier to 
pollute in our country. If this bill were enacted, EPA could be 
crippled, and the result would be more sick Americans and more 
dead Americans.
    I yield back.

    Chairman Smith. Thank you, Ms. Johnson.
    Are there any amendments to this bill, or does the 
gentlewoman from Oregon wish to be recognized, and if so----
    Ms. Bonamici. Yes. I move to strike the last word.
    Chairman Smith. The gentlewoman is recognized for 5 
minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    When I'm home in Oregon and talk about serving on the 
Science Committee, a committee with tremendous potential, my 
constituents ask me what are we doing to promote more research 
and investment in technology that will drive down the cost of 
renewable energy and reduce our country's dependence on fossil 
fuels. They wonder what we're doing to protect our coastline 
from ocean acidification and threats of tsunami. They want the 
local Superfund site cleaned up, and they don't want cuts to 
the EPA budget. They aren't asking us to spend time challenging 
the data behind the research that supports important 
regulations that help keep our air and water clean, and they 
certainly aren't asking this Committee to spend time putting 
more industry representatives and fewer scientists on the EPA's 
Science Advisory Boards.
    Yet we're here today considering these bills when there's 
so many other things and more meaningful policies we should be 
discussing. Congress, especially the Science Committee, has a 
responsibility to act to preserve our planet's health and 
stabilize the threats to our environment and our economy, 
threats that are serious and detrimental to the planet if we do 
nothing. Climate change is real and it's advancing. We had a 
very warm February. Global sea levels are rising, ice sheets 
are melting and shrinking at alarming rates. The health of our 
oceans is at risk. The acidity of our surface ocean waters is 
rapidly increasing, and the upper layers of the ocean are 
absorbing about 2 billion tons of carbon dioxide every year.
    Unfortunately, the new Environmental Protection Agency 
Administrator appears to have little appreciation for the role 
of the Agency in protecting the environment. In his first days 
at the EPA, Administrator Pruitt has started the process of 
rolling back protections for our water, our streams, and 
walking away from collecting data on methane emissions. 
According to a recent New York Times article, he is filling the 
Agency with climate change skeptics and deniers, and as former 
Administrator Gina McCarthy remarked, ``Here for the first time 
I see someone who has no commitment to the mission of the 
Agency.''
    By considering the bills before us today, this Committee is 
ignoring our responsibility to protect the environment. The 
completely unnecessary so-called HONEST Act will undermine 
Americans' privacy rights by allowing personally identifiable 
information to be public at the Administrator's discretion, and 
the EPA Science Advisory Board will not further the Agency's 
mission of protecting human health and the environment. The 
bill aims to pack the Science Advisory Board with industry 
representatives while leaving out knowledgeable scientists who 
actually do EPA-funded research.
    Now, I'm proud to have worked with so many of you across 
the aisle during my years on this Committee. I ask that we take 
a step back to reflect on the mission of the EPA and think 
about how we can work together to make our environment and our 
economy thrive for future generations. Let's reject these 
partisan bills today and find some commonsense policies we can 
agree on that will move our country forward.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Smith. Thank you, Ms. Bonamici.
    And the gentleman from Virginia, Mr. Beyer, is recognized 
for 5 minutes.
    Mr. Beyer. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Smith. The gentleman is recognized for 5 minutes.
    Mr. Beyer. Thank you, Mr. Chairman.
    Mr. Chairman, I have a number of objections to this 
proposal which I'll briefly share now and then submit my 
extended remarks for the record later.
    First, while the ability to reproduce work is crucial to 
the scientific process, we should not focus so heavily or 
exclusively on reproducibility. Not all work that's 
reproducible is right, and just because it is not reproducible 
does not make it wrong. Funding agencies, scientific journals, 
and the EPA have worked on their own over the last few years to 
enact policies and best practices that encourage a more open 
process that can be easily reproduced.
    But we need to think of some of the most catastrophic 
public health threats that have occurred over the last 35 years 
or so, events we need to study but could not possibly 
reproduce: Ash clouds and dust caused by Mt. St. Helens 
eruption in 1980, extensive flooding and damage caused by 
Hurricane Katrina in 2005, the massive Gulf oil spill resulting 
from Deepwater Horizon explosions in 2010, the fires, fumes and 
dust in New York caused by the collapse of the Twin Towers on 
9/11, the Aliso Canyon gas leak in 2015, or even the oft-
studied, oft-hearing Gold King Mine spill in 2015. How could we 
possibly reproduce these large and unpredictable events in 
exactly the same way? We can't, but does this mean we should no 
longer study the impact of these nationally important events? I 
hope not because the American people need answers because their 
health depends on it.
    Second, many of my Federal employee constituents and I take 
offense at the title of this legislation, the HONEST Act, which 
seems to somehow imply that EPA employees and EPA scientists 
are somehow not being honest. So I want to take this 
opportunity to tell the hardworking, dedicated employees of the 
EPA and civil servants governmentwide that many in Congress 
recognize the significant work you do. Many in this body 
despite what's implied by the title of this Act hold your work 
in high regard, and we appreciate the substantial contributions 
you've made in furtherance of clean air, clean water and public 
health, and I hope that my Republican colleagues will soon come 
to realize and appreciate the vital mission of the EPA and hope 
they'll stop tarnishing the work and attacking the reputations 
of the dedicated civil servants who work to advance its mission 
and the health of all Americans.
    I yield back, Mr. Chair.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from California, Mr. McNerney, is recognized.
    Mr. McNerney. Thank you, Mr. Chairman.
    What we're considering today is basically the Secret 
Science Reform Act with a new name. The bill before us today, 
the Honest and Open New EPA Science Treatment Act, is an attack 
on the EPA. The bill is an attempt to undermine the Clean Air 
Act and the progress the law has made in improving public and 
environmental health.
    A scientist collects data for his or her research, and in 
order for it to be published, it must go through peer review, 
which the EPA then uses in developing science-based rules. The 
EPA identifies peer-reviewed articles in the Federal Register. 
The process for rulemaking is currently transparent and 
thorough. This bill would add unneeded duplication and expense 
to the process. It's also unclear how this legislation would 
improve our ability to enact oversight and protections for 
environment and public health.
    If we want to encourage businesses to develop new, 
innovative technologies and for our science community to be 
able to work without fear of retribution for their work, we 
must protect confidential business information. This bill has 
no protections for confidential business information. Without 
safeguards for confidential business information, businesses 
have no incentive whatsoever to share their information with 
the Federal Government and our scientists will not have the 
best available science for their work or to protect public 
health and protect the environment from harm.
    This legislation illustrates a basic lack of understanding 
about how science and industry is conducted and will harm our 
ability to execute quality science. This legislation has no 
redeeming qualities, and I urge its opposition.
    With that, I yield back.
    Chairman Smith. Thank you, Mr. McNerney.
    Let me just recognize myself for a minute, and I am going 
to be able to point to language in the bill that might address 
some of the concerns that have been raised here today about the 
exposure of confidential information that happens to be one of 
the changes we made in the bill from last year to this bill is 
to protect that private information, and I'll be giving you 
that language momentarily. If you all will take a look at page 
2 of the bill, lines 18 to 22, the redacted information 
described in paragraph 1C shall be disclosed to a person only 
after such person signs a written confidentiality agreement 
with the Administrator subject to guidance to be developed by 
the Administrator. So I really think we've addressed, as I say, 
some of the concerns that have been raised.
    If there are no amendments----
    Mr. Perlmutter. Mr. Chairman?
    Chairman Smith. The gentleman from Colorado, Mr. 
Perlmutter, is recognized.
    Mr. Perlmutter. I move to strike the last word.
    Chairman Smith. The gentleman is recognized for 5 minutes.
    Mr. Perlmutter. And I appreciate the Chairman and that 
amendment. We've seen this bill before. That amendment helped 
what we had last year, which was the Secret Science bill, but 
that was a lousy bill then and this is still a lousy bill now, 
even with the amendment that the Chairman has made to the bill. 
And, you know, the moniker, the name of this bill, the HONEST 
Act, really should be the Dishonest Act because it dishonestly 
describes what's going on in the Environmental Protection 
Agency that's looking to try to protect our environment from 
extreme weather events that we have in Colorado, you have on 
the Coast, you have all over the country and all over the 
world. And for this Committee to continue to, you know, put its 
head in the sand and ignore what's going on every day is really 
a problem and needs to be corrected, and the HONEST Act doesn't 
do that.
    But I do want to thank the Chairman for--you know, we've 
had opportunity to have hearings on this bill, unlike what's 
going on in the Energy and Commerce Committee and the Ways and 
Means Committee where the entire Affordable Care Act is being 
repealed without a single hearing, without a single witness, 
without a single discussion in the middle of the night, and 
it's that kind of hypocrisy that comes when a number of years 
ago there was objection to the Affordable Care Act saying there 
wasn't enough time to study it when in fact there were 79 
hearings and hundreds of witnesses and hundreds and hundreds of 
hours of testimony. To try to ram that through at this point is 
a real mistake and is in contrast to actually having some 
regular order that we have in this Committee from time to time.
    So I applaud the regular order that the Chairman conducts 
but I still disagree that this bill does anything to help the 
environment or to assist the EPA in its mission of trying to 
keep people healthy and keep the environment healthy.
    And so with that, I urge a no vote on this bill, and I 
yield back to the Chair.
    Chairman Smith. Thank you, Mr. Perlmutter. We appreciate 
the compliment directed toward the Committee.
    The gentleman from Florida, Mr. Posey, is recognized.
    Mr. Posey. Thank you very much, Mr. Chairman.
    I just want to thank you for bringing this bill forward. I 
want to thank you for the transparent process that you allowed 
it to go through. This clearly is just a matter of transparency 
and government accountability. I don't have a single--well, I 
can't really say that, I have a few nuts--but most of my 
constituents want government to be more transparent and they 
want it to be more accountable, and you know, I'm just shocked 
there's so many people that are afraid of transparency and 
accountability, and I thank you for bringing forward this bill 
that makes it more transparent and more accountable. The 
citizens deserve it. And I yield back.
    Chairman Smith. Thank you, Mr. Posey.
    If there are no amendments, a reporting quorum being 
present, I move that the Committee on Science, Space, and 
Technology report H.R. 1430 to the House with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 1430 to the 
House.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Ms. Johnson. Mr. Chairman----
    Chairman Smith. A roll call vote has been requested by the 
Ranking Member, and the clerk will call the roll.
    The Clerk. Mr. Smith?
    Chairman Smith. Aye.
    The Clerk. Mr. Smith votes aye.
    Mr. Lucas?
    Mr. Lucas. Aye.
    The Clerk. Mr. Lucas votes aye.
    Mr. Rohrabacher?
    [No response.]
    The Clerk. Mr. Brooks?
    Mr. Brooks. Aye.
    The Clerk. Mr. Brooks votes aye.
    Mr. Hultgren?
    Mr. Hultgren. Aye.
    The Clerk. Mr. Hultgren votes aye.
    Mr. Posey?
    Mr. Posey. Aye.
    The Clerk. Mr. Posey votes aye.
    Mr. Massie?
    [No response.]
    The Clerk. Mr. Bridenstine?
    [No response.]
    The Clerk. Mr. Weber?
    Mr. Weber. Aye.
    The Clerk. Mr. Weber votes aye.
    Mr. Knight?
    Mr. Knight. Aye.
    The Clerk. Mr. Knight votes aye.
    Mr. Babin?
    [No response.]
    The Clerk. Mrs. Comstock?
    Mrs. Comstock. Aye.
    The Clerk. Mrs. Comstock votes aye.
    Mr. Palmer?
    Mr. Palmer. Aye.
    The Clerk. Mr. Palmer votes aye.
    Mr. Loudermilk?
    [No response.]
    The Clerk. Mr. Abraham?
    Mr. Abraham. Aye.
    The Clerk. Mr. Abraham votes aye.
    Mr. LaHood?
    Mr. LaHood. Aye.
    The Clerk. Mr. LaHood votes aye.
    Mr. Webster?
    [No response.]
    The Clerk. Mr. Banks?
    Mr. Banks. Yes. Aye.
    The Clerk. Mr. Banks votes aye.
    Mr. Biggs?
    Mr. Biggs. Aye.
    The Clerk. Mr. Biggs votes aye.
    Mr. Marshall?
    Mr. Marshall. Aye.
    The Clerk. Mr. Marshall votes aye.
    Mr. Dunn?
    Mr. Dunn. Aye.
    The Clerk. Mr. Dunn votes aye.
    Mr. Higgins?
    Mr. Higgins. Aye.
    The Clerk. Mr. Higgins votes aye.
    Ms. Johnson?
    Ms. Johnson. No.
    The Clerk. Ms. Johnson votes nay.
    Ms. Lofgren?
    [No response.]
    The Clerk. Mr. Lipinski?
    Mr. Lipinski. Nay.
    The Clerk. Mr. Lipinski votes nay.
    Ms. Bonamici?
    Ms. Bonamici. No.
    The Clerk. Ms. Bonamici votes nay.
    Mr. Bera?
    [No response.]
    The Clerk. Ms. Esty?
    Ms. Esty. No.
    The Clerk. Ms. Esty votes nay.
    Mr. Veasey?
    [No response.]
    The Clerk. Mr. Beyer?
    Mr. Beyer. No.
    The Clerk. Mr. Beyer votes nay.
    Ms. Rosen?
    Ms. Rosen. No.
    The Clerk. Ms. Rosen votes nay.
    Mr. McNerney?
    Mr. McNerney. No.
    The Clerk. Mr. McNerney votes nay.
    Mr. Perlmutter?
    Mr. Perlmutter. No.
    The Clerk. Mr. Perlmutter votes nay.
    Mr. Tonko?
    [No response.]
    The Clerk. Mr. Foster?
    Mr. Foster. No.
    The Clerk. Mr. Foster votes nay.
    Mr. Takano?
    Mr. Takano. Nay.
    The Clerk. Mr. Takano votes nay.
    Ms. Hanabusa?
    Ms. Hanabusa. Nay.
    The Clerk. Ms. Hanabusa votes nay.
    Mr. Crist?
    Mr. Crist. Nay.
    The Clerk. Mr. Crist votes nay.
    Chairman Smith. The gentleman from Kentucky. The gentleman 
is not recorded yet.
    Mr. Massie. Yes?
    Chairman Smith. That is the correct vote. Thank you.
    The Clerk. Mr. Massie votes aye.
    Chairman Smith. And the clerk will continue to report.
    The Clerk. Mr. Chairman, 17 Members vote aye; 12 Members 
vote nay.
    Chairman Smith. OK. The ayes have it, and the bill is 
reported favorably.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Without objection, the Motion to Reconsider is laid upon 
the table. H.R. 1430 is ordered reported to the House, and I 
ask unanimous consent that staff authorized to make any 
necessary technical and conforming changes, and without 
objection, so ordered.
    Before we go to the next bill, I just was going to say to 
the Members of the Committee that we have in our audience today 
a high school class--seniors--from Burke, Virginia, and I want 
to say to the seniors from Burke, Virginia, that you are going 
to hear some strong language today when we talk about these 
bills. We don't take it personally, or we try not to. People do 
have legitimate differences of opinion. Bills are not always 
bipartisan although I will say on behalf of this Committee that 
of the 23 bills enacted last year that were produced by this 
Committee, 17 of the 23 were bipartisan. But today's bills do 
not enjoy that particular rank but I just want the students to 
know this is all part of our general debate and we understand 
it, we accept it, and we're still friends.

    H.R. 1431

    Chairman Smith. And so we will now go to the next bill, and 
pursuant to notice, I now call up H.R. 1431, the EPA Science 
Advisory Board Reform Act of 2017, and the clerk will report 
the bill.
    The Clerk. H.R. 1431, a bill to amend the Environmental 
Research Development and Demonstration Authorization Act of 
1978 to provide for a Science Advisory Board----
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point. And I'll now 
recognize the sponsor of the bill, the Vice Chairman of the 
Science Committee, Mr. Lucas, for an opening statement.
    Mr. Lucas. Thank you, Chairman Smith, for bringing this 
important legislation to a markup. H.R. 1431, the Science 
Advisory Board Reform Act, ensures that the most qualified and 
capable scientists are free to undertake a balanced and open 
review of regulatory science.
    The Science Advisory Board was created in 1978 to provide 
independent expert advice on scientific and technical 
information. This information is used to justify important 
policy decisions and should be held to a high standard.
    In the subsequent decades and years, there have been 
serious deficiencies with the SAB and the process to select 
Board Members. Among other issues, there has been limited 
public participation, EPA interference with expert advice, and 
potential conflicts of interest. If the EPA undermines the 
Board's independence or prevents it from providing candid 
advice to Congress, then the SAB serves no value to the EPA. 
The Board should be free to function as intended to ensure that 
sound science is driving policy decisions. We must reaffirm the 
Board's independence so that the public can be confident that 
policy decisions are not hijacked by a predetermined political 
agenda. It's time to update the law to restore scientific 
integrity to the process and independence to the Board.
    In the previous Congress, a substantially similar bill 
passed the House with bipartisan support. This time around, we 
worked to revise this bill to ensure the best advisory process 
for the SAB. The Science Advisory Board Reform Act of 2017 
addresses SAB shortcomings and deficiencies by guaranteeing a 
well-balanced expert panel, increasing transparency, and 
encouraging public participation. This employs--this empowers 
the experts to provide meaningful and unbiased scientific 
advice.
    This Act also addresses the need for Board membership from 
State, local and tribal governments. Currently on the chartered 
SAB, there are only two members representing States. The fact 
that States like my home State of Oklahoma have no Board 
members, even though we play a prominent role in the 
agriculture and energy industries, both of which are heavily 
regulated by the EPA, is troubling.
    Furthermore, this bill prevents current SAB members from 
holding EPA contracts or grants as well as from receiving those 
funds within 3 years following the end of that member's service 
on the Board.
    The bill also ensures that uncertainties in scientific 
conclusions are clearly communicated and allows the expert 
panel to focus on the science, rather than partisan policy 
debates.
    The language also codifies a requirement of the Board to 
respond to dissenting scientific views, and for comments to be 
published in the Federal Register. For ease of public access, 
these comments will be grouped by common theme and will not 
include reprinting of repetitious comments.
    This legislation recognizes the important role science 
should play to inform policy debates. The safeguards provided 
in this bill will ensure public confidence by requiring the use 
of sound science when informing regulatory decisions. This Act 
restores the SAB as an important defender of scientific 
integrity. This common--these commonsense reforms will make 
EPA's decisions more credible and balanced.

                    Prepared Statement of Mr. Lucas

    I thank Chairman Smith for bringing this important 
legislation to a markup.
    H.R. 1431, The Science Advisory Board Reform Act, ensures 
that the most qualified and capable scientists are free to 
undertake a balanced and open review of regulatory science.
    The Science Advisory Board (or S-A-B) was created in 1978 
to provide independent expert advice on scientific and 
technical information. This information is used to justify 
important policy decisions and should be held to a high 
standard.
    In the subsequent decades and years, there have been 
serious deficiencies with the SAB and the process to select 
Board Members. Among other issues, there has been limited 
public participation, EPA interference with expert advice, and 
potential conflicts of interest. If the EPA undermines the 
Board's independence or prevents it from providing candid 
advice to Congress, then the SAB serves no value to the EPA.
    The Board should be free to function as intended to ensure 
that sound science is driving policy decisions. We must 
reaffirm the Board's independence so that the public can be 
confident that policy decisions are not hi-jacked by a pre-
determined political agenda.
    It's time to update the law to restore scientific integrity 
to the process and independence to the Board.
    In the previous Congress, a substantially similar bill 
passed the House with bipartisan support. This time around, we 
worked to revise this bill to ensure the best advisory process 
for the SAB.
    The Science Advisory Board Reform Act of 2017 addresses SAB 
shortcomings and deficiencies by guaranteeing a well-balanced 
expert panel, increasing transparency, and encouraging public 
participation. This empowers the experts to provide meaningful 
and unbiased scientific advice.
    This Act also addresses the need for Board membership from 
state, local and tribal governments. Currently on the Chartered 
SAB, there are only two members representing States. The fact 
that states like my home state of Oklahoma have no
    Board members, even though we play a prominent role in the 
agriculture and energy industries, both of which are heavily 
regulated by the EPA, is troubling. Furthermore, this bill 
prevents current SAB members from holding EPA grants or 
contracts, as well as from receiving those funds within three 
years following the end of that member's service on the Board.
    The bill also ensures that uncertainties in scientific 
conclusions are clearly communicated and allows the expert 
panel to focus on the science, rather than partisan policy 
debates. The language also codifies a requirement of the Board 
to respond to dissenting scientific views, and for comments to 
be published in the Federal Register. For ease of public 
access, these comments will be grouped by common theme and will 
not include reprinting of repetitious comments.
    This legislation recognizes the important role science 
should play to inform policy debates. The safeguards provided 
in this bill will ensure public confidence, by requiring the 
use of sound science when informing regulatory decisions. This 
act restores the SAB as an important defender of scientific 
integrity.
    These common sense reforms will make EPA's decisions more 
credible and balanced.

    Mr. Lucas. And without objection, Mr. Chairman, I would 
like to add the following letters of support for H.R. 1431 into 
the record.
    Chairman Smith. Without objection, the letter will be made 
a part of the record.
    Mr. Lucas. The Farm Bureau, the Portland Cement 
Association, the National Sand and Gravel Association, Small 
Business and Entrepreneurship Council, the National Association 
of Homebuilders, Dr. Pat Michaels, Professor Will Harper, the 
American Exploration Production Council, the Independent 
Petroleum Association of America, and the U.S. Chamber of 
Commerce.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Lucas.
    The gentlewoman from Texas, the Ranking Member, Ms. 
Johnson, is recognized for her opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Like the HONEST Act, I strongly oppose the Science Advisory 
Reform Act, and, at the core, I oppose this bill for many of 
the same reasons. This bill is a transparent attempt to slow 
down the regulatory process and stack science review boards 
with industry representative. The result would be similar to 
the HONEST Act: Worse science at the EPA and less public health 
protections for American citizens.
    The problems with this legislation are three-fold. First, 
the bill makes it easier for industry representatives to serve 
on science advisory boards by only requiring them to disclose 
their conflicts of interest. I have no problem with industry 
representation on these advisory boards, and in fact, under the 
requirements of the Federal Advisory Committee Acts, science 
advisory panels are required to be balanced of composition. 
However, this bill would allow unlimited participation by 
financially conflicted industry representatives, and that is a 
part I cannot support.
    The second major problem with this legislation is that it 
would make it much more difficult for scientists with 
extramural research grants from EPA to serve on the Board. This 
prohibition is likely to eliminate consideration of the top 
scientists in the relevant fields serving on science advisory 
boards. In conjunction with the loosened industry financial 
conflict requirements, this prohibition will result in science 
advisory panels with less qualified scientists and more 
conflicts of interest.
    Finally, this legislation contains incredibly burdensome 
public comment requirements. The bill prevents comment cutoff 
dates, requires detailed review and reporting of comments, and 
requires the advisory panels to respond to any significant 
comments, especially those that run counter to mainstream 
science. The end result of this is to delay the Science 
Advisory Board's reviews and force the agency to expend 
resources it simply does not have.
    We are in an unprecedented time right now. For the past 
three Congresses, the Chairman of this Majority--his Majority 
colleagues on the Science Committee have repeatedly attacked 
the ability of the EPA to use the best available science to 
improve public health. We now have a President who has attacked 
mainstream scientific views repeatedly. The threats to the 
scientific enterprise in America right now are profound. These 
threats have the potential to do great damage to American 
industry, American competitiveness, and the health of our 
citizens.
    I will vigorously oppose these efforts every step of the 
way, and I urge my colleagues to do the same.
    Thank you, Mr. Chairman. I yield back.

                   Prepared Statement of Ms. Johnson

    Like the HONEST Act, I strongly oppose the Science Advisory 
Reform Act. And, at the core, I oppose this bill for many of 
the same reasons. This bill is a transparent attempt to slow 
down the regulatory process and stack science review boards 
with industry representative. The result would be similar to 
the HONEST Act--worse science at the EPA and less public health 
protections for American citizens.
    The problems with this legislation are three-fold. First, 
the bill makes it easier for industry representatives to serve 
on science advisory boards by only requiring them to disclose 
their conflicts of interest. I have no problem with industry 
representation on these advisory boards, and in fact, under the 
requirements of the Federal Advisory Committee Acts, science 
advisory panels are required to have a balanced composition. 
However, this bill would allow unlimited participation by 
financially conflicted industry representatives, and that I 
cannot support.
    The second major problem with this legislation is that it 
would make it much more difficult for scientists with 
extramural research grants from EPA to serve on the board. This 
prohibition is likely to eliminate consideration of the top 
scientists in the relevant fields serving on science advisory 
boards. In conjunction with the loosened industry financial 
conflict requirements, this prohibition will result in science 
advisory panels with less qualified scientists and more 
conflicts of interest.
    Finally, this legislation contains incredibly burdensome 
public comment requirements. The bill prevents comment cutoff 
dates, requires detailed review and reporting of comments, and 
requires the advisory panels to respond to any significant 
comments, especially those that run counter to mainstream 
science. The end result of this is to delay the SABs' reviews 
and force the agency to expend resources it simply doesn't 
have.
    We are in an unprecedented time right now. For the past 
three Congresses the Chairman and his Majority colleagues on 
the Science Committee have repeatedly attacked the ability of 
the EPA to use the best available science to improve public 
health. We now have a President who has attacked mainstream 
scientific views repeatedly. The threats to the scientific 
enterprise in America right now are profound. These threats 
have the potential to do great damage to American industry, 
American competitiveness, and the health of our citizens. I 
will vigorously oppose these efforts every step of the way, and 
I urge my colleagues to do the same.
    I yield back
    Chairman Smith. Thank you, Ms. Johnson.
    Is there anyone who wishes to offer an amendment or be 
recognized?
    Ms. Bonamici. Mr. Chairman.
    Chairman Smith. The gentlewoman from Oregon, Ms. Bonamici, 
is recognized for 5 minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and I want 
to start by thanking Mr. Lucas for his goal of having a diverse 
functioning Science Advisory Board at the EPA. It's a laudable 
goal.
    Unfortunately, this particular bill is not going to do what 
the intent is, and it has many problems that the Ranking Member 
pointed out, and I just want to point out, as recognized by 
several letters in opposition including one from the American 
Lung Association, that this bill is going to add this notice 
and comment component to all parts of the Board's actions, and 
that causes a burdensome and unnecessary requirement. The 
reviews of the major issues are already covered under public 
notice and comment. It's going to discourage people from 
participating.
    And also, as the Union of Concerned Scientists points out, 
this legislation explicitly allows experts with financial ties 
to corporations that are affected by Science Advisory Board 
assessments, they are not excluded from the Boards, but 
scientists, academic experts who have experience, are 
prohibited, and that essentially turns, as the Union of 
Concerned Scientists says, the idea of conflict of interest on 
its head because there's a presumption that corporate experts 
with direct financial interest are not conflicted but academics 
who work on these issues are.
    So I suggest that we go back to the drawing board and find 
a way to improve the Science Advisory Board that doesn't have 
these problems that are going to result in industry experts but 
not academic scientific experts on the Science Advisory Boards.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    Chairman Smith. Thank you, Ms. Bonamici.
    Anybody else? The gentleman from Illinois, Dr. Foster, is 
recognized for 5 minutes.
    Mr. Foster. Yes. I move to strike the last word.
    I'd just like to briefly point out that according to the 
Bureau of Labor Statistics, there are 1.54 million professors 
in the United States, so the fact that the sponsors of this 
bill were able to find one of those 1.54 million professors 
that support this bill I think speaks volumes about the level 
of support by academics and scientists for this bill.
    Thank you, and I yield back.
    Chairman Smith. Thank you, Mr. Foster.
    The gentlewoman from Connecticut, Ms. Esty, is recognized.
    Ms. Esty. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Smith. The gentlewoman is recognized for 5 
minutes.
    Ms. Esty. Thank you, Mr. Chairman.
    Again, I agree with my colleague, Mr. Lucas, that we do 
want to have diverse viewpoints reflected in the Science 
Advisory Board. However, as many of my colleagues have noted, 
this bill, I think, fails to achieve that.
    I want to note for a moment the resource question. This 
imposes new requirements, extends and basically eliminates any 
timeline for comments, and an obligation to respond. At the 
same time, no additional resources are called for, and that 
does not even begin to address the fact that the incoming 
Administration has proposed a 25 percent cut in agency 
resources--25 percent. And I think it is irresponsible for this 
Committee to impose additional burdens of reporting and 
response at the same time not only not offering resources but 
backing budget proposals that would do massive cut in 
resources.
    I am very concerned about the conflicts of interest that 
are being proposed here. To have paid industry experts be 
considered independent and to have scientists who--and I have a 
husband who works at your alma mater, Mr. Chairman, and I can 
tell you, professors have to raise grant money all the time for 
their research. One of the few places they can do that--if 
you're a climate scientist or if you are looking at 
epidemiology at Yale, you often are seeking Federal grants. 
That's the only way you're going to get your research done. And 
yet this proposal I'm afraid would disqualify such people not 
only from voting on grants involving themselves, which is of 
course completely appropriate, but would be an out-and-out ban.
    We are going to be depriving the independent Science 
Advisory Board of exactly the kind of capability that we need 
to have, and I think we're all already to work with Mr. Lucas 
and with you, Mr. Chairman, on what we can do to diversify. If 
there are sectors that feel they've been excluded, we should 
work on that, but this is overly broad, will be dangerous to 
the independence of science, exclude much of the expertise we 
need to have, too broad a brush and no resources, in fact, at 
the same time we're expecting a cut in resources.
    So I respectfully must urge my colleagues to vote against 
this bill.
    Thank you very much, and I yield back.
    Chairman Smith. Thank you, Ms. Esty.
    If the gentleman from Texas will withdraw his request for 
time, I'd like to recognize----
    Mr. Babin. Sure.
    Chairman Smith [continuing]. Someone on the other first. 
The gentleman from Virginia, Mr. Beyer, is recognized.
    Mr. Beyer. I feel bad taking time from the gentleman from 
Texas, but I move to strike the last word, Mr. Chairman.
    Chairman Smith. Mr. Beyer is recognized.
    Mr. Beyer. And I just want to associate myself with the 
remarks of Ms. Bonamici and Ms. Esty, that while I very much 
respect Mr. Lucas's leadership on this bill, and I want to vote 
for it, but for the dilemma that we are now bringing industry 
representatives in as long as there's a clear disclosure of 
conflict of interest and yet completely excluding professors 
who may well have a conflict of interest even because they may 
be working in the future. It seems that we have tilted the 
scales upside down, and if what should be good for the goose, 
good for the gander, that if there's a disclosure, that that's 
the principle of participation, then let's make that fair for 
the professors also.
    Chairman Smith. Thank you, Mr. Beyer.
    Are there other Members who wish to be recognized? If not, 
the gentleman from Texas, Mr. Babin, is recognized.
    Mr. Babin. Thank you, Mr. Chairman. I'd like to yield my 
time to the gentleman from Oklahoma, Mr. Lucas.
    Mr. Lucas. I thank the gentleman from Texas for yielding, 
and I've listened to the very focused and sincere points by my 
colleagues, but I'd have to note to everyone as we work our way 
through this markup, this bill does not change the fact that 
the EPA still chooses the members of the Board, and the issue 
about are the best professionals being ignored and their 
insights being not used is of great concern to me.
    The bill also seeks to balance transparency, and we've 
talked about that, in the makeup and composition of the Board. 
In fact, financial conflicts of interest are specifically 
prohibited in the language, and in addition to the prohibition 
on conflicted individuals from participating, the bill most 
importantly, I think, requires members' disclosure. Let us all 
know what their economic interests are in the process of being 
on the Board.
    Now, we've talked about the grants and the money, and I 
would remind my colleagues, considering the magnitude of the 
recent direct grants given to members of the SAB and the Clean 
Air Scientific Advisory Committee, in the past as many as 60 
percent have received grants worth almost $140 million. So 
perhaps we should, if anything, err on the side of balancing 
those concerns.
    Now, I know there's a legitimate concern also in the text 
about the unlimited comment period, but I would tell you rather 
that it attempts to prevent arbitrary efforts to silence 
important concerns. The bill does not require the Board to 
respond to every comment, only to make their responses to 
significant comments that are based on the hypothesis-based 
science publicly available. I think that's a very important 
distinction.
    And the public's right to know. Let's be honest, it is 
important that that the public have access to this information 
so that they have confidence in the results. If we're asking 
decisions to be made that affect their lives every day at home 
and at business, then they have the right, I think, to have 
confidence and that experience will add to it.
    And furthermore, I'd leave one last thought to all my 
colleagues here. Many of you don't know the new EPA Director 
personally. He is a very energetic, very bright attorney. 
Elections have consequences. If perhaps in the last session you 
were concerned about what this would do to the EPA, I would 
suggest to you, you should be with me now to potentially 
address your concerns from this point on.
    Just food for thought as I ask my colleagues to pass the 
bill, and I yield back.
    Chairman Smith. Thank you, Mr. Babin. Thank you, Mr. Lucas.
    If there are no amendments, a reporting quorum being 
present, I move that the Committee on Science, Space, and 
Technology report H.R. 1431 to the House with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 1431 to the 
House.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it. The bill is ordered reported favorably 
but a roll call vote has been requested, and the clerk will 
call the roll.
    The Clerk. Mr. Smith?
    Chairman Smith. Aye.
    The Clerk. Mr. Smith votes aye.
    Mr. Lucas?
    Mr. Lucas. Aye.
    The Clerk. Mr. Lucas votes aye.
    Mr. Rohrabacher?
    [No response.]
    The Clerk. Mr. Brooks?
    Mr. Brooks. Aye.
    The Clerk. Mr. Brooks votes aye.
    Mr. Hultgren?
    Mr. Hultgren. Aye.
    The Clerk. Mr. Hultgren votes aye.
    Mr. Posey?
    Mr. Posey. Aye.
    The Clerk. Mr. Posey votes aye.
    Mr. Massie?
    Mr. Massie. Aye.
    The Clerk. Mr. Massie votes aye.
    Mr. Bridenstine?
    [No response.]
    The Clerk. Mr. Weber?
    Mr. Weber. Aye.
    The Clerk. Mr. Weber votes aye.
    Mr. Knight?
    Mr. Knight. Aye.
    The Clerk. Mr. Knight votes aye.
    Mr. Babin?
    Mr. Babin. Aye.
    The Clerk. Mr. Babin votes aye.
    Mrs. Comstock?
    Mrs. Comstock. Aye.
    The Clerk. Mrs. Comstock votes aye.
    Mr. Palmer?
    [No response.]
    The Clerk. Mr. Loudermilk?
    Mr. Loudermilk. Aye.
    The Clerk. Mr. Loudermilk votes aye.
    Mr. Abraham?
    Mr. Abraham. Aye.
    The Clerk. Mr. Abraham votes aye.
    Mr. LaHood?
    Mr. LaHood. Aye.
    The Clerk. Mr. LaHood votes aye.
    Mr. Webster?
    Mr. Webster. Aye.
    The Clerk. Mr. Webster votes aye.
    Mr. Banks?
    Mr. Banks. Aye.
    The Clerk. Mr. Banks votes aye.
    Mr. Biggs?
    Mr. Biggs. Aye.
    The Clerk. Mr. Biggs votes aye.
    Mr. Marshall?
    Mr. Marshall. Aye.
    The Clerk. Mr. Marshall votes aye.
    Mr. Dunn?
    Mr. Dunn. Aye.
    The Clerk. Mr. Dunn votes aye.
    Mr. Higgins?
    Mr. Higgins. Aye.
    The Clerk. Mr. Higgins votes aye.
    Ms. Johnson?
    Ms. Johnson. No.
    The Clerk. Ms. Johnson votes no.
    Ms. Lofgren?
    Ms. Lofgren. No.
    The Clerk. Ms. Lofgren votes no.
    Mr. Lipinski?
    Mr. Lipinski. No.
    The Clerk. Mr. Lipinski votes no.
    Ms. Bonamici?
    Ms. Bonamici. No.
    The Clerk. Ms. Bonamici votes no.
    Mr. Bera?
    Mr. Bera. No.
    The Clerk. Mr. Bera votes no.
    Ms. Esty?
    Ms. Esty. No.
    The Clerk. Ms. Esty votes no.
    Mr. Veasey?
    Mr. Veasey. No.
    The Clerk. Mr. Veasey votes no.
    Mr. Beyer?
    Mr. Beyer. No.
    The Clerk. Mr. Beyer votes no.
    Ms. Rosen?
    Ms. Rosen. No.
    The Clerk. Ms. Rosen votes no.
    Mr. McNerney?
    [No response.]
    The Clerk. Mr. Perlmutter?
    Mr. Perlmutter. No.
    The Clerk. Mr. Perlmutter votes no.
    Mr. Tonko?
    [No response.]
    The Clerk. Mr. Foster?
    Mr. Foster. No.
    The Clerk. Mr. Foster votes no.
    Mr. Takano?
    Mr. Takano. No.
    The Clerk. Mr. Takano votes no.
    Ms. Hanabusa?
    Ms. Hanabusa. No.
    The Clerk. Ms. Hanabusa votes no.
    Mr. Crist?
    Mr. Crist. No.
    The Clerk. Mr. Crist votes no.
    Chairman Smith. The clerk will report.
    The Clerk. Mr. Chairman, 19 Members vote aye; 14 Members 
vote nay.
    Chairman Smith. The ayes have it, and the bill is ordered 
reported favorably.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Without objection, the Motion to Reconsider is laid upon 
the table. H.R. 1431 is ordered reported to the House, and I 
ask unanimous consent that staff authorized to make any 
necessary technical and conforming changes, and without 
objection, so ordered.
    Before we adjourn, I just want to thank all Members on both 
sides for their attendance today. I really appreciate 
everybody's being here. This is good for the Committee. It's 
good for the Members to hear the debate as well.
    If there is no further discussion, that completes our 
business, and we stand adjourned.
    [Whereupon, at 10:24 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                          H.R. 1430, H.R. 1431


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                   PROCEEDINGS OF THE FULL COMMITTEE
                          MARKUP ON H.R. 2105 
                          NIST SMALL BUSINESS
                       CYBERSECURITY ACT OF 2017

                              ----------                              


                          TUESDAY, MAY 2, 2017

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10 a.m., in room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.
    Chairman Smith. With the agreement of the Ranking Member 
and with the understanding that other Members are on their way, 
we're going to start our markup.
    The Committee on Science, Space, and Technology will come 
to order.
    Without objection, the Chair is authorized to declare 
recess at any time, and without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Pursuant to Committee Rule II(e) and House Rule 
112(2)(h)(4), the Chair announces that he may postpone roll 
call votes.
    Today we meet to consider H.R. 2105, the NIST Small 
Business Cybersecurity Act of 2017.
    H.R. 2105
    Chairman Smith. Pursuant to notice, I now call up H.R. 
2105, the NIST Small Business Cybersecurity Act of 2017. The 
clerk will report the bill.
    The Clerk. H.R. 2105, a bill to require the Director of the 
National Institute of Standards and Technology to disseminate 
guidance to help reduce----
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    I'll recognize myself for an opening statement.
    Welcome to today's Full Committee markup of H.R. 2105, the 
NIST Small Business Cybersecurity Act of 2017. I thank the 
gentleman from Florida, Mr. Webster, for introducing this 
important and timely bipartisan bill.
    This bill directs the National Institute of Standards and 
Technology to provide small businesses with cybersecurity 
guidelines, tools, best practices, standards, and methodologies 
necessary to better protect themselves. This guidance will be 
made publicly available on NIST's and other relevant agencies' 
websites.
    Small businesses are frequently the target of cyber-
attacks, but these businesses often do not have sufficient 
information to adequately monitor and protect their computer 
systems.
    This week we celebrate National Small Business Week, a 
decades-long tradition recognizing the many contributions made 
to the American economy by small businesses. Small businesses 
help produce a thriving economy that benefits our entire 
country. They bring innovative ideas, cutting-edge products and 
services, and jobs to the marketplace.
    In my home State, for example, there are more than 2.4 
million small businesses that employ almost 4-1/2 million 
Texans.
    But even as they become more innovative, sophisticated, and 
productive, small businesses are drawing unwanted attention 
from cybercriminals. These hackers attempt to take advantage of 
the small businesses' limited capabilities and cyber 
inexperience as compared to their larger counterparts. 
According to the U.S. National Cyber Security Alliance, 60 
percent of small businesses go bankrupt 6 months after a cyber-
attack. And another institute notes that recovering from a 
cyber-attack can cost the average small business $690,000; for 
middle market companies, that cost is more than $1 million.
    Today's legislation engages the services of NIST to help 
small businesses reduce their cybersecurity risks.
    NIST experts developed a Cybersecurity Framework through 
collaborations between the government and private sector. This 
Framework is accepted and used by many private organizations to 
address and manage their cybersecurity risk in a cost-effective 
way. The guidance described in this bill to help small 
businesses is based on the NIST Cybersecurity Framework.
    H.R. 2105 is similar to Senate bill S. 770, the MAIN STREET 
Cybersecurity Act, which the Senate Commerce, Science, and 
Transportation Committee favorably reported unanimously by 
voice vote last month. Representative Webster's bill, 
cosponsored by Research and Technology Subcommittee Chairwoman 
Barbara Comstock and Ranking Member Dan Lipinski, serves an 
important purpose by helping to protect small businesses from 
cybersecurity attacks. I thank them for their initiative on 
this issue and I urge my colleagues to support H.R. 2105.

                  Prepared Statement of Chairman Smith

    Good morning and welcome to today's Full Committee markup 
of H.R. 2105, the NIST Small Business Cybersecurity Act of 
2017. I thank the gentleman from Florida, Mr. Webster, for 
introducing this important and timely bipartisan bill.
    This bill directs the National Institute of Standards and 
Technology (NIST) to provide small businesses with 
cybersecurity guidelines, tools, best practices, standards, and 
methodologies necessary to better protect themselves.
    This guidance will be made publicly available on NIST's and 
other relevant agencies' websites.
    Small businesses are frequently the target of cyber-
attacks, but these businesses often do not have sufficient 
information to adequately monitor and protect their computer 
systems.
    This week we celebrate National Small Business Week, a 
decades-long tradition recognizing the many contributions made 
to the American economy by small businesses.
    Small businesses help produce a thriving economy that 
benefits our entire country. They bring innovative ideas, 
cutting-edge products and services, and jobs to the 
marketplace. In my home state, for example, there are more than 
2.4 million small businesses that employ almost four and a half 
million Texans.
    But even as they become more innovative, sophisticated, and 
productive, small businesses are drawing unwanted attention 
from cybercriminals. These hackers attempt to take advantage of 
the small businesses' limited capabilities and cyber 
inexperience as compared to their larger counterparts.
    According to the U.S. National Cyber Security Alliance, 60% 
of small businesses go bankrupt six months after a cyber-
attack. And the Ponemon Institute notes that recovering from a 
cyber-attack can cost the average small business $690,000; for 
middle market companies, that cost is more than $1 million.
    Today's legislation engages the services of NIST to help 
small businesses reduce their cybersecurity risks.
    NIST experts developed a Cybersecurity Framework, through 
collaborations between the government and private sector. This 
Framework is accepted and used by many private organizations to 
address and manage their cybersecurity risk in a costeffective 
way. The guidance described in this bill to help small 
businesses is based on the NIST Cybersecurity Framework.
    H.R. 2105 is similar to Senate bill S.770, the MAIN STREET 
Cybersecurity Act, which the Senate Commerce, Science, and 
Transportation Committee favorably reported unanimously by 
voice vote last month.
    Representative Webster's bill, cosponsored by Research and 
Technology Subcommittee Chairwoman Barbara Comstock and Ranking 
Member Dan Lipinski, serves an important purpose by helping to 
protect small businesses from cybersecurity attacks. I thank 
them for their initiative on this issue and I urge my 
colleagues to support H.R. 2105.

    Chairman Smith. The Ranking Member, the gentlewoman from 
Texas, Eddie Bernice Johnson, is recognized for her opening 
statement.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    H.R. 2105, the NIST Small Business Cybersecurity Act of 
2017, addresses a significant need to provide more guidance, 
resources, and tools to small businesses to secure their 
information systems and protect the personal information of 
their customers.
    According to the Small Business Administration, the 28 
million small businesses in America account for 54 percent of 
all U.S. sales. Small businesses provide 55 percent of all jobs 
and 66 percent of all net new jobs since 1970. Small businesses 
play a central role in our economy. Unfortunately, the 
information systems and networks of small businesses are 
especially vulnerable. Small businesses rarely have trained 
cybersecurity employees and often do not prioritize 
cybersecurity or have the resources to do so.
    The National Institute of Standards and Technology, or 
NIST, has been a leader in developing standards and guidelines 
for cybersecurity in the public and private sectors before the 
word ``cybersecurity'' was even part of our policy vocabulary.
    In 2009, NIST developed a guidance document called, Small 
Business Information Security: The Fundamentals. The document 
was the result of an interagency effort and was designed to 
present the fundamentals of an effective small business 
information security program in non-technical language.
    In 2014, in response to an Executive Order from President 
Obama, NIST published the Cybersecurity Framework for Critical 
Infrastructure, which we have discussed extensively in this 
Committee. The Cybersecurity Framework is most useful for 
larger businesses with at least some information technology 
expertise. Therefore, in November 2016, NIST published an 
update of their small business guidance document, using the 
Framework as a template.
    In addition to this guidance, NIST assists small businesses 
directly through their work at the Cybersecurity Center for 
Excellence in Gaithersburg, Maryland.
    Further, under the National Initiative for Cybersecurity 
Education, NIST leads an activity they call the Small Business 
Corner. In collaboration with the Small Business Administration 
and the FBI, they conduct training meetings on computer 
security for small businesses.
    H.R. 2105 is consistent with all of those ongoing 
activities at NIST and with the agency's mission. Ideally, H.R. 
2105 would also provide resources for NIST to expand these 
activities, because the need is clear.
    Unfortunately, the Majority has once again brought up a 
bill directing the agency to do more with less. If this just 
happened occasionally, it might not be a problem. Every agency 
should periodically assess their programs and identify 
opportunities to reprioritize funding and implement new 
efficiencies. However, with respect to NIST in particular, the 
Majority has piled on one significant new responsibility after 
another, without providing additional funding. And now, based 
on the Fiscal Year 2018 Budget Blueprint, we anticipate 
damaging cuts to NIST from the Trump Administration.
    I am pleased that we can agree on a bipartisan basis that 
NIST is an important agency that does excellent work across 
many areas with a relatively small budget. I just wish we could 
also agree that money does not grow on the trees at the NIST 
campus. We must be prepared to pay for what we value, or we 
will simply not accomplish the laudable goals of this 
legislation or any other activities we deem to be priorities.
    Mr. Chairman, I support H.R. 2105, and I thank the 
sponsors, including Mr. Webster, Mr. Lipinski, and Ms. Rosen, 
and their strong support for small businesses and NIST's 
important role in cybersecurity. However, I am concerned that 
the House bill contains an explicit underfunded mandate clause 
and that the Senate version is silent on funding. I hope that 
if we have the opportunity to negotiate a conference agreement, 
both bodies will see fit to provide NIST with adequate 
resources to fulfill the mandates in this legislation.
    I thank you, and yield back.

                   Prepared Statement of Ms. Johnson

    Thank you Mr. Chairman. H.R. 2105, the NIST Small Business 
Cybersecurity Act of 2017, addresses a significant need to 
provide more guidance, resources, and tools to small businesses 
to secure their information systems and protect the personal 
information of their customers. According to the Small Business 
Administration, the 28 million small businesses in America 
account for 54 percent of all U.S. sales. Small businesses 
provide 55 percent of all jobs and 66 percent of all net new 
jobs since the 1970s. Small businesses play a central role in 
our economy. Unfortunately, the information systems and 
networks of small businesses are especially vulnerable. Small 
businesses rarely have trained cybersecurity employees and 
often do not prioritize cybersecurity or have the resources to 
do so. The National Institute of Standards and Technology, or 
NIST, has been a leader in developing standards and guidelines 
for cybersecurity in the public and private sectors before the 
word cybersecurity was even part of our policy vocabulary. In 
2009, NIST developed a guidance document called, Small Business 
Information Security: The Fundamentals. The document was the 
result of an interagency effort and was designed to present the 
fundamentals of an effective small business information 
security program in non-technical language. In 2014, in 
response to an Executive Order from President Obama, NIST 
published the Cybersecurity Framework for Critical 
Infrastructure, which we have discussed extensively in this 
Committee. The Cybersecurity Framework is most useful for 
larger businesses with at least some information technology 
expertise. Therefore, in November 2016, NIST published an 
update of their small business guidance document, using the 
Framework as a template. In addition to this guidance, NIST 
assists small businesses directly through their work at the 
Cybersecurity Center for Excellence in Gaithersburg, Maryland. 
Furthermore, under the National Initiative for Cybersecurity 
Education, NIST leads an activity they call the ``Small 
Business Corner.'' In collaboration with the Small Business 
Administration and the FBI, they conduct training meetings on 
computer security for small businesses. H.R. 2105 is consistent 
with all of these ongoing activities at NIST and with the 
agency's mission. Ideally, H.R. 2105 would also provide 
resources for NIST to expand these activities, because the need 
is clear. Unfortunately, the Majority has once again brought up 
a bill directing the agency to do more with less. If this just 
happened occasionally, it might not be a problem. Every agency 
should periodically assess their programs and identify 
opportunities to reprioritize funding and implement new 
efficiencies. However, with respect to NIST in particular, the
    Majority has piled on one significant new responsibility 
after another, without providing additional funding. And now, 
based on the FY 2018 Budget Blueprint, we anticipate damaging 
cuts to NIST from the Trump Administration. I am pleased that 
we can agree on a bipartisan basis that NIST is an important 
agency that does excellent work across many areas with a 
relatively small budget. I just wish we could also agree that 
money does not grow on the trees at the NIST campus. We must be 
prepared to pay for what we value, or we will simply not 
accomplish the laudable goals of this legislation or any other 
activities we deem to be priorities. Mr. Chairman, I support 
H.R. 2105, and I thank the sponsors, including Mr. Webster, Mr. 
Lipinski, and Ms. Rosen, for their strong support for small 
businesses and NIST's important role in cybersecurity. However, 
I am concerned that the House bill contains an explicit 
unfunded mandate clause and that the Senate version is silent 
on funding. I hope that if we have the opportunity to negotiate 
a conference agreement, both bodies will see fit to provide 
NIST with adequate resources to fulfill the mandates in this 
legislation. With that I yield back.

    Chairman Smith. Thank you, Ms. Johnson, and the sponsor of 
the bill, the gentlemen from Florida, Mr. Webster, is 
recognized for a statement.
    Mr. Webster. Thank you, Mr. Chair, and thank you for 
scheduling this markup, especially timely since this is 
National Small Business Week.
    America's small businesses are the backbone of our economy 
accounting for 54 percent of the American sales and 55 percent 
of American jobs. Unfortunately, small businesses are 
especially vulnerable and some reports note that it's 43 
percent of cyber-attacks specifically target them.
    H.R. 2105, the National Institute of Standards and 
Technology Small Business Cybersecurity Act of 2017, will help 
small businesses better address their cybersecurity risks to 
help them survive and thrive in the face of such adversary.
    As an owner of a multi-generational, three-generational air 
conditioning and heating business, I understand firsthand the 
importance of equipping and empowering small businesses to 
tackle these challenges.
    Just a few months ago, one of my associates came in to our 
office, and on the screen it says your computer has been 
hacked, your data is frozen, and pay us a certain amount of 
money, a pretty good bit of money, by 24 hours or we're going 
to destroy it. So that was a little bit of a concern, and--but 
I wasn't going to pay a ransom so I told our people let's see 
what we can do, so it ended up, we had a 2-day-old jump drive 
where we had backed up by chance all of the data that had been 
frozen, so we--our IT guy wiped the hard disk, put the new data 
on, and then we re-upped it. It took us--we had to put the last 
2 days of business on there, and it worked out. However, I 
think with the information that we could get from NIST and this 
bill if it were in place, we would have been better prepared to 
know what to do and how to do it so that the incident never 
happened to begin with.
    So I know that there are thousands and thousands of 
businesses across the country who are seeing that every day. 
When they walk into their office, they have a ransom note, and 
many--I ended up talking to one person who had paid that 
ransom, and they were sad they did because about--they released 
their data, everything was fine, and 3 months later they did it 
again. So this is a thriving, awful business that's being used 
to be--that's perpetrated some pretty bad things against small 
businesses who are just trying to make a living.
    So this bill, H.R. 2105, will provide small businesses in 
my district and across the State and across the country with 
the tools they need to actually circumvent these threats and 
challenges of the modern world, and I think a lot of times 
myself and my sons that run our business now tend to think, you 
know, this is only for big business, these are all the 
businesses that get highlighted on the news every night, that's 
the only ones that are at risk, and never really thought about 
the fact that we as a small business were at risk and knew 
nothing about these ransom notes that were being done.
    So there's a similar bill in the Senate that's moving 
alone, MAIN STREET Cybersecurity Act. It's supported by the 
Small Business Administration, the National Restaurant 
Association, U.S. Chamber of Commerce, International Technique 
Group, and the Chamber of International Techni groups that have 
also come out in support of this H.R. 2105 and Senate 770, 
which passed the Senate's Commerce, Science and Transportation 
Committee in April by a voice vote.
    I ask my colleagues to similarly support H.R. 2015 in a 
bipartisan manner so that we may prepare it for the House floor 
Action.
    Thank you again, Mr. Chairman, for bringing up this bill 
and supporting this important bill today to help small 
businesses.
    I yield back the rest of my time.

                   Prepared Statement of Mr. Webster

    Thank you Mr. Chairman for scheduling this markup today - 
it is especially timely as we celebrate National Small Business 
Week.
    America's small businesses are the backbone of our economy 
accounting for 54 percent of all American sales and 55 percent 
of American jobs. Unfortunately, small businesses are 
especially vulnerable, with some reports noting that 43 percent 
of cyber attacks specifically target them.
    H.R. 2105, the National Institute of Standards and 
Technology (NIST) Small Business Cybersecurity Act of 2017, 
will help small businesses better address their cybersecurity 
risks to help them survive - and thrive - in the face of such 
adversity.
    As an owner of a multi-generational family air conditioning 
and heating business, I understand first-hand the importance of 
equipping and empowering small businesses to tackle challenges, 
so that they can grow and prosper. Thus, a couple weeks ago, I 
introduced H.R. 2105 with the support and cosponsorship of many 
of my colleagues on the Committee, including Chairman Smith, 
Chairwoman Comstock, and Ranking Member Lipinski.
    H.R. 2105 will provide small businesses in my district, 
state and across the country with the tools they need to meet 
the threats and challenges of the modern world.
    The bill:
    <bullet> Ldescribes the vital role played by small 
businesses in the U.S. economy, the devastating impact of 
cyberattacks on a majority of small businesses, and the need to 
develop simplified resources to help them;
    <bullet> Ldirects the NIST Director - within a year of the 
Act's enactment - to disseminate clear and concise resources, 
which are defined as guidelines, tools, best practices, 
standards, methodologies, and other ways of providing 
information.
      <bullet> LDissemination would be in consultation with 
heads of other Federal agencies.
      <bullet> LThese resources - based on the NIST Framework 
for Improving Critical Infrastructure Cybersecurity - will help 
small businesses identify, assess, manage, and reduce their 
cybersecurity risks.
    H.R. 2105 also:
    <bullet> Lclarifies that use of the resources by small 
businesses is voluntary;
    <bullet> Ldirects the NIST Director, and heads of Federal 
agencies that so elect, to make the resources available on 
their government websites; and
    <bullet> Lspecifies that no new funds are authorized to 
carry out this Act.
    This bill is very similar to Senate bill S.770, the MAIN 
STREET Cybersecurity Act, which is supported by the National 
Small Business Association, the National Restaurant 
Association, and the U.S. Chamber of Commerce - which also 
supports H.R. 2105. S.770 passed the Senate Commerce, Science, 
and Transportation Committee in April by a voice vote, and I 
ask my colleagues to similarly support H.R. 2105 in a 
bipartisan manner, so we may prepare it for House floor action.
    Thank you again Mr. Chairman for bringing up and supporting 
this important bill today to help small businesses. I yield 
back the balance of my time.

    Chairman Smith. Thank you, Mr. Webster, and also, thank you 
for recounting your personal experience in regard to the 
subject at hand.
    The gentlewoman from Nevada, Ms. Rosen, is recognized for a 
statement.
    Ms. Rosen. Thank you, Chairman Smith and Ranking Member 
Johnson for holding today's markup on the NIST Small Business 
Cybersecurity Act, a bill that I am very proud to cosponsor.
    Last year, the majority of all targeted cyber-attacks were 
directed at small businesses. What's even scarier is that 60 
percent of small businesses successfully attacked, they 
actually go out of business within 6 months.
    Despite these facts, according to the National 
Cybersecurity Alliance Survey, nearly six out of ten small 
business, small-and medium-sized businesses, do not have a 
contingency plan outlining their procedures for responding and 
reporting data breach losses.
    Many of these businesses do not have the resources to 
invest in a dedicated IT staff with the expertise to monitor 
and protect their computer systems. However, I believe with 
proper guidance on how to develop an information security 
program, small business can take the steps to protect their 
employees and their customers.
    That's why I'm a proud cosponsor of NIST Small Business 
Cybersecurity Act. This bill requires the Director of National 
Institute of Standards and Technology, known as NIST, to 
provide small businesses with resources to identify and protect 
their digital assets from cybersecurity threats.
    H.R. 2105 creates a simple, voluntary set of guidelines 
that are specifically tailored for use by small businesses. We 
all know small businesses are the backbone of our economy in 
southern Nevada. Las Vegas and the surrounding communities are 
home to hundreds of local businesses employing actually over 
400,000 workers in our State.
    Unfortunately, over the past several years, our casinos, 
our hotels and many of our other small businesses have suffered 
from cyber-attacks. This legislation that we're reviewing today 
would greatly benefit small-and medium-sized businesses in my 
district, ensuring that they have the tools to protect 
themselves from cybersecurity threats.
    I thank you, and I urge my colleagues to vote for H.R. 
2105.
    Chairman Smith. Thank you, Ms. Rosen.
    We will now proceed with amendments in the order listed on 
the roster. The first and only amendment offered by the 
gentlemen from California, Mr. McNerney, and I want to thank 
him for cosponsoring the bill, and the gentlemen is recognized.
    Mr. McNerney. Well, I thank the Chair, I thank Mr. Webster 
and Mr. Rosen, and I have an amendment that will----
    Chairman Smith. The clerk will report the amendment.
    The Clerk. Amendment to H.R. 2105 offered by Mr. McNerney 
of California, amendment #042.
    Chairman Smith. Without objection, the amendment as read, 
and the gentlemen is recognized to explain his amendment.
    Mr. McNerney. Thank you, Mr. Chairman.
    I have a simple amendment, and it will improve the bill. It 
requires that the resources that NIST provides to small 
businesses include case studies of practical applications of 
cyber protection and recovery.
    Small businesses are becoming a major target of cyber-
attacks as we've heard. Small businesses are increasingly 
adopting information technology to store, process and 
communicate information. Although the proliferation of 
technology has provided small businesses with many benefits, it 
has also increased the attack surface for these cyber-attacks. 
Small businesses are generally very limited in resources and 
expertise. The owner of small businesses often are the only 
ones who handle cybersecurity-related matters along with a wide 
range of other responsibilities that Mr. Webster can attest to.
    This is why it's critical that any information small 
businesses are provided with on how to better protect their 
companies against cyber-attacks be easy to understand and 
apply. Giving examples of how other businesses of similar size 
apply a particular cybersecurity guidance would be an important 
step toward achieving that goal.
    Small businesses are the engine of economic growth and job 
creation in our Nation. In my district alone, there are over 
31,000 small businesses. As Ms. Rosen mentioned, a recent study 
found that 60 percent of small businesses go out of business 
within 6 months of a cyber-attack. This suggests that if we 
want to see improved economic growth, we must help small 
businesses improve their cybersecurity.
    As a cosponsor of 2105, I'm glad to see that we are 
considering legislation aimed at improving cybersecurity 
resources for small businesses. However, if we truly want to 
help businesses better understand how to utilize resources, 
it's important that these resources include case studies of 
practical applications. My amendment addresses this, and I urge 
my colleagues to support it, and I yield back.
    Chairman Smith. Thank you, Mr. McNerney.
    And the gentleman from Florida, Mr. Webster, is recognized.
    Mr. Webster. Thank you, Mr. Chair.
    I believe this amendment offered by the gentlemen from 
California, our colleague, is consistent with the desires of 
this bill, and I think it also would aid in protecting from 
cybersecurity attacks, and I support the amendment and I ask my 
colleagues to do the same.
    Chairman Smith. I'll recognize myself simply to say I think 
this amendment improves an already good bill, and I appreciate 
the gentlemen offering it.
    Is there further discussion on the amendment?
    If not, the question is on agreeing to the amendment 
offered by Mr. McNerney.
    All in favor, say aye.
    All opposed, no.
    The ayes have it, and the amendment is agreed to.
    If there are no further amendments, reporting quorum being 
present, I move that the Committee on Science, Space, and 
Technology report H.R. 2105 to the House as amended with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 2105 to the 
House as amended.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the Motion to Reconsider is laid upon 
the table. H.R. 2105 is ordered reported to the House, and I 
ask unanimous consent that staff be authorized to make any 
necessary technical and conforming changes. Without objection, 
so ordered.
    If there is no further discussion, that completes our 
business of the day. Thank you all for being here, and we stand 
adjourned.
    [Whereupon, at 10:21 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                      H.R. 2105, Amendment Roster


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




                    PROCEEDINGS OF THE FULL COMMITTEE
                          MARKUP ON H.R. 2809,
                        AMERICAN SPACE COMMERCE
                      FREE ENTERPRISE ACT OF 2017

                              ----------                              


                         THURSDAY, JUNE 8, 2017

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 1:14 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lamar 
Smith [Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time. Pursuant to Committee 
Rule II(e) and House Rule 112(2)(h)(4), the Chair announces 
that he may postpone roll call votes.
    Today we meet to consider H.R. 2809, the American Space 
Commerce Free Enterprise Act of 2017.
    Pursuant to notice, I now call up H.R. 2809, the American 
Space Commerce Free Enterprise Act of 2017, and the clerk will 
report the bill.
    The Clerk. H.R. 2809, a bill to amend Title 51, United 
States Code, to provide for the authorization and supervision 
of non-governmental space activities, and for other purposes.
    Chairman Smith. And without objection, the bill is 
considered as read and open for amendment at any point, and 
I'll recognize myself for an opening statement.
    H.R. 2809 establishes a legal and policy environment 
intended to unleash American free enterprise and business, 
assure conformity with Outer Space Treaty obligations, and 
ensure that the United States will lead the world in commercial 
space activities throughout the 21st century.
    This bill will promote investment and innovation, resulting 
in the creation of new high-paying and high-value jobs across 
the country. It will increase American competitiveness and 
attract companies, talent, and money that otherwise would have 
gone to other countries. It ensures America and its work force 
will benefit from the new space economy.
    The problem this bill seeks to address is the kind of legal 
uncertainty that arose after Bigelow Aerospace and Moon Express 
sought payload approval from the Department of Transportation 
for its non-traditional space activities. The payload review 
and approval process is meant to prevent launches of payloads 
that jeopardize American interests and safety. It is not 
designed to satisfy the State Department's concerns about 
complying with Article VI of the Outer Space Treaty. Under the 
Treaty, signatories are to authorize and provide continuing 
supervision of their country's non-governmental space 
activities. In the case of Bigelow and Moon Express, the 
executive branch stated that it would not be able to assure the 
public that new and innovative space activities would be 
approved for launch in the future.
    The goal of this bill is not to regulate space broadly or 
to address all of the possible future challenges that the 
private sector will face in outer space. Doing so would be 
premature and likely to stifle innovation and investment. 
Instead, the bill takes a commonsense approach by establishing 
a legal foundation upon which U.S. industry can flourish. It 
establishes a transparent U.S. authorization and supervision 
certification process for non-governmental space activities 
that provides regulatory certainty for the U.S. commercial 
space sector. It assures compliance with United States Outer 
Space treaty obligations and addresses national security 
concerns in the least burdensome manner possible.
    The bill includes a provision that consolidates at the 
Department of Commerce's Office of Space Commerce existing 
regulatory authority spread across three different Federal 
agencies now. America gets a one-stop shop for authorizing 
activities that will take place in outer space. It also 
streamlines remote sensing regulations to ensure that United 
States national security is addressed not by holding America's 
space industry back, but by empowering it to lead the world.
    Absent this bill, American industry would continue to face 
legal uncertainty. Innovation would be subject to a burdensome 
and open-ended regulatory process, with no assurance of Outer 
Space Treaty compliance.
    An initial draft of the legislation before us now was 
publicly presented over a month ago for any and all input. We 
have spent the past month meeting, listening, and considering 
specific, detailed comments from outside stakeholders, 
interested Federal agencies, the Administration, and our 
Committee colleagues including those from the Minority side of 
this Committee. Many if not most of their recommendations and 
requested changes have been included.
    Over the past few days, we have received letters and 
statements of support for the bill from the following entities: 
AgileAero, Inc. Atmospheric and Environmental Research, 
Atmospheric & Space Technology Research, Axiom Space, Bigelow 
Aerospace, Blue Origin Carmel Research Center, the Commercial 
Spaceflight Federation, which consists of hundreds of members, 
Digital Globe, Inc. GeoOptics, Moon Express, Panasonic, Planet 
Labs, Inc., Satellite Industry Association, Space Frontier 
Foundation, Spaceport Strategies, Spire Global, Space 
Environment Technologies, Space Florida, SpaceX, Students for 
the Exploration and Development of Space, and TechFreedom. 
Without objection, the letters we have received will be 
included in the record. I want to thank these groups for their 
support of the legislation.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Space Subcommittee Chairman Brian Babin and Representative 
Jim Bridenstine are coauthors and original cosponsors of the 
bill. They both have worked diligently for several years to 
advance this legislation. I'm glad to have Representative 
Perlmutter and former Science Committee Member Derek Kilmer as 
original co-sponsors as well. It speaks to the hard work of all 
Committee Members and staff in developing this common sense, 
bipartisan, regulatory reform bill.
    This transformative groundbreaking legislation declares in 
word and intent that America is open for business in space. I 
strongly recommend this bill and urge my colleagues to support 
it.

                  Prepared Statement of Chairman Smith

    Good afternoon. Today we mark-up H.R. 2809, the American 
Space Commerce Free Enterprise Act of 2017.
    H.R. 2809 establishes a legal and policy environment 
intended to unleash American free enterprise and business, 
assure conformity with Outer Space Treaty obligations, and 
ensure that the United States will lead the world in commercial 
space activities throughout the 21st century.
    This bill will promote investment and innovation, resulting 
in the creation of new high paying and high value jobs across 
the country.
    It will increase American competitiveness and attract 
companies, talent, and money that otherwise would have gone to 
other countries. It ensures America and its workforce will 
benefit from the new space economy.
    The problem this bill seeks to address is the kind of legal 
uncertainty that arose after Bigelow Aerospace and Moon Express 
sought payload approval from the Department of Transportation 
for its non-traditional space activities.
    The payload review and approval process is meant to prevent 
launches of payloads that jeopardize American interests and 
safety. It is not designed to satisfy the State Department's 
concerns about complying with Article VI of the Outer Space 
Treaty.
    Under the Treaty, signatories are to authorize and provide 
continuing supervision of their country's non-governmental 
space activities. In the case of Bigelow and Moon Express, the 
Executive Branch stated that it would not be able to assure the 
public that new and innovative space activities would be 
approved for launch in the future.
    The goal of this bill is not to regulate space broadly or 
to address all of the possible future challenges that the 
private sector will face in outer space. Doing so would be 
premature and likely stifle innovation and investment.
    Instead, the bill takes a common sense approach by 
establishing a legal foundation upon which U.S. industry can 
flourish.
    It establishes a transparent U.S. authorization and 
supervision certification process for non-governmental space 
activities that provides regulatory certainty for the U.S. 
commercial space sector. It assures compliance with United 
States Outer Space treaty obligations and addresses national 
security concerns in the least burdensome manner possible.
    The bill includes a provision that consolidates at the 
Department of Commerce's Office of Space Commerce existing 
regulatory authority spread across three different federal 
agencies. America gets a ``one-stop shop'' for authorizing 
activities that will take place in outer space.
    It also streamlines remote sensing regulations to ensure 
that United States national security is addressed not by 
holding America's space industry back, but by empowering it to 
lead the world.
    Absent this bill, American industry would continue to face 
legal uncertainty. Innovation would be subject to a burdensome 
and open-ended regulatory process, with no assurance of Outer 
Space Treaty compliance.
    An initial draft of the legislation before us now was 
publicly presented over a month ago for any and all input. We 
have spent the past month meeting, listening, and considering 
specific, detailed comments from outside stakeholders, 
interested federal agencies, the Administration, and our 
Committee colleagues including those from the minority side of 
this Committee. Many if not most of their recommendations and 
requested changes have been included.
    Over the past few days, we have received letters and 
statements of support for the bill from the following entities:
    AgileAero, Inc.
    Atmospheric and Environmental Research
    Atmospheric & Space Technology Research
    Axiom Space, LLC
    Bigelow Aerospace, LLC
    Blue Origin
    Carmel Research Center, Inc.
    The Commercial Spaceflight Federation
    Digital Globe, Inc.
    GeoOptics
    Moon Express Inc.
    Panasonic
    Planet Labs, Inc.
    Satellite Industry Association
    Space Frontier Foundation
    Spaceport Strategies, LLC
    Spire Global, Inc.
    Space Environment Technologies
    SpaceX
    Students for the Exploration and Development of Space, and 
TechFreedom
    Without objection, the letters we have received will be 
included in the record. I want to thank these groups for their 
support of the bill.
    Space Subcommittee Chairman Brian Babin and Representative 
Jim Bridenstine are co-authors and original co-sponsors of the 
bill. They both have worked diligently for several years to 
advance this legislation.
    I'm glad to have Representative Perlmutter and former 
Science Committee member Derek Kilmer as original co-sponsors 
as well. It speaks to the hard work of all Committee members 
and staff in developing this common sense, bipartisan, 
regulatory reform bill.
    This transformative groundbreaking legislation declares in 
word and intent that America is ``open for business'' in space. 
I strongly recommend this bill and urge my colleagues to 
support it.

    Chairman Smith. That concludes my opening statement, and 
Ranking Member, the gentlewoman from Texas, Ms. Johnson, the 
Ranking Member, is recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Thank you very much, Mr. Chairman, and I want to thank you 
for holding today's markup of H.R. 2809, the American Space 
Commerce Free Enterprise Act of 2017. I want to also thank you 
for delaying it so that we could attempt to work together. That 
is much appreciated.
    The issues that this bill attempts to address are important 
and need to be addressed. Unfortunately, I think the solutions 
provided in H.R. 2809 may cause more problems than they solve. 
For this reason, I cannot support the bill in its current form. 
I think there is a bipartisan agreement concerning the problems 
being addressed at today's markup.
    There is a regulatory gap in our current structure of 
oversight over commercial space activities. We currently 
regulate launch and reentry activities, Earth imaging, and 
space communications, but other in-orbit or deep-space 
operations are essentially unregulated. I think it is widely 
acknowledged that these orbital activities need to be more 
closely overseen, especially as the problems of space debris 
have increased.
    The other problem addressed by H.R. 2809 is in the area of 
commercial remote sensing. Again, I think there is bipartisan 
agreement that this subject needs to be addressed. U.S. 
companies are increasingly at a competitive disadvantage versus 
their foreign competitors due to the current regulatory and 
oversight situation in the United States in the area of 
commercial remote sensing. Clearly, something needs to be done 
here to align our oversight system to the realities of the 
global marketplace.
    Unfortunately, the approach the Majority has taken with 
H.R. 2809 may cause more problems than it fixes. For instance, 
instead of housing space regulatory authority at an agency with 
existing expertise and existing space regulatory activities, 
H.R. 2809 would essentially create an entirely new bureaucracy 
to implement this law. The office that this bill assigns these 
responsibilities to has a total of three full-time employees 
right now. This makes no sense to me, and it makes no sense to 
many in the stakeholder community.
    We have an existing space regulatory body, created by the 
Science Committee, and housed at the Department of 
Transportation, which has the base of expertise to implement 
this law. I think it makes much more sense to place these new 
responsibilities within this existing office rather than to 
create an entirely new and different regulatory body in a 
different Department of the government.
    Likewise, with regard to commercial remote sensing, this 
bill takes an unnecessarily expansive approach to addressing 
the problem. The underlying bill would make the Secretary of 
Commerce the judge, jury, and executioner with regard to 
national security issues raised in the commercial remote 
sensing regulatory process. This is a dramatic turn away from 
the interagency process that has historically been used to 
address national security issues in space. Again, instead of 
improving the process for commercial remote sensing, this bill 
blows up that process. I think a more incremental improvement 
to the process would be more constructive. And I think we 
should acknowledge the reality that the approach this bill 
takes with regard to national security issues and international 
obligations will likely doom any chance for enactment of this 
legislation.
    There are numerous other issues, both large and small, with 
this legislation. Many of these issues have been pointed out by 
the stakeholder community both in government and industry. I 
think if those stakeholders had been consulted prior to 
drafting this legislation, rather than as an afterthought, we 
could have avoided these problems entirely.
    We have good staff here on the Committee. For instance, my 
aerospace staff have over 100 years of combined experience 
working on these issues in government, industry, and NGO's. 
Nonetheless, even with their wealth of experience and 
expertise, I wouldn't want them to craft complex legislation 
without first consulting the full cross-section of the affected 
stakeholder community. The result of not consulting with that 
stakeholder community from the outset is that we have a bill 
before us today that is needlessly complex, unsupported by 
broad swaths of the government and industry, and very unlikely 
to be enacted into law.
    Mr. Chairman, I applaud your efforts to address two very 
real problems with our commercial space regulatory regime. 
However, I think we'd be better served by hitting the reset 
button on this legislation.
    I thank you, and I yield back.

                   Prepared Statement of Ms. Johnson

    Thank you Chairman Smith. And I want to thank you for 
holding today's markup of H.R. 2809, the American Space 
Commerce Free Enterprise Act of 2017. The issues that this bill 
attempts to address are important and need to be addressed. 
Unfortunately, I think the solutions provided in H.R. 2809 may 
cause more problems than they solve. For this reason, I cannot 
support the bill in its current form.
    I think there is a bipartisan agreement concerning the 
problems being addressed at today's markup. There is a 
regulatory gap in our current structure of oversight over 
commercial space activities.
    We currently regulate launch and reentry activities, earth 
imaging, and space communications, but other in-orbit or deep 
space operations are essentially unregulated. I think it is 
widely acknowledged that these orbital activities need to be 
more closely overseen, especially as the problems of space 
debris have increased.
    The other problem addressed by H.R. 2809 is in the area of 
commercial remote sensing. Again, I think there is bipartisan 
agreement that this subject needs to be addressed. U.S. 
companies are increasingly at a competitive disadvantage versus 
their foreign competitors due to the current regulatory and 
oversight situation in the United States in the area of 
commercial remote sensing. Clearly, something needs to be done 
here to align our oversight system to the realities of the 
global marketplace.
    Unfortunately, the approach the Majority has taken with 
H.R. 2809 may cause more problems than it will fix.
    For instance, instead of housing space regulatory authority 
at an agency with existing expertise and existing space 
regulatory activities, H.R. 2809 would essentially create an 
entirely new bureaucracy to implement this law. The office that 
this bill assigns these responsibilities to has a total of 
three full time employees right now. This makes no sense to me, 
and it makes no sense to many in the stakeholder community. We 
have an existing space regulatory body, created by the Science 
Committee, and housed at the Department of Transportation, 
which has the base of expertise to implement this law. I think 
it makes much more sense to place these new responsibilities 
within this existing office rather than to create an entirely 
new and different regulatory body in a different Department of 
the government.
    Likewise, with regard to commercial remote sensing, this 
bill takes an unnecessarily expansive approach to addressing 
the problem.
    The underlying bill would make the Secretary of Commerce 
the judge, jury, and executioner with regard to national 
security issues raised in the commercial remote sensing 
regulatory process. This is a dramatic turn away from the 
interagency process that has historically been used to address 
national security issues in space. Again, instead of improving 
the process for commercial remote sensing, this bill blows up 
that process. I think a more incremental improvement to the 
process would be more constructive. And I think we should 
acknowledge the reality that the approach this bill takes with 
regard to national security issues and international 
obligations will likely doom any chance for enactment of this 
legislation.
    There are numerous other issues, both large and small, with 
this legislation. Many of these issues have been pointed out by 
the stakeholder community both in government and industry. I 
think if those stakeholders had been consulted prior to 
drafting this legislation, rather than as an afterthought, we 
could have avoided these problems entirely. We have good staff 
here on the Committee. For instance, my aerospace staff have 
over 100 years of combined experience working on these issues 
in government, industry, and NGOs. Nonetheless, even with their 
wealth of experience and expertise, I wouldn't want them to 
craft complex legislation without first consulting the full 
cross-section of the affected stakeholder community. The result 
of not consulting with that stakeholder community from the 
outset is that we have a bill before us today that is 
needlessly complex, unsupported by broad swaths of government 
and industry, and very unlikely to be enacted into law.
    Mr. Chairman, I applaud your efforts to address two very 
real problems with our commercial space regulatory regime.
    However, I think we would be better served by hitting the 
reset button on this legislation.
    Thank you, and I yield back.

    Chairman Smith. Thank you, Ms. Johnson.
    The Chairman of the Space Subcommittee, the gentleman from 
Texas, Mr. Babin, is recognized for an opening statement.
    Mr. Babin. Thank you, Mr. Chairman. I appreciate it. Good 
morning--or good afternoon.
    I want to say that I strongly support H.R. 2809, the 
American Space Commerce Free Enterprise Act of 2017. I am 
grateful to have worked with Chairman Smith and Representative 
Bridenstine in the development of this bill. I am also very 
glad that this is a bipartisan bill, with the support of 
Representatives Perlmutter and Kilmer.
    The American Space Commerce Free Enterprise Act is a 
commonsense bipartisan bill that streamlines regulatory 
processes, limits burdensome government intrusion, promotes 
American innovation and investment, protects national security, 
and satisfies our international obligations.
    One of the fundamental drivers for this legislation has 
been that innovative American companies are pushing the 
boundaries. When the Senate ratified the Outer Space Treaty 50 
years ago, free enterprise in outer space was an idea, but not 
yet a reality. Today, not only does the U.S. free enterprise 
exist in outer space, it is innovating at an unprecedented 
pace. From asteroid mining, to private moon missions, to 
satellite servicing, to remote sensing constellations, there is 
great promise that American enterprise will soon unlock new 
wealth and scientific benefits.
    But this promise is threatened, threatened by expansive 
unchecked regulatory authority, cumbersome non-transparent 
regulatory processes, and misperceptions about United States 
Outer Space Treaty obligations.
    For several years, the Space Subcommittee has heard 
concerns from our stakeholders that they need greater 
regulatory certainty to attract investment and to succeed. 
Stakeholders also reported that while they want to stay in 
America, due to regulatory burdens and uncertainty, they might 
need to go overseas.
    The American Space Commerce Free Enterprise Act addresses 
these concerns without compromising our cherished principles of 
liberty. It provides for presumptions of approval and requires 
the government to take affirmative steps before conditioning or 
denying proposed space or remote sensing operations. It places 
the burden of demonstrating inconsistency with Outer Space 
Treaty obligations and national security requirements of the 
United States with the government and not with the applicant. 
It curtails vague, overreaching regulatory authority and 
prevents tolling of statutory adjudication timelines. It 
ensures U.S. industry receives a timely and transparent 
determination on applications.
    The bill recognizes legitimate national security equities 
and provides for the condition or denial of authorized space 
activities with remote sensing systems that are a significant 
threat to U.S. national security in certain circumstances. But 
it protects against abuses of interagency discretion by 
requiring an explanation and evidence of the threat before 
conditions or denial can be made.
    In order to ensure the Office of Space Commerce is 
empowered to represent the interests of our citizens and the 
private sector, the Director of the Office of Space Commerce is 
elevated to be the Assistant Secretary for Space Commerce.
    The Act also advances important public policy interests. 
The bill establishes a mandatory safety consultation between 
private and Federal Government operators. The goal of this 
consultation is for the affected parties to reach a voluntary 
agreement to mitigate safety risks. For parties subject to U.S. 
jurisdiction, the Act provides for Federal district court 
jurisdiction for any civil action resulting from certified or 
permitted space operations.
    To protect against foreign harmful interference, the Act 
directs the President to protect against acts of foreign 
aggression and foreign harmful interference. The Act also 
addresses concerns of harmful contamination of the Earth or of 
celestial bodies. Pursuant to our international obligations 
under the Outer Space Treaty, operations may be conditioned or 
denied by the Secretary of Commerce, in consultation with 
appropriate agencies, such as NASA to address harmful 
contamination.
    The bill posits longstanding United States policy, 
confirmed by both Department of State and NASA, that COSPAR 
planetary protection guidelines are not international 
obligations of the United States. This was done to allow all 
stakeholders, including the scientific community and industry, 
to work together as activities expand beyond scientific 
exploration and use, to address mutual interests, not by 
proscribing COSPAR guidelines as binding international law, but 
by allowing the Outer Space Treaty to guide our activities.
    I strongly support this bill and urge my colleagues to do 
the same, and I yield back, Mr. Chairman.

                    Prepared Statement of Mr. Babin

    Good afternoon. I strongly support H.R. 2809, the American 
Space Commerce Free Enterprise Act of 2017.
    I am grateful to have worked with Chairman Smith and 
Representative Bridenstine in the development of this bill. I 
am also very glad that this is a bipartisan bill, with the 
support of Representatives Perlmutter and Kilmer.
    The American Space Commerce Free Enterprise Act is a 
common-sense bipartisan bill that streamlines regulatory 
processes, limits burdensome government intrusion, promotes 
American innovation and investment, protects national security, 
and satisfies our international obligations.
    One of the fundamental drivers for this legislation has 
been that innovative American companies are pushing the 
boundaries.
    When the Senate ratified the Outer Space Treaty fifty years 
ago, free enterprise in outer space was an idea, but not yet a 
reality.
    Today, not only does U.S. free enterprise exist in outer 
space, it is innovating at an unprecedented pace. From asteroid 
mining, to private moon missions, to satellite servicing, to 
remote sensing constellations, there is great promise that 
American enterprise will soon unlock new wealth and scientific 
benefits.
    But this promise is threatened. Threatened by expansive 
unchecked regulatory authority, cumbersome non-transparent 
regulatory processes, and misperceptions about United States 
Outer Space Treaty obligations.
    For several years, the Space Subcommittee has heard 
concerns from stakeholders that they need greater regulatory 
certainty to attract investment and succeed. Stakeholders also 
reported that while they want to stay in America, due to 
regulatory burdens and uncertainty, they might need to go 
overseas.
    The American Space Commerce Free Enterprise Act addresses 
these concerns without compromising our cherished principles of 
liberty.
    It provides for presumptions of approval and requires the 
government to take affirmative steps before conditioning or 
denying proposed space or remote sensing operations.
    It places the burden of demonstrating inconsistency with 
Outer Space Treaty obligations and national security 
requirements of the United States with the government, not the 
applicant.
    It curtails vague, overreaching regulatory authority and 
prevents tolling of statutory adjudication timelines. It 
ensures U.S. industry receives a timely and transparent 
determination on applications.
    The bill recognizes legitimate national security equities 
and provides for the condition or denial of authorized space 
activities with remote sensing systems that are a significant 
threat to U.S. national security in certain circumstances. But 
it protects against abuses of interagency discretion by 
requiring an explanation and evidence of the threat before 
conditions or denial can be made.
    In order to ensure the Office of Space Commerce is 
empowered to represent the interests of our citizens and the 
private sector, the Director of the Office is elevated to be 
the ``Assistant Secretary for Space Commerce.''
    The Act also advances important public policy interests.
    The bill establishes a mandatory safety consultation 
between private and federal government operators. The goal of 
this consultation is for the affected parties to reach a 
voluntary agreement to mitigate safety risks.
    For parties subject to U.S. jurisdiction, the Act provides 
for Federal district court jurisdiction for any civil action 
resulting from certified or permitted space operations. To 
protect against foreign harmful interference, the Act directs 
the President to protect against acts of foreign aggression and 
foreign harmful interference.
    The act also addresses concerns of harmful contamination of 
the Earth or celestial bodies. Pursuant to our international 
obligations under the Outer Space Treaty, operations may be 
conditioned or denied by the Secretary of Commerce, in 
consultation with appropriate agencies, such as NASA to address 
harmful contamination. The bill posits long-standing United 
States policy, confirmed by both Department of State and NASA, 
that COSPAR planetary protection guidelines are not 
international obligations of the United States. This was done 
to allow all stakeholders, including the scientific community 
and industry, to work together as activities expand beyond 
scientific exploration and use, to address mutual interests. 
Not by proscribing COSPAR guidelines as binding international 
law, but by allowing the Outer Space Treaty to guide our 
activities.
    I strongly support this bill and urge my colleagues to do 
the same.

    Chairman Smith. Thank you, Mr. Babin.
    And the gentleman from Oklahoma, one of the principal 
authors of the bill, is recognized for his opening statement. 
Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    For several years now, there has been uncertainty around 
which government agency has the responsibility to approve 
nontraditional space activities while ensuring conformity with 
the Outer Space Treaty. This uncertainty has hurt capital 
formation and innovation. It also sends American companies 
scrambling overseas to countries such as Luxembourg and the 
United Arab Emirates. This is the exact opposite environment we 
need in this country.
    I have made solving this issue one of my top priorities in 
Congress, and as the Chairman noted, Bigelow Aerospace and Moon 
Express have been blazing a trail here. Last year, I proposed 
legislation to provide for an Enhanced Payload Review. The 
American Space Commerce Free Enterprise Act takes from that and 
builds upon much of the consensus we gained around the policies 
in that draft legislation. The American Space Commerce Free 
Enterprise Act provides certainty to industry by granting the 
ability to approve commercial space activities to a single 
authority. I want to be clear: We need a single authority. In 
this case, we've determined that the best case would be the 
Secretary of Commerce. The Office of Space Commerce will be 
elevated to a more prominent position within the Commerce 
Department and will perform a simple review of proposed 
operations to check that they are not violating the United 
States' obligations under the Outer Space Treaty. This gives 
the executive branch the tool it claims that it needs while 
instituting a clear, known, transparent, and timely process for 
American industry to prosper.
    There is discretion built into this bill for the Secretary 
to condition or even deny a certification. I think this is an 
important piece to have from a policy standpoint. However, the 
onus here to prove there is a problem is now going to be on the 
government. The message Congress is trying to send is, as the 
Chairman said, that America is open for business, especially in 
space.
    However, Congress also recognizes that there are other 
policies and interests of the United States that are affected 
by private sector space activities, one of them being national 
security. As a former Naval aviator, a current Oklahoma Air 
National Guardsman, and a Member of the House Armed Services 
Committee, there is nothing more important to me than the 
national security of the United States. I want to be clear: 
This bill actually improves the national security of the United 
States.
    This is why the American Space Commerce Free Enterprise Act 
rolls in remote sensing reform. National security interests for 
the foreseeable future will require remote sensing systems, 
many of which are now going to be provided commercially. By 
requiring a national security risk assessment during the remote 
sensing system permitting process, we are ensuring national 
security concerns are met. This has also provided an 
opportunity in this bill for us to reform the broken system of 
remote sensing licensing that is overly restrictive, thwarts 
industry, and hands an advantage to foreign competitors.
    As the author of Title II of the Commercial Space Launch 
Competitiveness Act of 2015, along with my good friend from 
Colorado, Ed Perlmutter, I have been committed to fixing this 
issue for many years. The American Space Commerce Free 
Enterprise Act improves the remote sensing permitting process 
by creating a single decision point, increasing transparency of 
the process, avoiding unnecessary reviews of technologies 
available on the market or that have already been approved, and 
preventing the interagency process from indefinitely delaying 
decisionmaking. These changes will allow our remote sensing 
industry to once again be the world leader.
    The bill also goes farther than current law to provide for 
the physical safety of U.S. Government assets in orbit. After 
operations are certificated, the government can do an 
assessment for physical safety issues, and a consultation forum 
will be held to come to a solution that can prevent any 
disastrous collisions and protect the safety of government and 
private assets.
    This bill will engender a growth in commercial space 
activity that we have not yet seen in the United States of 
America. This is a good growth of space activity. But this 
growth will continue to put further stress on the agency 
responsible for approving launches: The FAA Office of 
Commercial Space Transportation. Congress needs to be mindful 
that we must be proactive on that office as well, and I have an 
amendment to begin addressing this issue later here in the 
markup.
    Mr. Chairman, this is a very strong and a very bipartisan 
bill. This is a good place to begin the legislative process as 
we work with the rest of our House colleagues, the Senate, and 
the Administration to eventually get a solution put into law.
    I want to thank you, Chairman Smith, for all of your hard 
work on this as well as Chairman Babin. We're sending a clear 
message here today. I'm proud to support the bill, and I look 
forward to favorably reporting it out of the Science Committee.
    I'd also like to thank a couple of the staffers, 
Christopher Ingraham in my office has been working overtime on 
this, and Mr. Chairman, your staffers, Chris Wydler, Tom 
Hammond, Mike Mineiro, and Shana Dale have been on the phone 
day in and day out for many, many months now, and thank you for 
allowing them to work so hard on this bill.
    Mr. Chairman, thank you. I yield back.

                 Prepared Statement of Mr. Bridenstine

    Mr. Chairman, I am glad we are here today marking up the 
American Space Commerce Free Enterprise Act. For several years 
now, there has been uncertainty around what government agency 
has the responsibility to approve nontraditional space 
activities while ensuring conformity with the Outer Space 
Treaty. This uncertainty has hurt capital formation and 
innovation. It also sends American companies scrambling 
overseas to countries such as Luxembourg or the UAE. This is 
the exact opposite environment we need in this country.
    I have made solving this issue one of my top priorities in 
Congress. Last year, I proposed legislation to provide for an 
Enhanced Payload Review. The American Space Commerce Free 
Enterprise Act takes from that and builds upon much of the 
consensus we gained around the policies in that draft 
legislation.
    The American Space Commerce Free Enterprise Act provides 
certainty to industry by granting the ability to approve 
commercial space activities to a single authority, in this case 
the Secretary of Commerce. The Office of Space Commerce will be 
elevated to a more prominent position within the Commerce 
Department and will perform a simple review of proposed 
operations to check that they are not violating the United 
States' obligations under the Outer Space Treaty. This gives 
the executive branch the tool it claims needs while instituting 
a clear, known, transparent, and timely process for American 
industry to prosper.
    There is discretion built into this bill for the Secretary 
to condition or deny a certification. I think this is important 
to have from a policy standpoint, however, the onus to prove 
there is a problem is now on the government. The message 
Congress is trying to send is: America is open for business in 
space.
    However, Congress also recognizes that there are other 
policies and interests of the United States that are affected 
by private sector space activities, one of them being national 
security. As a former Naval aviator, current Oklahoma Air 
National Guardsman, and member of the House Armed Services 
Committee, there is nothing more important to me than the 
national security of the United States. This bill improves 
national security.
    This is why the American Space Commerce Free Enterprise Act 
rolls in remote sensing reform. National security interests - 
for the foreseeable future - will be implicated by remote 
sensing systems, both of the Earth and objects in orbit. By 
requiring a national security risk assessment during the remote 
sensing system permitting process, we are ensuring national 
security concerns are met.
    This has also provided an opportunity in this bill for us 
to majorly reform the broken system of remote sensing licensing 
that is overly restrictive, thwarts industry, and hands an 
advantage to foreign competitors. As the author of Title II of 
the Commercial Space Launch Competitiveness Act of 2015, along 
with my good friend from Colorado Ed Perlmutter, I have been 
committed to fixing this issue.
    The American Space Commerce Free Enterprise Act improves 
the remote sensing permitting process by creating a single 
decision point, increasing transparency of the process, 
avoiding unnecessary reviews of technologies available on the 
market or that have already been approved, and preventing the 
interagency process from indefinitely delaying decision making.
    These changes will allow our remote sensing industry to 
once again be the world leader.
    The bill also goes farther than current law to provide for 
the physical safety of United States government assets on 
orbit. After operations are certificated, the government can do 
an assessment for physical safety issues, and a consultation 
forum will be held to come to a solution that can prevent any 
disastrous collisions and protect the safety of government and 
private assets.
    This bill will engender a growth in commercial space 
activity that we have not yet seen. A good growth. But this 
growth will continue to put further stress on the agency 
responsible for approving launches - FAA/AST. Congress needs to 
be mindful that we must be proactive on that office as well, 
and I will have an amendment to begin addressing this issue 
later in the mark up.
    All in all Mr. Chairman, this is a very strong and 
bipartisan bill, which was very important for me that we make 
sure this bill, and space, remained bipartisan. This is a good 
place to begin the legislative process as we work with the rest 
of our House colleagues, the Senate, and the Administration to 
eventually get a solution put into law.
    I want to thank Chairman Smith and Chairman Babin for 
working with me on this, we have been working hand in hand to 
craft the American Space Commerce Free Enterprise Act, and we 
are sending a clear message that American innovation will lead 
the world. I am proud to support the bill and look forward to 
favorably reporting it out of the Science Committee.
    I'd like to thank the staff for their work on this issue: 
My staffer Christopher Ingraham, and Science Committee staffers 
Chris Wydler, Tom Hammond, Mike Mineiro, and Shana Dale.
    I yield back.

    Chairman Smith. Thank you, Mr. Bridenstine. I appreciate 
the compliments directed toward staff and the legislation as 
well.
    We will now proceed with amendments in the order listed on 
the roster. The first amendment on the roster is a Manger's 
Amendment, and the clerk will report the amendment.
    The Clerk. Amendment to H.R. 2809 offered by Mr. Smith of 
Texas, amendment #012.
    Chairman Smith. Without objection, the amendment will be 
considered as read, and I'll recognize myself in support of the 
Manager's Amendment.
    The Manager's Amendment makes technical corrections and 
minor changes to the bill. Among these, it extends the time the 
Secretary of Commerce has to adjudicate certificate and permit 
applications from 60 to 90 days. The amendment also says that 
the Secretary of Commerce shall consult as the Secretary 
considers necessary with the heads of other relevant agencies. 
This change was made to ensure that departments and agencies 
such as NASA, the Department of Defense or the Department of 
State have a way to inform Secretary of Commerce determinations 
on proposed space activities.
    However, further modifying the consultation authorities 
under the bill beyond ``shall consult as the Secretary 
considers necessary'' puts at risk the very purpose of the 
bill. Additional changes would undermine the ability of the 
Secretary to provide a fair and equitable adjudication of 
applications and open up the certification and permitting 
processes to excessive interagency control.
    Today, remote sensing systems are subject to a regulatory 
regime where at least three different departments and agencies 
have the authority to condition or deny applications. As a 
result, licensing actions occur months and even years over the 
120-day determination timeline required by law. Companies are 
applying and waiting without any understanding as to why NOAA 
takes so long to get back. Stakeholders report significant 
uncertainty with licensing actions including modifications to 
operational license conditions without notice or due process. 
American remote sensing startups want to stay in the United 
States but most plan for overseas operations due to the 
uncertainty in our current regulatory approval process.
    Experience also has taught us that while the Department of 
Transportation retains exclusive authority to make 
determinations for international obligations for laundry and 
reentry activities, inflexible consultation provisions have in 
practice become de facto concurrence authorities for other 
departments and agencies. This is not to say that the intent of 
the bill is to undermine the ability of the executive branch to 
appropriately inform the Secretary of Commerce about remote 
sensing applications. On the contrary, the proposed amendment 
will clearly provide such a process.
    We must also recognize that any major disagreement between 
the Secretary of Commerce and other departments or agencies 
regarding a proposed operation will be elevated to the White 
House for adjudication. In such interagency environments, if we 
move the needle too far in favor of other agencies, the 
Secretary of Commerce will not be able to represent the 
interests of the applicant and the national interest of free 
enterprise.
    For all these reasons, I support this amendment, and not 
only ask my colleagues to do the same, but I want to recognize 
the gentleman from Colorado, Mr. Perlmutter, and give him 
credit for these changes as well.
    Let's see. If there any further discussion on the 
amendment? The gentleman from Colorado is recognized.
    Mr. Perlmutter. Thank you, and I move to strike the last 
word.
    Chairman Smith. The gentleman is recognized for 5 minutes.
    Mr. Perlmutter. I'm here today as a supporter and cosponsor 
of H.R. 2809. The United States currently has the best 
aerospace industry in the world. In order to stay No. 1, we 
need to provide it certainty so that the industry can attract 
investment and continue innovating to push our country forward.
    We also want to help set the standard for how to regulate 
space activities so there is a level playing field for our 
American industry. That is why we need a certification process 
as provided in the bill to ensure compliance with the Outer 
Space Treaty. I understand there's still some discussion 
amongst industry and from involved agencies about where this 
authority should be placed, either within the Office of Space 
Commerce as under the bill or under the Office of Space 
Transportation at the FAA, or maybe someplace else. I hope this 
discussion continues and we reach a consecutive as we continue 
through the legislative process.
    I hope our Committee continues to also have the discussion 
on space traffic management and how to properly protect both 
U.S. Government and other U.S. commercial spacecraft to avoid 
conflicts and costly problems for everyone.
    The second part of the bill, and the Chairman was just 
referring to it, makes important reforms for the remote sensing 
industry. As many of may you know, a major remote sensing 
company named Digital Globe is headquartered in my district in 
Westminster, Colorado. I've heard the stories about how long 
they've waited for a license determination under NOAA: Over 3 
years and counting in one space. This is well past the 120-day 
deadline currently required in statute because there is no 
mechanism to enforce any timeline. This is why I believe the 
reforms in section 4 of the bill are overdue and are necessary. 
Those companies in the business, in the remote sensing 
business, need certainty so they can make sound plans and 
attract investors and customers. All of these regulatory delays 
mean lost revenue and significant expenses fighting for 
approval. Section 4 of the bill fixes that.
    I'd like to take a moment and thank Congressmen Smith, 
Babin and Bridenstine for working with me on this bill. I 
believe they've made improvements to the text of the bill 
including specific consultation language, as the Chairman just 
discussed, which requires consultation with other Federal 
agencies, ensuring proper determinations regarding the Outer 
Space Treaty, national security, and authorizing funding for 
the Office of Space Commerce.
    I'm grateful the sponsors included two provisions I asked 
for in the Manager's Amendment. You're extending the deadlines 
in the bill from 60 days to ensure the Office of Space Commerce 
has the time needed to get its decisions right. Additionally, 
the amendment strengthens the consultation language to require 
the Secretary of Commerce to consult with other relevant 
Federal agencies as he deems necessary when making the 
determinations.
    For these reasons, I support the bill and I look forward to 
continuing to improve it as it goes through the process, and I 
yield back.
    Chairman Smith. Thank you, Mr. Perlmutter, and the 
gentleman from Texas, the Chairman of the Subcommittee, is 
recognized for a statement as well.
    Mr. Babin. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Smith. The gentleman is recognized for 5 minutes.
    Mr. Babin. I wish as well to speak in favor of the 
amendment. One of the changes made by this amendment is 
extending the time that the Secretary of Commerce has to 
adjudicate certificate and permit applications from 60 to 90 
days. This change is being made after discussions with 
stakeholders and other Members, specifically, the minority. I 
believe this is a reasonable accommodation that would grant the 
Secretary of Commerce time necessary to properly adjudicate 
applications without overly burdening the applicant.
    However, I caution extending this timeline beyond 90 days. 
The Secretary and the interagency consultation process must be 
held accountable. Without a firm deadline, experience has shown 
that the interagency process can lead to long delays in 
violation of the law. Today, under existing law, remote sensing 
licenses are required to be adjudicated within 120 days. 
Reality is that applications have in some cases, as Mr. 
Perlmutter mentioned, taken years in clear violation of the 
law. We cannot repeat this mistake.
    I also completely agree with the points that Chairman Smith 
made regarding the consultation language in this amendment, and 
while a change in the consultation from ``may'' to ``shall'' is 
a reasonable change to address stakeholder concerns further 
modifying the consultation authorities under the bill beyond 
``shall consult as the Secretary considers necessary'' puts at 
risk the very purpose of this bill.
    I support this amendment and I urge my colleagues to do the 
same, and I yield back, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Babin.
    Is there any further discussion on the bill?
    If not, the gentleman from Oklahoma, Mr. Bridenstine is 
recognized.
    Mr. Bridenstine. Thank you, Mr. Chairman. I'll just be 
quick.
    I wanted to thank my friend from Colorado, Ed Perlmutter, 
because he provided a lot of great input, same with my friend 
from California, Mr. Bera, a lot of great input. We have made 
many efforts to accommodate those changes, and in fact, 
appreciate Ed for not only--Mr. Perlmutter is my enemy. How 
about that? Does that help you in your primary? No, I 
appreciate his good-faith effort in trying to make this a 
better bill, and I look forward to working with him in the 
future to make it even better.
    Chairman Smith. Thank you, Mr. Bridenstine.
    If there is no further discussion on the amendment, all in 
favor of the Manager's Amendment say aye.
    All opposed, no.
    The ayes have it, and the amendment is agreed to.
    The next amendment on the roster is the amendment in the 
nature of a substitute offered by the Ranking Member, the 
gentlewoman from Texas, and she is recognized for that purpose.
    Ms. Johnson. Thank you, Mr. Chairman. I have an amendment 
at the desk.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment in the nature of a substitute to H.R. 
2809, offered by Ms. Eddie Bernice Johnson of Texas, amendment 
#002.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the Ranking Member is recognized to 
explain her amendment.
    Ms. Johnson. Thank you.
    When I first learned that the Chairman wanted to pursue 
commercial space legislation this spring, I let him know that I 
wanted to work with him to see whether we could develop a 
bipartisan piece of legislation that all Members could support. 
Majority and minority staff tried hard to achieve such a result 
but ultimately too many significant issues still remain to be 
resolved with this bill when today's markup was noticed.
    As I mentioned in my opening remarks, many concerns were 
raised about the bill's provisions by NASA, national security 
agencies, the State Department, and industry stakeholders, 
among others. In fact, when NASA reviewed the latest version of 
the bill we're marking up today, the agency identified even 
more concerns than were included in its original set of 
comments. In short, this bill is not a bill that can be fixed 
with a few amendments at today's market.
    That said, the issues that the bill attempts to address are 
important ones. I feel an obligation to propose an alternative 
that can address these issues, not just oppose the current 
bill, and this is what my amendment is intended to do. 
Fortunately, we already have a roadmap for much of this work. 
Congress asked for and received guidance from the 
Administration last year regarding certification of innovative 
new space activities. The legislative proposal represented a 
consensus of all the agencies that will need to deal with these 
space systems and ensure they meet our national security and 
international obligations. Section 3 of my amendment 
essentially codifies that interagency consensus on mission 
certification. Among the key features of that consensus 
approach is a decision to not reinvent the wheel but instead to 
leverage the competencies that have been built up in FAA's 
Office of Commercial Space Transportation and utilize existing 
robust interagency review process. One of the strengths of that 
interagency process is that it can help provide companies and 
investors the assurance that an agency will not try to block 
their proposed activities at the last minute simply because the 
agency hadn't had an opportunity to review the proposal. As 
mentioned in my opening statement, that needn't require 
creating yet another Federal bureaucracy with all of the 
resulting costs and delays that will accompany its creation.
    In essence, the amendment takes a light-touch approach to 
regulating the emerging non-traditional commercial space 
systems. Rather than requiring page after page of convoluted 
legislative text, the amendment builds on the highly successful 
FAA space launch licensing process and provides a clean, 
straightforward path of certification of these innovative new 
space systems.
    In addition, section 3 of the amendment is consistent with 
the consensus approach endorsed by the space professionals of 
the agencies that will have to deal with these new systems in 
marked contrast to the bill being marked up today.
    With respect to commercial remote sensing licensing, my 
amendment again attempts to build on the existing process 
rather than blowing it up and starting over. The amendment 
proposes a number of reforms that have been urged by the remote 
sensing industry including shortened timetables for application 
reviews certainty that granting a license means that national 
security and international obligation concerns have been 
addressed and elevation of the remote sensing licensing 
function at the Commerce Department.
    Equally importantly, it authorizes a significant increase 
in funding for the office that will be handling these remote 
sensing licensing applications. It is hard to criticize 
Commerce for the slowness of its licensing operation when 
Congress has too often failed to provide the resources and 
staffing the licensing office needs.
    In conclusion, the amendment I'm offering today addresses 
head on the two issues that we are considering today and takes 
on an approach that is limited, allows the oversight of these 
new systems to evolve as we can more experience, and minimizes 
the cost and delays that will inevitably be incurred under the 
approach taken in this base bill.
    However, I really can count. I learned to count over 75 
years ago in Waco, Texas, and I realize that this amendment has 
very little chance of being adopted. So as I mentioned earlier, 
I don't think the issues being addressed today are inherently 
partisan and it is my hope that we can continue to work 
together and find common ground to support all aspects of the 
commercial space industry. In that light, I'm going to withdraw 
my amendment and hope that we can continue to work together to 
reach a consensus on this bill.
    So I ask consent to withdraw the amendment, and I yield 
back.
    Chairman Smith. Without objection, the amendment is 
withdrawn, and I thank the gentlewoman for her comments.
    I'm going to recognize myself in opposition to the 
amendment. Not to go into any great detail as I would have had 
it not been withdrawn, but I do want Members of the Committee 
on both sides of the aisle to recognize a little bit about the 
efforts we have made to try to make this a bipartisan piece of 
legislation.
    This Committee has worked diligently to ensure that you 
international obligations and national security interests are 
met in the least burdensome manner possible. On September 7, 
2016, the Committee held a hearing titled ``Commercial Remote 
Sensing: Facilitating Ownership and Leadership.'' On March 8th, 
2017, the Committee held a hearing on regulating space, 
innovation, liberty and international obligations. We shared a 
discussion draft of the bill before us today with the Minority, 
stakeholders, and agencies more than a month ago. We 
participated in dozens of bipartisan meetings with stakeholders 
and the Minority. We incorporated dozens of edits that were 
responsive to all parties. We circulated an updated version of 
the draft bill last week days in advance of what is required by 
Committee rules. The Minority requested 11 specific changes to 
the bill. In the interests of good faith, we accommodated as 
many as we could, a great majority, in fact.
    After making all those accommodations to the Minority, I 
was more than disappointed to see this amendment in the nature 
of a substitute, and while I won't go into all my objections to 
the amendment, I'll simply say in general the Ranking Member's 
amendment would strangle an industry in its early stages with 
burdensome regulations, force companies to relocate overseas, 
compromise national security, stifle innovation and economic 
competitiveness, and relegate the United States to a second-
rate space-faring Nation.
    I'll be happy to share my additional objections with 
Members, but in the interest of time, I'll simply say that I am 
a little bit concerned about the ability of this Committee to 
process bipartisan bills if we can't agree on this piece of 
legislation that is so widely supported by so many interest 
groups, and after all the efforts we made, all the reassurances 
that we have received, I just hope that all individuals of the 
Committee will make up their own minds and reach their own 
conclusions as to whether they think this is a good piece of 
legislation.
    That concludes my remarks, and we will now go to the third 
amendment to be offered by the gentleman from Oklahoma, Mr. 
Bridenstine.
    Mr. Bridenstine. Stand by 1 second, Chairman. OK, Mr. 
Chairman. This bill is intended to engender growth in 
commercial space activity that will be unlike any we have seen.
    Chairman Smith. The clerk will report the amendment.
    Mr. Bridenstine. Oh, yes, I have an amendment at the desk.
    The Clerk. Amendment to H.R. 2809 offered by Mr. 
Bridenstine of Oklahoma, amendment #008.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
his amendment.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    This bill is intended to engender growth in commercial 
space activity that will be unlike any we have seen. Granting 
maximum certainty with minimal regulatory burden to non-
traditional activities as well as improving the process for 
more traditional activity will encourage American entrepreneurs 
and innovators to take risks, to raise capital, and to start 
new ventures. These endeavors will need to get to space, and 
they will do hopefully on the top of American rockets, but in 
order to do that, the office that regulates and promotes the 
commercial launch industry must be well positioned to carry out 
this job efficiently and effectively.
    I have long been a vocal proponent of FAA's Office of 
Commercial Space Transportation, or sometimes called FAA AST. I 
have led the fight to provide it with increased resources and 
update the regulations under its purview. For this office to 
truly be effective, however, it cannot be buried within the FAA 
where it must compete for resources and it has to compete for 
focus. It must be moved back to the secretariat level within 
the Department of Transportation.
    My amendment is very simple. It calls for a GAO study to 
assess the pros and cons of moving FAA AST out of the FAA and 
to make it an Assistant Secretary of Transportation position 
and the issues that would need to be addressed in such a move. 
While I am a firm believer that this move must be done, I think 
that we have to have full situational awareness so that we do 
it right and that our colleagues are comfortable with doing so.
    Just a few seconds ago, Mr. Webster from Florida asked me 
how--if we were to privatize FAA how my amendment would be 
affected, and the question is a good one, and the answer is, I 
don't know. I want to make it very clear what this amendment is 
and what it does. We're just asking the GAO to do a study. If 
we were to take FAA AST, move it out of FAA move it under the 
Secretary of Transportation, and take the current Associate 
Administrator of the FAA into an Assistant Secretary of 
Transportation, that's what this study getting at. What does it 
require, what do we need to do to make that happen, and what 
will the impact be? And of course, the privatization of the FAA 
is a question that we don't if that's going to happen yet, No. 
1, and No. 2, if it does happen, what will happen to AST if 
that does happen. So Mr. Webster had a great question. 
Hopefully this study will get us more smart on what that does.
    So Mr. Chairman, if we don't address the relationship 
between what we are trying to do in the American Space Commerce 
Free Enterprise Act and the FAA AST, I fear we might be setting 
FAA AST up for failure. This amendment is a good first step in 
a process to support AST. Let me clear, when I say AST, I'm 
talking about the Office of Commercial Space Transportation. We 
want to support that office and move it back up to the 
Department of Transportation. All this amendment does is, it 
creates a study to see how we would do that, and if we did, 
what the implications would be.
    With that, I urge its adoption, and I yield back.
    Chairman Smith. Would the gentleman yield to me before he 
yields back?
    Mr. Bridenstine. Yes, sir.
    Chairman Smith. And that is simply so that I can say I want 
to thank you for offering the amendment, and I recommend it to 
my colleagues. It adds to the piece of legislation.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Chairman Smith. Are there other Members who want to be 
recognized? The gentlewoman from Texas, Ms. Johnson.
    Ms. Johnson. I just want to support that. I think we need 
that information, and I appreciate you bringing it forward.
    Chairman Smith.
    The question is on agreeing to the amendment.
    All in favor, say aye.
    All opposed, say nay.
    The ayes have it, and the amendment is agreed to.
    We will now go to our last amendment, and it's going to be 
an amendment offered by the gentleman from Colorado, Mr. 
Perlmutter. I can see his hand, and he is recognized. The 
gentleman is recognized for 5 minutes, and the clerk will 
report the amendment.
    The Clerk. Amendment to H.R. 2809 offered by Mr. Perlmutter 
of Colorado, amendment #010.
    Chairman Smith. Without objection, the amendment will be 
considered as read, and the gentleman is recognized to explain 
his amendment.
    Mr. Perlmutter. Sure. Under the bill, there is a Committee, 
Private Space Activity Advisory Committee, that's constituted 
and it has among its duties a variety of things. What this 
amendment does at page 27, line 12, it adds the Committee is 
supposed to also consider our aerospace industry's access to 
adequate, predictable and reliable ratio frequency spectrum, so 
to just make sure that spectrum is available to the aerospace 
industry, and that's all the amendment does, and with that, I 
yield back.
    Chairman Smith. Has the gentleman yielded back?
    Mr. Perlmutter. I did.
    Chairman Smith. OK. Thank you for the amendment. I'll 
recognize myself simply to say I support the amendment and urge 
my colleagues to support it as well.
    Is there any further discussion on the amendment?
    If not, all in favor, say aye.
    Opposed, no.
    The ayes have it, and the amendment is agreed to.
    We're going to go to final passage. Before he leaves the 
room, at the risk of hurting him back home, I do want to thank 
Perlmutter for substantially improving the legislation, and--
but honestly and seriously, this is a good bipartisan piece of 
legislation, and we've had others dealing with space. It is a 
wonderful subject for us to be excited about and that will 
inspire others as well.
    If there are no further amendments, a reporting quorum 
being present, I move that the Committee on Science, Space, and 
Technology report H.R. 2809 to the House as amended with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 2809 to the 
House as amended.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the Motion to Reconsider is laid upon 
the table. H.R. 2809 is ordered reported to the House.
    I ask unanimous consent that staff authorized to make any 
necessary technical and conforming changes. Without objection, 
so ordered.
    Thank you all. This was great attendance today. I 
appreciate everybody's input, and the gentlewoman from Texas, 
the Ranking Member, is recognized.
    Ms. Johnson. Mr. Chairman, this is not intended to be a 
goodbye to Mr. Perlmutter.
    Chairman Smith. We stand adjourned. Thank you, all.
    [Whereupon, at 2:38 p.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                      H.R. 2809, Amendment Roster


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                    PROCEEDINGS OF THE FULL COMMITTEE
                          MARKUP ON H.R. 2763,
                        SMALL BUSINESS INNOVATION
                      RESEARCH AND SMALL BUSINESS
                          TECHNOLOGY TRANSFER
                        IMPROVEMENTS ACT OF 2017

                              ----------                              


                        THURSDAY, JUNE 22, 2017

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:07 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lamar 
Smith [Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time. Pursuant to Committee 
Rule II(e) and House Rule XI(2)(h)(4), the Chair announces that 
he may postpone roll call votes.
    Today, we meet to consider H.R. 2763, the Small Business 
Innovation Research and Small Business Technology Transfer 
Improvements Act of 2017.
    Pursuant to notice, I now call up H.R. 2763, and the clerk 
will report the bill.
    The Clerk. H.R. 2763, a bill to amend the Small Business 
Act, to improve the Small Business Innovation Research program 
and Small Business Technology Transfer program, and for other 
purposes.
    Chairman Smith. Without objection, the bill will be 
considered as read and open for amendment at any point, and 
I'll recognize myself for an opening statement.
    First of all, I want to thank the gentleman from 
California, Mr. Knight, for introducing this legislation, which 
makes key improvements to the SBIR and STTR programs.
    The SBIR Program was signed into law by President Reagan in 
1982 to help spur innovation and increase small business 
participation in Federal research and development activity. 
Since its inception, this competitive grant program has funded 
more than 100,000 projects across America and has helped spawn 
familiar companies such as Qualcomm, Sonicare, and Symantec.
    SBIR and STTR award winners also have created innovations 
critical to our national science and security efforts, such as 
parts for the Mars Rover for NASA and a unique cockpit airbag 
system to protect Army helicopter pilots.
    Today 11 Federal agencies provide funding to small 
businesses through SBIR, and five agencies provide funding 
through STTR, a total of nearly $3 billion this fiscal year. 
That's over 66 times greater than the $45 million spent under 
the original program in 1983.
    Grant recipients have contributed to the country's 
scientific and technical knowledge, generating hundreds of 
patents and many contributions to applied science and 
knowledge. These small businesses have expanded innovation and 
helped strengthen our economy by creating jobs, thousands of 
good-paying jobs every year.
    However, as we heard at a joint hearing conducted with the 
Small Business Committee last month, there is still room for 
improvement. For example, the General Accountability Office's 
recent review of SBIR and STTR raised red flags about irregular 
and incomplete reports to Congress by the SBA and participating 
agencies.
    These are not new problems, and given the exponential 
growth in the program, it is long past time for them to be 
remedied. These assessment tools are crucial to ensure that 
taxpayers get maximum returns on their investment. We also need 
to keep in mind that these programs are intended to support 
innovators and entrepreneurs engaged in early stage research 
and development. We need to update SBIR and STTR in order to 
reflect a fast-changing business environment. Deficiencies in 
SBIR-STTR efficiency and effectiveness mean lost opportunities 
for innovative small enterprises.
    The legislation before our Committee addresses both of 
these needs, and I congratulate Mr. Knight for developing such 
a responsible, forward-looking bill. It is appropriate to note 
that Mr. Knight also serves on the Small Business Committee as 
Chairman of the Subcommittee on Contracting and Workforce, 
which shares jurisdiction over SBIR and STTR. He was a leader 
for the timely reauthorization of the SBIR and STTR programs 
last year, which assured no interruption in Federal support for 
continuing innovation and commercialization from taxpayer-
supported basic research.
    Last week, the House Small Business Committee unanimously 
approved an amended version of H.R. 2763.
    Today, I look forward to considering a handful of good 
reform and prioritization amendments, followed by our 
Committee's approval, which will move this legislation one step 
closer to House floor action and eventual enactment.

                  Prepared Statement of Chairman Smith

    I thank the gentleman from California, Mr. Knight, for 
introducing this important legislation that makes key 
improvements to the SBIR and STTR programs.
    The SBIR Program was signed into law by President Reagan in 
1982 to help spur innovation and increase small business 
participation in federal research and development activity.
    Since its inception, this competitive grant program has 
funded more than 100,000 projects across America and has helped 
spawn familiar companies such as Qualcomm, Sonicare, and 
Symantec.
    SBIR and STTR award winners also have created innovations 
critical to our national science and security efforts, such as 
parts for the Mars Rover for NASA and a unique cockpit airbag 
system to protect Army helicopter pilots.
    Today 11 federal agencies provide funding to small 
businesses through SBIR, and five agencies provide funding 
through STTR - a total of nearly $3 billion this fiscal year. 
That's over 66 times greater than the $45 million spent under 
the original program in 1983.
    Grant recipients have contributed to the country's 
scientific and technical knowledge, generating hundreds of 
patents and many contributions to applied science and 
knowledge.
    These small businesses have expanded innovation and helped 
strengthen our economy by creating thousands of good-paying 
jobs each year.
    However, as we heard at a joint hearing conducted with the 
Small Business Committee last month, there is still room for 
improvement.
    For example, the General Accountability Office's recent 
review of SBIR and STTR raised red flags about irregular and 
incomplete reports to Congress by the SBA and participating 
agencies.
    These are not new problems, and given the exponential 
growth in the program, it is long past time for them to be 
remedied. These assessment tools are crucial to ensure that 
taxpayers get maximum returns on their investment.
    We also need to keep in mind that these programs are 
intended to support innovators and entrepreneurs engaged in 
early-stage research and development.
    We need to update SBIR and STTR in order to reflect a fast-
changing business environment. Deficiencies in SBIR-STTR 
efficiency and effectiveness mean lost opportunities for 
innovative small enterprises.
    The legislation before our Committee addresses both of 
these needs, and I congratulate Mr. Knight for developing such 
a responsible, forward-looking bill.
    It is appropriate to note that Mr. Knight also serves on 
the Small Business Committee as Chairman of the Subcommittee on 
Contracting and Workforce, which shares jurisdiction over SBIR 
and STTR.
    He was a leader for the timely reauthorization of the SBIR 
and STTR programs last year, which assured no interruption in 
federal support for continuing innovation and commercialization 
from taxpayer-supported basic research.
    Last week, the House Small Business Committee unanimously 
approved an amended version of HR 2763.
    Today, I look forward to considering a handful of good 
reform and prioritization amendments, followed by our 
Committee's approval, which will move this legislation one-step 
closer to House floor action and eventual enactment.

    Chairman Smith. I now recognize the gentlewoman from Texas, 
Ms. Eddie Bernice Johnson, for her opening statement.
    Ms. Johnson. Thank you very much, Chairman, for holding 
this markup of H.R. 2763, the Small Business Innovation 
Research and Small Business Technology Transfer Improvement Act 
of 2017.
    H.R. 2763 was introduced and previously marked up by our 
colleagues on the Small Business Committee. This morning, 
Members of the Science Committee have an opportunity to debate 
and amend this important legislation.
    The Small Business Innovation Research program, or SBIR, 
was created in Congress--by Congress in 1982. Since then, it 
has grown in size from $45 million to over $2.2 billion, and 
expanded to include the Small Business Technology Transfer, or 
the STTR program.
    The mission of the SBIR program is four-fold: To stimulate 
technological innovation, to use small businesses to help meet 
Federal research and development needs, to increase private 
sector commercialization of the results of federally funded 
research, and to foster the participation of women-and 
minority-owned firms in technological innovation.
    I believe the evidence shows SBIR to be an extremely 
valuable program that we must continue to support and 
strengthen. However, I continue to believe we must consider the 
SBIR in the context of our broader Federal R&D investments.
    In December 2016, Congress provided certainty for the SBIR 
program for the next 5 years by extending its authorization 
through Fiscal Year 2022 at the current allocation level. I was 
pleased we were able to accomplish that small but important 
task.
    As grant proposal success rates at NSF and NIH sink to 
historical lows for some programs, we should be very wary of 
any actions that would further destabilize the basic research 
enterprise that serves as the foundation for our Nation's 
innovation and economic growth. I would be very happy to see 
SBIR and STTR grow in addition to funding for Federal R&D 
overall, and I'm eager to work with my colleagues on both sides 
of the aisle to make that happen.
    I will also note that the SBIR program has been evaluated 
in two rounds of reports by the National Academies. Overall, 
the Academies have found that agencies are meeting the first 
three objectives of the program, but falling short on the 
fourth objective of expanding participation of women and 
minorities. We must continue to push agencies on this 
objective. Our Nation's capacity to innovate will deteriorate 
rapidly if we keep excluding a large and growing percentage of 
our population from technological innovation and 
entrepreneurship.
    This morning, Members on both sides are preparing to offer 
substantive amendments to the Small Business Committee's 
introduced bill. We will then have to reconcile any differences 
with the Small Business Committee's amendments.
    While there will be policy issues on which we have 
disagreements, H.R. 2763 is a good bill, and I'm pleased to be 
able to work closely with the Chairman and my other Republican 
colleagues to advance it. I believe we can get to an agreement 
with the Small Business Committee and bring this bill to the 
House floor.
    I thank you again, Chairman Smith, for holding this markup 
and for making this a bipartisan and transparent process. I 
hope we can do more of this in the coming weeks.

                   Prepared Statement of Ms. Johnson

    Thank you Chairman Smith for holding this markup of H.R. 
2763, the Small Business Innovation Research and Small Business 
Technology Transfer Improvements Act of 2017. H.R. 2763 was 
introduced and previously marked up by our colleagues on the 
Small Business Committee. This morning, Members of the Science 
Committee have an opportunity to debate and amend this 
important legislation.
    The Small Business Innovation Research Program, or SBIR, 
was created by Congress in 1982. Since then, it has grown in 
size from $45 million to over $2.2 billion, and expanded to 
include the Small Business Technology Transfer, or STTR, 
Program. The mission of the SBIR program is four-fold: To 
stimulate technological innovation, to use small businesses to 
help meet federal research and development needs, to increase 
private sector commercialization of the results of federally 
funded research, and to foster the participation of women and 
minority owned firms in technological innovation.
    I believe the evidence shows SBIR to be an extremely 
valuable program that we must continue to support and 
strengthen. However, I continue to believe we must consider 
SBIR in the context of our broader Federal R&D investments.
    In December 2016, Congress provided certainty for the SBIR 
program for the next 5 years by extending its authorization 
through Fiscal Year 2022 at the current allocation level. I was 
pleased we were able to accomplish that small but important 
task. As grant proposal success rates at NSF and NIH sink to 
historical lows for some programs, we should be very wary of 
any actions that would further destabilize the basic research 
enterprise that serves as the foundation for our nation's 
innovation and economic growth. I would be very happy to see 
SBIR and STTR grow in addition to funding for Federal R&D 
overall, and I am eager to work with my colleagues on both 
sides of the aisle to make that happen. I will also note that 
the SBIR Program has been evaluated in two rounds of reports by 
The National Academies. Overall, the Academies have found that 
agencies are meeting the first three objectives of the program, 
but falling short on the fourth objective of expanding 
participation of women and minorities. We must continue to push 
agencies on this objective. Our nation's capacity to innovate 
will deteriorate rapidly if we keep excluding a large and 
growing percentage of our population from technological 
innovation and entrepreneurship.
    This morning, Members on both sides are preparing to offer 
substantive amendments to the Small Business Committee's 
introduced bill. We will then have to reconcile any differences 
with the Small Business Committee's amendments. While there 
will be policy issues on which we have disagreements, H.R. 2763 
is a good bill, and I am pleased to be able to work closely 
with the Chairman and my other Republican colleagues to advance 
it. I believe we can get to an agreement with the Small 
Business Committee and bring this bill to the House Floor.
    Thank you again, Chairman Smith, for holding this markup 
and for making this a bipartisan and transparent process. I 
hope we can do more of this in future months.
    I yield back.

    Chairman Smith. Thanks, Ms. Johnson, for that nice opening 
statement.
    The gentleman from California, Mr. Knight, the author of 
the bill, is recognized for an opening statement as well.
    Mr. Knight. Thank you, Mr. Chairman.
    H.R. 2763 is a bipartisan bill that amends the Small 
Business Act to improve the Small Business Innovation Research, 
or SBIR, and Small Business Technology Transfer (STTR) 
programs.
    Small businesses drive our economy and are key to America's 
global leadership in innovation. Small businesses are more 
nimble, can respond to market changes more rapidly than bigger 
counterparts, and make the United States more agile in the 
world economy.
    The SBIR and STTR programs have proven to be very 
successful at driving small business participation in Federal 
R&D activities, and solving government agency problems, from 
protecting soldiers in the field to helping eradicate malaria.
    Last year the Science Small Business Committees worked with 
the House and Senate Armed Services Committees to include a 5-
year extension of the SBIR and STTR programs. This provided 
small businesses and the participating agencies alike with the 
confidence and security to know that these popular programs 
will continue to be there through 2022.
    Last month, the Small Business Subcommittee on Contracting 
and Workforce that I chair held a joint hearing with the 
Science Research and Technology Subcommittee to look at 
recommendations for making minor adjustments to improve the 
SBIR and STTR. H.R. 2763 takes some of those recommendations 
and strengthens the program in five ways.
    First, the bill insists on agency accountability, including 
several hard reporting deadlines for participating agencies and 
for the Small Business Administration (SBA) to provide Congress 
with better information and a greater grasp of the programs' 
strengths and weaknesses.
    Second, the legislation clarifies congressional intent of 
the previous reauthorization to ensure that taxpayers reap the 
benefits of the SBIR and STTR programs by tying them to long-
term projects at the DOD.
    Third, the legislation extends a popular pilot program that 
would allow all participating agencies to award a phase II 
contract if the agency finds that the small business concern 
has already completed work typically done in that phase I.
    Fourth, it makes permanent the option for participating 
agencies to establish Commercialization Readiness Programs 
(CRPs). As a pilot program, CRPs have shown to provide much 
needed assistance to small firms nearing the completion of the 
process and have helped advance technology to the 
commercialization phase.
    And last, it extends a provision to allow participating 
agencies to utilize 3 percent of their allocation for 
administrative functions, increase waste, fraud, and abuse 
efforts, and conduct outreach in an effort to bring more 
companies into the SBIR and STTR world.
    It's important to note that while the SBIR and STTR 
programs provide an average of $3 billion in awards to small 
firms annually, it does so without direct appropriations. These 
programs simply provide that approximately 3.65 percent of 
already appropriated extramural R&D dollars be provided for 
small businesses through these programs.
    I look forward to working with my colleagues on both the 
Science Committee and the Small Business Committee to refine 
the bill, and move it to the floor for a vote.
    I want to thank the Chairman, Small Business Chairman 
Chabot, Chairman Smith for his leadership and supporting this 
opportunity, and I yield back the balance of my time.

                    Prepared Statement of Mr. Knight

    H.R. 2763 is a bi-partisan bill that amends the Small 
Business Act (Act), to improve the Small Business Innovation 
Research (SBIR) and Small Business Technology Transfer (STTR) 
Programs.
    Small Businesses drive our economy and are key to America's 
global leadership in innovation. Small Businesses are more 
nimble, can respond to market changes more rapidly than their 
bigger counterparts, and make the United States more agile in 
the world economy.
    The SBIR and STTR programs have proven very successful at 
driving small business participation in federal R&D activities, 
and solving government agency problems - from protecting 
soldiers in the field to helping eradicate malaria.
    Last year the Science Small Business Committees worked with 
the House and Senate Armed Services Committees to include a 5 
year extension of the SBIR and STTR programs. This provided 
small businesses and the participating agencies alike with the 
confidence and security to know that these popular programs 
will continue to be there, at least through 2022.
    Last month, the Small Business Subcommittee on Contracting 
and Workforce that I chair held a joint hearing with the 
Science Research and Technology Subcommittee to look at 
recommendations for making minor adjustments to improve the 
SBIR and STTR programs
    H.R. 2763 takes some of those recommendations and 
strengthens the program in five ways.
    First, the bill insists on agency accountability, including 
several hard reporting deadlines for participating agencies and 
for the Small Business Administration (SBA) to provide Congress 
with better information and a greater grasp of the programs' 
strengths and weaknesses.
    Second, the legislation clarifies congressional intent of 
the previous reauthorization to ensure that taxpayers reap the 
benefits of the SBIR and STTR programs by tying them to long-
term projects at the Department of Defense.
    Third, the legislation extends a popular pilot program that 
would allow all participating agencies to award a Phase II 
contract if the agency finds that the small business concern 
has already completed work typically done during Phase I.
    Fourth, it makes permanent the option for participating 
agencies to establish Commercialization Readiness Programs 
(CRPs). As a pilot program, CRPs have shown to provide much 
needed assistance to small firms nearing the completion of the 
process and have helped advance technology to the 
commercialization phase.
    Fifth, it extends a provision to allow participating 
agencies to utilize 3 percent of their allocation for 
administrative functions, increase waste, fraud, and abuse 
efforts, and conduct outreach in an effort to bring more 
companies into the SBIR and STTR world.
    It is important to note that while the SBIR and STTR 
programs provide an average of $3 billion in awards to small 
firms annually, it does so without a direct appropriation. 
These programs simply provide that approximately 3.65 percent 
of already appropriated extramural R&D dollars be reserved for 
small businesses through these programs.
    I look forward to working with my colleagues on both the 
Science Committee and the Small Business Committee to refine 
the bill, and move it to the floor for a vote.
    Thank you Mr. Chairman for your support and this 
opportunity, and I yield back.

    Chairman Smith. Thank you, Mr. Knight.
    We will now proceed with amendments in the order listed on 
the roster. The first amendment is a Manager's Amendment, and 
the clerk will report it.
    The Clerk. Amendment to H.R. 2763 offered by Mr. Smith of 
Texas.
    Chairman Smith. The amendment is considered as read, and 
I'll recognize myself to explain the amendment.
    This amendment includes several amendments that the Small 
Business Committee unanimously approved during their markup of 
H.R. 2763 last week. The amendment includes provisions that, 
one, clarify reporting deadlines and ensure Congress receives 
agency reports at the same time as the White House Office of 
Science and Technology Policy; two, helps SBIR and STTR 
grantees by increasing the portion of their award available for 
taking their ideas from concept to commercialization, creating 
more flexibility and funding guidelines for technical and 
business assistance grants, and expanding the number of local 
vendors eligible to provide services to awardees; and three, 
requires the Department of Defense to report to Congress any 
goals and incentives they devise to boost inclusion of SBIR and 
STTR develop technologies into larger programs of record.
    This amendment includes many good bipartisan efforts to 
improve the SBIR and STTR programs and strengthens the 
underlying bill, and I urge my colleagues to support the 
Manager's Amendment.
    Is there any further discussion on the Manager's Amendment? 
The gentleman from--yes--is recognized, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I speak in favor of the Manager's Amendment just quickly. 
The second provision that you mentioned that was added in the 
Small Business Committee is the Support Startup Businesses Act 
of 2017, or Startup Act, which I introduced with 
Representatives Lujan and Schneider 2 weeks ago. It enjoys 
support in both the House and the Senate. It would increase the 
cap of the amount of each SBIR and STTR awards that can be used 
for technical assistance, so I think it's very important to be 
able to pay for things like market research, intellectual 
property protection or participation in entrepreneurial 
training programs like I-Corps. So it lets small businesses use 
their funds where they know they're needed the most, and so I 
think this would be very helpful to those who receive these 
grants.
    So I thank the Chairman for the Manager's Amendment, and I 
yield back.
    Chairman Smith. Thank you, Mr. Lipinski.
    And there is no further discussion on the amendment, the 
question is on agreeing to the Manager's Amendment.
    All in favor, say aye.
    And opposed, no.
    The ayes have it, and the amendment is agreed to.
    The next amendment on the roster is offered by the 
gentleman from Georgia, Mr. Loudermilk, and does the gentleman 
wish to be recognized?
    Mr. Loudermilk. Ye, Mr. Chairman. I have an amendment at 
the desk.
    Chairman Smith. The clerk will read the amendment.
    The Clerk. Amendment to H.R. 2763 offered by Mr. Loudermilk 
of Georgia, amendment number 001.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
the amendment.
    Mr. Loudermilk. Well, thank you, Mr. Chairman.
    My amendment seeks to focus the attention of the new 
Administrator of the Small Business Administration on the fact 
that the SBA has failed to submit a statutorily required annual 
SBIR/STTR report to Congress since 2014.
    The amendment simply states that if the SBA fails to submit 
the reports on time, the Administrator's travel budget is 
frozen unless a statutorily required annual report is submitted 
to Congress.
    At the SBIR/STTR hearing several weeks ago, the GAO witness 
highlighted the SBA's failure to provide objective information 
to Congress as a major impediment to informed decisionmaking 
and a liability in terms of congressional oversight of possible 
waste, fraud, and abuse.
    I recognize this amendment is a big hammer. However, I 
think it shows Congress is serious about its oversight role and 
statutory authority no matter which party is in charge of the 
Administration.
    I ask my colleagues to support me in this amendment to 
protect and preserve the authority of Congress. I yield back.
    Chairman Smith. Thank you, Mr. Loudermilk, and I'll 
recognize myself in support of the amendment.
    Under the previous Administration, the SBA ignored a 
statutory mandate to report annually to Congress on the SBIR 
and STTR programs so that we can monitor their progress and 
conduct oversight. I trust under the new Administration and 
under the leadership of the new SBA Administrator, reports will 
be on time, but if not, this amendment gives the SBA plenty of 
incentive to follow the law. I'll recognize my colleague's 
support of the amendment as well.
    Is there any further discussion on the amendment?
    If not, all in favor say aye.
    All opposed, no.
    The ayes have it, and the amendment is agreed to.
    The next amendment on the roster is offered by the 
gentleman from Illinois, Mr. Hultgren, and he is recognized for 
that purpose.
    Mr. Hultgren. Thanks, Mr. Chairman. I have an amendment at 
the desk.
    Chairman Smith. The clerk will report the amendment.
    The Clerk. Amendment to H.R. 2763 offered by Mr. Hultgren 
of Illinois, amendment number 019.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
his amendment.
    Mr. Hultgren. Thank you, Mr. Chairman.
    My amendment encourages manufacturing innovation in the 
United States by requiring Federal agencies to give a high 
priority to the SBIR and STTR programs to small businesses 
engaged in manufacturing R&D for the purpose of developing and 
producing new products and technologies in the United States.
    American manufacturing means jobs. A thriving manufacturing 
sector is vital to our economy, putting people to work and 
driving growth. Ten percent of all Illinois workers are 
involved in manufacturing, and 12.4 percent of Illinois's gross 
domestic product is attributable to manufacturing, making up 
the largest share of Illinois GDP. Manufacturing facilities 
employ more than 27,000 workers across the 14th congressional 
District of Illinois, which I represent.
    United States must continue to innovate manufacturing 
operations, techniques and specialized products to remain 
globally competitive. Making manufacturing innovation a high 
priority in the SBIR and STTR programs is just one that 
Congress can take action to spur the manufacturing sector.
    Mr. Chairman, thank you for your support of the amendment, 
and I yield back.
    Chairman Smith. Thank you, Mr. Hultgren, and I'll recognize 
myself in support of the amendment, though my comments may not 
be quite so Illinois-centric as the gentleman's were.
    American innovation in manufacturing is critical to our 
economy and to creating the jobs of the future. The SBIR and 
STTR programs should make it a priority to encourage production 
in the United States and support new and innovative methods and 
products for manufacturing, so I urge my colleagues to support 
the amendment.
    Is there any further discussion on the amendment?
    If not, the question is on agreeing to the Hultgren 
amendment.
    All in favor, say aye.
    Opposed, no.
    The ayes have it, and the amendment is agreed to.
    Up next is an amendment to be offered by the gentleman from 
Louisiana, Mr. Higgins, and he is recognized for that purpose.
    Mr. Higgins. Mr. Chairman, I have an amendment at the desk.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment to H.R. 2763 offered by Mr. Higgins of 
Louisiana, amendment number 016.
    Chairman Smith. And without objection, the amendment is 
considered as read and the gentleman is recognized to explain 
his amendment.
    Mr. Higgins. Mr. Chairman, thank you.
    My amendment ensures that Federal agencies give high 
priority to small businesses that are engaged in cybersecurity 
research and development for awarding SBIR and STTR grants.
    Every day the American government and the U.S. businesses 
are under attack from cyber threats. Cyber criminals and 
foreign adversaries spend every hour of every day trying to 
steal our valuable personal and government information. We must 
use every tool in our arsenal to prevent, mitigate and defend 
against these attacks. Small businesses and startups are where 
some of the most innovative ideas and products exist for cyber 
warfare.
    My amendment ensures that Federal Government is harnessing 
that expertise through the SBIR and STTR programs to meet one 
of the greatest security challenges of the 21st century.
    Thank you, Mr. Chairman, for the opportunity to offer this 
amendment, and I yield back.
    Chairman Smith. Thank you, Mr. Higgins. By the way, we need 
to get you some company on the front row there.
    I'll recognize myself in support of your amendment.
    I support the gentleman's amendment and thank him for his 
leadership on cyber and other national security issues. 
Cybersecurity is a critical national priority, and Federal 
agencies should tap the SBIR and STTR programs to find 
solutions. Not all Federal agencies involved in the SBIR and 
STTR programs have cybersecurity in their missions, so I think 
we can work with our colleagues on the Small Business Committee 
to refine the language before the bill goes to the floor.
    So I urge my colleagues to support the amendment.
    Is there any further discussion?
    If not, all in favor of Mr. Higgins' amendment, say aye.
    No?
    The ayes have it, and the amendment is agreed to.
    Up next is an amendment offered by the gentleman from 
Illinois, Mr. Lipinski, and the gentleman is recognized for 
that purpose.
    Mr. Lipinski. Mr. Chairman, I have an amendment at the 
desk.
    Chairman Smith. The clerk will report the amendment.
    The Clerk. Amendment to H.R. 2763 offered by Mr. Lipinski 
of Illinois, amendment number 025.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
his amendment.
    Mr. Lipinski. Mr. Chairman, this amendment would build on 
the SBIR/STTR program by requiring that funds be directed for a 
proof of concept partnership pilot program, essentially, a 
pilot for SBIR phase zero. The program would provide grants to 
innovative technology transfer programs at universities, 
research institutes, and national laboratories.
    There are many reasons why scientists may not take the 
initial steps to see if their invention or concept has 
potential commercialization. They may lack sufficient funding, 
business expertise, or they may not have considered the 
possibility that their invention has commercial potential. 
These limitation stand in the way of scientists and engineers 
collaborating with businesses or investors to take their ideas 
to the next level.
    This amendment would provide funding for programs that 
among other things actively seek out scientific discoveries 
with commercial potential, fund technology acceleration and 
validation, and provide entrepreneurial education to scientists 
and engineers. These efforts will improve the commercialization 
rate of Federal R&D, which in turn will create jobs and 
strengthen the economy.
    This amendment was formerly introduced as the Technology 
and Research Accelerating National Security and Future Economic 
Resiliency, or TRANSFER Act, in the 113th Congress by Mr. 
Collins of New York and Mr. Kilmer of Washington, and passed 
through this Committee with bipartisan support but it was never 
enacted into law. Prior to the TRANSFER Act in the 2011 SBIR 
reauthorization, I sponsored a provision to create a phase zero 
pilot program at NIH. The NIH Centers for Accelerated 
Innovations and Research Evaluation and Commercialization Hubs, 
or REACH programs, are funded by this pilot program, and we 
heard about these during the hearing that we held on the 
reauthorization of this legislation of SBIR and STTR.
    The REACH program creates three Centers in Kentucky, 
Minnesota and New York. In their first 2 years, these three 
Centers have produced 38 patent applications filed, 14 
technology licenses negotiated, seven companies formed, 53 
SBIR/STTR proposals submitted, and 70 promising technologies in 
the pipeline. Perhaps more important than these numbers, 
though, are the regional innovation ecosystems these 
universities are helping to build.
    This amendment would help greatly expand the number of 
these types of successful centers around the country. A number 
of organizations including the National Venture Capital 
Association have expressed support for the TRANSFER Act. I urge 
the adoption of this amendment, which I think would be greatly 
helpful to the SBIR/STTR program and to American innovation, 
and I yield back.
    Chairman Smith. Thank you, Mr. Lipinski, and I'll recognize 
myself in support of the amendment, and I appreciate Mr. 
Lipinski's work on this issue over a long period of time.
    The amendment is based on the TRANSFER Act, a bipartisan 
bill that the Science Committee has passed twice. The TRANSFER 
Act helps American taxpayers see a greater return on their 
Federal R&D investments by closing the gap between federally 
funded R&D efforts and the commercialization of new products 
and technologies. This means new products, technologies and 
medicines can be brought to market faster, and I urge my 
colleagues to support the amendment.
    Is there any further discussion on the amendment?
    If not--the Ranking Member, Ms. Johnson, is recognized.
    Ms. Johnson. Thank you, Mr. Chairman. I'll make my remarks 
very brief and simply say that I do support the transfer of 
this innovative technology from lab to the market. It's a good 
idea, I supported the last one, and I ask all of us to support 
the amendment.
    Chairman Smith. Thank you, Ms. Johnson.
    The question is on the amendment.
    All in favor, say aye.
    Opposed, no.
    The ayes have it, and the amendment is agreed to.
    The next amendment is also by the gentleman from Illinois, 
Mr. Lipinski, and he is recognized for that purpose.
    Mr. Lipinski. Mr. Chairman, I have an amendment at the 
desk.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment to H.R. 2763 offered by Mr. Lipinski 
of Illinois, amendment number 035.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman recognized to explain his 
amendment.
    Mr. Lipinski. Thank you, Mr. Chairman.
    The National Science Foundation's Innovation Corps, or I-
Corps program, was created administratively by NSF in 2011 and 
authorized through language I authored, the American Innovation 
and Competitiveness Act that became law last year.
    The I-Corps program offers valuable entrepreneurial 
education to scientists and engineers who are college research 
faculty, graduate students and postdoctoral fellows. The 
purpose is to help these individuals develop new innovative 
products from the world-class research they have conducted in 
their labs.
    As everyone on this Committee knows, I've been an 
evangelist for I-Corps for the past 7 years. The program has 
had tremendous success through the NSF and has been expanded to 
other agencies including DOE, NIH, DOD, USDA and DHS. It has 
helped create new entrepreneurs and new tech jobs, and it's 
helping Federal taxpayers get the most out of their investment 
and research.
    The current I-Corps program is successful in part to its 
focus on providing specific types of education and mentoring 
that budding entrepreneurs need at this initial stage when they 
are first attempting to create a product based on research they 
have conducted in the lab. But different types of support are 
needed at later stages as a small business attempts to 
establish itself and progress toward the market. These later 
stages would be where a small business would be applying for an 
SBIR/STTR phase I or phase II grant. To help provide the needed 
assistance for small businesses receiving grants in these 
phases, my amendment directs the NSF to create I-Corps phase I 
and phase II.
    We know that there are existing business accelerators, 
university technology transfer programs, and training programs 
carried out by NSF and other Federal agencies that provide 
excellent templates for how to train and support early and mid-
stage companies in achieving growth, scale and market entry.
    If my amendment were added to this bill, NSF would convene 
experts from around the country and from a wide range of 
academic, industry and government sectors to assemble a model 
curriculum for phase I and II assistance by taking advantage of 
the best practices and lessons learned from existing programs. 
This training would be paid for out of the SBIR/STTR grants and 
only when the grant recipients believe this type of training 
would provide a better chance for the business to be 
successful; that is, it would not be required of all grantees.
    The creation of I-Corps phase I and phase II could be a big 
boost to the goal of the SBIR program by helping small 
businesses create new jobs and helping taxpayers get a better 
return on their investments than SBIR/STTR grants. This is 
something everyone can and should support.
    However, the Chairman has expressed a desire to have a 
broader discussion on this issue and to gather more information 
before moving forward. So at his request, I'm willing to 
withdraw this amendment as long as the Chairman gives me his 
assurance that we will have a hearing on this topic, hopefully 
soon, September, and then moving forward legislatively on this 
issue.
    So I thank the Chairman and will yield to the Chairman.
    Chairman Smith. OK. Thank you, Mr. Lipinski. Let me comment 
on the amendment and then respond to your suggestion as well.
    I appreciate your leadership and support of the I-Corps 
program. We do need to work with the National Science 
Foundation and external stakeholders on how to best leverage 
and build on the program's success. I look forward to working 
with the gentleman about holding a hearing to elicit ideas on 
how to strengthen the I-Corps program, encourage more 
entrepreneurs and startups, and create jobs.
    So I thank the gentleman for working with us on this issue 
and appreciate his anticipated withdrawal of the amendment.
    Mr. Lipinski. But what about that hearing?
    Chairman Smith. I will assure the gentleman that we will 
have a hearing either this millennium, this century, this 
decade, this year, this fall, and possibly in September.
    Mr. Lipinski. I hope that possibly is a little stronger 
than that, and if it is, I guess right now I'll ask unanimous 
consent to withdraw my amendment.
    Chairman Smith. OK. Thank you, Mr. Lipinski. Without 
objection, the amendment is withdrawn.
    The next amendment on the roster is offered by the 
gentleman from California, Mr. McNerney, and he is recognized.
    Mr. McNerney. I thank the Chairman. I've got an amendment 
at the desk.
    Chairman Smith. The clerk will report the amendment.
    The Clerk. Amendment to H.R. 2763 offered by Mr. McNerney 
of California, amendment number 049.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman from California is 
recognized to explain his amendment.
    Mr. McNerney. Thank you.
    One of the four objectives that Congress had in mind in 
establishing the SBIR program was to facilitate the increased 
participation by minority and disadvantaged persons in the 
technological innovation process. To date, 11 Federal agencies 
participating in the SBIR program have had participation for 
minority-owned businesses vary significantly from year to year. 
We need to address this inequity.
    My amendment requires participating Federal agencies to 
conduct outreach to minority-serving institutions and the 
faculty that conduct research at those institutions. By doing 
so, we can enhance awareness and opportunities for mosquitoes 
and disadvantaged persons about the benefits and participates--
and partnerships available through the SBIR and STTR programs. 
My amendment uses the definition under SBA that's been in place 
for decades and is widely accepted. There are a great many 
minority-serving institutions and researchers who work at these 
institutions across the country. MSIs serve high concentrations 
of minority students who have historically been 
underrepresented in higher education. For example, CSU 
Stanislaw in my district is a minority-serving institution 
that's been ranked as one of the best colleges in our Nation. 
Our country depends on innovation of MSIs and intellectual 
capital of its graduates.
    In the 21st century, the growth of the American economy is 
increasingly going to be determined by the proliferation and 
innovation of technology and STEM-focused businesses. We should 
seek ideas and partnerships across the Nation, not limiting 
opportunities. It's critical to the growth of our economy that 
minority-owned businesses are connected to the technological 
ecosystem.
    Basically, this amendment is simple. It just requires 
outreach to minority-serving institutions so there's consistent 
participation. It makes sense. I urge my colleagues to support 
it, and I yield back.
    Chairman Smith. Thank you, Mr. McNerney. I'll recognize 
myself in opposition to the amendment, but before I go into my 
objections, I wonder if the gentleman from California would 
consider withdrawing the amendment with this assurance: That I 
am almost 100 percent confident we are going to be able to 
agree on language between now and the House floor because we've 
had similar language in past bills that this Committee has 
considered. As the gentleman knows, we had a compromise that we 
were discussing. We really ran out of time before we could 
reach an agreement on the language, but again, I'm fairly 
confident that we can reach an agreement between now and the 
House floor and would like not to oppose the gentleman's 
amendment in detail right now unless he insists on it. And the 
gentleman is recognized to respond.
    Mr. McNerney. Well, I thank the Chairman for the offer, and 
I appreciate the effort that's been made. I want to continue 
that on a bipartisan basis. I think we had a little trouble 
with a couple of our definitions, and I just want to make sure 
that the Chairman understands that those are critical. They've 
been in use for decades, and we need to be careful when we 
tread down that path.
    Chairman Smith. I certainly understand that.
    Mr. McNerney. All right. With the Chairman's agreement in 
hand or cooperation in hand, I will agree to withdraw the 
amendment.
    Chairman Smith. OK. Thank you. Without objection, the 
amendment is withdrawn, and again, Mr. McNerney, I'm sure that 
we can reach some agreement on acceptable language that will be 
bipartisan.
    Mr. McNerney. All right, Mr. Chairman. With unanimous 
consent, I ask to withdraw the amendment.
    Chairman Smith. Thank you, Mr. McNerney.
    The final amendment on the roster is offered by the 
gentleman from New York, Mr. Tonko, and he is recognized for 
that purpose.
    Mr. Tonko. Mr. Chair, I have an amendment at the desk.
    Chairman Smith. The clerk will report the amendment.
    The Clerk. Amendment to H.R. 2763 offered by Mr. Tonko of 
New York, amendment number----
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
his amendment.
    Mr. Tonko. Thank you, Mr. Chair.
    This amendment expresses a sense of Congress that agencies 
should consider providing additional support for the SBIR and 
STTR programs.
    The SBIR and STTR programs are of utmost importance to our 
Nation. I am pleased to see the Committee preserve and improve 
upon these critical programs. I along with millions of our 
fellow American recognize the value of innovative research. I 
will continue to fight to strengthen funding for agencies that 
support such cutting-edge research, and by extension, funding 
for the SBIR and STTR programs.
    These programs have a proven record of driving innovation 
that has played a major role in American job creation, 
increased productivity, and United States global 
competitiveness. These programs have proven to be among the 
most successful drivers of technological innovation in our 
Nation's history, delivering more than 70,000 patents and 
revolutionary achievements in agriculture, in defense, in 
energy, health sciences, homeland security, space, 
transportation, and other fields. Thanks to phase I and phase 
II SBIR, countless jobs have been created in my own capital 
region of New York. Programs such as SBIR have helped our 
region give birth to a boon in high-technology innovation and 
economic development.
    Numerous reviews by the National Academies have found that 
the SBIR and STTR programs are achieving their ambitious 
objectives of stimulating technological innovation, increasing 
small business participation in the Federal R&D enterprise, and 
increasing the commercialization of federally funded research 
and development. In fact, the National Academies surveys of 
SBIR/STTR phase II awardees over a 10-year period found that 27 
percent of sales from National Institutions of Health-funded 
technologies and 36 percent of sales from National Science 
Foundation technologies generated more than $1 million in 
revenue.
    Demand for the popular and highly competitive SBIR program 
remains high. At the National Science Foundation, only 17.2 
percent of phase I proposals are funded, and at the National 
Institutes of Health, only 12.6 percent of phase I proposals 
are funded.
    For these reasons and more, I ask that you support this 
sense of Congress to the extent it does not undermine other 
research and development programs. Agencies should consider 
providing additional support for the SBIR and STTR programs, 
especially in technology areas that are high priority for an 
agency's mission as well as for our Nation's economy.
    Agencies are already able to provide additional support. 
This amendment encourages them to do so in cases where it would 
not undermine other research and development programs. This is 
non-binding language. It simply encourages agencies to consider 
providing additional support for these very successful 
programs.
    I recent held a roundtable in my district with SBIR and 
STTR recipients, who expressed the extraordinary value of these 
programs. I promised that I would do all that I can to support 
these critical programs--a promise I intend to keep.
    I urge my colleagues to join me in supporting this simple 
sense of Congress amendment to show our strong commitment to 
the SBIR and STTR programs.
    With that, I thank you, Mr. Chair, and I yield back the 
balance of my time.
    Chairman Smith. Thank you, Mr. Tonko, and I'll need to 
recognize myself in opposition to the amendment. But let me say 
that I appreciate both the amendment and I appreciate the 
gentleman's intent and I appreciate his desire to want to 
increase funding for these two great programs.
    However, I need to oppose the amendment. Both SBIR and STTR 
receive all of their funding from Federal agencies' research 
budgets. SBIR began with a deduction of .2 percent from 
agencies' budgets. The SBIR allocation from basic research is 
now 3.2 percent, or 16 times higher. Today, 11 Federal agencies 
provide funding to small businesses through SBIR and five 
agencies provide funding through STTR, a total of nearly $3 
billion this year. That's over six times greater than the $45 
million spent under the original program in 1983, or an average 
increase of almost 200 percent per year.
    There are other Committees in the House and Senate that 
wanted to increase the set-asides in the last reauthorization. 
Science Committee Republicans and Democrats last year stood 
together to oppose the increase in set-asides and protect 
funding for basic and fundamental research. So I can't support 
the amendment that increases the set-asides for SBIR and STTR, 
which is at the expense of Federal basic research budgets. In 
other words, I could support it but I don't want to cut the 
basic research, and I hope you understand that's the reason and 
nothing more.
    So I urge my colleagues to oppose the amendment even 
though, as I say, it's well intended, and if there was another 
way to fund it without taking it out of basic research, I'd 
support the resolution, but I need to oppose it at this point.
    Are there other Members who wish to be recognized to 
discuss the amendment? The gentlewoman from Texas, Ms. Johnson, 
is recognized.
    Ms. Johnson. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Smith. The gentlewoman is recognized for 5 
minutes.
    Ms. Johnson. I strongly support the SBIR program and would 
like to see it grow. Like Mr. Tonko, I would like to see it 
grow along with growing budgets for all of our important 
research and development programs.
    Unfortunately, under this Administration, critical science 
and technology investments at many of our agencies are under 
threat, which I believe really is the future of this Nation to 
make sure that we have strong research and development.
    The Trump Administration is even proposing to cut NIH by 20 
percent, the National Science Foundation by 11 percent. Never 
before have I seen such draconian cuts from any Administration, 
Democrat or Republican.
    I have confidence that Congress will reject many of these 
harmful proposals but I worry that even Congress will not do 
enough to ensure continued U.S. leadership in science and 
technology.
    This is simply a sense of Congress. Mr. Tonko lays out a 
strong case for why the SBIR program is a valuable part of our 
overall Federal R&D portfolio, and I associate myself with 
those comments.
    I supported the 2011 SBIR and STTR reauthorization bill 
that included a 30 percent increase for the programs. The SBIR 
and STTR programs are currently authorized through Fiscal Year 
2022 at a combine set-aside level of 3.65 percent. Given our 
current budget environment, I supported and continue to support 
the flat 5-year extension included in last year's National 
Defense Authorization Act, and I do not believe we should 
revisit the terms of that agreement.
    Mr. Tonko's amendment includes a non-binding sense of 
Congress that agencies should consider increasing their 
investments in the SBIR program without undermining other R&D 
programs. There may be some procurement agencies that would see 
a net benefit from voluntarily increasing their support by--for 
SBIR in technology areas relevant to their own mission. For 
other agencies, especially the basic research agencies, the 
tradeoff involves an increasing support for small business R&D 
and may not make--as I said in my opening statement, our basic 
research enterprise is already at risk due to flat or 
decreasing funding and the historically low proposal success 
rates. The 17.2 percent success rate for National Science 
Foundation's SBIR phase I grants as described in Mr. Tonko's 
amendment is troubling. Unfortunately, it is equal to or higher 
than the proposed success rates across most of the engineering 
directorate or at NSF.
    Other research programs at NSF are even worse off. We 
cannot afford to take any actions that would further 
destabilize the basic research foundation upon which our entire 
innovation is built.
    I want to thank Mr. Tonko for his carefully considered 
amendment, and I believe it strikes the right balance of 
supporting the SBIR programs without doing any harm to any 
important Federal reserve programs. I support this amendment 
and encourage my colleagues to do the same. This is simply a 
sense of Congress.
    Thank you, and I yield back.
    Chairman Smith. Thank you, Ms. Johnson.
    Any other Member wish to speak on this amendment?
    If not, the question is on----
    Mr. Tonko. Mr. Chair?
    Chairman Smith. Who seeks recognition?
    Mr. Tonko. Mr. Chair, if I might?
    Chairman Smith. The gentleman from New York is recognized.
    Mr. Tonko. You know, just like the global race on space in 
the 1960's, which required our total investment and focus in a 
bipartisan way to achieve victory, as we did in 1969 by landing 
an American as the first on the Moon, we're in the midst of an 
innovation global race, and I think that this Committee is 
assigned the awesome responsibility of recognizing the tools 
that we need in the kit for our industries and our Nation to 
grow successfully in this innovation race.
    I think the statement here made by the Committee is just 
that, that it's a sense of Congress. We would be recognized as 
partners with the agencies to say we do all that we can to 
provide the resources we need for SBIR and STTR.
    When I had my roundtable with the recipients from those 
programs in my district most recently, they raised the issue 
that they go to international conferences, and because these 
two programs are so successful, other nations are setting up 
like programs and they're going to go beyond what we're funding 
here and we're going to lose intellect and we're going to lose 
innovation if we don't invest and at least encourage it. It 
should be this Committee's mission to say we can do better, we 
must do better.
    With that, I yield back.
    Chairman Smith. Will the gentleman yield to me before he 
yields back?
    Mr. Tonko. Yes, sir.
    Chairman Smith. I just want to make two points, and I don't 
know that I disagree with a single word that the gentleman said 
and said well. My objections are that the funding for these 
programs have been increasing, as I mentioned a while ago, at 
almost 200 percent per year, and any money, additional money 
that goes to these two programs is going to come you f basic 
research, and I do not want to see that cut at all, and so I'll 
be happy to yield to the gentleman.
    Mr. Tonko. Yes. Thank you.
    We should also see it as our responsibility to suggest that 
perhaps these agencies need more dollars. Caving in here 
because we're limiting ourselves when we have an opportunity to 
raise that limitation that's been imposed, I'm really concerned 
about where this Administration is taking us in the midst of an 
innovation economy. It's about research, it's about innovation, 
and if we're taking those tools away, those investments away, 
if we're dumbing down, this should be an encouragement from 
this Committee to say we need to do more at these agencies that 
are in the midst of an innovation economy.
    We're transitioning into something brand new here, and now 
is not the time to just dip our toe in the water and walk away. 
We need to plunge into it and give the private sector the tools 
it needs and the partnership it requires.
    Mr. Rohrabacher. Mr. Chairman?
    Chairman Smith. Thank you, Mr. Tonko.
    Mr. Rohrabacher. Mr. Chairman?
    Chairman Smith. The gentleman from California, Mr. 
Rohrabacher, is recognized.
    Mr. Rohrabacher. Let me just note, I respect the 
gentleman's opinion and I know that there's a difference in 
approach between the two sides of the aisle but we can respect 
each other, and I do respect the idea that we need to spend 
more. That's the concept. We hear it off and on just about 
every subject. Let me just note that on this side of the aisle, 
we generally say we don't need to spend more, we need to spend 
better. We need to be more cognizant of the value of what we're 
doing, and we need to make sure that we are fine-tuning this so 
that the money that is being spent is being taken out of other 
areas of our economy, it's being spent for its best possible 
purpose.
    So I would support the Chairman's opposition, but 
respecting the other side who obviously you have a desire to 
achieve the best goals for our country, and so do we.
    Thank you very much, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The question is on agreeing to the amendment offered by Mr. 
Tonko.
    All in favor, say aye.
    All opposed, no.
    In the opinion of the Chair----
    Mr. Tonko. Mr. Chair?
    Chairman Smith [continuing]. The nos have it and the 
amendment is not agreed to.
    Mr. Tonko. Mr. Chair, I ask for a recorded vote, please.
    Chairman Smith. A recorded vote has been requested, and the 
clerk will call the roll. Mr. Perlmutter requested it too.
    The clerk will call the roll.
    The Clerk. Mr. Smith?
    Chairman Smith. No.
    The Clerk. Mr. Smith votes no.
    Mr. Lucas?
    Mr. Lucas. No.
    The Clerk. Mr. Lucas votes no.
    Mr. Rohrabacher?
    Mr. Rohrabacher. No.
    The Clerk. Mr. Rohrabacher votes no.
    Mr. Brooks?
    Mr. Brooks. No.
    The Clerk. Mr. Brooks votes no.
    Mr. Hultgren?
    Mr. Hultgren. No.
    The Clerk. Mr. Hultgren votes no.
    Mr. Posey?
    Mr. Posey. No.
    The Clerk. Mr. Posey votes no.
    Mr. Massie?
    [No response.]
    The Clerk. Mr. Bridenstine?
    [No response.]
    The Clerk. Mr. Weber?
    Mr. Weber. No.
    The Clerk. Mr. Weber votes no.
    Mr. Knight?
    Mr. Knight. No.
    The Clerk. Mr. Knight votes no.
    Mr. Babin?
    Mr. Babin. No.
    The Clerk. Mr. Babin votes no.
    Mrs. Comstock?
    Mrs. Comstock. No.
    The Clerk. Mrs. Comstock votes no.
    Mr. Palmer?
    [No response.]
    The Clerk. Mr. Loudermilk?
    Mr. Loudermilk. No.
    The Clerk. Mr. Loudermilk votes no.
    Mr. Abraham?
    Mr. Abraham. No.
    The Clerk. Mr. Abraham votes no.
    Mr. LaHood?
    Mr. LaHood. No.
    The Clerk. Mr. LaHood votes no.
    Mr. Webster?
    [No response.]
    The Clerk. Mr. Banks?
    Mr. Banks. No.
    The Clerk. Mr. Banks votes no.
    Mr. Biggs?
    Mr. Biggs. No.
    The Clerk. Mr. Biggs votes no.
    Mr. Marshall?
    Mr. Marshall. No.
    The Clerk. Mr. Marshall votes no.
    Mr. Dunn?
    Mr. Dunn. No.
    The Clerk. Mr. Dunn votes no.
    Mr. Higgins?
    Mr. Higgins. No.
    The Clerk. Mr. Higgins votes no.
    Ms. Johnson?
    Ms. Johnson. Aye.
    The Clerk. Ms. Johnson votes aye.
    Ms. Lofgren?
    Ms. Lofgren. Aye.
    The Clerk. Ms. Lofgren votes aye.
    Mr. Lipinski?
    Mr. Lipinski. Aye.
    The Clerk. Mr. Lipinski votes aye.
    Ms. Bonamici?
    [No response.]
    The Clerk. Mr. Bera?
    Mr. Bera. Aye.
    The Clerk. Mr. Bera votes aye.
    Ms. Esty?
    Ms. Esty. Aye.
    The Clerk. Ms. Esty votes aye.
    Mr. Veasey?
    Mr. Veasey. Aye.
    The Clerk. Mr. Veasey votes aye.
    Mr. Beyer?
    Mr. Beyer. Aye.
    The Clerk. Mr. Beyer votes aye.
    Ms. Rosen?
    Ms. Rosen. Aye.
    The Clerk. Ms. Rosen votes aye.
    Mr. McNerney?
    Mr. McNerney. Aye.
    The Clerk. Mr. McNerney votes aye.
    Mr. Perlmutter?
    Mr. Perlmutter. Aye.
    The Clerk. Mr. Perlmutter votes aye.
    Mr. Tonko?
    Mr. Tonko. Aye.
    The Clerk. Mr. Tonko votes aye.
    Mr. Takano?
    Mr. Takano. Aye.
    The Clerk. Mr. Takano votes aye.
    Mr. Foster?
    [No response.]
    The Clerk. Mr. Hanabusa?
    [No response.]
    The Clerk. Mr. Crist?
    Mr. Crist. Yes.
    The Clerk. Mr. Crist votes aye.
    Ms. Bonamici?
    Ms. Bonamici. Aye.
    The Clerk. Ms. Bonamici votes aye.
    Chairman Smith. Are there any Members who wish to cast 
their vote or change their vote? And if not, the clerk will 
report the vote.
    The Clerk. Mr. Chairman, 14 Members have voted aye, 18 
Members have voted nay.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. The nays have it, and the amendment is not 
agreed to.
    The gentleman from Illinois is recognized to cast a late 
vote as long as it's no. OK. Dr. Foster will be recorded as 
having voted aye.
    If there are no further amendments, a reporting quorum 
being present, I move that the Committee on Science, Space and 
Technology report H.R. 2763 to the House as amended with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 2763 to the 
House as amended.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the Motion to Reconsider is laid upon 
the table. H.R. 2763 is ordered reported to the House, and I 
ask unanimous consent that staff be authorized to make any 
necessary technical and conforming changes. Without objection, 
so ordered.
    Thank you all for a great attendance today, a great 
discussion on an important bill, and we stand adjourned.
    [Whereupon, at 10:59 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                      H.R. 2763, Amendment Roster


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                   PROCEEDINGS OF THE FULL COMMITTEE
                          MARKUP ON H.R. 1159,
                        UNITED STATES AND ISRAEL
                         SPACE COOPERATION ACT

                              ----------                              


                      THURSDAY, SEPTEMBER 28, 2017

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 9:04 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lamar 
Smith [Chairman of the Committee] presiding.

    H.R. 1159

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Pursuant to Committee Rule II(e) and House Rule 
112(2)(h)(4), the Chair announces that he may postpone roll 
call votes.
    Today we meet to consider H.R. 1159, the United States and 
Israel Space Cooperation Act and pursuant to notice, I now call 
up H.R. 1159, the United States and Israel Space Cooperation 
Act, and the clerk will report the bill.
    The Clerk. H.R. 1159, a bill to provide for continuing 
cooperation between the National Aeronautics and Space 
Administration and the Israel Space Agency, and for other 
purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    I'll recognize myself for an opening statement, and then 
the Ranking Member designee for his opening statement.
    Israel and the United States have a long history of shared 
cooperation, including space exploration and research. 
Scientists have collaborated on space research to advance both 
nations' understanding of the universe. NASA and the Israeli 
Space Agency have also formalized their cooperation in various 
agreements over the last 30 years.
    Our two countries were bonded in 2003 when the first 
Israeli astronaut, Ilan Ramon, perished along with the other 
members of the Space Shuttle Columbia crew. Since then, Israel 
and the United States have cooperated on various experiments 
and space activities to the benefit of both nations.
    On October 13th, 2015, NASA and the Israeli Space Agency 
entered into a 10-year agreement to continue cooperation on 
areas of mutual interest in space. This agreement laid out the 
terms and conditions that will facilitate future cooperation, 
including export controls, technology transfer guidelines, 
intellectual property protections, and facility and system 
access controls. These terms and conditions will ensure that 
our partnership is productive and fruitful.
    This legislation was introduced by Derek Kilmer, a former 
Member of this Committee, and Jim Bridenstine, a current 
Member. It reinforces cooperation between the United States and 
Israel, and advances our common goal of space exploration. I 
support the legislation and recommend it to my colleagues.

                  Prepared Statement of Chairman Smith

    Israel and the United States have a long history of shared 
cooperation, including space exploration and research.
    Scientists have collaborated on space research to advance 
both nations' understanding of the universe.
    NASA and the Israeli Space Agency have also formalized 
their cooperation in various agreements over the last 30 years.
    Our two countries were bonded in 2003, when the first 
Israeli astronaut, IIan Ramon, perished along with the other 
members of the Space Shuttle Columbia crew.
    Since then, Israel and the United States have cooperated on 
various experiments and space activities to the benefit of both 
nations.
    On October 13th, 2015, NASA and the Israeli Space Agency 
entered into a 10 year agreement to continue cooperation on 
areas of mutual interest in space.
    This agreement laid out the terms and conditions that will 
facilitate future cooperation, including export controls, 
technology transfer guidelines, intellectual property 
protections, and facility and system access controls. These 
terms and conditions will ensure that our partnership is 
productive and fruitful.
    This legislation was introduced by Derek Kilmer, a former 
member of this Committee, and Jim Bridenstine, a current 
member. It reinforces cooperation between the United States and 
Israel, and advances our common goal of space exploration.
    I support the legislation and recommend it to my 
colleagues.

    Chairman Smith. And now the gentleman from Virginia, Mr. 
Beyer, is recognized for his opening statement.
    Mr. Beyer. Good morning, and I want to thank our Chairman 
for holding this markup.
    Today we're marking up H.R. 1159, the United States and 
Israel Space Cooperation Act. It is sponsored by Congressman 
Derek Kilmer and Congressman Jim Bridenstine.
    One of the original objectives when Congress created NASA 
in 1958 was peaceful international cooperation. NASA's 
international collaborations have yielded many technical 
achievements. However, perhaps just as noteworthy are the 
diplomatic advances that have been achieved as the result of 
the goodwill that has been garnered from NASA's work with other 
nations.
    One of the highlights of NASA's work in this area was the 
Apollo-Soyuz flight in 1975, which provided a peaceful avenue 
of cooperation with the Soviet Union at the height of the cold 
war, and later NASA collaborated with 15 other countries to 
construct and utilize the International Space Station.
    Even today, in the midst of the many difficulties we're 
having with Russia, our ongoing collaborative work on the 
International Space Station remains a bright point in the 
relations between our country and Russia.
    The country of Israel has also been an active collaborator 
with NASA, and these collaborations have been related to 
research, education, and spaceflight. Israel has also shared 
our Nation's pain on one of the darkest days of our space 
program. As Chairman Smith noted, an Israeli astronaut, Ilan 
Ramon, was one of the astronauts who tragically perished in the 
Space Shuttle Columbia accident.
    The bill before us today will help ensure that our close 
collaboration with Israel in space will continue into the 
future, and I strongly support its passage.
    I want to thank Mr. Kilmer and Mr. Bridenstine for 
introducing this bill, and I want to thank Chairman Smith for 
holding today's markup.
    With that, sir, I yield back.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from Texas, Mr. Babin, is recognized for a 
statement.
    Mr. Babin. Thank you, Mr. Chairman.
    Good morning. Today we mark up H.R. 1159, the United States 
and Israel Space Cooperation Act.
    Israel and the United States have a very long history of 
shared cooperation including space exploration and research. 
Scientists have collaborated on space research to advance both 
nations' understanding of the universe.
    NASA and the Israeli Space Agency have also formalized 
their cooperation in various agreements over the last 30 years. 
The bond between our two countries was forged deeper with the 
tragic loss in 2003 of the Space Shuttle Columbia crew, which 
included the first Israeli astronaut, Ilan Ramon.
    Since then, Israel and the United States have cooperated on 
various experiments and space activities to the benefit of both 
of our nations. Space exploration offers humanity the 
opportunity to work toward common goals and our shared 
interests. It presents challenges of discovery that unite us 
all under a common banner regardless of our nationality.
    This legislation would reinforce the bond between the 
United States and Israel and advance our common goals of 
discovery, inspiration and exploration, and I fully support 
this legislation and recommend its swift passage.
    Thank you, and I yield back, Mr. Chairman.

                    Prepared Statement of Mr. Babin

    Good morning, I am glad you could join us for today's mark-
up of H.R. 1159, the United States and Israel Space Cooperation 
Act.
    Cooperation on the peaceful uses of outer space is special. 
Certainly, it is important to find common ground with our 
friends and allies in our profound appreciation for the 
wonderful and awe-inspiring mysteries of the cosmos.
    However, in a time of turmoil and scarce resources, it is 
also vital that any common effort produce concrete 
accomplishments and returns for our citizens as well as those 
of our close allies.
    This legislation succeeds on both accounts. It brings 
Israel and the United States closer together in the peaceful 
use and exploration of outer space. In doing so, this 
cooperation will benefit the researchers, scientists, and 
citizens of both our nations. The US has had a close 
relationship with the Israeli space program since its infancy, 
more than three decades ago. Our space cooperation with Israel 
blossomed and grew until NASA launched the first Israeli 
astronaut into space, Ilan Ramon.
    Tragically, Ilan's first flight in 2003 was the final 
voyage of the Space Shuttle Columbia. That terrible accident 
was, in some ways, a symbol of the relationship between our two 
great nations. We are bound together in times of both triumph 
and sorrow. Our journey to the stars together has been, and 
will continue to be, a symbol of our voyage together as 
nations.
    In 2015, more than 10 years after the Columbia accident, 
NASA and the Israeli Space Agency renewed their commitment to 
partnership, signing a 10-year agreement on peaceful 
cooperation in space.
    That agreement elaborated a host of conditions to protect 
sensitive information that both nations possess. It also 
reaffirmed that all existing laws and regulations would remain 
in force.
    This agreement, which will be further strengthened by the 
legislation under consideration today, will benefit both our 
nations.
    Peaceful exploration and use of space offers all humanity a 
common, noble goal; extending our collective reach further into 
the heavens. Extending that reach and broadening our 
understanding of the universe is one of the most important and 
honorable challenges we can face together.
    I believe that increasing cooperation between NASA and our 
allies is vital. It is my belief - and hope - that bringing our 
two space agencies closer together will make us more than the 
sum of our parts.
    I support the legislation and recommend its swift passage.

    Chairman Smith. Thank you, Mr. Babin.
    And the gentlewoman from Nevada, Ms. Rosen, is recognized 
for a statement as well.
    Ms. Rosen. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Smith. The gentlewoman is recognized for 5 
minutes.
    Ms. Rosen. Mr. Chairman, I want to lend my voice of support 
to this important legislation of which I'm proud to be a 
cosponsor. H.R. 1159 will reaffirm our commitment to the U.S.-
Israel relationship to robust cooperation between our two 
countries in space exploration and other scientific endeavors.
    This legislation is personally important to me both as a 
former systems analyst and computer scientist who believes 
deeply in supporting science and discovery, and also as a 
former president of the largest Reform synagogue in Nevada with 
a thriving Jewish community that cares deeply about Israel.
    In the face of increasing threats in the Middle East and 
rising global anti-Semitism, the bonds between the United 
States and Israel are more important now than they ever have 
been. Israel is a beacon of democracy in the region, a 
strategic ally and economic partner, and a friend, and for 
these reasons, we must continue to strengthen our relationship 
in a variety of areas critical to our security and economy from 
missile defense, to joint training, research and development, 
intelligence sharing, and of course, our activities in space.
    In addition to being an important diplomatic step, H.R. 
1159 is also a reaffirmation of this body's support for 
scientific discovery. It is those moments of national awe and 
wonder like the Moon landing from my childhood that inspired 
children everywhere to pursue careers in science, technology, 
engineering, and math.
    Today, by reporting this legislation out of Committee, we 
are saying with one voice that we remain committed to inspiring 
the next generation both here and in Israel and look upwards to 
pursue their dreams.
    Mr. Chairman, I strongly support this bill, and thank 
Congressmen Kilmer, Bridenstine, and Veasey for introducing it, 
and to all my colleagues on the Committee, I urge its immediate 
adoption.
    Thank you. I yield back.
    Chairman Smith. Thank you, Ms. Rosen.
    Are there any other statements?
    If not, are there any amendments?
    And if not, a reporting quorum being present, I move that 
the Committee on Science, Space, and Technology report H.R. 
1159 to the House with the recommendation that the bill be 
approved.
    The question is on favorably reporting H.R. 11159 to the 
House as amended.
    All those in favor, say aye.
    All those opposed, say nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the Motion to Reconsider is laid upon 
the table. H.R. 1159 is ordered reported to the House, and I 
ask unanimous consent that staff be authorized to make any 
necessary technical and conforming changes, and without 
objection, so ordered.
    Before we adjourn, I just want to thank all the Members who 
are present for being here. Your reward is a very quick markup, 
but I do appreciate everybody's attendance.
    The other is that we are going to start the hearing of the 
two Subcommittees, joint hearing of the two Subcommittees 
immediately, because we expect votes at 10:15 and we'd like to 
get in as much testimony and as many questions as we can. So 
anyone who is on those two Subcommittees, if you'll just remain 
maybe in your seats, we'll get going on that hearing. Anyone 
else is welcome to stay, of course, if they have an interest in 
the subject. The hearing is primarily on the past eclipse.
    So with that, thank you all for being here, and we stand 
adjourned.
    [Whereupon, at 9:12 a.m., the Committee proceeded to other 
business.]

                               Appendix:

                              ----------                              


                               H.R. 1159


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                   PROCEEDINGS OF THE FULL COMMITTEE
                         MARKUPS: H.R. 4376, 
                 THE DEPARTMENT OF ENERGY RESEARCH 
                    INFRASTRUCTURE ACT OF 2017;
                    
                    H.R. 4377, ACCELERATING AMERICAN
                   LEADERSHIP IN SCIENCE ACT OF 2017;
                   
                     H.R. 4378, NUCLEAR ENERGY RESEARCH
                      INFRASTRUCTURE ACT OF 2017;
                      
                     H.R. 4375, STEM RESEARCH AND
                      EDUCATION EFFECTIVENESS AND
                            TRANSPARENCY ACT;

                     H.R. 4323, SUPPORTING VETERANS
                          IN STEM CAREERS ACT;

                     H.R. 4254, WOMEN IN AEROSPACE
                           EDUCATION ACT; AND

                       H.R. 3397, BUILDING BLOCKS
                               OF STEM ACT

                              ----------                              


                      WEDNESDAY, NOVEMBER 15, 2017

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:04 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lamar 
Smith [Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Pursuant to Committee rule 2(e) and House rule XI(2)(h)(4), 
the Chair announces that he may postpone roll call votes.
    Today, we meet to consider H.R. 4376, the Department of 
Energy Research Infrastructure Act of 2017; H.R. 4377, the 
Accelerating American Leadership in Science Act of 2017; H.R. 
4378, the Nuclear Energy Research Infrastructure Act of 2017; 
H.R. 4375, the STEM Research and Education Effectiveness and 
Transparency Act; H.R. 4323, the Supporting Veterans in STEM 
Careers Act; H.R. 4254, the Women in Aerospace Education Act; 
and H.R. 3397, the Building Blocks of STEM Act.
    Now, all these seven bills are bipartisan bills, and we are 
only expecting one amendment on each of two bills, I believe.
    I'll recognize myself for an opening statement.
    Today, we will consider the seven bills, starting with 
three energy bills. Together, these first three bills direct 
and authorize upgrades to Department of Energy facilities 
across the country. DOE national labs host over 30,000 
researchers each year. These bills provide infrastructure 
investments that are crucial to ensuring America remains a 
leader in basic research and innovation.
    The first bill is H.R. 4376, the Department of Energy 
Research Infrastructure Act. This legislation, sponsored by 
Energy Subcommittee Vice Chairman Steve Knight and 
Representative Dan Lipinski, authorizes funds from the DOE 
Office of Science budget to complete construction of three 
science infrastructure projects. The bill provides upgrades to 
the ultraviolet and soft x-ray light source at Lawrence 
Berkeley National Lab and the x-ray laser at SLAC National 
Accelerator Lab at Stanford University, ensuring that these 
facilities remain the best in the world. These Advanced Light 
Sources facilitate research in chemistry, physics, biology, 
medicine, and manufacturing.
    The Knight bill also authorizes and directs the 
construction of the Facility for Rare Isotope Beams at Michigan 
State University through the DOE Nuclear Physics program. This 
first-of-a-kind facility will allow researchers to study a 
variety of rare isotopes, advancing science discoveries in 
fields ranging from medicine to astrophysics.
    The next energy bill is H.R. 4377, the Accelerating 
American Leadership in Science Act. This legislation authorizes 
upgrades to the Advanced Photon Source at Argonne National Lab 
and the Spallation Neutron Source at Oak Ridge National Lab. It 
also funds the construction of the Long Baseline Neutrino 
Facility, which, once completed, will be the premiere 
international facility in high-energy physics.
    I want to thank this bill's sponsors, Representative Randy 
Hultgren and Representative Bill Foster, for their longstanding 
support of basic research and investments in these best-in-the-
world science facilities.
    H.R. 4378, the Nuclear Energy Research Infrastructure Act, 
is our third energy bill today. H.R. 4378, sponsored by Energy 
Subcommittee Chairman Randy Weber and full Committee Ranking 
Member Eddie Bernice Johnson, authorizes funds to construct the 
Versatile Neutron Source, a DOE fast neutron user facility that 
will facilitate the development of the next generation of 
nuclear reactors by the private sector. Advanced nuclear 
reactor technology provides the best opportunity to make 
reliable, emission-free electricity available throughout the 
industrial and developing world. This user facility will ensure 
U.S. companies develop this critical advanced reactor 
technology in the United States.
    Next, we will consider four bipartisan STEM bills. The 
first is H.R. 4375, the STEM Research and Education Efficiency 
and Transparency Act, which requires a report to Congress on 
the effectiveness of NSF STEM education programs to help 
determine what investments work and which are not effective. 
The bill also improves the collection and reporting of data on 
individual Federal research grant applications to ensure 
transparency. I want thank Research and Technology Subcommittee 
Chairwoman, Mrs. Comstock, and Ranking Member Johnson for their 
work on STEM issues and in particular promoting opportunities 
for women in STEM.
    The next STEM bill is H.R. 4323, the Supporting Veterans in 
STEM Careers Act, which promotes veteran involvement in STEM 
education and research programs at NSF, including computer 
science and cybersecurity. The bill also establishes a 
Subcommittee at the National Science and Technology Council on 
veterans and military families.
    I thank the lead sponsors of this bill, Congressman Dunn, 
an 11-year Army veteran and M.D.; and Mr. Takano, both Members 
of this Committee and the Veterans Affairs Committee as well.
    I'd also like to acknowledge the six Science Committee 
Members who are original cosponsors of the bill and military 
veterans: Roger Marshall, Barry Loudermilk, Ralph Abraham, 
Brian Babin, Steve Knight, and Jim Banks.
    The third STEM bill is H.R. 4254, the Women in Aerospace 
Education Act, which strengthens aerospace work force 
opportunities for women. It provides for internships at 
national labs and NASA centers through the NSF Noyce Teacher 
Scholarship Program and NASA fellowship opportunities. I thank 
the sponsors, Mr. Knight and Ms. Esty, for their work on 
promoting STEM opportunities for women.
    And, Ms. Esty, I know you've been promoting that for years 
in fact, so nice to come to fruition.
    The fourth STEM bill we will consider is H.R. 3397, the 
Building Blocks of STEM Act, which directs NSF to support STEM 
education research focused on early childhood. Ms. Rosen and 
Mr. Knight are the sponsors of this bill, and we appreciate 
their work as well.

                  Prepared Statement of Chairman Smith

    Today we will consider seven bills, starting with three 
energy bills. Together, these first three bills direct and 
authorize upgrades to Department of Energy (DOE) facilities 
across the country. DOE national labs host over 30,000 
researchers each year. These bills provide infrastructure 
investments that are crucial to ensuring America remains a 
leader in basic research and innovation.
    The first bill is H.R. 4376, the Department of Energy 
Research Infrastructure Act. This legislation, sponsored by 
Energy Subcommittee Vice Chairman Steve Knight and Rep. Dan 
Lipinski, authorizes funding from the DOE Office of Science 
budget to complete construction of three science infrastructure 
projects.
    The bill provides upgrades to the ultraviolet and soft x-
ray light source at Lawrence Berkeley National Lab and the x-
ray laser at SLAC National Accelerator Lab at Stanford 
University, ensuring that these facilities remain the best in 
the world.
    These advanced light sources facilitate research in 
chemistry, physics, biology, medicine and manufacturing.
    The Knight bill also authorizes and directs the 
construction of the Facility for Rare Isotope Beams at Michigan 
State University through the DOE Nuclear Physics program. This 
first-of-a kind facility will allow researchers to study a 
variety of rare isotopes, advancing science discoveries in 
fields ranging from medicine to astrophysics.
    The next energy bill is H.R. 4377, the Accelerating 
American Leadership in Science Act. This legislation authorizes 
upgrades to the Advanced Photon Source at Argonne National Lab 
and the Spallation Neutron Source at Oak Ridge National Lab. It 
also funds the construction of the Long Baseline Neutrino 
Facility, which once completed will be the premiere 
international facility in high-energy physics.
    I want to thank this bill's sponsors, Rep. Randy Hultgren 
and Rep. Bill Foster, for their long-standing support of basic 
research and investments in these best in the world science 
facilities.
    H.R. 4378, the Nuclear Energy Research Infrastructure Act 
is our third energy bill today. H.R. 4378, sponsored by Energy 
Subcommittee Chairman Randy Weber and full Committee Ranking 
Member Eddie Bernice Johnson, authorizes funds to construct the 
Versatile Neutron Source, a DOE fast neutron user facility that 
will facilitate the development of the next generation of 
nuclear reactors by the private sector.
    Advanced nuclear reactor technology provides the best 
opportunity to make reliable, emission-free electricity 
available throughout the industrial and developing world.
    This user facility will ensure U.S. companies develop this 
critical advanced reactor technology in the United States.
    Next, we will consider four bipartisan STEM bills.
    The first is H.R. 4375, the STEM Research and Education 
Efficiency and Transparency Act, which requires a report to 
Congress on the effectiveness of NSF STEM education programs to 
help determine what investments work and which are not 
effective.
    The bill also improves the collection and reporting of data 
on individual federal research grant applications to ensure 
transparency.
    I thank the Research and Technology Subcommittee 
Chairwoman, Mrs. Comstock, and Ranking Member Johnson for their 
work on STEM issues and in particular promoting opportunities 
for women in STEM.
    The next STEM bill is H.R. 4323, the Supporting Veterans in 
STEM Careers Act, which promotes veteran involvement in STEM 
education and research programs at NSF, including computer 
science and cybersecurity.
    The bill also establishes a subcommittee at the National 
Science and Technology Council on veterans and military 
families.
    I thank the lead sponsors of this bill, Congressman Dunn - 
an 11-year Army veteran and M.D. - and Mr. Takano, both members 
of this committee and the Veterans Affairs Committee as well.
    I'd also like to acknowledge the six Science Committee 
members who are original cosponsors of the bill and military 
veterans: Roger Marshall, Barry Loudermilk, Ralph Abraham, 
Brian Babin, Steve Knight and Jim Banks.
    The third STEM bill is HR. 4254, the Women in Aerospace 
Education Act, which strengthens aerospace workforce 
opportunities for women. It provides for internships at 
national labs and NASA Centers through the NSF Noyce Teacher 
Scholarship Program and NASA fellowship opportunities.
    I thank the sponsors, Mr. Knight and Ms. Esty, for their 
work on promoting STEM opportunities for women.
    The fourth STEM bill we will consider is H.R. 3397, the 
Building Blocks of STEM Act, which directs NSF to support STEM 
education research focused on early childhood. Ms. Rosen and 
Mr. Knight are the sponsors of this bill, and we appreciate 
their work.

    Chairman Smith. I'll now recognize the Ranking Member, 
Eddie Bernice Johnson of Texas, for her opening statement.
    Ms. Johnson. Thank you very much, Chairman Smith, for 
holding today's markup of seven bills, most or all of which 
should receive bipartisan support.
    Included in today's markup are four STEM education-related 
bills: The STEM Research and Education Effectiveness and 
Transparency Act, the Supporting Veterans in STEM Careers Act, 
the Women in Aerospace Education Act, and the Building Blocks 
of STEM Act. I want to voice my support for all of these bills, 
each of which has bipartisan support.
    I myself am cosponsor of the STEM Research and Education 
Effectiveness and Transparency Act, which includes a section 
from my own STEM Opportunities Act. I strongly believe that 
encouraging STEM education, especially in historically 
underserved groups is vital to ensuring a strong future for all 
Americans. Each of these bills contribute to improving access 
to STEM education in America, and I encourage my colleagues to 
support them all.
    We are also marking up three bills which promote research 
at the Department of Energy: The Department of Energy Research 
Infrastructure Act of 2017, the Accelerating American 
Leadership in Science Act of 2017, and the Nuclear Energy 
Research Infrastructure Act of 2017. I support each of these 
bills. These bills will help to ensure that the Department of 
Energy has cutting-edge facilities to conduct the 
groundbreaking research we've come to expect of the Department.
    I'm an original cosponsor of H.R. 4378, which establishes a 
new facility that would be critical for the development of 
advanced nuclear reactors. If we want American science and 
industry to remain at the forefront, these types of DOE 
research and user facilities are essential. I urge my 
colleagues to support each of these bills, and I thank you, Mr. 
Smith. I yield back.

                   Prepared Statement of Ms. Johnson

    Thank you, Chairman Smith, for holding today's markup of 
seven bills, most or all of which should receive bipartisan 
support.
    Included in today's markup are four STEM education related 
bills: The STEM Research and Education Effectiveness and 
Transparency Act, the Supporting Veterans in STEM Careers Act, 
the Women in Aerospace Education Act, and the Building Blocks 
of STEM Act. I want to voice my support for all of these bills, 
each of which has bipartisan sponsorship.
    I myself am a cosponsor of the STEM Research and Education 
Effectiveness and Transparency Act, which includes a section 
from my own STEM Opportunities Act. I strongly believe that 
encouraging STEM education, especially in historically 
underserved groups, is vital to ensuring a strong future for 
all Americans. Each of these bills contributes to improving 
access to STEM education in America, and I encourage my 
colleagues to support them all.
    We are also marking up three bills which promote research 
at the Department of Energy: The Department of Energy Research 
Infrastructure Act of 2017, the Accelerating American 
Leadership in Science Act of 2017, and the Nuclear Energy 
Research Infrastructure Act of 2017. I support each of these 
bills.
    These bills will help to ensure that the Department of 
Energy has the cutting-edge facilities to conduct the 
groundbreaking research we have come to expect of the 
Department. I am an original cosponsor of H.R. 4378, which 
establishes a new facility that will be critical for the 
development of advanced nuclear reactors. If we want American 
science and industry to remain at the forefront, these types of 
DOE research and user facilities are essential. I urge my 
colleagues to support each of these bills.
    Thank you, Chairman Smith, and I yield back

    Chairman Smith. Thank you, Ms. Johnson.

    H.R. 4376

    Chairman Smith. Pursuant to notice, I now call up H.R. 
4376, the Department of Energy Research Infrastructure Act of 
2017, and the clerk will report the bill.
    The Clerk. H.R. 4376, a bill to direct the Secretary of 
Energy to carry out certain upgrades to research equipment and 
the construction of a research user facility and for other 
purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    And I'll recognize the sponsor of the bill, the gentleman 
from California, Mr. Knight, for his opening statement.
    Mr. Knight. Thank you, Mr. Chairman, for this opportunity 
to speak on behalf of this important legislation.
    H.R. 4376, the Department of Energy Research Infrastructure 
Act of 2017, authorizes upgrades and construction of major user 
facilities at Department of Energy national labs and 
universities. My bill will support the research infrastructure 
needed to conduct leading basic energy science and nuclear 
physics research initiatives here in the United States.
    The Advanced Light Source (ALS) at Lawrence Berkeley 
National Lab is a specialized particle accelerator that 
generates bright beams of x-ray light for scientific research. 
The proposed upgrade to this facility will ensure that DOE can 
maintain ALS's status as a world-class x-ray facility and allow 
scientists to study the structure and behavior of materials at 
extremely small scales.
    The Linac Coherent Light Source (LCLS) is the world's first 
hard x-ray, free-electron laser. The proposed upgrade to this 
facility, located at SLAC National Accelerator Laboratory at 
Stanford University, will provide a major jump in imaging 
capability and will enable researchers to perform 
groundbreaking experiments in chemistry, materials, biology, 
and energy.
    The Facility for Rare Isotope Beams (FRIB) at Michigan 
State University is a one-of-a-kind, linear accelerator user 
facility that will allow researchers to study rare isotopes and 
their properties. This facility will support research that 
expands our understanding of atomic structures and could 
facilitate discoveries in medicine and physics. The research 
infrastructure authorized by this legislation will open the 
door for American entrepreneurs to develop the next generation 
of technology and train the next generation of researchers in 
chemistry, physics, and materials science. H.R. 4376 reaffirms 
the Federal Government's key role in basic research.
    My home State of California has long been a world leader in 
advanced science and technology and is home to millions of 
entrepreneurs eager to take advantage of the best research 
facilities in the world. It's our job in Congress to make sure 
these facilities stay at the cutting edge of science, and keep 
the next generation of scientists and inventors here in the 
United States. These key user facility upgrades will enable 
transformative discoveries in basic science, and will give the 
private sector the tools they need to develop breakthrough 
technologies in medicine, manufacturing, and energy.
    In Congress, it is our responsibility to take a long-term 
view and be patient. Making smart investments can lead to the 
next big discovery. My bill funds the research infrastructure 
necessary to make those discoveries possible.
    I want to thank the Chairman. I want to thank 
Representatives Lipinski, Chairman Weber, Randy Hultgren for 
joining me as original cosponsors of this important 
legislation. I encourage my colleagues to support this bill, 
and I yield back the balance of my time.

                    Prepared Statement of Mr. Knight

    Thank you Mr. Chairman for the opportunity to speak on 
behalf of this important legislation.
    H.R. 4376, the Department of Energy Research Infrastructure 
Act of 2017, authorizes upgrades and construction of major user 
facilities at Department of Energy (DOE) national labs and 
universities.
    My bill will support the research infrastructure needed to 
conduct leading basic energy science and nuclear physics 
research initiatives here in the U.S.
    The Advanced Light Source at Lawrence Berkeley National Lab 
is a specialized particle accelerator that generates bright 
beams of x-ray light for scientific research. The proposed 
upgrade to this facility will ensure that DOE can maintain 
ALS's status as a world-class x-ray facility, and allow 
scientists to study the structure and behavior of materials at 
extremely small scales.
    The Linac Coherent Light Source is the world's first hard 
X-ray, free-electron laser. The proposed upgrade to this 
facility, located at SLAC National Accelerator Laboratory at 
Stanford University, will provide a major jump in imaging 
capability and will enable researchers to perform 
groundbreaking experiments in chemistry, materials, biology and 
energy.
    The Facility for Rare Isotope Beams at Michigan State 
University is a one-of-a-kind, linear accelerator user facility 
that will allow researchers to study rare isotopes and their 
properties. This facility will support research that expands 
our understanding of atomic structures, and could facilitate 
discoveries in medicine and physics.
    The research infrastructure authorized by this legislation 
will open the door for American entrepreneurs to develop the 
next generation of technology, and train the next generation of 
researchers in chemistry, physics and materials science.
    H.R. 4376 reaffirms the federal government's key role in 
basic research. My home state of California has long been a 
world leader in advanced science and technology and is home to 
millions of entrepreneurs eager to take advantage of the best 
research facilities in the world. It's our job in Congress to 
make sure these facilities stay at the cutting edge of science, 
and keep the next generation of scientists and inventors here 
in the United States.
    These key user facility upgrades will enable transformative 
discoveries in basic science, and will give the private sector 
the tools they need to develop breakthrough technologies in 
medicine, manufacturing and energy.
    In Congress, it is our responsibility to take the long-term 
view and be patient, making smart investments that can lead to 
the next big discovery. My bill funds the research 
infrastructure necessary to make those discoveries possible.
    I want to thank Rep. Dan Lipinski, Chairman Lamar Smith, 
Energy Subcommittee Chairman Randy Weber and Rep. Randy 
Hultgren for joining me as original cosponsors of this 
important legislation.
    I encourage my colleagues to support this bill, and I yield 
back the balance of my time.

    Chairman Smith. OK. Thank you, Mr. Knight.
    And the gentleman from Illinois, Mr. Lipinski, is 
recognized.
    Mr. Lipinski. Thank you, Mr. Chairman. Thank you for 
bringing forth these bipartisan bills today.
    I want to thank my colleague from California, Mr. Knight, 
for introducing this bill. I'm very happy to join him on the 
bill. I also--I mention my support for the next two bills that 
we are going to be considering: The Accelerating American 
Leadership in Science Act and Nuclear Energy Infrastructure 
Act. All these bills authorize funding for critical research 
facilities that are within the Department of Energy. The 
projects funded by these bills will support world-class 
research facilities that are important for advancing fields of 
energy, medicine, material science, geology, chemistry, and 
many others. Not only do these research facilities advance our 
scientific understanding, they also serve as tools to improve 
our national security and support new product development.
    One of the projects being authorized today is the Advanced 
Photon Source Upgrade at Argonne National Lab, which is in my 
district and also in Mr. Foster's district.
    In addition to universities around the country, its user 
community for the Advanced Photon Source include major 
corporations such as Dow Chemical, Ford Motor Company, and GE, 
so it has a great user base, very important for industry.
    All of these large-scale DOE research tools are national 
assets of a scale that only a Federal Government can provide, 
and it's our investment in them that makes the United States a 
world leader in research and innovation.
    I want to urge my colleagues to support all these bills, 
and I will yield back.
    Chairman Smith. Thank you, Mr. Lipinski.
    And the gentlewoman from Texas, Ms. Johnson, is recognized 
for her statement.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    This legislation includes authorizations of important 
upgrades for Department of Energy user facilities that are 
really vital to the U.S. scientific enterprise. Our 
laboratories are the crown jewels of American innovation, and 
the user-driven science facilities at those laboratories and at 
our universities are the foundation on which our leadership in 
science is built. I'm very pleased to see this bipartisan 
effort to expand our research capabilities of DOE, and I'm sure 
this is an area in which we can continue to work together.
    I strongly support the passage of H.R. 4376, the Department 
of Energy Research Infrastructure Act of 2017, and I hope my 
colleagues will join me in ensuring that this swift 
consideration goes to the floor.
    Thank you, Mr. Chairman. I yield back.

                   Prepared Statement of Ms. Johnson

    Thank you, Mr. Chairman.
    This legislation includes authorizations of important 
upgrades to Department of Energy user facilities that are vital 
to the U.S. scientific enterprise. Our laboratories are the 
crown jewels of American innovation and the user-driven science 
facilities at those laboratories and at our universities are 
the foundation on which our leadership in science is built.
    I am very pleased to see this bipartisan effort to expand 
our research capabilities at DOE. I am sure this is an area in 
which we can continue to work together.
    I strongly support the passage of H.R. 4376, the Department 
of Energy Research Infrastructure Act of 2017 and I hope my 
colleagues will join me in ensuring its swift consideration on 
the House floor.
    Thank you, Mr. Chairman, I yield back.

    Chairman Smith. Thank you, Ms. Johnson.
    If there's no further discussion, a reporting quorum being 
present, I move that the Committee on Science, Space, and 
Technology report H.R. 4376 to the House with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 4376 to the 
House.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the motion to reconsider is laid upon 
the table. H.R. 4376 is ordered reported to the House.
    I ask unanimous consent that staff be authorized to make 
any necessary technical and conforming changes, and without 
objection, so ordered.

    H.R. 4377

    Chairman Smith. We will now go to H.R. 4377, and pursuant 
to notice, I call up H.R. 4377, the Accelerating American 
Leadership in Science Act of 2017, and the clerk will report 
the bill.
    The Clerk. H.R. 4377, a bill to direct the Secretary of 
Energy to carry out an upgrade to research equipment and 
construction and construct research user facilities and for 
other purposes.
    Chairman Smith. And without objection, the bill is read--
considered as read and open for amendment at any point.
    I'll recognize the sponsor of the bill, Mr. Hultgren, for 
his statement.
    Mr. Hultgren. Thank you so much, Chairman Smith. Thank you, 
and I want to let you know how much I appreciate your work on 
this, Chairman, and the Committee's work to get this 
legislation moving forward. I'd also like to thank my 
colleagues from Illinois, Mr. Foster and Mr. Lipinski, for 
their support on this legislation. And I commend the Chairman 
of the Energy Subcommittee, Mr. Weber, and the gentleman from 
California, Mr. Knight, for their work on this bill and other 
legislation to maintain American leadership in research 
infrastructure.
    I'd like to express my strong support for H.R. 4377, the 
Accelerating American Leadership in Science Act. This 
legislation authorizes priority research needs at our national 
laboratories and comes after extensive work with the scientific 
community and the Department of Energy Advisory Committees 
laying out a responsible path forward for America to maintain 
and build on our leadership role in scientific research.
    Last night, the American winners of this year's Nobel Prize 
visited Washington, DC, and had a reception at the Ambassador 
of Sweden's residence. The prize ceremony in Sweden will be 
early next month.
    We have the bulk of this year's winners, which is not 
unusual. The United States has nearly three times the number of 
Nobel Laureates than any other country. And this is not by 
chance. Before World War II, most countries were neck-and-neck. 
After the war, America realized that leadership in science was 
vital for our national security, as well as for our 
competitiveness. It was our national labs, borne out of the 
Manhattan Project, that gave our research community access the 
tools which no one university or company could ever maintain. 
This legislation continues our commitment to American 
leadership.
    This bill authorizes construction of the Long Baseline 
Neutrino Facility, which this Committee heard about when it was 
first proposed by the High Energy Physics Advisory Panel's P5 
report. I was at the groundbreaking of the far site in South 
Dakota earlier this year, and the international community has 
already pledge support for--of over $100 million dollars to be 
a part of this. This is an exciting time in science where more 
projects are becoming international.
    Upgrades to the Advanced Photon Source maintain our 
leadership status in x-ray science, which have applications 
that have led to two Nobel Prizes in chemistry, as well as 
treatments for HIV and improvements in advanced manufacturing. 
These upgrades are again responding to the research community, 
and APS is already serving more than 6,000 researchers every 
year.
    Upgrades to the Oak Ridge Spallation Neutron Source were 
again called out by the Basic Energy Science Advisory 
Committee, calling these upgrades, and I quote, ``absolutely 
central to contribute to world-leading science,'' end quote. 
These upgrades would give the United States the most intense 
pulsed neutron beam in the world, serving researchers looking 
at material properties at the atomic level. Again, I'd like to 
thank my colleagues for their work on this legislation and I 
urge passage by this Committee as we try to bring this to the 
floor.
    And with that, Chairman, I yield back.

                   Prepared Statement of Mr. Hultgren

    Thank you chairman, and I appreciate your and the 
committee's work on this legislation.
    I'd also like to thank my colleagues from Illinois, Reps. 
Foster and Lipinski, for their support on this legislation. And 
I commend the Chairman of the Energy Subcommittee, Mr. Weber, 
and the gentleman from California, Mr. Knight, for their work 
on this bill and other legislation to maintain American 
leadership in research infrastructure.
    I'd like to express my strong support for H.R. 4377, the 
Accelerating American Leadership in Science Act. This 
legislation authorizes priority research needs at our national 
laboratories and comes after extensive work with the scientific 
community, and the Department of Energy Advisory Committees, 
laying out a responsible path forward for America to maintain, 
and build on, our leadership role in scientific research.
    Last night the American winners of this year's Nobel prizes 
visited Washington, D.C., and had a reception at the Ambassador 
of Sweden's residence. The Prize ceremony in Sweden will be 
early next month. We have the bulk of this year's winners, 
which is not unusual. The United States has nearly three times 
the number of Nobel Laureates than any other country. And this 
is not by chance. Before World War Two, most countries were 
neck-in-neck. After the war, America realized that leadership 
in science was vital for our national security as well as our 
competitiveness. It was our National Labs, born out of the 
Manhattan Project, that gave our research community access the 
tools which no one university or company could ever maintain.
    This legislation continues our commitment to American 
leadership.
    This bill authorizes construction of the Long Baseline 
Neutrino Facility, which this committee heard about when it was 
first proposed by the High Energy Physics Advisory Panel's P5 
report. I was at the ground breaking of the far site in South 
Dakota earlier this year, and the international community has 
already pledge support for over 100 million dollars to be a 
part. This is an exciting time in science where more projects 
are becoming international, which we should build on.
    Upgrades to the Advanced Photon Source (APS) maintain our 
leadership status in xray science, which have applications that 
have led to two Nobel prizes in chemistry, as well as 
treatments for HIV and improvements in advanced manufacturing. 
These upgrades are again responding to the research community, 
and APS is already serving more than 6,000 researchers every 
year.
    Upgrades to the Oak Ridge Spallation Neutron Source were 
again called out by the Basic Energy Science Advisory 
Committee, calling these upgrades ``absolutely central to 
contribute to world leading science.'' These upgrades would 
give the United States the most intense pulsed neutron beam in 
the world, serving researchers looking at material properties 
at the atomic level.
    Again, I would like to thank my colleagues for their work 
on this legislation and I urge passage by the committee as we 
try to bring this to the floor.

    Chairman Smith. Thank you, Mr. Hultgren.
    And the--another gentleman from Illinois is recognized for 
his opening statement, Mr. Foster.
    Mr. Foster. Thank you, Chairman Smith and Ranking Member 
Johnson, for holding this markup. I am proud to be offering 
this bipartisan bill with my colleague, Mr. Hultgren from 
Illinois, to authorize funding for three important projects: 
Argonne's Advanced Photon Source, Fermilab's Long Baseline 
Neutrino Facility, and Oak Ridge's Spallation Neutron Source 
Proton Power Upgrade. I also want to thank Mr. Knight and Mr. 
Lipinski, Mr. Weber, and Chairman Smith for their support as 
cosponsors of this bill as well.
    The United States has been at the forefront of innovation 
and progress largely due to our investment in scientific 
research. The Department of Energy laboratories have made 
scientific discoveries that will be in the science textbooks 
forever and have helped raise the standard of living for 
millions of Americans. This scientific progress requires us to 
take a long view. Discoveries--most discoveries are not made 
overnight, and experiments need sustained attention and 
resources for us to learn from them. Similarly, our scientific 
infrastructure requires long-term sustained funding to ensure 
opportunities are not missed.
    Experiments conducted at Argonne National Laboratory's 
Advanced Photon Source, or APS, support both discovery science 
and market-driven research. Pharmaceutical research at the APS 
has yielded lifesaving new drugs for HIV, melanoma, and renal 
cell carcinoma. Industrial chemists have used the APS to 
develop energy-saving solar shingles while combustion 
researchers have developed a process that's led to cleaner 
diesel engines. And research conducted at the APS led to a 
Nobel Prize in chemistry in 2012 for work on G coupled protein 
receptors, which are helping us develop more effective 
medications to aid in our fight against opioid addiction.
    The APS needs to be upgraded to ensure American scientists 
and companies continue to have access to the best scientific 
equipment in the world. The APS upgrade will use next-
generation technology to make the APS hundreds of times 
brighter, opening up scientific frontiers at the nanoscale that 
are completely inaccessible today. The upgrade leverages the 
existing infrastructure, valued at about $1.5 billion, while 
applying new technologies to create a world-leading facility at 
substantially less cost than a new facility. This technology 
includes some really incredible magnets that someone who has 
spent a lot of his life optimizing magnet pole tip designs, 
these are right at the edge of what is possible, and I have 
great respect for our ability to pull this off. With this 
upgrade, the APS will become the ultimate 3-D microscope, and 
without it, the United States would lose its leadership in x-
ray science to Europe, Japan, and China.
    The second critical project this bill authorizes is the 
LBNF DUNE project, which is critical to maintaining U.S. 
leadership in high-energy physics and fundamental science. This 
facility, located at Fermi National Accelerator Laboratory in 
Batavia, Illinois, where I worked for 25 years and raised my 
family, and also at the Stanford--Sanford Underground Research 
Facility in Lead, South Dakota, will be the first major 
international world-class facility to be hosted by the United 
States.
    Neutrinos are most--among the most abundant and fascinating 
particles in the universe, and understanding their nature may 
provide the key to understanding some of the most fundamental 
questions about the nature of our universe. LBNF DUNE would be 
the most powerful tool in the world to study these particles 
and would help solidify the Department of Energy's high-energy 
physics program as a world leader. More than 770 scientists 
from 150 institutions in 26 countries stand ready to contribute 
scientifically and with materials to the LBNF DUNE project, and 
I urge this Subcommittee to provide full and robust funding for 
the Department of Energy's high-energy physics account.
    And finally, the third project authorizes the Oak Ridge 
Spallation Neutron Source Proton Power Upgrade. Oak Ridge's 
National Laboratory's Spallation Neutron Source is the most 
powerful pulsed neutron experimental facility in the world. It 
provides researchers with a variety--in a variety of different 
disciplines with the capabilities to make precise measurements 
and answer the crucial fundamental questions that drive their 
research. But there are international competitors particularly 
in Europe that are challenging that leadership.
    The proposal upgrades included in this bill, the second 
target station and proton power upgrade, will enable this 
facility to significantly increase the number of academic and 
industrial researchers that it can serve and to maintain its 
world-leading capabilities.
    I'd also like to take note of the Department of Energy's 
very thoughtful leadership of this project from the start. One 
of the toughest things in a new project is trying to figure out 
how much scope to leave for potential upgrades, and it was done 
very well and very intelligently in the initial Spallation 
Neutron Source design. It's making this upgrade much cheaper 
than it would have been had it simply been taped on at the end 
of the project.
    Investments in these projects and our broader scientific 
infrastructure are the only way to ensure that America remains 
an international leader.
    Thank you, and I urge my colleagues to support this bill 
and yield back the balance of my time.
    Chairman Smith. Thank you, Mr. Foster.
    And the gentlewoman from Texas, Ms. Johnson, is recognized 
for her opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Similar to the previous bill, this legislation would 
authorize upgrades to the Department of Energy's user 
facilities that were recommended by the Basic Energy Science 
Advisory Committee. These upgrades are critical to U.S. 
leadership in fundamental science and are important tools for 
industry and university researchers. These investments could 
significantly expand the number of users that can access these 
facilities.
    On that note, I'm encouraged to see the inclusion of 
explicit authorization levels in the bill that we are 
considering today.
    I'd like to thank Congressman Foster for his work on the 
Committee in highlighting the value of these user facilities, 
and of course he has personal experience. He is likely the only 
Member of Congress who can draw on his personal experience in 
supporting this work.
    And I hope we can continue this bipartisan collaboration to 
authorize other vital research activities at the Federal 
science agencies that we oversee. I strongly encourage my 
colleagues to support and join me in voting for the bill.
    And I thank you, Mr. Chairman, and yield back.

                   Prepared Statement of Ms. Johnson

    Thank you, Mr. Chairman.
    Similar to the previous bill, this legislation would 
authorize upgrades to Department of Energy user facilities that 
were recommended by the Basic Energy Science Advisory 
Committee. These upgrades are critical to U.S. leadership in 
fundamental science and are important tools for industry and 
university researchers. These investments could significantly 
expand the number of users that can access these facilities. On 
that note, I am encouraged to see the inclusion of explicit 
authorization levels in the bills we are considering today.
    I would like to thank Congressman Foster's for his work on 
the Committee in highlighting the value of these user 
facilities. He is likely the only Member of Congress that can 
draw on his personal experience in supporting this work. I hope 
we can continue this bipartisan collaboration to authorize 
other vital research activities at the Federal science agencies 
that we oversee.
    I strongly encourage my colleagues to join me in supporting 
this bill.
    Thank you, Mr. Chairman, I yield back

    Chairman Smith. Thank you, Ms. Johnson.
    If there's no further discussion, a reporting quorum being 
present, I move that the Committee on Science, Space, and 
Technology report H.R. 4377 to the House with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 4377.
    All in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the motion to reconsider is laid upon 
the table. H.R. 4377 is ordered reported to the House.
    And I ask unanimous consent that staff be authorized to 
make any necessary technical and conforming changes. Without 
objection, so ordered.

    H.R. 4378

    Chairman Smith. Pursuant to notice, I now call up H.R. 
4378, the Nuclear Energy Research Infrastructure Act of 2017. 
And the clerk will report the bill.
    The Clerk. H.R. 4378, a bill to direct the Secretary of 
Energy to carry out the construction of the Versatile Reactor 
Base Fast Neutron Source and for other purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    And the gentleman from Texas, Mr. Weber, the Chairman of 
the Energy Subcommittee, is recognized for his opening 
statement.
    Mr. Weber. Thank you, Mr. Chairman. Good morning. And I 
appreciate the opportunity to speak on this critical 
legislation.
    I want to thank you and Ranking Member Johnson for 
cosponsoring H.R. 4378, the Nuclear Energy Research 
Infrastructure Act of 2017, and quite frankly for you all's 
leadership in advocating for nuclear energy research and 
development.
    I am grateful for the opportunity to work alongside my 
fellow Texans and the other Members of this Committee to 
support research projects that will keep America safe, globally 
competitive, and encourage nuclear innovation.
    Last Congress, this Committee held hearings, met with 
stakeholders, and worked extensively with our colleagues in the 
Senate to draft the Nuclear Energy Innovation Capabilities Act. 
This comprehensive, bipartisan authorization bill directed the 
DOE, Department of Energy, to invest in supercomputing 
capabilities, create a framework for DOE to partner with the 
private sector to host prototype development for advanced 
reactors, and laid out a clear timeline and parameters for DOE 
to complete a research reactor. This bill passed the House 
three times last Congress and passed the House again in January 
as a part of the DOE Research and Innovation Act.
    The research reactor, or Versatile Neutron Source, 
authorized in that bill is crucial for the development of 
advanced reactor designs, materials, and nuclear fuels. This 
type of research requires access to fast neutrons, which are 
currently only available for civilian research in Russia. While 
modeling and simulation can accelerate R&D, nuclear energy 
research must be validated through a physical source, like a 
research reactor. Today, we will consider my bill to authorize 
specific funding to build that research reactor.
    H.R. 4378 allocates funds from within the DOE Office of 
Nuclear Energy for the construction of the Versatile Neutron 
Source. This facility is a reactor-based, fast neutron source 
that will operate as an open-access user facility in the DOE 
national lab system and will facilitate academic and 
proprietary research in the United States. Access to fast 
neutrons is a critical part of the development of next-
generation materials and fuels for advanced nuclear reactor 
technology.
    The Versatile Neutron Source will also enable the Nuclear 
Regulatory Commission to verify data on new fuels, materials, 
and designs more efficiently, expediting regulatory approval 
for advanced nuclear reactors. Without this user facility, this 
research simply will not take place. We cannot afford to lose 
the ability to develop innovative nuclear technology, and we 
cannot rely on international partners to develop safe and 
secure advanced reactors.
    And as more developing nations look to nuclear energy to 
grow their economies, America must maintain our nuclear 
capabilities and continue to develop cutting-edge technology 
here at home. Let me add from a national security perspective, 
we want--no, make that we must have nuclear superiority. And so 
this bill will also help maintain that capability for America 
to influence security and proliferation standards around the 
world by maintaining cutting-edge nuclear science.
    By building this user facility, we will fortify the U.S. 
commitment to safely advancing nuclear technology. H.R. 4378 
will authorize funding to construct this critical user facility 
and ensure that we keep the best nuclear scientists, engineers, 
and entrepreneurs working right here in the United States.
    I encourage my colleagues to support this bill, and, Mr. 
Chairman, I reserve the balance of my time.

                    Prepared Statement of Mr. Weber

    Good morning. Thank you Chairman Smith for the opportunity 
to speak on this critical legislation. I want to thank you and 
Ranking Member Johnson for cosponsoring H.R. 4378, the Nuclear 
Energy Research Infrastructure Act of 2017, and for y'all's 
leadership in advocating for nuclear energy research and 
development. I'm grateful for the opportunity to work alongside 
my fellow Texans and the other members of this committee to 
support research projects that will keep America safe and 
globally competitive and encourage nuclear innovation.
    Last Congress, this committee held hearings, met with 
stakeholders and worked extensively with our colleagues in the 
Senate to draft the Nuclear Energy Innovation Capabilities Act.
    This comprehensive, bipartisan authorization bill directed 
the Department of Energy (DOE) to invest in supercomputing 
capabilities, created a framework for DOE to partner with the 
private sector to host prototype development for advanced 
reactors and laid out a clear timeline and parameters for DOE 
to complete a research reactor. This bill passed the House 
three times last Congress, and passed the House again in 
January as a part of the DOE Research and Innovation Act.
    The research reactor, or Versatile Neutron Source, 
authorized in that bill is crucial for the development of 
advanced reactor designs, materials and nuclear fuels. This 
type of research requires access to fast neutrons - which are 
currently only available for civilian research in Russia. While 
modeling and simulation can accelerate R&D, nuclear energy 
research must be validated through a physical source, like a 
research reactor.
    Today, we will consider my bill to authorize specific 
funding to build that research reactor. H.R. 4378 allocates 
funds from within the DOE Office of Nuclear Energy for the 
construction of the Versatile Neutron Source. This facility is 
a reactor based, fast neutron source that will operate as an 
open-access user facility in the DOE national lab system, and 
will facilitate academic and proprietary research in the United 
States.
    Access to fast neutrons is a critical part of the 
development of next generation materials and fuels for advanced 
nuclear reactor technology. The Versatile Neutron
    Source will also enable the Nuclear Regulatory Commission 
to verify data on new fuels, materials and designs more 
efficiently, expediting regulatory approval for advanced 
nuclear reactors.
    Without this user facility, this research simply will not 
take place. We can't afford to lose the ability to develop 
innovative nuclear technology, or rely on international 
partners to develop safe and secure advanced reactors.
    And as more developing nations look to nuclear energy to 
grow their economies, America must maintain our nuclear 
capabilities and continue to develop cutting edge technology 
here at home.
    This bill will also help maintain America's capability to 
influence security and proliferation standards around the world 
by maintaining cutting edge nuclear science. By building this 
user facility, we will fortify the U.S. commitment to safely 
advancing nuclear technology.
    H.R. 4378 will authorize funding to construct this critical 
user facility and ensure that we keep the best nuclear 
scientists, engineers and entrepreneurs working in the United 
States.
    I encourage my colleagues to support this bill and I 
reserve the balance of my time.

    Chairman Smith. Thank you, Mr. Weber.
    And the gentlewoman from Texas and original cosponsor of 
the legislation is recognized for her statement.
    Ms. Johnson. Thank you very much, Mr. Chairman. I'm pleased 
to cosponsor this bill with Congressman Weber. This legislation 
marks another accomplishment in our continued collaboration to 
advance nuclear energy innovation.
    Nuclear power plays a vital role in providing our country 
with clean, reliable energy, but they are current technical, 
economic, and policy challenges that prevent nuclear energy 
from playing a larger role in enabling our clean energy future. 
This bill, the Nuclear Energy Research Infrastructure Act, 
would help address these challenges. It expands on a provision 
included in another bill that I cosponsored with Mr. Weber and 
the Chairman, H.R. 431, the Nuclear Energy Innovation 
Capabilities Act, which passed the House in January on a voice 
vote as part of yet another bill that I cosponsored with these 
two gentlemen, H.R. 589, the Department of Energy Research And 
Innovation Act.
    The bill we are considering today would provide the 
Department of Energy the direction and funding it needs to 
create a national user facility with critical capabilities to 
advance nuclear technologies in America. I am hoping that if we 
provide our scientists and industry leaders with the right 
tools, they can fulfill the promise of clean nuclear energy 
that is safer, less expensive, more efficient, and produces 
less waste than the current fleet of reactors.
    I'm also strongly supportive of the inclusion of the 
explicit funding levels as part of this authorization. 
Providing the Department and congressional appropriators with a 
funding profile for research activities and projects is a 
crucial responsibility in our role as an authorizing committee. 
In particular, this helps to ensure that construction of 
cutting-edge research facilities like this one has the 
resources they need to be completed on time and on budget, thus 
making sure that the U.S. taxpayers, who are footing these 
bills, are getting the most value for their hard-earned 
dollars.
    I hope we can continue to include funding authorizations in 
future bills passed out of this Committee, and I look forward 
to working with my colleagues on both sides of the aisle as we 
work to strengthen America's research enterprise across all of 
our agencies. I encourage my colleagues to support this bill, 
and I yield back the balance of time.

                   Prepared Statement of Ms. Johnson

    Thank you, Mr. Chairman. I am pleased to cosponsor this 
bill with Congressman Weber.
    This legislation marks another accomplishment in our 
continued collaboration to advance nuclear energy innovation.
    Nuclear power plays a vital role in providing our country 
with clean, reliable energy. But there are currently technical, 
economic, and policy challenges that prevent nuclear energy 
from playing a larger role in enabling our clean energy future.
    This bill, the Nuclear Energy Research Infrastructure Act, 
would help address these challenges. It expands on a provision 
included in another bill that I cosponsored with Mr. Weber and 
the Chairman - H.R. 431, the Nuclear Energy Innovation 
Capabilities Act - which passed the House in January on voice 
vote as part of yet another bill that I cosponsored with these 
two gentlemen - H.R. 589, the Department of Energy Research and 
Innovation Act.
    The bill we are considering today would provide the 
Department of Energy the direction and funding it needs to 
create a national user facility with critical capabilities to 
advance nuclear technologies in America. I am hopeful that if 
we provide our scientists and industry leaders with the right 
tools, they can fulfill the promise of clean nuclear energy 
that is safer, less expensive, more efficient, and produces 
less waste than the current fleet of reactors.
    I also strongly support the inclusion of explicit funding 
levels as a part of this authorization. Providing the 
Department and Congressional appropriators with a funding 
profile for research activities and projects is a crucial 
responsibility in our role as an authorizing committee. In 
particular, this helps ensure that construction of cutting edge 
research facilities like this one have the resources they need 
to be completed on time and on budget, thus making sure that 
the U.S. taxpayers who are footing these bills are getting the 
most value for their hard-earned dollars.
    I hope we can continue to include funding authorizations in 
future bills passed out of the Committee and I look forward to 
working with my colleagues on both sides of the aisle as we 
work to strengthen America's research enterprise across all of 
our agencies.
    I encourage my colleagues to support the bill, and I yield 
back the balance of my time.

    Chairman Smith. Thank you, Ms. Johnson.
    If there's no further amendments----
    Mr. Rohrabacher. Mr. Chairman?
    Chairman Smith. Yes. Who--the gentleman from California, 
Mr. Rohrabacher, is recognized.
    Mr. Rohrabacher. I just would like to make sure we go on 
record when we're--and I support this legislation, but I'd like 
to go on record that we do need to look into new approaches 
when it comes to nuclear energy. For far too long we have been 
relying on basically concepts and technology that were 
developed 60 and 70 years ago. Light water reactors, while 
they--I believe they've been successful in providing us a great 
deal of electricity, they are inherently dangerous and, for 
example, in the San Onofre nuclear power plant in Orange County 
is now closed, and it's costing the taxpayers $70 million a 
year simply to oversee that facility that's now closed because 
the nuclear waste from those years is sitting right there.
    Now, I would hope that the money that is--that we are 
spending in this bill will not go to try to tweak light-water 
reactors and build the same type of systems. Instead, we are 
capable now of building small modular nuclear reactors that are 
safe, that will--cannot melt down, will not leave plutonium 
behind that can make bombs, and in fact will have a minimum of 
any type of waste as compared to light-water reactors.
    So as we move forward with this particular research project 
that we're talking about right now, I would hope that we are on 
the record as saying let's break some new ground. Let's open up 
the new horizons instead of just trying to perfect the old 
systems and improve them a little bit.
    And we also have to understand--and I think nuclear energy 
offers a tremendous source of clean energy as it has, but there 
was a price to that in the past that if we do it right now, we 
change this and go to a technology that we are capable of 
building, we can really endow future generations of Americans 
with clean energy that doesn't have the downside, which is the 
dangers of radiation material.
    By the way, the new reactors will be able to use the waste 
from light-water reactors that are left over for their own fuel 
to produce energy for future generations. It's win-win, but I 
have seen a great hesitancy on the part of the industry to 
commit themselves to this new approach to nuclear energy.
    And I would just say this, that we also have to pay 
attention in this Committee not only to the technology 
development but understanding that the technology development 
is step one, and I would sure hope that after we do develop new 
sources of nuclear energy that we go into the licensing 
procedures. We have been--there are so many restrictions now on 
new technology, especially in the nuclear field, that it takes 
decades to even think about it. And we were capable of building 
the type of light-water reactors I'm talking about, Mr. 
Chairman--we were capable of this 10, 15 years ago, and we've 
gone nowhere on it because the licensing requirements are so 
restrictive that it's holding back progress.
    So with that said, I would support this legislation. I 
think it's terrific that we have this type of bipartisan 
approach to something that could well--and will if we succeed 
and we will succeed at it--ensure that future generations of 
Americans do have the type of wealth and--the wealth and the 
other--and that clean environment and energy that is necessary 
for people to have decent lives. Ordinary people in this 
country deserve a decent life, and we are laying the foundation 
for that today.
    Thank you very much, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Rohrabacher, for those 
comments.
    If there are no further amendments, a reporting quorum 
being present, I move that the Committee on Science, Space, and 
Technology report H.R. 4378 to the House with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 4378 to the 
House.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the motion to reconsider is laid upon 
the table. H.R. 4378 is ordered reported to the House.
    I ask unanimous consent that staff be authorized to make 
any necessary technical and conforming changes, and without 
objection, so ordered.

    H.R. 4375

    Chairman Smith. Pursuant to notice, I now call up H.R. 
4375. We just didn't do that, did we--the STEM Research and 
Education Effectiveness and Transparency Act. And the clerk 
will report the bill.
    The Clerk. H.R. 4375, a bill to provide for study on 
broadening participation on certain National Science Foundation 
research and education programs, to collect data on Federal 
research grants to science agencies, and for other purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    I'll now recognize the sponsor of the bill, Mrs. Comstock, 
for her opening statement.
    Mrs. Comstock. Thank you, Mr. Chairman.
    H.R. 4375, the STEM Research and Education Effectiveness 
and Transparency Act, contains two provision aimed at providing 
better information on how to make taxpayer-funded investments 
in STEM and research and development more effective, 
transparent, and fair.
    First, the bill requires the National Science Foundation 
for the first time to report and make recommendations to 
Congress regarding the effectiveness of its research and 
education programs aimed at broadening the participation of 
women and historically underrepresented individuals and 
minorities in STEM. This report will give Congress, NSF, and 
other stakeholders objective information about what kinds of 
interventions and assistance are efficient, scalable, and 
effective.
    In order to have a vibrant economy that provides 
opportunity and prosperity for all, we must be the leader in 
STEM fields. To do that, we need to develop the talent of all 
Americans. We cannot afford to leave anyone behind. This report 
will help us focus resources on the best and most effective 
methods.
    Second, the bill requires all Federal science agencies to 
collect standardized information, including demographics, for 
each application received for research and development grants. 
Agencies are to submit the information annually to NSF, which 
is directed to publish an annual statistical summary. This 
information will provide better transparency to how taxpayer 
dollars are spent on research and scientists across the Federal 
Government.
    I want to thank Ranking Member Johnson for joining me in 
sponsoring this bill and for her longtime commitment to 
ensuring STEM opportunities and advancement for all.
    Thank you, Mr. Chairman, for your support as well, and I 
yield back.

                  Prepared Statement of Mrs. Comstock

    Mr. Chairman, H.R. 4375, the STEM Research and Education 
Effectiveness and Transparency Act, contains two provisions 
aimed at providing better information on how to make taxpayer-
funded investments in STEM and research and development more 
effective, transparent and fair. First, the bill requires the 
National Science Foundation (NSF) - for the first time - to 
report and make recommendations to Congress regarding the 
effectiveness of its research and education programs aimed at 
broadening the participation of women and historically 
underrepresented individuals and minorities in STEM.
    This report will give Congress, NSF and other stakeholders 
objective information about what kinds of interventions and 
assistance are efficient, scalable and effective.
    In order to have a vibrant economy that provides 
opportunity and prosperity for all, we must be the leader in 
STEM fields. To do that, we need to develop the talent of all 
Americans. We cannot afford to leave anyone behind. This report 
will help us focus resources on the best and most effective 
methods.
    Second, the bill requires all federal science agencies to 
collect standardized information, including demographics, for 
each application received for research and developments grants. 
Agencies are to submit the information annually to NSF, which 
is directed to publish an annual statistical summary.
    This information will provide better transparency to how 
taxpayer dollars are spent on research and scientists across 
the federal government.
    I want to thank Ranking Member Johnson for joining me in 
sponsoring this bill and for her longtime commitment to 
ensuring STEM opportunities and advancements for all. Thank 
you, Mr. Chairman, for your support as well.

    Chairman Smith. Thank you, Mrs. Comstock.
    And the Ranking Member, the gentlewoman from Texas and 
original cosponsor of the legislation, is recognized for her 
opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and I want 
to thank Congresswoman Comstock for introducing H.R. 4375, the 
STEM Research and Education Effectiveness Transparency Act. I'm 
pleased to cosponsor this good legislation. H.R. 4375 is a 
small but important step forward for addressing longstanding 
gaps in achievement and participation in the sciences.
    Research has shown that the observed shortages of women and 
minorities in STEM fields are not due to the lack of interest. 
To better understand the barriers faced by women and 
underrepresented minority groups in STEM, researchers and 
policymakers need access to better data on what really works to 
improve the recruitment and retention of women and minorities 
in STEM studies and careers. Importantly, we must also collect 
data that would reveal any inequities that originate within the 
Federal agencies themselves, even if unintentionally.
    The bill directs the National Science Foundation to compile 
and report on all available data on the effectiveness of its 
portfolio of broadening participation programs. National 
Science Foundation must also identify what additional data 
would be needed to understand what makes programs effective. I 
commend NSF on the strides it has taken in recent years to 
accelerate its efforts to address the underrepresentation of 
women and minorities in STEM, but we need to ensure that they 
are producing results.
    This bill also includes one provision from my STEM 
Opportunities Act that requires all Federal science agencies to 
collect and report annually on data for all research grant 
applications and awards. These data are essential to uncovering 
my inequities--any inequities in Federal funding for STEM 
research and to developing smart policies to address the 
implicit biases that are typically behind such inequities.
    I continue to ask my good friend, Chairman Smith----
    Chairman Smith. Yes.
    Ms. Johnson [continuing]. My hero here, to take up the 
entire----
    Chairman Smith. Get that down in writing fast.
    Ms. Johnson [continuing]. Of my STEM Opportunities Act, 
which has been very well vetted by many experts, and I'm 
encouraged by this first small step.
    I will say that I started this when Ms.--when Congresswoman 
Connie Morella and I did our first study on this Committee, and 
I'm still pleading for the same goal.
    Thank you and I yield back. Do this before you leave. Thank 
you.

                   Prepared Statement of Ms. Johnson

    I want to thank Chairwoman Comstock for introducing H.R. 
4375, the STEM Research and Education Effectiveness 
Transparency Act. I am pleased to cosponsor this good 
legislation. H.R. 4375 is a small but important step forward 
for addressing long-standing gaps in achievement and 
participation in the sciences. Research has shown that the 
observed shortages of women and minorities in STEM fields are 
not due to a lack of interest. To better understand the 
barriers faced by women and underrepresented minority groups in 
STEM, researchers and policy-makers need access to better data 
on what really works to improve the recruitment and retention 
of women and minorities in STEM studies and careers. 
Importantly, we must also collect data that would reveal any 
inequities that originate within the federal agencies 
themselves, even if unintentionally. The bill directs the 
National Science Foundation to compile and report on all 
available data on the effectiveness of its portfolio of 
broadening participation programs. NSF must also identify what 
additional data would be needed to understand what makes 
programs effective. I commend NSF on the strides it has taken 
in recent years to accelerate its efforts to address the 
underrepresentation of women and minorities in STEM, but we 
need to ensure they are producing results. This bill also 
includes one provision from my STEM Opportunities Act that 
requires all federal science agencies to collect and report 
annually on data for all research grant applications and 
awards. These data are essential to uncovering any inequities 
in federal funding for STEM research, and to developing smart 
policies to address the implicit biases that are typically 
behind such inequities. I continue to ask my friend Chairman 
Smith to take up the entirety of my STEM Opportunities Act, 
which has been very well vetted by many experts. I am 
encouraged by this first small step, so I won't give up. Thank 
you, I yield back the balance of my time.

    Chairman Smith. Thank you, Ms. Johnson. We will renew our 
efforts and take another look and give it a good-faith effort.
    If there is no further discussion, a reporting quorum being 
present, I move that the Committee on Science, Space, and 
Technology report H.R. 4375 to the House with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 4375 to the 
House.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the motion to reconsider is laid upon 
the table, and H.R. 4375 is ordered reported to the House.
    I ask unanimous consent that the staff be authorized to 
make any necessary technical and conforming changes. Without 
objection, so ordered.

    H.R. 4323

    Next up, H.R. 4323. And pursuant to notice, I call up H.R. 
4323, the Supporting Veterans in STEM Careers Act. And the 
clerk will report the bill.
    The Clerk. H.R. 4323, a bill to promote veteran involvement 
in STEM education, computer science, and scientific research, 
and for other purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    I'll now recognize the sponsor of the bill, Mr. Dunn, for 
his opening statement.
    Mr. Dunn. Thank you very much, Mr. Chairman.
    H.R. 4223, the Supporting Veterans in STEM Careers Act----
    Chairman Smith. Wait a minute.
    Mr. Dunn. Come back on. The Supporting Veterans in STEM 
Careers Act is about helping expand veterans' job and education 
opportunities in the sciences. The bill requires the National 
Science Foundation to develop a veterans' outreach plan and 
publish data on veterans' participation in science, technology, 
engineering, and mathematics fields in its annual indicators 
report.
    The bill also updates the NSF Noyce Teacher Scholarship 
program, fellowship programs, and cyber grant programs to 
include outreach to veterans.
    Additionally, the White House Office of Science and 
Technology Policy is tasked with overseeing an interagency 
working group examining how to increase veteran participation 
in STEM career fields, including addressing any barriers to 
servicemembers and their spouses.
    In the next 5 years, between 1 and 1.5 million members of 
the U.S. Armed Forces will leave the military according to the 
DOD. Many of these veterans will be seeking new careers by--and 
by a wide margin, veterans cite finding employment as their 
number-one need when returning home.
    According to U.S. Bureau of Labor Statistics, occupations 
in the STEM fields is projected to grow to more than 9 million 
by 2020, an increase of a million jobs. Research shows that 
many military veterans have skills and training that align with 
STEM careers, particularly in information technology. However, 
it also shows that veterans face many barriers as they reenter 
the work force, including a lack of formal STEM education 
career guidance and the difficult task of transferring military 
credits to civilian college credits.
    Our nation's veterans deserve every opportunity to 
transition to a healthy and successful civilian life, and this 
bill will help our servicemembers continue to serve our Nation 
in new ways by filling 21st century jobs and keeping America on 
the cutting edge of innovation.
    I thank Mr. Takano, the Ranking Vice Chair of the Veterans 
Affairs Committee that we both have the privilege to serve on, 
for cosponsoring this bipartisan legislation. And I salute my 
fellow veterans on the Committee who join me in introducing 
this bill.
    And thank you, Mr. Chairman, for your support as well. I 
urge my colleagues to support the bill, and I yield back.

                     Prepared Statement of Mr. Dunn

    H.R. 4223, the Supporting Veterans in STEM Careers Act, is 
about helping expand veterans' job and education opportunities 
in the sciences.
    The bill requires the National Science Foundation (NSF) to 
develop a veterans' outreach plan and publish data on veterans' 
participation in science, technology, engineering and 
mathematics (STEM) fields in its annual ``Indicators'' report.
    The bill also updates the NSF Noyce Teacher Scholarship 
program, fellowship programs and cyber grant programs to 
include outreach to veterans.
    Additionally, the White House Office of Science and 
Technology Policy is tasked with overseeing an interagency 
working group to examine how to increase veteran participation 
in STEM career fields, including addressing any barriers for 
service members and their spouses.
    In the next five years, between one and 1.5 million members 
of the U.S. Armed Forces will leave the military, according to 
the Department of Defense. Many of these veterans will be 
seeking new careers; by a great margin, veterans cite finding 
employment as their number one need when returning home.
    According to the U.S. Bureau of Labor and Statistics, 
occupations in STEM is projected to grow to more than 9 million 
between 2012 and 2022, an increase of about one million jobs.
    Research shows that many military veterans have skills and 
training that align with STEM careers, particularly in 
information technology (IT). However, research also shows 
veterans face many barriers as they re-enter the workforce, 
including a lack of formal STEM education, career guidance and 
the difficult task of transferring military credits to college 
credits.
    Our nation's veterans deserve every opportunity to 
transition to a healthy and successful civilian life. This bill 
will help our service members to continue to serve our nation 
in new ways by filling 21st century jobs and keeping America on 
the cutting edge of innovation.
    I thank Mr. Takano, the Ranking Vice Chair of the Veterans 
Affairs Committee that we both have the privilege to serve on, 
for co-sponsoring this bipartisan legislation. And I salute my 
fellow veterans on the committee who joined my in introducing 
this bill.
    Thank you, Mr. Chairman, for your support as well.

    Chairman Smith. Thank you, Mr. Dunn.
    And the gentleman from California, Mr. Takano, is 
recognized.
    Mr. Takano. Thank you, Mr. Chairman.
    I am pleased to offer my support for the bill being marked 
up today, the Supporting Veterans STEM Careers Act. I'm proud 
to offer this legislation with my colleague Mr. Dunn. And as 
the Vice Ranking Member of the Veterans Affairs Committee, I 
have seen firsthand both the difficulties veterans face trying 
to further their education and the impact their experiences can 
have on a variety of civilian fields.
    I think everyone here agrees that we must find ways to 
improve higher education for veterans and the benefit veterans 
can have on the scientific and economic future of this country.
    Our bill directs the National Science Foundation to develop 
a plan to get more veterans into its STEM education and 
research programs. In addition, it requires NSF to report 
available data on veterans participating in STEM fields, both 
the research and careers. NSF will also be required to seek 
veterans out for existing NSF programs, including the Noyce 
Teacher Scholarship program, and for cybersecurity-specific 
education and training programs. This bill also creates an 
interagency committee to help veterans and their spouses 
transition into STEM careers, including annual reporting on 
their progress.
    For its part the NSF has been looking for ways to better 
integrate veterans into STEM fields, and I applaud their work. 
And I know all of us are looking forward to making more 
progress in this effort, and I think our bill is an important 
step forward. I think this is a great example of a win-win. 
We--when we empower veterans to succeed, everyone benefits.
    Thank you, and I yield back, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Takano.
    And the Ranking Member, the gentlewoman from Texas, is 
recognized for her statement.
    Ms. Johnson. Thank you very much, Chairman.
    I want to thank Mr. Dunn and Mr. Takano for introducing 
H.R. 4323, the Supporting Veterans in STEM Careers Act.
    Veterans are an experienced group of dedicated individuals 
that far too long have remained a largely untapped source of 
talent in our Nation's STEM work force. Projections from the 
Bureau of Labor Statistics predict that work force needs in 
STEM fields like computer science are outpacing our capacity to 
educate and train students in the field. H.R. 4323 is a step 
toward forestalling these projected gaps by leveraging a pool 
of skilled veterans to strengthen our STEM work force.
    I support this bill, and I urge my colleagues to support it 
as well. I yield back the balance of my time.

                   Prepared Statement of Ms. Johnson

    Thank you, Chairman Smith. I want to thank Mr. Dunn and Mr. 
Takano for introducing H.R. 4323, the Supporting Veterans in 
STEM Careers Act.
    Veterans are an experienced group of dedicated individuals 
that for far too long have remained a largely untapped source 
of talent in our nation's STEM workforce. Projections from the 
Bureau of Labor Statistics predict that workforce needs in STEM 
fields like computer science are outpacing our capacity to 
educate and train students in these fields.
    H.R. 4323 is a step toward forestalling these projected 
gaps by leveraging the pool of skilled veterans to strengthen 
our STEM workforce.
    I support this bill, and urge my colleagues to support it.
    I yield back the balance of my time.

    Chairman Smith. Thank you, Ms. Johnson.
    And the gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Thank you very much. Just a few thoughts 
when we're talking about this outreach to veterans that during 
the second world war--right now, we recognize the great 
contribution that Americans went overseas and fought for us, 
not just the contributions they made in the fighting but now 
it's recognized that that greatest generation came home and 
built the American economy. America was never the same after 
World War II because we had millions of men and women who now 
were educated and--which we reached out to make sure they were 
educated when they came back--and playing a very vital role in 
our economy. That greatest generation--so we're thankful to 
them not only for fighting the good fight overseas and 
protecting our country but for what they did to build our 
country afterwards.
    While we have been at war now for 16 years, we are at war. 
We've had people out and we still have to this day men and 
women out with their lives on the line and it's disrupting 
their life and moving--and putting themselves at risk for us. 
They are making an enormous contribution like the World War II 
generation. Their contribution will be a great--even greater 
when they come home.
    I believe that there's--that the veterans now, the 
millions--and I believe it's probably about the same number of 
veterans, but we have 16 years where they're spread out as the 
number of veterans we had in World War II. I think they have a 
major contribution to make to our country, and I really believe 
that what we're doing in this type of thing at this type of 
outreach reflects what we did with the World War II generation. 
I want to make sure those men and women coming back from 
overseas, and some of them disabled, that all of them have an 
opportunity to make their contribution now and live good and 
decent lives in an economy that will be as different 10 years 
from now as our economy was 10 years after the second world 
war.
    So with those--with that thought, I want to thank you for 
your leadership and the leadership of those in this Committee 
who are taking part in this debate but also thought out this 
idea of having the National Science Foundation outreach to 
those brave men and women who are coming home. Thank you very 
much.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    If there's no further discussion, a reporting quorum being 
present, I move that the Committee on--I'm sorry, the 
gentlewoman from Connecticut, Ms. Esty, is recognized.
    Ms. Esty. Thank you, Mr. Chairman.
    As a fellow Member of both this Committee and the Veterans 
Affairs Committee, I wanted to lend my support as well.
    We know that we need to do right by our veterans. Too many 
of our veterans are unemployed. They have a higher unemployment 
rate than civilians. That's wrong and it's shameful. We have a 
critical work force need in the STEM field and we have special 
skills that our veterans bring. Mr. Rohrabacher mentioned that, 
teambuilding skills, practical experience, and all of those we 
actually need and would benefit from.
    So I'm really delighted to join my fellow colleagues on 
both House Veterans Affairs and this Committee Mr. Takano and 
Mr. Dunn in supporting this legislation and encourage us to do 
right by our veterans and do right for our country. Thank you 
very much, and I yield back.
    Chairman Smith. Thank you, Ms. Esty.
    If there's no further discussion, a reporting quorum being 
present, I move that the Committee on Science, Space, and 
Technology report H.R. 4323 to the House with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 4323 to the 
House.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the motion to reconsider is laid upon 
the table, and H.R. 4323 is ordered reported to the House.
    And I ask unanimous consent that staff be authorized to 
make any necessary technical and conforming changes. Without 
objection, so ordered.

    H.R. 4254

    Chairman Smith. Pursuant to notice, I now call up H.R. 
4254, the Women in Aerospace Education Act. And the clerk will 
report the bill.
    The Clerk. H.R. 4254, a bill to amend the National Science 
Foundation Authorization Act of 2002, to strengthen the 
aerospace work force pipeline by the promotion of Robert Noyce 
Teacher Scholarship program and National Aeronautics and Space 
Administration internship and fellowship opportunities to 
women, and for other purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    And the gentleman from California, Mr. Knight, is 
recognized for an opening statement.
    Mr. Knight. Thank you, Mr. Chairman.
    This is an important initiative to strengthen our aerospace 
work force. H.R. 4253, the Women in Aerospace Education Act, 
directs the National Science Foundation, through the Robert 
Noyce Scholarship program and NASA to shape their fellowship 
and internship opportunities to encourage more women to get 
aerospace experience while they're training to be teachers.
    Female aerospace professionals must be placed in the 
classroom at greater numbers. A full 1/5 of U.S. aerospace 
engineers are of retirement age today. They are beginning to 
exit our work force, which would create an enormous shortfall 
in our national security preparedness.
    Meanwhile, women represent only about 1/4 of all STEM 
workers and represent about 15 percent of all aerospace 
engineers. We need to improve our STEM education pipeline from 
ensuring STEM classes are available to students at a young age 
to encourage young Americans to pursue STEM education all the 
way through to the completion of their degree. But the gender 
gap that is so prevalent in this industry will persist until we 
make STEM and aerospace more inclusive of women and encourage 
women at a young age to pursue these fields.
    Attitudes about career paths are formed at a young age. The 
role models and leaders from which women learn have an enormous 
impact on future decisionmaking. I introduced the Women in 
Aerospace Education Act to make better use of some of the 
Federal Government's best teacher training programs to increase 
the number of women teachers who have seen, worked on, and can 
relate the Nation's leading aerospace programs to young female 
students.
    Robert Noyce scholars who get teacher certification 
assistance from the National Science Foundation are already in 
small numbers getting experience in NASA centers and the 
national labs. Once they become certified and go to teach in 
our K-12 system, they draw upon the work they have did--they 
did on major public initiatives in science and technology. 
Schools love having Noyce program teachers because their strong 
positive attitudes about STEM are cultivated in their students. 
It will strengthen our STEM pipeline to enhance the connection 
between the Noyce Scholarship program and our schools.
    The second provision of this bill directs NASA to more 
actively promote its internship and fellowship opportunities to 
women or members of other historically underrepresented groups. 
Together, the two provisions of this bill will help make a 
necessary and fundamental shift in our education system and 
aerospace work force pipeline that will prove critical to our 
national security in the long run.
    I encourage my colleagues to support this legislation. I'd 
like to thank Ms. Esty for her partnership on this bill, and I 
yield the remainder of my time.

                    Prepared Statement of Mr. Knight

    Thank you, Mr. Chairman, for the time to speak in support 
of an important initiative to strengthening our aerospace 
workforce.
    H.R. 4253, the Women in Aerospace Education Act, directs 
the National Science Foundation, through the Robert Noyce 
Scholarship Program, and NASA to shape their fellowship and 
internship opportunities to encourage more women to get 
aerospace experience while they're training to be teachers.
    Female aerospace professionals must be placed in the 
classroom in greater numbers.
    A full fifth of U.S. aerospace engineers are of retirement 
age today. They are beginning to exit our workforce, which will 
create an enormous shortfall in our national security 
preparedness.
    Meanwhile, women represent only about one-quarter of all 
STEM workers and represent about 15 percent of all aerospace 
engineers.
    We need to improve our STEM education pipeline, from 
ensuring STEM classes are available to students at a young age 
to encouraging young Americans pursue STEM education all the 
way through to the completion of their degree.
    But the gender gap that is so prevalent in this industry 
will persist until we make STEM and aerospace more inclusive of 
women and encourage women at a young age to pursue these 
fields.
    Attitudes about career paths are formed at a young age.
    The role models and leaders from which young women learn 
have an enormous impact on future decision-making.
    I introduced the Women in Aerospace Education Act to make 
better use of some of the federal government's best teacher 
training programs to increase the number of women teachers who 
have seen, worked on and can relate the nation's leading 
aerospace programs to young female students.
    Robert Noyce scholars, who get teacher certification 
assistance from the National Science Foundation, are already in 
small numbers getting experience in NASA Centers and the 
National Labs.
    Once they become certified and go to teach in our K-12 
system, they draw upon the work they did on major public 
initiatives in science and technology. Schools love having 
Noyce program teachers because their strong positive attitudes 
about STEM are cultivated in their students.
    It will strengthen our STEM pipeline to enhance the 
connection between the Noyce scholarship program and our 
schools.
    The second provision of this bill directs NASA to more 
actively promote its internship and fellowship opportunities to 
women or members of other historically underrepresented groups.
    Together, the two provisions of this bill will help make a 
necessary and fundamental shift in our education system and 
aerospace workforce pipeline that will prove critical to our 
national security in the long run.
    I encourage my colleagues to support this legislation. I'd 
like to thank Ms. Esty for her help on this bill and I yield 
the remainder of my time.

    Chairman Smith. Thank you, Mr. Knight.
    And the gentlewoman from Connecticut, Ms. Esty, is 
recognized for her statement.
    Ms. Esty. Thank you, Mr. Chairman. I'm proud to be 
introducing this legislation with my colleague, Mr. Knight, and 
I want to thank him for his work on this.
    And, Mr. Chairman, I want to thank you for cosponsoring 
this bill. And to my colleague Mrs. Comstock, we've worked 
together on these bills for number of years and it's always 
great to see more good bipartisan work out of this Committee.
    One of our common goals on the Science Committee is to 
inspire more young people and particularly more young women to 
pursue careers in the sciences. And at this moment we have a 
long way to go in the aerospace field. We're rapidly facing a 
critical shortage of skilled aerospace workers. According to a 
2015 aviation week work force study, 28 percent of the 
aerospace work force is 56 years old or older, and nearly 1/5 
of our aerospace engineers are now eligible for retirement, and 
we simply cannot fill those positions unless we broaden and 
deepen our pool of skilled workers.
    Moreover, women represent only about 1/4 of all STEM 
workers and represent only 15 percent of all aerospace 
engineers, and that's why Representative Knight and I 
introduced the Women in Aerospace Education Act, to address 
both the critical work force needs and to bridge the gender gap 
in the aerospace industry.
    One of the key objectives of the Women in Aerospace 
Education Act is to equip more women with well-rounded working 
and learning experiences in aerospace engineering. 
Specifically, the Women in Aerospace Education Act would 
encourage universities applying for Noyce grants to incorporate 
aerospace working and learning experiences at the national 
laboratories and NASA centers for their fellowship programs. 
Robert Noyce Teaching Scholarship grants are used by 
universities to cover the cost of STEM-degree students who go 
on to teach in rural or lower-income school districts.
    Taking it a step further, our bill allows the National 
Science Foundation director to prioritize proposals for Noyce 
grants to provide female fellows with research experience in 
aerospace engineering. These teachers will then enter the 
classroom with firsthand knowledge of the impact aerospace 
programs have on our lives and share their passion and their 
inspiration with their students. It's proven, as my colleague 
Mr. Knight mentioned, that girls who have women science 
teachers are more likely to get interested in science.
    Additionally, this bill directs NASA to prioritize the 
recruitment of women and minority candidates to apply for 
internships and fellowships at NASA.
    I recently had a chance to visit United Technology 
Corporation Aerospace Systems, UTAS, in Connecticut to learn 
more about the ways Connecticut companies like UTAS and Ensign-
Bickford are supporting NASA's deep space exploration missions. 
When I toured the facilities, I noticed that the engineers 
working on the critical Orion components there were virtually 
all men and virtually all in their late 40's and 50's. I met 
Erica Abrahamson, a young woman who is the Deputy Program 
Director for UTAS's portion of the Orion deep space project, 
and she shared UTAS's concerns about the aging work force. She 
and others at UTAS are looking down the line, and they know if 
they don't diversify their work force, they'll have a major 
shortage.
    And we will never be able to retain our competitive edge in 
science as a country or to meet critical STEM work force needs 
unless we bring more women to the table. In Congress, we 
recognize that need and we're taking steps to address it.
    I want to thank my colleague, Congressman Knight, again for 
his leadership on this bill on this important issue. I urge my 
colleagues to support the Women in Aerospace Education Act, and 
I yield back.
    Chairman Smith. Thank you, Ms. Esty.
    And the gentlewoman from Texas, the Ranking Member, is 
recognized for her statement.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I want to thank Mr. Knight and Ms. Esty for introducing 
H.R. 4254, the Women in Aerospace Education Act. This year, we 
saw NASA Astronaut Peggy Whitson break the record for 
cumulative time spent in space by a U.S. astronaut. Dr. Whitson 
is an inspiration for girls pursuing aerospace careers, but her 
success is not entirely shared by women throughout the 
aerospace sector. The Bureau of Labor Statistics reports that 
in 2016 women made up only 8 percent of the aerospace 
engineers. H.R. 4254 will help address the underrepresentation 
of women in aerospace.
    I strongly support the passage of this bill, and I urge my 
colleagues to join me, as well as the rest of the Committee.
    Thank you, Mr. Chairman, and I yield back.

                   Prepared Statement of Ms. Johnson

    Thank you, Chairman Smith. I want to thank Mr. Knight and 
Ms. Esty for introducing H.R. 4254, the Women in Aerospace 
Education Act.
    This year we saw NASA astronaut Peggy Whitson break the 
record for cumulative time spent in space by a U.S. astronaut. 
Dr. Whitson is an inspiration for girls pursuing aerospace 
careers, but her success is not widely shared by women 
throughout the aerospace sector. The Bureau of Labor Statistics 
reports that in 2016, women made up only 8 percent of aerospace 
engineers. H.R. 4254 will help address the underrepresentation 
of women in aerospace.
    I strongly support passage of this bill, and I urge my 
colleagues to support it as well.
    I yield back the balance of my time.

    Chairman Smith. Thank you, Ms. Johnson.
    And the gentleman from California, Mr. Knight, is 
recognized for the purpose of offering an amendment.
    Mr. Knight. Mr. Chairman, I have an amendment at the desk.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment to H.R. 4254 offered by Mr. Knight of 
California, amendment number 037, page 2, line 3----
    Chairman Smith. Without objection, the amendment is 
considered as read, and Mr. Knight is recognized to explain his 
amendment.
    Mr. Knight. Mr. Chairman, my amendment makes modifications 
in response to feedback from the National Science Foundation 
and the Committee. The amendment gives Noyce scholars who are 
undergraduates and Noyce fellows who are working to obtain 
their master's degrees the opportunity to pursue research 
internships at NASA centers and national laboratories. These 
Noyce scholars and fellows who go on to become teachers can 
then take that experience back into the classroom and inspire 
students to go into aerospace jobs.
    I appreciate the National Science Foundation and the 
Committee working with us on this bill. I urge the adoption of 
this amendment and yield back.
    Chairman Smith. Thank you, Mr. Knight. I recommend our 
colleagues here support the amendment as well.
    And is there anyone else who seeks to be recognized?
    If not, the question is on agreeing to the amendment.
    All in favor, say aye.
    All opposed, no.
    The ayes have it, and the amendment is agreed to.
    And if there are no further amendments, a reporting quorum 
being present, I move that the Committee on Science, Space, and 
Technology report H.R. 4254 to the House, as amended, with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 4254 to the 
House, as amended.
    All in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the motion to reconsider is laid upon 
the table. H.R. 4254 is ordered reported to the House.
    I ask unanimous consent that staff be authorized to make 
any necessary technical and conforming changes. And without 
objection, so ordered.

    H.R. 3397

    Chairman Smith. Pursuant to notice, I now call up H.R. 
3397, the Building Blocks of STEM Act. And the clerk will 
report the bill.
    The Clerk. H.R. 3397, a bill to direct the National Science 
Foundation to support STEM education research focused on early 
childhood.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    And I'll recognize the sponsor of the bill, Ms. Rosen, for 
her opening statement.
    Ms. Rosen. Thank you, Chairman Smith and Ranking Member 
Johnson, for holding today's markup on several STEM education 
bills, including one of mine, the Building Blocks of STEM Act. 
I also want to thank my colleague from across the aisle, Steve 
Knight, for collating this important legislation with me.
    STEM and computer science are central to our country's 
innovation, economic growth, and employment. In my home State 
of Nevada and across the country we are continuing to see a 
huge demand for workers in the tech industry, including 
software developers, engineers, and computer programmers like 
me. According to the Bureau of Labor Statistics, STEM jobs are 
estimated to grow by 12 percent between now and 2024, faster 
than all other occupations. Despite these increasing 
opportunities in STEM careers, too few Americans possess the 
education and skills necessary to succeed.
    This disparity between computing and scientific talent and 
demand begins back in elementary school. Studies have found 
that children who engage in scientific activities from an early 
age develop positive attitudes toward science and are more 
likely to pursue STEM careers later on. In fact, interviews 
with current graduate students and scientists found that the 
majority of them reported that their interest in science began 
before middle school.
    The bill before us today, the Building Blocks of STEM Act, 
will ensure that we're investing in our children as early as 
possible by directing National Science Foundation to equitably 
distribute funding across groups, including early childhood and 
its Discovery Research Pre-K-12 program. While this program 
seeks to enhance the learning and teaching of STEM, the 
majority of its current research focuses on students in middle 
school and older. My bill ensures that NSF focuses on engaging 
our Nation's children in STEM education even younger.
    I'm also grateful that the manager's amendment, introduced 
by Subcommittee Chairwoman Barbara Comstock, will incorporate 
into this legislation another STEM bill of mine, the Code Like 
a Girl Act, which I introduced alongside Representative Elise 
Stefanik and of which Mrs. Comstock is a cosponsor.
    We all know the gender gap in STEM work force is widening, 
particularly in computer science where women hold only about 26 
percent of computing-relating--related occupations even though 
we make up more than half of the work force. This gender 
disparity extends down through all levels of education. In the 
last few years, approximately 23 percent of AP computer science 
exam takers were girls, and about only 18 percent of computer 
science bachelor's degrees went to women.
    Gender stereotypes begin at a very early age. Studies have 
shown that around 6 years old girls develop the belief that 
brilliance is a male characteristic, and this negative 
stereotype is shown to have an immediate effect. The Code Like 
a Girl Act addresses this issue by creating NSF grants to 
increase understanding of the factors that contribute to the 
participation of young girls 10 and under in STEM and computer 
science activities, and this bill also creates a grant program 
to develop and evaluate interventions in pre-K and elementary 
school classrooms that seek to increase participation of young 
girls in computer science.
    By increasing the number of women in computer science 
careers, we diversify the qualified pool that the United States 
relies on for innovation. This will help us maintain our global 
competitiveness and expand our economy. So we shouldn't deprive 
our country of talented minds that could be working on our 
Nation's most challenging problems, talented young minds that 
could be inventing the next breakthrough technology, founding 
future startups, and keeping our Nation safe from cyber 
attacks. So for those reasons I am proud that my Code Like a 
Girl Act is being included in the Building Blocks of STEM Act 
and that we are one step closer to bridging our current gaps in 
STEM education and work force training. I urge my colleagues to 
support this legislation, and I yield back my time.
    Chairman Smith. Thank you, Ms. Rosen.
    And the gentleman from California, Mr. Knight, is 
recognized.
    Mr. Knight. Thank you, Mr. Chairman.
    I speak in support of H.R. 3397, a bipartisan bill that I 
am proud to sponsor with Ms. Jacky Rosen. Investing in our 
children and their future is always an opportunity for good. 
Expanding the reach of our STEM education programs to children 
of all ages will create a greater future in innovation. 
Research shows that children at a very young age are capable of 
absorbing STEM concepts, and any parent can tell you that 
shortly after kids learn to talk, the questions can be endless. 
Children have a natural curiosity that can be fostered into an 
interest in science, technology, engineering, math, and 
computer science.
    The bill directs NSF to more equitably allocate funding for 
research and studies that focus on early childhood, investing 
in children early, ensuring we are laying the groundwork to 
develop young innovators in STEM.
    I want to thank Ms. Rosen for her work on this bill and 
thank the Chairman for his support, and I yield back the 
balance of my time.
    Chairman Smith. Thank you, Mr. Knight.
    And the gentlewoman from Texas, the Ranking Member, is 
recognized for her statement.
    Ms. Johnson. Thank you very much, Chairman Smith. I want to 
thank Ms. Rosen and Mrs. Comstock for introducing 37--3397, the 
Building Blocks of STEM Act. Ms. Rosen has been a champion for 
increasing the participation of girls in computer science since 
she joined the Science Committee, and I commend her for her 
efforts.
    A research article published in the journal Science earlier 
this year revealed that girls begin to view intelligence as a 
male trait as early as 6 years old. This attitude has a 
profound impact on educational and career choices made by young 
women. H.R. 3397 directs the National Science Foundation to 
support research into factors that contribute to the early 
adoption of these stereotypes and scalable models for 
intervention to prevent or reverse the effects of these 
negative and erroneous stereotypes. This legislation is good 
for this Nation. I strongly support this bill and urge my 
colleagues to support it as well.
    I thank you and yield back the balance of my time.

                   Prepared Statement of Ms. Johnson

    Thank you, Chairman Smith. I want to thank Ms. Rosen and 
Ms. Comstock for introducing H.R. 3397, the Building Blocks of 
STEM Act. Ms. Rosen has been a champion for increasing the 
participation of girls in computer science since she joined the 
Science Committee, and I commend her for her efforts. A 
research article published in the journal Science earlier this 
year revealed that girls begin to view intelligence as a male 
trait as early as 6 years old. This attitude has a profound 
impact on educational and career choices made by young women.
    H.R. 3397 directs NSF to support research into factors that 
contribute to the early adoption of these stereotypes and 
scalable models for intervention to prevent or reverse the 
effects of these negative and erroneous stereotypes.
    I strongly support this bill and urge my colleagues to 
support it.
    I yield back the balance of my time

    Chairman Smith. Thank you, Ms. Johnson.
    We have an amendment in the nature of a substitute to be 
offered by Mrs. Comstock, and she is recognized for that 
purpose.
    Mrs. Comstock. Thank you, Mr. Chairman. I have an amendment 
at the desk.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment to H.R. 3387 offered by Mrs. Comstock 
of Virginia, amendment number 001. Strike all after the 
enacting clause and insert the following.
    Chairman Smith. The gentlewoman from Virginia is--continues 
to be recognized.
    Mrs. Comstock. This amendment adds two provisions to the 
Building Blocks of STEM Act. The first is a section on 
supporting girls in STEM education and computer science based 
on legislation that I cosponsored with Mrs. Rosen earlier this 
year, as was mentioned. The provision directs the National 
Science Foundation to research the role of teachers and other 
mentors in girls' perception of and participation in science.
    I have seen firsthand the important role that mentors can 
play in helping inspire young women through my own Young 
Women's Leadership Program that I run in my district in the 
summer and is important to learn how that impacts girls long-
term in STEM.
    I was also pleased to be able to participate recently in a 
coding program in a disadvantaged school in my district, and 
you'll be happy to know that the kindergartners were doing 
coding. They had a great little program that they had and 
these--and the girls were in there and it's exactly--it's 
coding like a girl right from kindergarten. It was really 
exciting to see that.
    The provision also directs NSF to develop scalable models 
to increase young girls' participation. Although women fill 
close to half of all jobs in the U.S. economy, they hold less 
than 25 percent of all STEM jobs, so this obviously can start 
changing this from kindergarten or even before.
    Finally, the amendment includes a provision to add 
informatics and computer science to the definition of STEM in 
the Noyce Teacher program. Informatics, the science of 
processing data for storage and retrieval, is one of the 
fastest-growing STEM career fields. The Bureau of Labor 
Statistics projects the number of health informatics 
specialists to grow 15 percent by 2024, which is faster than 
the projected job growth of all other U.S. professions. We need 
teachers trained to understand this growing field and to 
develop the next generation of workers.
    Thank you, Mrs. Rosen, for working with us to come to 
agreement on this language. Together, these provisions will 
provide many building blocks for STEM, and I urge my colleagues 
to support the amendment. And I yield back.
    Chairman Smith. Thank you, Mrs. Comstock.
    And is there any further discussion on the amendment?
    If not, the question is on agreeing to the manager's 
amendment.
    All in favor, say aye.
    Those opposed, no.
    The ayes have it, and the amendment is agreed to.
    If there are no further amendments, a reporting quorum 
being present, I move that the Committee on Science, Space, and 
Technology report H.R. 3397 to the House, as amended, with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 3397 to the 
House, as amended.
    All those in favor, say aye.
    It's getting weaker and weaker as we go along.
    All opposed, no.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the motion to reconsider is laid upon 
the table. H.R. 3397 is ordered reported to the House.
    I ask unanimous consent that staff be authorized to make 
any necessary technical and conforming changes. Without 
objection, so ordered.

    Before we adjourn, I just want to thank all the Members who 
have been here today and hesitate to single out any particular 
group, but I will say we had almost full attendance looking to 
my left today, and that was very much appreciated. And we still 
have a number of people here as well. Looking to my right, we 
have the author of the bill and two Texans, which is always a 
good combination to have.
    Ms. Johnson. They're back in the cloakroom.
    Chairman Smith. Well, they're back in the cloakroom Ms. 
Johnson says.
    If there's no further discussion, that completes our 
business. This concludes the markup today. Without objection, 
we stand adjourned.
    [Whereupon, at 11:21 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


   H.R. 4376, H.R. 4377, H.R. 4378, H.R. 4375, H.R. 4323, H.R. 4254, 
             Amendment Roster, H.R. 3397, Amendment Roster


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                   PROCEEDINGS OF THE FULL COMMITTEE
                          MARKUP ON H.R. 4675,
                           LOW-DOSE RADIATION
                          RESEARCH ACT OF 2017

                              ----------                              


                      WEDNESDAY, JANUARY 10, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:04 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lamar 
Smith [Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Pursuant to Committee rule 2(e) and House rule XI(2)(h)(4), 
the Chair announces that he may postpone roll call votes.
    Today, we meet to consider H.R. 4675, the Low Dose 
Radiation Research Act of 2017. Pursuant to notice, I now call 
up H.R. 4675, the Low Dose Radiation Research Act of 2017, and 
the clerk will report the bill.
    The Clerk. H.R. 4675, a bill to amend the Energy Policy Act 
of 2005 to provide for a Low Dose Radiation Basic Research 
Program.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    And I'll recognize myself for an opening statement.
    H.R. 4675, the Low Dose Radiation Research Act of 2017 is 
bipartisan legislation, and was introduced by Representatives 
Roger Marshall, Dan Lipinski, Randy Weber, and myself. It 
authorizes a revitalized Low Dose Radiation Research Program 
within the Biological and Environmental Research Division of 
Department of Energy's Office of Science. This research program 
is part of the Science Committee's continued effort to ensure 
America remains a leader in basic research and innovation.
    H.R. 4675 directs DOE to identify ongoing challenges in low 
dose radiation science and develop a long-term basic research 
plan that addresses these challenges. It also directs the 
Department to engage with other Federal agencies and the 
international research community to develop the basic research 
program. This program will analyze any unknown health impacts 
of low levels of radiation, providing critical knowledge to our 
Nation's researchers, industry, healthcare community and 
military as they handle nuclear material, maintain the Nation's 
nuclear weapons program, provide medical treatment, and dispose 
of nuclear waste.
    Low dose radiation research can also inform regulatory 
agencies that set nuclear safety standards for the public, 
including enabling Federal emergency response agencies to more 
accurately set areas of evacuation for a radiological incident 
like a nuclear power plant meltdown.
    This research is also of particular importance to 
practicing physicians, who rely on thorough knowledge of 
radiation health risk to decide when and how to use lifesaving 
diagnostics to detect and treat cancer in patients.
    In the last Congress, this Committee explored DOE's ill-
advised decision to terminate its Low Dose Radiation Research 
Program, which, until its closure in 2016, was one of the 
largest and most effective programs of its kind in the world. 
With so many questions left unanswered about the science of low 
dose radiation, it is no surprise that closure of this crucial 
basic research program was opposed by the scientific community.
    In a hearing last fall, the Science Committee heard from 
witnesses who strongly supported reprioritizing low dose 
radiation research at DOE. This legislation has received 
letters of support from the Health Physics Society, the 
American Association of Physicists in Medicine, the National 
Council on Radiation Protection and Measurements, and leading 
researchers from Northwestern University and Columbia 
University. Congress must reprioritize basic research in low 
dose radiation so we know we are using the best available 
science to serve and maximize our Nation's energy, medical, and 
defense needs.
    Again, I thank the bill's primary sponsors, Representative 
Marshall, Ranking Member Lipinski, and Chairman Weber, for 
their initiative on this issue, and I urge my colleagues on the 
Committee to support this legislation.

                  Prepared Statement of Chairman Smith

    Today we will consider an important Energy Subcommittee 
bill, H.R. 4675, the Low Dose Radiation Research Act of 2017.
    This bipartisan legislation was introduced by 
Representatives Roger Marshall, Dan Lipinksi, Randy Weber and 
myself. It authorizes a revitalized low-dose radiation research 
program within the Biological and Environmental Research 
division of Department of Energy (DOE) Office of Science.
    This research program is part of the Science Committee's 
continued effort to ensure America remains a leader in basic 
research and innovation.
    H.R. 4675 directs DOE to identify ongoing challenges in 
low-dose radiation science and develop a long-term basic 
research plan that addresses these challenges.
    It also directs the department to engage with other federal 
agencies and the international research community to develop 
the basic research program.
    This program will analyze any unknown health impacts of low 
levels of radiation, providing critical knowledge to our 
nation's researchers, industry, health care community and 
military as they handle nuclear material, maintain the nation's 
nuclear weapons program, provide medical treatment and dispose 
of nuclear waste.
    Low dose radiation research can also inform regulatory 
agencies that set nuclear safety standards for the public, 
including enabling federal emergency response agencies to more 
accurately set areas of evacuation for a radiological incident 
like a nuclear power plant meltdown.
    This research is also of particular importance to 
practicing physicians, who rely on thorough knowledge of 
radiation health risks to decide when and how to use lifesaving 
diagnostics to detect and treat cancer in patients.
    In the last Congress, this committee explored DOE's ill-
advised decision to terminate its low dose radiation research 
program, which, until its closure in 2016, was one of the 
largest and most effective programs of its kind in the world. 
With so many questions left unanswered about the science of low 
dose radiation, it is no surprise that closure of this crucial 
basic research program was opposed by the scientific community.
    In a hearing last fall, the Science Committee heard from 
witnesses who strongly supported reprioritizing low dose 
radiation research at DOE. This legislation has received 
letters of support from the Health Physics Society, the 
American Association of Physicists in Medicine, the National 
Council on Radiation Protection and Measurements and leading 
researchers from Northwestern University and Columbia 
University.
    Congress must re-prioritize basic research in low dose 
radiation so we know we are using the best available science to 
serve and maximize our nation's energy, medical and defense 
needs.
    Again, I thank this bill's sponsors, Rep. Marshall, Ranking 
Member Lipinski and Chairman Weber, for their initiative on 
this issue and I urge my colleagues on the committee to support 
this bipartisan bill.

    Chairman Smith. The gentlewoman from Texas, Eddie Bernice 
Johnson, the Ranking Member, is recognized for her opening 
statement.
    Ms. Johnson. Thank you very much, Chairman Smith, for 
holding today's markup of H.R. 4675, the Low Dose Radiation 
Research Program Act of 2017. This research is important to 
better understand the health impacts of exposure to low dosages 
of radiation that could result from medical tests, terrorism 
events, or materials associated with nuclear weapons in power 
production.
    Since its inception in 1998, the Low Dose Radiation 
Research Program at the Department of Energy had provided high-
value scientific data to help determine these risks. However, 
its funding levels have been cut since 2012 as Obama 
Administration informally expressed its intention to end the 
program. And it was finally terminated last year. And thus far, 
the Trump Administration has not indicated any interest in 
restoring DOE's stewardship of these activities.
    In November, GAO provided testimony before this Committee 
is a recent report--on a recent report which recommended that 
DOE lead the development of a plan for interagency 
collaboration on research into low dose radiation's health 
effects, citing a lack of coordination efforts among Federal 
agencies as the Department began phasing out this program.
    I believe that this bipartisan bill reflects GAO's findings 
and recommendations, and I have sponsored and supported similar 
legislative language in the past congresses. Therefore, I am 
pleased to support H.R. 4675 as well and look forward to 
working with my colleagues on both sides of the aisle, as well 
as the Administration, to restore the U.S. scientific 
leadership in this critical area.
    Thanks, and yield back the balance of my time.

                   Prepared Statement of Ms. Johnson

    Thank you, Chairman Smith, for holding today's markup of 
H.R. 4675, the Low-Dose Radiation Research Program Act of 2017.
    This research is important to better understanding the 
health impacts of exposure to low doses of radiation that could 
result from medical tests, terrorism events, or materials 
associated with nuclear weapons and power production.
    Since its inception in 1998, the Low Dose Radiation 
Research Program at the Department of Energy had provided high-
value scientific data to help determine these risks.
    However, its funding levels have been cut since 2012, as 
the Obama administration informally expressed its intention to 
end the program, and it was finally terminated last year. And 
thus far the Trump Administration also has not indicated any 
interest in restoring DOE's stewardship of these activities.
    In November, GAO provided testimony before this Committee 
on a recent report which recommended that DOE lead the 
development of a plan for interagency collaboration on research 
into low dose radiation's health effects, citing a lack of 
coordination efforts among federal agencies after the 
Department began phasing out its program.
    I believe that this bipartisan bill reflects GAO's findings 
and recommendations, and I have sponsored and supported similar 
legislative language in the past few Congresses.
    Therefore I am pleased to support H.R. 4675 as well, as 
look forward to working with my colleagues on both sides of the 
aisle as well as the Administration to restore U.S. scientific 
leadership in this critical area. Thank you Chairman Smith, and 
I yield back.

    Chairman Smith. Thank you, Ms. Johnson.
    And the bill's sponsor, the gentleman from Kansas, Dr. 
Marshall is recognized for his opening statement.
    Mr. Marshall. Good morning, and thank you, Chairman Smith, 
for the opportunity to speak on behalf of this important 
legislation. I would also like to thank the Chairman, as well 
as Representatives Dan Lipinski and Randy Weber, for 
cosponsoring H.R. 4675, the Low Dose Radiation Research Act of 
2017. I'm grateful for their leadership and their commitment to 
biological and environmental science research and truly blessed 
to work alongside the Members of this Committee that have 
supported initiatives in basic science research to keep America 
safe and globally competitive.
    The Low Dose Radiation Research Act of 2017 requires the 
Department of Energy to carry out a research program on low 
dose radiation within the Office of Science. The bill directs 
the Department of Energy to work with key Federal agencies and 
research communities to develop a long-term strategic research 
plan. This program will increase our understanding of the 
health effects that low doses of ionizing radiation have on 
biological systems.
    Every day, humans are exposed to low doses of radiation. It 
is the product of industrial activities, commercial processes, 
medical procedures, and naturally occurring systems. Research 
has consistently shown us the adverse health effects associated 
with high doses of radiation, but the health risk associated 
with exposure to low doses of radiation are much more difficult 
to observe, and we are a long way from understanding and 
accurately assessing those risks.
    In the absence of conclusive evidence, agencies like the 
Department of Energy, the Food and Drug Administration, and the 
Environmental Protection Agency are obligated to assume that 
any exposure to radiation increases the risk of harmful health 
effects. Without proper research, agencies have no way to 
measure if there is a safe radiation threshold.
    Our restricted understanding of low dose radiation health 
risks directly impacts our ability to address potential 
radiological effects and medically based radiation exposures. 
It may also result in overly stringent regulatory standards, 
inhibiting the development of nuclear energy opportunities and 
imposing an undue economic burden on the American people.
    As a physician in my home State of Kansas, I've had a 
firsthand understanding of the crucial importance of verified 
research in ensuring the best medical outcomes for my patients. 
For instance, an adult patient who receives a computed 
tomography or CT scan of the torso is exposed to approximately 
3 years' worth of background radiation at once. The CT scan is 
an invaluable diagnostic, replacing many invasive surgical 
procedures and is a medical necessity for countless Americans. 
Today, we physicians are unable to inform our patients of the 
specific health risk with these type of vital imaging 
processes.
    There is a broad consensus among the radiobiology community 
that more research is necessary for Federal agencies, 
physicians, and related experts to make better informed 
decisions regarding these risks. It is no surprise that H.R. 
4675 has received support from the Health Physics Society, the 
American Association of Physicists in Medicine, the National 
Council on Protection and Measurements, and leading researchers 
from Northwestern University and Columbia University.
    Once again, I'd like to thank Representative Dan Lipinski, 
Chairman Lamar Smith, and Energy Subcommittee Chairman Randy 
Weber for cosponsoring this important legislation. I encourage 
my colleagues to support this bill, and I yield back the 
balance of my time.

                   Prepared Statement of Mr. Marshall

    Good morning. Thank you, Chairman Smith, for the 
opportunity to speak on behalf of this important legislation. I 
would like to thank the chairman, as well as Representatives 
Dan Lipinski and Randy Weber, for cosponsoring H.R. 4675, the 
Low Dose Radiation Research Act of 2017. I am grateful for 
their leadership and their commitment to biological and 
environmental science research. And truly blessed to work 
alongside the members of this committee that have supported 
initiatives in basic science research to keep America safe and 
globally competitive. The Low Dose Radiation Research Act of 
2017 requires the Department of Energy to carry out a research 
program on low dose radiation within the Office of Science.
    This bill directs the Department of Energy to work with key 
federal agencies and research communities to develop a long-
term strategic research plan. This program will increase our 
understanding of the health effects that low doses of ionizing 
radiation have on biological systems. Every day, humans are 
exposed to low doses of radiation. It is the product of 
industrial activities, commercial processes, medical procedures 
and naturally occurring systems. Research has consistently 
shown us the adverse health effects associated with high doses 
of radiation. But the health risks associated with exposure to 
low doses of radiation are much more difficult to observe, and 
we are a long way away from understanding and accurately 
assessing this risk.
    In the absence of conclusive evidence, agencies like the 
Department of Energy, the Food and Drug Administration and the 
Environmental Protection Agency are obligated to assume that 
any exposure to radiation increases the risk of harmful health 
effects. Without proper research, agencies have no way to 
measure if there is a safe radiation threshold. Our restricted 
understanding of low-dose radiation health risks directly 
impairs our ability to address potential radiological events 
and medicallybased radiation exposures. It may also result in 
overly stringent regulatory standards, inhibiting the 
development of nuclear energy opportunities and posing an undue 
economic burden on the American people.
    As a physician in my home state of Kansas, I have a first-
hand understanding of the crucial importance of verified 
research in ensuring the best medical outcomes for my patients. 
For instance, an adult patient who receives a computed 
tomography (or CT) scan of the torso, is exposed to 
approximately three years' worth of background radiation at 
once. The CT scan is an invaluable diagnostic tool, replacing 
many invasive surgical procedures, and is a medical necessity 
for countless Americans. Today, we physicians are unable to 
inform our patients of the specific health risks associated 
with these types of vital imaging processes.
    There is broad consensus among the radiobiology community 
that more research is necessary for federal agencies, 
physicians and related experts to make betterinformed decisions 
regarding these risks. It is no surprise that H.R. 4675 has 
received support from the Health Physics Society, the American 
Association of Physicists in Medicine, the National Council on 
Radiation Protection and Measurements and leading researchers 
from Northwestern University and Columbia University.
    Once again, I would like to thank Representative Dan 
Lipinski, Chairman Lamar Smith and Energy Subcommittee Chairman 
Randy Weber for cosponsoring this important legislation.
    I encourage my colleagues to support this bill, and I yield 
back the balance of my time.

    Chairman Smith. Thank you, Mr. Marshall.
    And the gentleman from Illinois, the Ranking Member of the 
Research and Technology Subcommittee and the other lead sponsor 
of this legislation, is recognized.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank you, 
and I want to concur with your comments and Ranking Member 
Johnson's comments. And I want to thank Mr. Marshall for 
introducing this bill, and I'm pleased to join him as the lead 
Democratic cosponsor of this bill.
    Low dose radiation research is a critical field that can 
provide important insights into the biological response of 
cells to low levels of ionizing radiation. This research has 
obvious potential impacts in the field of diagnostic medicine 
but will also provide crucial information for nuclear energy 
industry, environmental cleanup operations, and our national 
security.
    Almost 20 years ago, the Department of Energy began funding 
research into low dose radiation. During the program's history, 
DOE's research has resulted in a number of important 
advancements in our understanding of cellular response to 
radiation exposure. However, during the Obama Administration, 
officials at the Department of Energy decided that this work 
was no longer a priority and proposed to ramp down funding and 
eventually eliminate this work.
    Appropriators followed this recommendation, and without a 
statutory authorization in place, the Low Dose Radiation 
Research Program was eliminated. The current Administration did 
not propose new funding for this research in Fiscal Year 2018 
in their budget request, and we do not expect anything 
different in the budget proposal we will see for 2019.
    The process by which the Low Dose Radiation Research 
Program was eliminated underscores the importance of this bill. 
As an authorizing Committee, it is crucial that we hear from 
the experts, consider the body of evidence, and determine the 
priorities of the agencies that are under our jurisdiction. 
That is our job.
    In the last several years, a variety of stakeholders, as 
well as the Government Accountability Office, have weighed in 
on the need for this research. And our Committee has heard the 
same in two hearings on this topic in the last 2 years. That's 
why I'm happy to serve as the lead Democratic cosponsor of this 
small but very important research bill.
    I'm hopeful that during the next several months we can 
follow the model we followed on this bill and pass other well-
vetted bipartisan bills out of this Committee. I encourage my 
colleagues to support the bill and such continued efforts. And 
thank you, Mr. Chairman, and I yield back.
    Chairman Smith. Thank you, Mr. Lipinski.
    And the gentleman from Florida, Mr. Dunn, is recognized.
    Mr. Dunn. Thank you very much, Mr. Chairman, and Ranking 
Member Johnson. I want to thank all of you for convening this 
meeting to take into consideration H.R. 4675, the Low Dose 
Radiation Research Act of 2017.
    I also want to congratulate my classmate and my friend Dr. 
Marshall and his cosponsor Mr. Lipinski for investing the time 
to produce this bill.
    During the Committee's hearing on the subject, Dr. Brink 
from the American College of Radiology testified that more than 
a million patients a year receive the benefits of radiation 
treatment, which include extended life and relief from pain and 
suffering. Improving our scientific understanding of the 
effects of exposure to low dose radiation will accelerate 
development of advanced diagnostic and therapeutic procedures 
and enhance the acceptance of controlled use of radiation among 
patients and doctors, which will improve the quality of care 
and save lives.
    And this legislation like 4675 makes me optimistic for my 
children and my grandchildren's future and why I'm honored to 
serve on this Committee with all of you.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Dunn.
    If there's no further discussion, we will go to 
amendments--and I'm aware of two--both to be offered by Mr. 
Foster, and he is recognized for the purpose of offering the 
first one.
    Mr. Foster. Thank you, Mr. Chairman. I have an amendment at 
the desk.
    Chairman Smith. The clerk will report the amendment.
    The Clerk. Amendment to H.R. 4675 offered by Mr. Foster of 
Illinois, amendment number 74.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman from Illinois is 
recognized to explain his amendment.
    Mr. Foster. Thank you. My amendments would simply direct 
the Secretary to identify and, to the extent possible, to 
quantify the potential benefits to stakeholders of the Low Dose 
Radiation Research Program and different components of it.
    The research that comes out of this program will have a 
number of uses across several agencies and sectors, including 
the private sector and the public at large. For instance, if we 
learn that astronauts could be safely exposed to slightly 
higher levels of radiation, this could have potential cost-
saving implications for manned spaceship design or the reverse 
is possible. To the extent that medical treatment and diagnosis 
represents a tradeoff between radiation and health benefits, 
then we can get to a more science-based position there.
    Environmental remediation from radon in basements to the 
cleanup of legacy sites, legacy weapons sites to the safety of 
nuclear workers are other important examples where you have to 
make sure that the research you're doing matches the actual 
application in the real world. So an effort to quantify to the 
extent possible these potential benefits is essential to 
ensuring that the Low Dose Radiation Program properly 
prioritizes questions with the greatest real-world impact.
    The funding that we all hope will become available for this 
program will not be infinite, and it's important that when the 
program is restarted, that it is restarted especially in the 
areas that will really, you know, make the world a safer and 
less expensive place to live in.
    So I'm pleased to see such strong bipartisan support and 
join with my colleagues in supporting the reinstatement of a 
Low Dose Research Radiation Program in DOE. I believe that my 
amendment will help insure not only the best use of DOE's 
limited resources but also the long-term success of the Low 
Dose Radiation Research Program.
    I understand that the Chairman supports this amendment and 
will accept it, so I'd like to thank him and Ranking Member 
Johnson for their support and yield back the balance of my 
time.
    Chairman Smith. And thank you, Mr. Foster. You're correct. 
I'll recognize myself in support of the amendment.
    The amendment would add a requirement that the Secretary of 
Energy identify potential monetary and health-related benefits 
that could occur through the results of the research program 
authorized in this legislation. So this is a commonsense 
amendment that seeks to show the value of continued investments 
in basic research like the Low Dose Radiation Research Program. 
I encourage Members to support the amendment.
    Is there any further discussion on the amendment?
    The Ranking Member Ms. Johnson is recognized.
    Ms. Johnson. I'd like to move to strike the last word.
    Chairman Smith. The gentlewoman is recognized for 5 
minutes.
    Ms. Johnson. Thank you, Mr. Chairman.
    I support this amendment and appreciate Dr. Foster's work 
to improve the legislation we're considering today.
    As we heard during the Committee hearing that took place in 
November, research into low dose radiation can have far-
reaching impacts in a variety of industries and disciplines. 
One of the key takeaways from that hearing is that the economic 
and health benefits from this research are likely numerous but 
unknown. I support this important addition to the program's 
scope directing the Department to consider the potential 
benefits to key stakeholders in government, academia, and 
private industry, would provide helpful guidance to the program 
and would ensure that the benefits of the research are well 
recognized. And I encourage my colleagues to join me in 
supporting the amendments, and I yield back.
    Chairman Smith. OK. Thank you, Ms. Johnson.
    If there's no further discussion, the question is on 
agreeing to the amendment.
    All in favor, say aye.
    Opposed, no.
    The amendment is agreed to. And the gentleman is recognized 
for purposes of offering the next amendment.
    Mr. Foster. Thank you, Mr. Chairman. I have another 
amendment at the desk.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment to H.R. 4675 offered by Mr. Foster of 
Illinois, amendment number 72.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman continues to be 
recognized.
    Mr. Foster. Thank you, Chairman Smith.
    A few months ago, we held a Subcommittee hearing on the Low 
Dose Radiation Research Program at the Department of Energy. It 
was a very productive and bipartisan discussion, although I 
remain disappointed that no one from the Department of Energy 
was there to participate.
    I join with my Republican colleagues in supporting the 
reinstatement of the Low Dose Radiation Research Program at 
DOE. I appreciate that this bill acknowledges the need to 
formulate scientific goals for the low dose program and that it 
instructs the Secretary to consult with and engage with other 
Federal agencies. I believe this is key to ensuring the success 
of a renewed effort on low dose radiation.
    And given the bipartisan support for this program, however, 
I was disappointed to see that the underlying bill expects the 
Department of Energy to start this new research program with no 
new funding. You know, it seems as though we used to have 
bipartisan agreement in Congress that when we ask the 
government to spend more money, that we would actually specify 
how to pay for it rather than pushing the debt onto our 
children, but it appears in recent times that that bipartisan 
agreement seems to have vanished.
    So my amendment today simply corrects this by increasing 
the authorization for the BER program by the amount dictated in 
the underlying bill. It's irresponsible, I believe, to direct 
DOE to undertake new research--a new research program with no 
new funding, and that would inevitably mean that another 
valuable area of research within BER would suffer.
    Now, I understand the Chair is opposed the amendment, and 
as a courtesy to him, I will be withdrawing it, but I do hope 
to work with my Republican colleagues to increase funding for 
the BER program so that the Low Dose Radiation Program can be 
properly funded.
    Thank you, and I withdraw this amendment.
    Chairman Smith. OK. Without objection, the amendment is 
withdrawn. I thank the gentleman from Illinois for his 
thoughtful comments and will continue to work with him on the 
program.
    Is there any further discussion or any more amendments to 
be offered?
    And if not, a reporting quorum being present, I move that 
the Committee on Science, Space, and Technology report H.R. 
4675 to the House as amended with the recommendation that the 
bill be approved.
    The question is on favorably reporting H.R. 4675 to the 
House, as amended.
    All those in favor, say aye.
    And opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the motion to reconsider is laid upon 
the table, and H.R. 4675 is ordered reported to the House.
    I ask unanimous consent that staff be authorized to make 
any necessary technical and conforming changes. And without 
objection, so ordered.

    If there's no further discussion, that completes our 
business. This concludes the Science Committee markup, and 
without objection, we stand adjourned, but I also want to thank 
all the Members who came today to this markup. It wasn't 
expected to be long, but I always appreciate their presence. We 
have three doctors present on our side, all of whom will have a 
special interest in this bill as well, as does the gentleman 
from Illinois, who has the Ph.D. in physics.
    So we stand adjourned.
    [Whereupon, at 10:25 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                      H.R. 4675, Amendment Roster

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




                   PROCEEDINGS OF THE FULL COMMITTEE
                      MARKUPS: H.R. 5345, AMERICAN
                     LEADERSHIP IN SPACE TECHNOLOGY
                       AND ADVANCED ROCKETRY ACT;

                      H.R. 5346, COMMERCIAL SPACE
                        SUPPORT VEHICLE ACT; AND

                       H.R. 5086, INNOVATIONS TO
                       ENTREPRENEURS ACT OF 2018

                              ----------                              


                        THURSDAY, MARCH 22, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 9:01 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lamar 
Smith [Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Pursuant to Committee rule 2(e) and House rule XI(2)(h)(4), 
the Chair announces that he may postpone roll call votes.
    Today, we meet to consider H.R. 5345, the American 
Leadership in Space Technology and Advanced Rocketry Act; H.R. 
5346, the Commercial Space Support Vehicle Act; and H.R. 5086, 
the Innovators to Entrepreneurs Act of 2018. I'll recognize 
myself for an opening statement. I appreciate the Members who 
are here. We don't expect any amendments. All these bills are 
bipartisan, so this should not take long. And my opening 
statement is going to cover all three bills, so we'll try to 
expedite in that way as well.
    We are going--the third bill is sponsored by Representative 
Lipinski, and we are going to wait for him to arrive when we 
get to that third bill if he's not already here.
    First, we will consider two space bills. Together, the two 
bills help ensure that America remains competitive in space. 
Both bills are the product of bipartisan consultation between 
the majority and minority Members and staff. The first space 
bill is H.R. 5345, the American Leadership in Space Technology 
and Advanced Rocketry Act. This bipartisan legislation, 
sponsored by Space Subcommittee Vice Chair Mo Brooks and 
cosponsored by Ed Perlmutter, directs the Marshall Space Flight 
Center to provide national leadership in rocket propulsion and 
support the development of new and emerging technologies 
related to rocket propulsion.
    Rocket propulsion is the foundation for everything America 
does in space from launching satellites that help us forecast 
the weather and communicate around the world to exploration 
missions that reach out far into the solar system and beyond. 
The Marshall Space Flight Center's home of Huntsville, Alabama, 
has been at the center of rocket propulsion since the 
establishment of Army rocket research and development 
activities at the Redstone Arsenal in 1950. Marshall's 
expertise supports the national effort to keep our rocket 
propulsion industrial base vibrant and healthy and ensures that 
America stays at the forefront of rocket propulsion technology.
    The next bill is H.R. 5346, the Commercial Space Support 
Vehicle Act. This bipartisan legislation, sponsored by 
Representative Bill Posey and cosponsored by Representative Al 
Lawson, authorizes the Secretary of Transportation to license 
hybrid launch vehicles to provide space support flights such as 
crew and space flight participant training.
    The Trump Administration, under the direction of the Vice 
President and the National Space Council, has tasked the 
Secretary of Transportation to reform commercial space launch 
regulations by March 1, 2019. The bill instructs the 
Transportation Secretary to consult with the commercial space 
industry prior to issuing the notice of proposed rulemaking and 
to issue space support vehicle licensing regulations by March 
1, 2019. The intent of this provision is to make these new 
commercial space support vehicle licenses part of the reform 
effort.
    I want to thank this bill's sponsor, Representative Bill 
Posey, for his longstanding support of the commercial space 
industry and for his persistence on this space commerce 
regulatory reform effort.
    The final bill is H.R. 5086, the Innovators to 
Entrepreneurs Act. The bill extends the National Science 
Foundation's Innovation Corps (I-Corps) program, which trains 
and prepares scientists and engineers to convert their research 
results into entrepreneurial opportunities. H.R. 5086 expands 
who is eligible to participate in I-Corps courses, allowing 
Small Business Innovation Research and Small Business 
Technology Transfer grants to be used to cover I-Corps training 
expenses. The bill also authorizes a new I-Corps course that 
teaches skills, including company organization, attracting 
investors, and hiring.
    I thank Representative Dan Webster and Research and 
Technology Subcommittee Ranking Member Dan Lipinski for their 
work on this legislation.

                  Prepared Statement of Chairman Smith

    Today we meet to consider three bills.
    First, we will consider two space bills. Together, the two 
bills help ensure that America remains competitive in space. 
Both bills are the product of bipartisan consultation between 
the majority and minority members and staff.
    The first space bill is H.R. 5345, the American Leadership 
in Space Technology and Advanced Rocketry Act. This bipartisan 
legislation, sponsored by Space Subcommittee Vice Chair Mo 
Brooks, and cosponsored by Rep. Ed Perlmutter, directs the 
Marshall Space Flight Center to provide national leadership in 
rocket propulsion and support the development of new and 
emerging technologies related to rocket propulsion.
    Rocket propulsion is the foundation for everything America 
does in space from launching satellites that help us forecast 
the weather and communicate around the world to exploration 
missions that reach out far into the solar system and beyond. 
The Marshall Space Flight Center's home of Huntsville, Alabama, 
has been at the center of rocket propulsion since the 
establishment of Army rocket research and development 
activities at the Redstone Arsenal in 1950.
    Marshall's expertise supports the national effort to keep 
our rocket propulsion industrial base vibrant and healthy and 
ensures that America stays at the forefront of rocket 
propulsion technology.
    The next bill is H.R. 5346, the Commercial Space Support 
Vehicle Act. This bipartisan legislation, sponsored by Rep. 
Bill Posey and cosponsored by Rep. Al Lawson, authorizes the 
secretary of transportation to license hybrid launch vehicles 
to provide space support flights such as crew and space flight 
participant training.
    The Trump administration, under the direction of the vice 
president and the National Space Council, has tasked the 
secretary of transportation to reform commercial space launch 
regulations by March 1, 2019.
    The bill instructs the transportation secretary to consult 
with the commercial space industry prior to issuing the notice 
of proposed rulemaking and to issue space support vehicle 
licensing regulations by March 1, 2019.
    The intent of this provision is to make these new 
commercial space support vehicle licenses part of this reform 
effort.
    I want to thank this bill's sponsor, Rep. Bill Posey, for 
his long-standing support of the commercial space industry and 
for his persistence on this space commerce regulatory reform 
effort.
    The final bill is H.R. 5086, the Innovators to 
Entrepreneurs Act. The bill extends the National Science 
Foundation's Innovation Corps (I-Corps) program, which trains 
and prepares scientists and engineers to convert their research 
results into entrepreneurial opportunities.
    H.R. 5086 expands who is eligible to participate in I-Corps 
courses, allowing Small Business Innovation Research and Small 
Business Technology Transfer grants to be used to cover I-Corps 
training expenses.
    The bill also authorizes a new I-Corps course that teaches 
skills including company organization, attracting investors and 
hiring.
    I thank Rep. Daniel Webster and Research and Technology 
Subcommittee Ranking Member Dan Lipinski for their work on this 
legislation.

    Chairman Smith. And that concludes my opening statement, 
and the Ranking Member today, the gentleman from Illinois, Mr. 
Lipinski, is recognized for his opening statement.
    Mr. Lipinski. Thank you, Chairman Smith, for holding 
today's bipartisan markup. The first bill we're considering is 
American Leadership in Space Technology and Advanced Rocketry 
Act sponsored by Mr. Brooks.
    This bill recognizes the rocket propulsion work of the 
Marshall Space Flight Center. That work, as well as all the 
other work that's carried out at our various NASA centers 
around the country, is vital to American technological 
advancement in aerospace, and it's worthwhile that we recognize 
that.
    I've had the opportunity to visit the--visit Marshall, and 
it was very impressive. I'm glad that I've had the opportunity 
to do that when I was down with Mr. Brooks a few years ago 
holding a field hearing down there, so it was good to get to 
experience that myself and all the work that they're doing 
there.
    Second, we will consider the Commercial Space Support 
Vehicle Act introduced by Congressman Posey. This bill amends 
existing law to provide the Secretary of Transportation with 
authority to license or permit space support vehicles for space 
support flights such as crew training or research and 
development that are related to space launch or reentry.
    I understand that the goal of these amendments is to 
provide the industry with greater statutory clarity, as well as 
to simplify the licensing process for commercial space 
missions. To that end, I think we should get feedback from the 
affected industry and make any appropriate adjustments to the 
legislation before we move toward enactment.
    In addition, Mr. Chairman, it is important that FAA's 
Office of Commercial Space Transportation is sufficiently 
resourced to accommodate any additional work so that the office 
can continue to focus on its core responsibilities of licensing 
and permitting commercial space launch and reentry vehicles. 
The U.S. commercial space launch industry is really in a 
resurgence right now, and we need to be doing what we can to 
ensure that research continues.
    And third, we are marking up--the bill we are marking up is 
H.R. 5086, the bill that I introduced, the Innovators to 
Entrepreneurs Act of 2018, which is cosponsored by Mr. Weber 
and Ranking Member Johnson. This bill seeks to expand 
participation in the National Science Foundation's highly 
successful I-Corps program and to broaden the scope of 
curriculum offered.
    The I-Corps program helps increase the return on investment 
to Federal R&D dollars in the form of increased jobs and 
economic opportunity. And I'll say more about that when the 
bill is brought up. But I want to thank the Chairman for--
especially on that bill--on my bill, bringing that up and being 
willing to work with me on that. And I thank the Chairman for, 
you know, all of these bipartisan bills that we are working on 
here today, so thank you.
    With that, I'll yield back.

                   Prepared Statement of Mr. Lipinski

    Thank you Chairman Smith for holding today's bipartisan 
markup. The first bill we are considering is the American 
Leadership in Space Technology and Advanced Rocketry Act, 
sponsored by Mr. Brooks. This bill recognizes the rocket 
propulsion work of the Marshall Space Flight Center. That work, 
as well as all the other work that is carried out at our 
various NASA centers around the country, is vital to American 
technological advancement in aerospace, and it is worthwhile to 
recognize that.
    Second, we will consider the Commercial Space Support 
Vehicle Act, introduced by Congressman Posey. This bill amends 
existing law to provide the Secretary of Transportation with 
authority to license or permit space support vehicles for space 
support flights, such as crew training or research and 
development, that are related to space launch or reentry. I 
understand that the goal of these amendments is to provide the 
industry with greater statutory clarity, as well as to simplify 
the licensing process for commercial space missions. To that 
end, I think we should get feedback from the affected industry 
and make any appropriate adjustments to the legislation before 
we move towards enactment.
    In addition, Mr. Chairman, it is important that FAA's 
Office of Commercial Space Transportation is sufficiently 
resourced to accommodate any additional work so that the Office 
can continue to focus on its core responsibilities of licensing 
and permitting commercial space launch and reentry vehicles. 
The U.S. commercial space launch industry is really in a 
resurgence right now, and we need to be doing what we can to 
ensure that resurgence continues.
    Third, the bill we are marking up is H.R. 5086, my 
Innovators to Entrepreneurs Act of 2018, cosponsored by Mr. 
Webster and Ranking Member Johnson. This bill seeks to expand 
participation in the National Science Foundation's highly 
successful I-Corps program and to broaden the scope of 
curriculum offered. The I-Corps program helps increase the 
return on investment to Federal R&D dollars in the form of 
increased jobs and economic output.
    Thank you for calling today's markup, and I yield back.

    Chairman Smith. Thank you, Mr. Lipinski.

    H.R. 5345

    Chairman Smith. And pursuant to notice, I call up H.R. 
5345, the American Leadership in Space Technology and Advanced 
Rocketry Act, and the clerk will report the bill.
    The Clerk. H.R. 5345, a bill to designate the Marshall 
Space Flight Center of the National Aeronautics and Space 
Administration to provide leadership for the U.S. rocket 
propulsion industrial base and for other purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    And the bill's sponsor, the gentleman from Alabama, Mr. 
Brooks, is recognized for his opening statement.
    Mr. Brooks. Take this opportunity to thank Chairman Smith 
and Representative Perlmutter for the roles that they played in 
allowing this bill to come up, and especially Representative 
Perlmutter for agreeing to cosponsor it in a very bipartisan 
fashion.
    As the Congressman for the Tennessee Valley of north 
Alabama, I appreciate and understand the unique and valuable 
contribution that rocket propulsion has provided America.
    On a more personal note, I very well remember growing up as 
a young lad in Huntsville, Alabama, as the Saturn V rockets 
were test-fired not far away. The earth would shake, the 
windows would rattle, and the dishes would sometimes fall out 
of the cabinets. I didn't understand the full meaning of that, 
though, until 1969 when it was those rockets that allowed 
America to be the first and only Nation to date that has been 
able to send astronauts to the moon and successfully return 
them.
    The best way forward for the United States to maintain its 
leadership position in space exploration utilization is to 
support our Nation's work and investment in rocket propulsion 
because rocket propulsion is the foundational capability for 
everything we do in space.
    By way of background, in my district the Marshall Space 
Flight Center provides expertise in solid and liquid rocket 
propulsion, as well as advanced rocket propulsion technology to 
enable a wide array of future activity in space.
    Over the last several years, America has witnessed the 
beginnings of a resurgence in the rocket propulsion industry. 
As these traditional and emerging actors continue to move 
forward, it is important that we support healthy cooperation 
and communication between these companies and the Federal 
Government to ensure that America maintains a robust and 
healthy rocket propulsion industry.
    As this Committee continues its work to guide our national 
space policy, we must ensure a strong foundation and bold 
leadership in rocket propulsion, a robust industrial base that 
can develop and capitalize on better rocket propulsion 
technology. Therefore, I have introduced the American 
Leadership in Space Technology and Advanced Rocketry Act of 
2018, also known as the ALSTAR Act.
    At this point, let me read two paragraphs from the act that 
pretty well summarize the intent of this legislation. In 
effect, ALSTAR formalizes and preserves the Marshall Space 
Flight Center's historical role in rocket propulsion. Quoting 
from the act, ``It is the sense of Congress that the Marshall 
Space Flight Center is the National Aeronautics and Space 
Administration's lead center for rocket propulsion and 
essential to sustaining and promoting U.S. leadership in rocket 
propulsion and developing the next generation of rocket 
propulsion capabilities. The Marshall Space Flight Center shall 
provide national leadership in rocket propulsion,'' thereafter 
listing a number of ways in which the Marshall Space Flight 
Center is to do that.
    This bill helps to ensure the long-term stability of the 
rocket propulsion industry through better coordination and 
collaboration between all relevant stakeholders, Federal and 
private. This bill also directs Marshall to explore, develop, 
and mature new rocket propulsion technology in cooperation with 
partners across and outside of government. This new growth, 
while building on a strong foundation, will ensure that America 
remains at the forefront of space exploration.
    NASA must once again challenge itself to reach far beyond 
its limits. Through attention, focus, and support of the 
utilization of space and the exploration of deep space, we will 
be able to once again inspire the next generation to look to 
the starts and aspire to do the impossible.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Brooks.
    Does the--I am glad to see that the cosponsor of the 
legislation seeks to be recognized. We want him to be on the 
record. And the gentleman is so recognized.
    Mr. Perlmutter. Thank you, Mr. Chair. And I want to thank 
Mr. Brooks for bringing this piece of legislation. And I wanted 
to support this legislation and cosponsor it because 
Huntsville, the Marshall Space Center, is one of 10 centers 
that NASA uses to make sure that we're preeminent in the space 
program and that we will get our astronauts out there, we will 
get our robots out into outer space. We will explore.
    And the historic role that Huntsville has played in the 
space program is its current role and now will be its future 
role, to be at the center of getting our space program into 
outer space, pretty simple, but I wanted to encourage this 
network that we have that is really second to none in the 
world, and we've got to keep it that way.
    So, for me, cosponsoring this bill was very easy. It is 
something that I think will remind people, whether they're in 
Alabama or Colorado or California, that this is important to 
America, that our role and our willingness to explore and get 
our capsules and our people into outer space is key. And 
Huntsville plays a critical role in that, and that's why I 
support this bill.
    And I yield back.
    Chairman Smith. Thank you, Mr. Perlmutter.
    If there's no further discussion, a reporting quorum being 
present, I move that the Committee on Science, Space, and 
Technology report H.R. 5345 to the House with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 5345 to the 
House.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the motion to reconsider is laid upon 
the table. Congratulations to you all.
    H.R. 5346

    Chairman Smith. Pursuant to notice, I now call up H.R. 
5346, the Commercial Space Support Vehicle Act, and the clerk 
will report the bill.
    The Clerk. H.R. 5346, a bill to amend title 51, United 
States Code, to provide for licenses and experimental permits 
for space support vehicles and for other purposes.
    Chairman Smith. And without objection, the bill is 
considered as read and open for amendment at any point.
    And the gentleman from Florida, Mr. Posey, is recognized 
for his statement.
    Mr. Posey. Thank you very much, Mr. Chairman. And I want to 
first and foremost thank the staff for their diligence in 
perfecting this legislation that we need.
    A GAO report last year recommended that the Federal 
Aviation Administration examine its current regulatory 
framework for space support vehicles and suggest legislative or 
regulatory changes as applicable. The Commercial Space Vehicle 
Support Act was largely developed with input from the 
Department of Transportation report on the permitting process 
of hybrid launch vehicles to enable non-launch flight 
operations. NASA has used them for years to conduct parabolic 
experiments where they go up and down and do the gravity-
sensitivity checks that they want. It's much cheaper to use an 
F-104 than it is to launch a rocket costing millions of dollars 
to do those kind of experiments.
    The Department of Transportation report concluded that the 
option of having a single statutory regime and regulatory 
office oversee a demonstrated commercial space program 
throughout its operational lifecycle would allow consistent 
application of regulatory philosophy and safety oversight and 
be more efficient and cost-effective for the launch operator, 
as well as the licensing agency.
    The Commercial Space Support Vehicle Act provides an 
appropriate regulatory approach by authorizing the Secretary of 
Transportation to develop regulations by March 1, 2019, 
allowing license space support flights.
    I'd like to ask unanimous consent to include in the record 
a letter of support from Virgin Galactic for H.R. 5346, the 
Commercial Space Support Vehicle Act.
    Chairman Smith. OK. Without objection, so ordered.
    Mr. Posey. As mentioned by Chairman Smith and the Ranking 
Member Lipinski, the intent is to include the development of 
regulations in the regulatory reform process that the Vice 
President and the National Space Council tasks the Federal 
Aviation Administration to comply by the date previously 
mentioned. I thank you very much and yield back.
    Chairman Smith. Thank you, Mr. Posey.
    If there is no further discussion, a reporting quorum being 
present, I move that the Committee on Science, Space, and 
Technology report H.R. 5346 to the House with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 5346 to the 
House.
    All those in favor, say aye.
    Opposed, say nay.
    The ayes have it, and the bill is ordered reported--
ordered--is ordered reported favorably.
    Without objection, the motion to reconsider is laid upon 
the table.

    H.R. 5086

    Chairman Smith. Pursuant to notice, we call up H.R. 5086, 
the Innovators to Entrepreneurs Act of 2018. And the clerk will 
report the bill.
    The Clerk. H.R. 5086, a bill to require the Director of the 
National Science Foundation to develop an I-Corps course to 
support commercialization-ready innovation companies and for 
other purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    And we will now recognize the bill's sponsor, the gentleman 
from Illinois, Mr. Lipinski, for his statement.
    Mr. Lipinski. Thank you, Mr. Chairman.
    As you and Members of this Committee are aware, I've been 
the leading advocate--putting it mildly--for the National 
Science Foundation Innovation Corps or I-Corps program since 
its inception. I led the legislative effort that authorized I-
Corps as part of the American Innovation and Competitiveness 
Act that became law at the end of the last Congress.
    The I-Corps program offers valuable entrepreneurial 
education primarily to scientists and engineers who are college 
research faculty, graduate students, and postdoctoral fellows. 
The purpose is to help these individuals develop new, 
innovative products from the world-class research they conduct 
in their labs. The program has had tremendous success at NSF 
and has been expanded to other agencies, including DOE, NIH, 
DOD, USDA, and DHS. It has helped create new entrepreneurs and 
new tech jobs and is helping Federal taxpayers get the most out 
of their investment in research.
    The I-Corps program has been successful in part due to its 
focus on providing education and mentoring tailored to the 
needs of entrepreneurs at their particular business stage. To 
date, that focus has been on the point at which they're first 
attempting to create a product based on research they've 
conducted in the lab, but different types of support are needed 
at later States as the entrepreneur forms a company and 
progresses toward introducing the product to market.
    Currently, once a team completes an I-Corps course and 
decides to take their innovation to market, they must learn how 
to form and grow a company on their own. Many scientists and 
engineers are struggling to acquire the necessary skills, and 
as a result, too many early stage companies are failing.
    To address this, NSF has piloted a course called I-Corps Go 
to teach skills like selecting a company structure, attracting 
investors and hiring a team. Due to the popularity and early 
success of this course, this bill aims to make it a formal 
component of the I-Corps program to be offered nationwide.
    This bill also aims to expand participation in I-Corps 
without a significant increase in funding. Although I'd support 
increasing the NSF's funding in general and I-Corps funding in 
particular, at the Chairman's request, I am moving this bill 
forward with only a small authorization. The way this bill will 
increase participation is to allow any small business 
innovation research or small business technology transfer 
research grantee from any Federal agency to use their grant 
funds to participate in I-Corps. The bill also allows private 
citizens and entities to pay out of pocket to participate. 
Increased access to and participation in I-Corps will ensure 
that more American innovators have access to high-quality 
entrepreneurial education.
    The final provision of this bill is to require a Government 
Accountability Office report on the I-Corps program. Although 
NSF submits periodic reports about the program to Congress, to 
date, there has not been an independent review of its 
performance.
    I fully support I-Corps and continue to be amazed by its 
success, but as with any taxpayer-funded program, I also 
support independent auditing to help us learn how to improve 
the program. The Federal Government invests billions of dollars 
in research and development annually. I-Corps is a modest 
investment that leads to a big return on federally funded 
research by significantly increasing rates of research 
commercialization, economic activity, and job creation.
    Just as the creation of I-Corps program addressed an unmet 
need and helped scientists entrepreneurs bring their ideas 
closer to market, the Innovators to Entrepreneurs Act will fill 
an additional skills gap and empower more aspiring job creators 
to access the private capital they need to be commercially 
successful.
    I want to thank Mr. Webster and Ranking Member Johnson for 
their support and co-sponsorship of this bill. I also thank 
Chairman Smith for holding an I-Corps hearing this past 
December and for bringing up this bipartisan bill for a markup.
    The I-Corps program has been one of the most remarkable, 
maybe the most remarkable program that I have seen in my time 
here in Congress for what it's been able to do to tap into the 
great research that is being done at our--you know, at our 
research universities, also starting to reach into the national 
labs, and it really does a great job of helping to really take 
those great innovators that we have, the great researchers that 
we have, teach them how to be entrepreneurs. It's been very 
successful. It helps to bring back a good return on taxpayer 
dollars and create jobs, and it's something that we all support 
and we all want, and I encourage all my colleagues to vote in 
favor.
    And I'll yield back.
    Chairman Smith. Thank you, Mr. Lipinski.
    And the gentleman from Florida, the cosponsor of the 
legislation, Mr. Webster, is recognized for his statement.
    Mr. Webster. Thank you so much, Mr. Chairman, and thank you 
for allowing us to be able to come forward. I thank my friend 
Mr. Lipinski for filing this. He's certainly known as a 
champion of I-Corps and maybe the champion of I-Corps, so I'm 
very appreciative of that.
    This is a great piece of legislation, as the sponsor has 
said. The idea of helping the scientists and engineers and 
others who develop products, getting them to market is an 
important thing because you can have a product, but if you 
don't sell it, it doesn't really do anybody any good.
    So through marketing and hiring and organizing and 
attracting investors and so forth, the participants in these I-
Corps groups have a better chance of being successful, and 
that's the whole idea. I've seen in Florida what a great 
program it is, and it has greatly benefited our State, and I 
know it has in the rest of the country. There have just been 
barriers, barriers that could not be penetrated. You couldn't 
get through. This bill is going to help break down those 
barriers so that those who are developing their product can 
also get them to market.
    So I would certainly urge everyone on this Committee to 
vote for this great bipartisan bill. I think it's going to be 
one of the most commonsense bills passed by this Congress.
    Chairman Smith. That's high praise. Thank you, Mr. Webster. 
I appreciate your comments.
    If there is no further discussion, a reporting quorum being 
present, I move that the Committee on Science, Space, and 
Technology report H.R. 5086 to the House with a recommendation 
that the bill be approved.
    The question is on favorably reporting H.R. 5086 to the 
House.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the motion to reconsider is laid upon 
the table.
    Before we officially adjourn, I think it might be of 
interest to Members to know that of the 25 bills that we have--
that this Committee has taken to the House floor, 23 of the 25 
have been bipartisan bills, and that's got to be some kind of 
record.
    If there's no further discussion, that completes our 
business, and this concludes the Science Committee markup. 
Without objection, the Committee stands adjourned, and thank 
you all again for your attendance.
    [Whereupon, at 9:26 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                    H.R. 5345, H.R. 5346, H.R. 5086


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                ------                                

                    COMMITTEE MARKUPS OF H.R. 1224,
              H.R. 1430, H.R. 1431, H.R. 2105, H.R. 2809,
              H.R. 2763, H.R. 1159, H.R. 4376, H.R. 4377,
              H.R. 4378, H.R. 4375, H.R. 4323, H.R. 4254,
              H.R. 3397, H.R. 4675, H.R. 5345, H.R. 5346,
              H.R. 5086, H.R. 5509, H.R. 5503, H.R. 5905,
              H.R. 5907, H.R. 5906, H.R. 6227, H.R. 6229,
              H.R. 6226, H.R. 6398, S. 141, AND H.R. 6468

=======================================================================

                         COMPILATION OF MARKUPS

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                       FIRST AND SECOND SESSIONS

                               ----------                              

                               2017-2018

                               ----------                              

                          Serial No. CP: 115-1

                               ----------                              

                                Volume 2

                               ----------                              

 Printed for the use of the Committee on Science, Space, and Technology
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
 
 

                    COMPILATION OF MARKUPS, VOLUME 2


                    COMMITTEE MARKUPS OF H.R. 1224,
              H.R. 1430, H.R. 1431, H.R. 2105, H.R. 2809,
              H.R. 2763, H.R. 1159, H.R. 4376, H.R. 4377,
              H.R. 4378, H.R. 4375, H.R. 4323, H.R. 4254,
              H.R. 3397, H.R. 4675, H.R. 5345, H.R. 5346,
              H.R. 5086, H.R. 5509, H.R. 5503, H.R. 5905,
              H.R. 5907, H.R. 5906, H.R. 6227, H.R. 6229,
              H.R. 6226, H.R. 6398, S. 141, AND H.R. 6468

=======================================================================

                         COMPILATION OF MARKUPS

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                       FIRST AND SECOND SESSIONS

                               __________

                               2017-2018

                               __________

                          Serial No. CP: 115-1

                               __________

                                Volume 2

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
        Available via the World Wide Web: http://science.house.gov


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-710 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
BARRY LOUDERMILK, Georgia            JERRY McNERNEY, California
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
ANDY BIGGS, Arizona                  MARK TAKANO, California
ROGER W. MARSHALL, Kansas            COLLEEN HANABUSA, Hawaii
NEAL P. DUNN, Florida                CHARLIE CRIST, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona
                                 ------                                

                         Subcommittee on Energy

                 HON. HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         MARC A. VEASEY, Texas
FRANK D. LUCAS, Oklahoma             ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             JACKY ROSEN, Nevada
THOMAS MASSIE, Kentucky              JERRY MCNERNEY, California
STEPHEN KNIGHT, California           PAUL TONKO, New York
GARY PALMER, Alabama                 BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
NEAL P. DUNN, Florida                EDDIE BERNICE JOHNSON, Texas
RALPH NORMAN, South Carolina
LAMAR S. SMITH, Texas
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
F. JAMES SENSENBRENNER, JR.,         SUZANNE BONAMICI, Oregon
    Wisconsin                        DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              ALAN GRAYSON, Florida
RANDY WEBER, Texas                   AMI BERA, California
JOHN MOOLENAAR, Michigan             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas            EDDIE BERNICE JOHNSON, Texas
GARY PALMER, Alabama
RALPH LEE ABRAHAM, Louisiana
LAMAR S. SMITH, Texas

                                  (ii)


                       Subcommittee on Oversight
                       
 HON. RALPH LEE ABRAHAM, Louisiana, Chair
BILL POSEY, Florida		     DONALD S. BEYER, JR., Virginia
THOMAS MASSIE, Kentucky		     JERRY MCNERNEY, California
BARRY LOUDERMILK, Georgia	     ED PERLMUTTER, Colorado
ROGER W. MARSHALL, Kansas	     EDDIE BERNICE JOHNSON, Texas
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
LAMAR S. SMITH, Texas                    
                       
                  
                    
_________________________________________________________________

             Subcommittee on Research and Technology

                HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma		DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois		ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California		JACKY ROSEN, Nevada
BARRY LOUDERMILK, Georgia		SUZANNE BONAMICI, Oregon
DANIEL WEBSTER, Florida			AMI BERA, California
ROGER W. MARSHALL, Kansas		DONALD S. BEYER, JR., Virginia
DEBBIE LESKO, Arizona			EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas                
                                     
                                   
_____________________________________________________________

                         Subcommittee on Space

                      HON. BRIAN BABIN, Texas, Chair
                      
DANA ROHRABACHER, California		DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma		AMI BERA, California
MICHAEL T. McCAUL, Texas		ZOE LOFGREN, California
MO BROOKS, Alabama,			ED PERLMUTTER, Colorado
BILL POSEY, Florida			MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma		DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio			EDDIE BERNICE JOHNSON, Texas
STEVE KNIGHT, California
Brian Babin, Texas
LAMAR S. SMITH, Texas              

                                  (iii)


                         C  O  N  T  E  N  T  S

                               2017- 2018

                                                                   Page
H.R. 5509--Innovations in Mentoring, Training, and 
  Apprenticeships Act
    Proceedings of the markup held by the Full Committee, April 
      17, 2018...................................................   443

H.R. 5503--National Aeronautics and Space Administration 
  Authorization 
  Act of 2018
    Proceedings of the markup held by the Full Committee, April 
      17, 2018...................................................   452

H.R. 5905--Department of Energy Science and Innovation Act of 
  2018
    Proceedings of the markup held by the Full Committee, May 23, 
      2018.......................................................   595

H.R. 5907--National Innovation Modernization by Laboratory 
  Empowerment Act
    Proceedings of the markup held by the Full Committee, May 23, 
      2018.......................................................   606

H.R. 5906--ARPA-E Act of 2018
    Proceedings of the markup held by the Full Committee, May 23, 
      2018.......................................................   608

H.R. 6227--National Quantum Initiative Act
    Proceedings of the markup held by the Full Committee, June 
      27, 2018...................................................   687

H.R. 6229--National Institute of Standards and Technology 
  Reauthorization Act of 2018
    Proceedings of the markup held by the Full Committee, June 
      27, 2018...................................................   698

H.R. 6226--American Space SAFE Management Act
    Proceedings of the markup held by the Full Committee, June 
      27, 2018...................................................   704

H.R. 6398--Department of Energy Veterans' Health Initiative Act
    Proceedings of the markup held by the Full Committee, July 
      18, 2018...................................................   789

S. 141--Space Weather Research and Forecasting Act
    Proceedings of the markup held by the Full Committee, July 
      24, 2018...................................................   811

H.R. 6468--Improving Science in Chemical Assessments Act
    Proceedings of the markup held by the Full Committee, July 
      24, 2018...................................................   835

                                  (iv)


 
                   PROCEEDINGS OF THE FULL COMMITTEE
                    MARKUPS: H.R. 5509, INNOVATIONS
                       IN MENTORING, TRAINING, AND
                          APPRENTICESHIPS ACT;
                   AND H.R. 5503, NATIONAL AERONAUTICS
                        AND SPACE ADMINISTRATION
                       AUTHORIZATION ACT OF 2018

                              ----------                              


                        TUESDAY, APRIL 17, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:05 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lamar 
Smith [Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Pursuant to Committee rule 2(e) and House rule XI(2)(h)(4), 
the Chair announces that he may postpone roll call votes.
    Today, we meet to consider H.R. 5509, the Innovations in 
Mentoring, Training, and Apprenticeships Act; and H.R. 5503, 
the National Aeronautics and Space Administration Authorization 
Act of 2018.

    H.R. 5509

    Chairman Smith. Pursuant to notice, I now call up H.R. 
5509, the Innovations in Mentoring, Training, and 
Apprenticeships Act. And the clerk will report the bill.
    The Clerk. H.R. 5509, a bill to direct the National Science 
Foundation to provide grants for research about STEM education 
approaches and the STEM-related work force and for other 
purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    And I'll recognize myself for an opening statement.
    Before I do so, I appreciate the good attendance we have 
this morning, and I want to introduce our newest and youngest 
member of the staff, and that is Mark Marin's youngest daughter 
sitting behind me, Alden, almost age 10. And we appreciate 
Alden's being here.
    And I should warn everybody in the room that if crowd 
control is required, Alden is going to wield the gavel. So 
we're happy to have her here.
    And again, I'll go back to my opening statement.
    This morning, the Committee will consider H.R. 5509, the 
Innovations in Mentoring, Training, and Apprenticeships Act. 
This legislation was introduced by Majority Leader McCarthy. I 
and Ranking Member Eddie Bernice Johnson have cosponsored this 
measure, and I hope others will, too.
    H.R. 5509 is the product of a hearing held by the Research 
and Technology Subcommittee in February. Members and witnesses 
discussed innovative work force training approaches aimed at 
boosting STEM education and careers in order to meet current 
and future STEM professional and technical work force needs. A 
special thanks to Chairwoman Comstock and Ranking Member 
Lipinski for holding that hearing.
    Meeting our growing work force needs in all areas of 
science and technology is essential for our economic 
competitiveness. For instance, according to a recent study, 
there will be a need for 3.5 million skilled manufacturing 
workers over the next decade. But it is anticipated that 2 
million of those jobs will go to--go unfilled unless we recruit 
and educate a whole host of high-skilled manufacturing workers.
    H.R. 5509 continues the bipartisan progress this Committee 
has made to improve and expand science, technology, 
engineering, and mathematics. We extended the program's 
educational programs and created new pathways to STEM careers.
    Research shows that direct knowledge and hands-on work 
experience with STEM occupations and opportunities stimulate 
interests in STEM studies and careers among students at every 
level. To this end, H.R. 5509 directs the National Science 
Foundation to fund initiatives that support innovative 
partnerships between academic institutions and local 
industries.
    The NSF is to offer at least $5 million per year over the 
next 4 years for competitively awarded grants to community 
colleges to develop new STEM courses and degrees. These 
programs will combine formal education with on-the-job work 
experiences, such as apprenticeships and internships, by 
partnering with local employers. The bill also requires at 
least $2.5 million per year over the next 4 years for the NSF 
to award research grants to measure student outcomes and the 
effectiveness of computer-based and online courses for 
technical skills training.
    Successful work force development programs extend beyond 
the four walls of classrooms and laboratories. One primary 
example is at Wichita State University, which Mr. Marshall and 
I visited last year. During his testimony, Dr. John Bardo, the 
President of Wichita State University, discussed the 
university's testing of its applied learning initiative. The 
university found that, on average, newly graduated engineers 
take 2 years to contribute to the bottom line for their 
employers. However, when Wichita State University students were 
given an opportunity to participate in an apprenticeship 
program prior to graduation, that timeline to profitability was 
cut from 2 years to 6 months.
    The pending legislation directs the NSF to award at least 
another $2.5 million per year for the next 4 years for 
universities to partner with local employers and offer paid 
apprenticeships and other applied learning experiences to STEM 
students.
    Not only can we learn from successful programs here in the 
United States, it is also important to examine how other 
developed nations address their skilled technical work force 
needs. This bill directs the NSF to commission research that 
compares and contrasts skilled technical work force development 
between the United States and other developed nations and to 
report the results to Congress.
    H.R. 5509 requires the National Science Foundation to 
conduct research to improve the efficiency of the skilled 
technical labor markets and examine the skilled technical work 
force to have a clear understanding of work force trends and 
needs. The Innovations in Mentoring, Training, and 
Apprenticeships Act, H.R. 5509, is a significant step in the 
right direction toward ensuring the United States' 
competitiveness in the global economy of today. The initiatives 
in this legislation will leverage the hard work and ingenuity 
of women and men of all ages, education levels, and backgrounds 
to grow and meet the demand for a STEM-capable work force, so I 
encourage my colleagues to support this bill.

                  Prepared Statement of Chairman Smith

    This morning the committee will consider H.R. 5509, the 
Innovations in Mentoring, Training, and Apprenticeships Act. 
This legislation was introduced by Majority Leader McCarthy. I 
have cosponsored this measure and I hope others will too.
    H.R. 5509 is the product of a hearing held by the Research 
and Technology Subcommittee in February. Members and witnesses 
discussed innovative workforce training approaches aimed at 
boosting STEM education and careers in order to meet current 
and future STEM professional and technical workforce needs. A 
special thanks to Chairwoman Comstock and Ranking Member 
Lipinski for holding that hearing.
    Meeting our growing workforce needs in all areas of science 
and technology is essential for our economic competitiveness.
    For instance, according to a recent study, there will be a 
need for 3.5 million skilled manufacturing workers over the 
next decade. But it is anticipated that 2 million of those jobs 
will go unfilled unless we recruit and educate a whole host of 
high-skilled manufacturing workers.
    H.R. 5509 continues the bipartisan progress this committee 
has made to improve and expand science, technology, engineering 
and mathematics (STEM) education programs and create new 
pathways to STEM careers.
    Research shows that direct knowledge and hands-on work 
experience with STEM occupations and opportunities stimulate 
interests in STEM studies and careers among students at every 
level. To this end, H.R. 5509 directs the National Science 
Foundation (NSF) to fund initiatives that support innovative 
partnerships between academic institutions and local 
industries.
    The NSF is to offer at least $5 million per year over the 
next four years for competitively awarded grants to community 
colleges to develop new STEM courses and degrees. These 
programs will combine formal education with on-the-job work 
experiences, such as apprenticeships and internships, by 
partnering with local employers.
    The bill also requires at least $2.5 million per year over 
the next four years for the NSF to award research grants to 
measure student outcomes and the effectiveness of computer-
based and online courses for technical skills training.
    Successful workforce development programs extend beyond the 
four walls of classrooms and laboratories. One primary example 
is at Wichita State University, which Mr. Marshall and I 
visited last year.
    During his testimony, Dr. John Bardo, the president of 
Wichita State University, discussed the university's testing of 
its applied learning initiative.
    The university found that, on average, newly graduated 
engineers take two years to contribute to the bottom line for 
their employers. However, when Wichita State University 
students were given an opportunity to participate in an 
apprenticeship program prior to graduation, that timeline to 
profitability was cut to six months.
    The pending legislation directs the NSF to award at least 
another $2.5 million per year for the next four years for 
universities to partner with local employers and offer paid 
apprenticeships and other applied learning experiences to STEM 
students.
    Not only can we learn from successful programs here in the 
United States, it is also important to examine how other 
developed nations address their skilled technical workforce 
needs. This bill directs the NSF to commission research that 
compares and contrasts skilled technical workforce development 
between the United States and other developed nations and to 
report the results to Congress.
    H.R. 5509 requires the NSF to conduct research to improve 
the efficiency of the skilled technical labor markets and 
examine the skilled technical workforce to have a clear 
understanding of workforce trends and needs.
    The Innovations in Mentoring, Training, and Apprenticeships 
Act, H.R. 5509, is a significant step in the right direction 
towards ensuring the United States' competitiveness in the 
global economy of today.
    The initiatives in this legislation will leverage the hard 
work and ingenuity of women and men of all ages, education 
levels and backgrounds to grow and meet the demand for a STEM-
capable workforce.
    I encourage my colleagues to support this bill and I yield 
back the balance of my time.

    Chairman Smith. And I now recognize the Ranking Member, the 
gentlewoman from Texas, Ms. Johnson.
    Ms. Johnson. Thank you very much, Chairman Smith. Today, we 
are marking up two bills, one good one, and one bad one. H.R. 
5509, the Innovations in Mentoring, Training, and 
Apprenticeships Act, is a good bill, and I support it.
    Research has shown that we are experiencing a significant 
STEM skills gap in this country. Employers are struggling to 
find workers with the technical skills they need. My area is a 
prime example. One cause for the gap is a lack of coordination 
between educational institutions and industry. Skills taught in 
secondary and postsecondary schools are not aligned with the 
skills in high demand by employers. With an economy that is 
increasingly data-driven and reliant on rapidly evolving 
technologies, we must ensure our work force can keep pace.
    Apprenticeships are a work force development strategy that 
enables close coordination between high schools, vocational 
schools, universities, and local employers. Although other 
nations have enjoyed the benefits of apprenticeships for 
decades, apprenticeships remain unutilized in this country.
    This bill is a positive step in the right direction and is 
a recognition and endorsement of good work that the National 
Science Foundation is doing in this area. A strong STEM work 
force poised to take on the challenges of a 21st century 
economy is vital for continued growth, security, and global 
competitiveness.
    With regards to H.R. 5509, the Chairman and his staff 
responded positively to suggestions and concerns of the 
minority and to the feedback from the National Science 
Foundation and modified the bill to improve it. I appreciate 
these efforts, and I support passage of this bill.
    I see we also have amendments offered by the gentlelady 
from Oregon that make some improvements to the bill, and I look 
forward to hearing about those amendments and supporting them.
    Thank you, and I yield back.

                   Prepared Statement of Ms. Johnson

    Thank you Chairman Smith. Today we are marking up two 
bills- one good and one bad. H.R. 5509, the Innovations in 
Mentoring, Training, and Apprenticeships Act is a good bill, 
and I support it.
    Research has shown that we are experiencing a significant 
STEM skills gap in this country. Employers are struggling to 
find workers with the technical skills they need. One cause for 
the gap is the lack of coordination between educational 
institutions and industry.
    Skills taught in secondary and post-secondary schools are 
not aligned with the skills in high demand by employers. With 
an economy that is increasingly data-driven and reliant on 
rapidly evolving technologies, we must ensure our workforce can 
keep pace.
    Apprenticeships are a workforce development strategy that 
enables close coordination between high schools, vocational 
schools, universities, and local employers. Although other 
nations have enjoyed the benefits of apprenticeships for 
decades, apprenticeships remain underutilized in this country. 
This bill is a positive step in the right direction and is a 
recognition and endorsement of the good work that the National 
Science Foundation is doing in this area.
    A strong STEM workforce poised to take on the challenges of 
a 21st century economy is vital for continued growth, security, 
and global competitiveness.
    With regards to H.R. 5509, the Chairman and his staff 
responded positively to suggestions and concerns of the 
Minority and to feedback from the National Science Foundation, 
and modified the bill to improve it. I appreciate these 
efforts, and I support passage of this bill.
    I see we also have amendments offered by the gentlelady 
from Oregon to make some improvements to the bill, and I look 
forward to supporting those amendments as well.
    Thank you, and I yield back.

    Chairman Smith. Thank you, Ms. Johnson. We have two 
amendments on the list, both to be offered by the gentlewoman 
from Oregon, Ms. Bonamici. The first is well-intended; the 
second is good. And the gentlewoman is recognized to offer the 
first one.
    Ms. Bonamici. Thank you, Mr. Chairman. I have an amendment 
at the desk.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment to H.R. 5509 offered by Ms. Bonamici 
of Oregon, amendment 070.
    Chairman Smith. And, without objection, the amendment is 
considered as read and the gentlewoman is recognized to explain 
her amendment.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    Our nation has some of the best scientists, programmers, 
and engineers in the world, but what sets our country apart is 
innovation, the ability to come up with new ideas and find new 
ways to solve problems, and this is especially important in 
science, technology, engineering, and math.
    Over the past several years, educators and employers have 
seen great benefits from integrating arts and design into STEM 
education, STEAM. STEAM engages more students and makes 
learning more relevant. Educating both halves of the brain 
results in more creative and innovative students who become 
members of a more creative and innovative work force.
    And in opening remarks, Mr. Chairman, you mentioned looking 
at what other countries are doing. South Korea, for example, is 
implemented STEAM because they want more creative hands-on 
learning.
    This bill is about improving STEM education, and I'm 
pleased to see that this bill would award competitive grants to 
community colleges to develop or improve associate degree and 
certificate programs in STEM fields in response to significant 
work force demand. This amendment would simply make sure that 
the National Science Foundation can also consider for grants 
those colleges or programs that are using the STEAM approach, 
which more schools and businesses are recognizing as a way to 
get creativity and innovation in the STEM fields. There is 
neuroscience research to back them up. Integrating arts and 
design into STEM enhances learning and leads to more 
creativity. Think Leonardo da Vinci.
    STEAM is not a partisan issue. I'm the Co-Chair of the 
bipartisan congressional STEAM Caucus with Representative 
Stefanik from New York. We've been working together to 
emphasize the importance of arts and design in the education of 
students in the development of our work force. When we had the 
STEAM Caucus kickoff, for example, the U.S. Patent Office 
attended. And in fact Governor Kasich of Ohio discussed his 
support for STEAM in his 2016 State of the State address 
mentioning that arts are essential for success in 21st century 
careers. And just recently, the U.S. Department of Education 
hosted--and Secretary DeVos attended--an event titled ``Full 
Steam Ahead: Educational Summit on Science, Technology, 
Engineering, Arts, and Mathematics. The Nobel Laureates in 
sciences are significantly more likely to be engaged in arts 
and design than other scientists.
    Mr. Chairman and colleagues, STEAM prepare students to be 
successful in the modern economy by teaching them the advanced 
skills and creative thinking they will need to address 
challenges in the future. So they will know not only how to 
answer questions but what questions to ask. Maintaining our 
position as an innovative country means continuing to fund 
groundbreaking research and educating a cutting-edge next-
generation work force. I urge my colleagues to support this 
amendment, and I reserve the balance of my time.
    Chairman Smith. Thank you, Ms. Bonamici.
    And I'll recognize myself to speak on the amendment. While 
I understand Ms. Bonamici's goals, I oppose the amendment. Many 
subjects correspond to or overlap with science, technology, 
engineering, and math, including art, music, and language. The 
inclusion of art in STEM, however, would dilute a national 
effort to build a robust technical work force, which remains an 
urgent national priority. In effect if art is included, where 
does it end?
    So I oppose the amendment. I appreciate the gentlewoman's 
intentions and urge my colleagues to oppose the amendment as 
well.
    Are there--is there anyone else who wishes to speak on the 
amendment?
    Mr. Rohrabacher. Mr. Chairman?
    Chairman Smith. The gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. I would just like to add a thought if 
we're discussing the education in STEM cell--or STEM education 
that is. Let me just note that there's some people who are 
claiming that we lack the number of people with skills in order 
to run our aerospace industry. And I just would like to express 
for the record that I am dismayed to meet so many people who 
are 50 years old and above or have some disability, people who 
are American citizens who are denied work because our major 
corporations are finding it better to try to lobby us to bring 
in people from overseas to take those jobs.
    And I just believe that this whole H-1B visa situation is 
as--really hurting Americans who have contributed so much to 
our country. And when they get to be 50 and they're laid off 
because the project contract is up and the company then has a 
new contract, they want to bring on a 25-year-old immigrant 
from India or anywhere else in the planet. And I would hope 
that we care enough about our people who are engaged in making 
America the technological and space power that we are so proud 
of, that we care about these men, and I just--men and women who 
are--deserve this.
    And again, also people who have certain disabilities but 
can get the job done are passed over. And I've just seen this 
suffering in California, and a lot of these folks are veterans 
who also were in the military even, and they're just--we are 
not being true to them by bringing--by just saying we're going 
to solve the problem by bringing people in from overseas.
    I think the idea that we've got to focus on education for 
our own people is a good fundamental idea, and I hope that we 
will find ways of working on this in a way that you will be 
able to support that, Mr. Chairman, as well as our----
    Chairman Smith. OK.
    Mr. Rohrabacher [continuing]. Colleagues on the other side 
of the aisle. I just thought I'd put that in the record. Thank 
you very much.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    Is there anyone else who seeks to be recognized?
    Although the gentlewoman from Oregon has already been 
recognized, we will recognize her without objection again.
    Ms. Bonamici. Thank you, Mr. Chairman. And I understand you 
do not support this amendment at this time. I hope to continue 
the conversation. I know I didn't mention that we had a STEAM 
Caucus briefing with Boeing, Intel, and Lockheed Martin, all 
talking about how they value creativity and innovation. So I 
hope we can find a way to work together to promote a well-
rounded work force that's ready to meet the demands of our 
growing economy in the future, and I thank the Chairman and 
with that ask that my amendment be withdrawn. And I yield back.
    Chairman Smith. Without objection, so ordered and 
appreciated.
    The gentlewoman is recognized for her second amendment.
    Ms. Bonamici. Thank you, Mr. Chairman. I have an amendment 
at the desk.
    Chairman Smith. Without objection, the amendment will be 
considered as read.
    The Clerk. Amendment to H.R. 5509 offered by Ms. Bonamici 
of Oregon, amendment number 071.
    Chairman Smith. I spoke out of order. I should've said that 
the amendment should be reported. Without objection, the 
amendment will be considered, and the gentlewoman from Oregon 
is recognized to explain this amendment.
    Ms. Bonamici. Thank you, Mr. Chairman.
    I hear from many Oregonians, and I know you hear from your 
constituents as well, who feel left behind and left out of the 
economic recovery. Too many people are still struggling to make 
ends meet. There may be job openings in their community, but 
the jobs require skills and resources they don't have, creating 
a skills gap that leaves businesses struggling to find workers 
with the skills and workers without pathways to better-paying 
jobs. We need to strengthen investments in work-based learning 
programs that respond to local industry needs.
    For example, in northwest Oregon, the Oregon Manufacturing 
Innovations Center, or OMIC, is bringing together industry 
leaders like Boeing with educational institutions such as 
Oregon Tech, Oregon State University, Portland State 
University, and Portland Community College to develop work-
based learning programs. This collaboration will result in 
growth and efficiency in advanced manufacturing and a more 
skilled workplace--workforce in the community. Through stronger 
investments and work-based learning, we can build pathways to 
get more people back to work and provide our Nation's 
businesses with the work force that will improve productivity 
and efficiency.
    To help Oregonians and many other Americans who still face 
job insecurity, we should expand work-based learning to sectors 
of the economy that lack established apprenticeship programs 
including in the STEM fields or STEAM fields. One way to 
support these new apprenticeships is through the establishment 
of industry partnerships which bring together employers, 
education institutions, training providers, and community-based 
organizations to support the creation and expansion of work-
based learning programs.
    I'm glad this bill will direct the National Science 
Foundation to provide grants to universities to develop or 
improve apprenticeships for students enrolled in STEM fields 
where there is significant work force demand. My amendment 
would allow universities or community colleges to engage with 
industry and sector partnerships in the grant application 
process. Industry partnerships have proven to be a successful 
model since the enactment of the Workforce Innovation and 
Opportunity Act and can help employers that would otherwise 
lack the resources to establish apprenticeships. The inclusion 
of industry partnerships in this bill would encourage 
continuity in State and local strategies to address skills 
shortages.
    I urge colleagues to support this amendment, and I yield 
back the balance of my time.
    Chairman Smith. Thank you, Ms. Bonamici. And I'll recognize 
myself in support of the amendment. First of all, I want to 
thank Ms. Bonamici and her staff for working with us on this 
amendment. The competitive grants in this bill are intended to 
spur innovative research through STEM partnerships between 
academia and industry. This amendment reinforces the desire to 
provide NSF with the flexibility needed to fund strong 
partnerships between local and regional employers and academia 
to experiment with applied learning opportunities. So I support 
the amendment and encourage my colleagues to do the same.
    Are there any other Members who wish to be recognized on 
this amendment?
    The gentlewoman, the Ranking Member, Ms. Johnson is 
recognized and then Mr. Lipinski.
    Ms. Johnson. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Smith. The gentlewoman is recognized for 5 
minutes.
    Ms. Johnson. I want to thank Ms. Bonamici for offering this 
amendment to expand the potential pool of partners in 
developing apprenticeship programs to include industry or 
sector partnerships. By incorporating the structure established 
in the Workforce Innovation and Opportunity Act, this amendment 
provides clarity to grant proposers collaborating with local 
and State work force development boards, and I urge my 
colleagues to support this amendment. I thank you and yield 
back.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from Illinois, Mr. Lipinski, is recognized.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I want to thank Ms. Bonamici for her amendment to help 
strengthen this important bill, and I'm proud to cosponsor this 
bill. It's very important that we do more to promote the 
development of our STEM technical work force. And the program 
at the NSF to help do this has been very important, and it's 
very good that we make sure we prioritize this moving forward.
    I'm an ardent supporter of STEM education with two degrees 
I have in engineering. I've also been a very strong supporter 
of apprenticeships. We need to see expansion of apprenticeships 
in our work force to really help to teach the skills that are 
required for today's jobs.
    A recent hearing in this Committee, we heard testimony from 
a witness from Moraine Valley Community College, which is in my 
district, and Moraine Valley runs a program that prepares 
students for careers in cybersecurity, something that would--
this bill would help to do and to help expand such programs.
    I think it's very important that--for the jobs that are out 
there today that we need more skilled employees for that. 
Apprenticeships certainly help significantly. And I think this 
program at the NSF which would help strengthen the STEM 
technical work force is going to be very significant.
    I would like to have seen an increase in funding for this 
program which this bill does not provide, but this bill is a 
step in the right direction. I want to thank our 
Representatives Smith and Marshall for their work on this bill, 
and I urge all my colleagues to support it.
    And I'll yield to Mr. Perlmutter.
    Mr. Perlmutter. And thank you, Mr. Lipinski. You'll have 
the opportunity on the next bill for STEM education grants to 
add $8 million, so I just want to let you know that we're going 
to authorize hopefully $8 million for STEM grants out of the 
space program. And with that, I yield back.
    Mr. Lipinski. And reclaiming my time, great idea, Mr. 
Perlmutter, and will support that. I'll yield back.
    Chairman Smith. Thank you, Mr. Lipinski. A little advance 
advertisement by Mr. Perlmutter.
    Is there any further discussion on the amendment?
    If not, the question is on agreeing to the amendment.
    All in favor, say aye.
    All opposed, nay.
    The amendment is agreed to.
    If there is no--if there are no further amendments, a 
reporting quorum being present, I move that the Committee on 
Science, Space, and Technology report H.R. 5509 to the House, 
as amended, with a recommendation that the bill be approved.
    Question is on favorably reporting H.R. 5509 to the House, 
as amended.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it and the bill is ordered reported 
favorably.
    Without objection, the motion to reconsider is laid upon 
the table. H.R. 5509 is ordered reported to the House. I ask 
unanimous consent that staff be authorized to make any 
necessary technical and conforming changes, and without 
objection, so ordered.
    Let me say to Members that there are ongoing negotiations 
on the NASA bill, and in order to conclude those discussions, 
we're going to take a 5-minute recess and then we will 
reconvene. So if Members will stay really close by--in fact, 
you don't need to leave your seats at all. But we'll be back 
with a NASA bill in about 5 minutes.

    [Recess.]

    Chairman Smith. Let me just say to my colleagues that we 
are still waiting to hear from the minority as to what their 
final response is going to be, and we have told them that we 
expect to reconvey at 11 o'clock, so our 5 minutes is going to 
15. But we hope to start again at 11.
    Mr. Rohrabacher. Mr. Chairman, now that you have--we have a 
little extra time, I wonder if you have some stories about the 
great State of Texas that you could share with us.
    Mr. Weber. Dana, I've got one for you if you want one.
    Chairman Smith. OK. The gentleman from Texas is recognized, 
but I'm a little worried as the----
    Mr. Weber. Dana, Texas is so big that it was said that back 
during the covered-wagon days when the pioneers were coming 
West, if one entered Texas from Louisiana and a baby was born 
on that day, by the time they got to El Paso, he was in the 
first grade.

    [Recess.]

    H.R. 5503

    Chairman Smith. Pursuant to notice, I now call up H.R. 
5503, the National Aeronautics and Space Administration 
Authorization Act of 2018. The clerk will report the bill.
    The Clerk. H.R. 5503, to authorize the programs of the 
National Aeronautics and Space Administration for fiscal years 
2018 and 2019 and for other purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point. And I'll recognize 
myself for an opening statement.
    The NASA Authorization Act of 2018 is a crucial step in 
continuing the greatness of American space exploration. The act 
ensures that NASA will focus on its priority missions, leverage 
private sector partnerships and entrepreneurship, and continue 
space research that will launch America toward new scientific 
discoveries and worlds. NASA's funding amounts to $20.74 
billion or 1/2 of 1 percent of the Federal budget.
    Consistent with the core policy tenants of the President's 
budget request, the 2018 NASA Authorization Act maintains a 
balanced portfolio across a broad array of NASA priority 
programs and initiatives. It funds deep space exploration 
systems above the President's request to expedite the Space 
Launch System and Orion Spacecraft. It funds science above the 
President's budget request to allow NASA to move forward with a 
number of programs, including a Mars sample return mission and 
Europa exploration.
    The Committee has ongoing concerns that NASA has been given 
responsibility for earth science activities that compete for 
funding with NASA's core functions in space exploration and 
aeronautics. A good example is Landsat. In the past, both 
United States Geological Survey and NOAA have been responsible 
for development and operation of Landsat satellites. But now, 
NASA is responsible for mission and development activities, 
including Landsat 9, along with an activity to design and build 
a full-capability Landsat 10 satellite.
    In the omnibus appropriation bill, 11 of the 12 other 
agencies conducting earth science research received budget 
increases, such as NOAA, DOE, United States Geological Survey, 
Agriculture, EPA, NSF, the Smithsonian, DOT, HHS, DOD, and even 
the United States Agency for International Development. 
However, NASA has, for too long, conducted earth science work 
for the benefit of other agencies without reimbursement.
    To make certain NASA's funding authorization is truly 
focused on space exploration and aeronautics, this act aligns 
funding accordingly and directs reimbursement to NASA for earth 
science work undertaken for the benefit of other agencies. This 
reimbursement directive serves to offset NASA funding 
reductions in earth science relative to the President's budget 
request. However, earth science still receives $1.45 billion, 
or 7 percent of NASA's entire budget. The act supports the 
President's proposal to restructure and increase funding for 
NASA's space technology programs to better align to NASA human 
and robotic exploration needs. This is a good step forward for 
NASA.
    As a critical component to NASA's exploration agenda, for 
too long, space technology investments lacked the focus and 
attention they deserve. The act includes a number of provisions 
increasing transparency into NASA's management of major 
programs and ensuring that contractors are held responsible for 
poor performance.
    Just 3 weeks ago, Congress was notified that the James Webb 
Space Telescope is delayed yet again. In fact, it has been 
delayed no less than three times, originally scheduled for 
launch in 2007, then 2014, then 2018, and now for 2020. And the 
cost has increased from $1 billion to $8 billion. While this 
Committee supports JWST, NASA and its contractors must be held 
accountable.
    The Committee looks forward to the Independent Review 
Board's report this summer, which will determine the revised 
cost estimate for the program and help define a way forward for 
this space telescope program.
    That brings me to the Wide Field Infrared Space Telescope, 
WFIRST. This Committee has consistently supported it, but the 
recent cost growth and independent review team findings are 
similar to problems incurred on JWST. The act strikes a 
balance, capping spending if WFIRST moves forward and providing 
a set-aside in Fiscal Year 2019 of $180 million to address 
justified recommendations of the JWST and WFIRST program 
reviews that are pending.
    We have explored near-Earth object defense at Committee 
hearings. The Administration prioritized this mission and 
requested $150 million for NASA's Planetary Defense program. 
NASA must complete its NEO survey. Supporting projects such as 
the NEOCam mission could go a long way to accomplishing this 
task.
    Testimony before this Committee has also highlighted that 
we are on the verge of a breakthrough in the search for life 
that could change the way humanity views its place in the 
universe. In the 2017 NASA Transition Authorization Act, NASA 
was given a new statutory directive for NASA to, quote, 
``search for life's origin, evolution, distribution, and future 
in the universe.'' This act directs and authorizes funds to 
achieve that purpose.
    It was my hope that today we would have a bipartisan 
markup. In fact, discussions have been ongoing for weeks and a 
draft bill text was exchanged 3 weeks ago. An offer was made, 
and rejected, to fund earth science at the NASA-requested or 
omnibus levels, though I expect that to continue to be 
discussed shortly.
    The United States has led the world in space exploration 
for 50 years, and we must ensure that the United States 
continues to do so for the next 50 years. We must also continue 
to invest in NASA as the only American agency responsible for 
space exploration.
    I want to thank Chairman Babin for introducing this bill. 
It redoubles our commitment to U.S. leadership in space for 
decades to come.

                  Prepared Statement of Chairman Smith

    The NASA Authorization Act of 2018 is a crucial step in 
continuing the greatness of American space exploration.
    The act ensures that NASA will focus on its priority 
missions, leverage private sector partnerships and 
entrepreneurship and continue space research that will launch 
America toward new scientific discoveries and worlds. NASA's 
funding amounts to $20.74 billion or one-half of one percent of 
the federal budget.
    Consistent with the core policy tenants of the president's 
budget request, the 2018 NASA Authorization act maintains a 
balanced portfolio across a broad array of NASA priority 
programs and initiatives.
    It funds deep space exploration systems above the 
president's request to expedite the Space Launch System and 
Orion Spacecraft.
    It funds science above the president's budget request to 
allow NASA to move forward with a number of programs including 
a Mars Sample Return Mission and Europa exploration.
    The committee has ongoing concerns that NASA has been given 
responsibility for Earth science activities that compete for 
funding with NASA's core functions in space exploration and 
aeronautics. A good example is Landsat. In the past both USGS 
and NOAA have been responsible for development and operation of 
Landsat satellites.
    But now, NASA is responsible for mission and development 
activities, including Landsat 9, along with an activity to 
design and build a full-capability Landsat 10 satellite.
    In the omnibus appropriation bill, 11 of the 12 other 
agencies conducting Earth science research received budget 
increases, such as: NOAA; DOE; United States Geological Survey; 
Agriculture; EPA; NSF; the Smithsonian; DOT; HHS; DoD; and even 
the United States Agency for International Development. 
However, NASA has, for too long, conducted Earth science work 
for the benefit of other agencies without reimbursement.
    To make certain NASA's funding authorization is truly 
focused on space exploration and aeronautics, this act aligns 
funding accordingly and directs reimbursement to NASA for Earth 
science work undertaken for the benefit of other agencies. This 
reimbursement directive serves to offset NASA funding 
reductions in Earth science relative to the president's budget 
request. However, Earth science still receives $1.45 billion, 
or seven percent of NASA's entire budget.
    The act supports the president's proposal to restructure 
and increase funding for NASA's space technology programs to 
better align to NASA human and robotic exploration needs. This 
is a good step forward for NASA. As a critical component to 
NASA's exploration agenda, for too long space technology 
investments lacked the focus and attention they deserve.
    The act includes a number of provisions increasing 
transparency into NASA's management of major programs and 
ensuring that contractors are held responsible for poor 
performance.
    Just three weeks ago, Congress was notified that the James 
Webb Space Telescope (JWST) is delayed yet again. In fact, it 
has been delayed no less than three times, originally scheduled 
for launch in 2007, then 2014, then 2018 and now for 2020. And 
the cost has increased from $1 billion to $8 billion.
    While this committee supports JWST, NASA and its 
contractors must be held accountable.
    The committee looks forward to the Independent Review 
Board's report this summer, which will determine the revised 
cost-estimate for the program and help define a way forward for 
this space telescope program.
    That brings me to the Wide Field Infrared Space Telescope 
(WFIRST). This committee has consistently supported WFIRST, but 
the recent cost growth and independent review team findings are 
similar to problems incurred on JWST. The act strikes a 
balance, capping spending if WFIRST moves forward and providing 
a set-aside in FY19 of $180 million to address justified 
recommendations of the JWST and WFIRST program reviews that are 
pending.
    We have explored Near-Earth Object (NEO) defense at 
committee hearings. The administration prioritized this mission 
and requested $150 million for NASA's Planetary Defense 
program. NASA must complete its NEO survey. Supporting projects 
such as the NEOCam mission could go a long way to accomplishing 
this task.
    Testimony before this committee has also highlighted that 
we are on the verge of a breakthrough in the search for life 
that could change the way humanity views its place in the 
universe. In the 2017 NASA Transition Authorization Act, NASA 
was given a new statutory directive for NASA to ``search for 
life's origin, evolution, distribution, and future in the 
universe.'' This act directs and authorizes funds to achieve 
that purpose.
    It was my hope that today we would have a bipartisan 
markup. In fact, discussions have been ongoing for weeks and 
draft bill text was exchanged three weeks ago. An offer was 
made, and rejected, to fund Earth Science at the NASA-requested 
or omnibus levels. Though I expect that to continue to be 
discussed today.
    The U.S. has led the world in space exploration for 50 
years, and we must ensure that the U.S. continues to do so for 
the next 50 years. We must also continue to invest in NASA as 
the only American agency responsible for space exploration.
    I thank Chairman Babin for introducing this bill. It 
redoubles our commitment to U.S. leadership in space for 
decades to come.
    Before I close, I want to thank the committee staff who 
have devoted so much time and effort for months, including this 
past weekend - I know we were all there on Sunday, for example, 
and Saturday - to negotiate and perfect this bill. They are 
Mike Mineiro, Ryan Faith, Sam Amber, Sara Ratliff, Molly Fromm, 
Tom Connally, and recently departed for active Naval duty, Tom 
Hammond, as well as Chairman Babin's staffer Steve 
Janushkowsky. Thank you all.
    I strongly recommend this bill and urge my colleagues to 
actively support it.

    Chairman Smith. I'll now recognize the Ranking Member, the 
gentlewoman from Texas, Ms. Johnson, for her opening statement.
    Oh, and before I close, I'd like to add one more thing. 
Excuse me, Ms. Johnson. I want to thank the Committee staff who 
have devoted so much time and effort for months, including this 
past weekend--I know we were all there on Sunday, for example, 
and Saturday--to negotiate a perfect--this bill. They are Mike 
Mineiro, Ryan Faith, Sam Amber, Sara Ratliff, Molly Fromm, Tom 
Connally, and the recently departed for active Naval duty, Tom 
Hammond, as well as Chairman Babin's staff Steve Janushkowsky. 
Thank you all for the long-time effort, for the many hours, and 
for working over this last weekend.
    I strongly support the bill and I urge my colleagues to 
support it as well. And that concludes my opening statement, 
and the Ranking Member is recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Unlike the last bill we considered, this bill, H.R. 5503, 
is deeply flawed, and the process that got us to this moment 
was just as flawed, as I will explain. First, this bill slashes 
funding for earth science by a half-billion dollars in Fiscal 
Year 2019, a quarter of the total earth science budget. These 
cuts are simply another manifestation of the majority's 
continued war on climate science.
    However, these reckless cuts are so deep that they will 
likely threaten more than just climate science at NASA. The 
earth science budget supports numerous programs that help 
Americans from aiding farmers to saving American lives and 
natural disaster response, and all of us must know what natural 
disaster has been like recently.
    Where all of this money--where does all of this money go? 
The majority diverts it to searching for space aliens and to 
the President's unexamined initiative to build an orbiting moon 
base, among other things. I really wish this was a joke. The 
majority slashes funding for programs that help humans here on 
earth and instead prioritizes spending money to find space 
aliens.
    Let me be clear. I think the search for life in the 
universe is a fascinating quest, and I'm also a strong 
supporter of exploration, but I think melting ice caps, rising 
sea levels, the increases in extreme weather events and 
droughts, and the other serious manifestations of climate 
change here on earth are also things we should be concerned 
about and studying.
    I don't have time today to discuss all the issues with this 
bill because there really are many. I would just note that the 
bill endorses President Trump's exploration priorities and 
plans without the Committee having had a single hearing to 
review it. It directs NASA to follow the ISS transition plan 
before Committee Members have even had any opportunity to 
review it in depth or hear from stakeholders. I could go on 
with other examples, but I think you get the point.
    As problematic as the substance of this bill is, the 
process that brought us here today is just as problematic. The 
majority's staff began discussing this legislation with 
minority a couple of weeks ago. They first provided minority 
staff with an early draft 2 weeks ago.
    A significantly different version was provided to the 
minority on April the 12th. It came with an ultimatum. In 
essence, if I didn't agree to support the bill as written, then 
the Chairman would notice the markup on April the 13th with a 
very different punitive version of the bill. And that's what's 
happened, just as Members were leaving town for the weekend. I 
really don't think vindictiveness is a good basis for 
legislating.
    I also don't think it is very effective in the long run. I 
don't think it is very effective, especially for professionals 
that have the confidence of the public to look out for their 
common good. But the reality is we are now marking up a 
partisan bill that has been rushed to markup with childish 
ultimatums and arbitrary deadlines in the process, 
disenfranchising Members on both sides of the aisle from being 
able to conduct the oversight in hearings that one of our 
Committee's most significant agencies warrant. There is no way 
to legislate for an agency that accounts for fully 1/2 of the 
total dollars that our Committee authorizes.
    It has needlessly injected partisanship in our Nation's 
space program yet again. That doesn't help NASA, nor does it 
help us. Instead, it ultimately winds up weakening the 
widespread bipartisan support NASA has traditionally enjoyed, 
and it certainly diminishes the standing of this Committee.
    I yield back.

                   Prepared Statement of Ms. Johnson

    Thank you Chairman Smith. Unlike the last bill we 
considered, this bill, H.R. 5503, is deeply flawed, and the 
process that got us to this moment was just as flawed, as I 
will explain.
    First, this bill slashes funding for Earth Science by half 
a billion dollars in FY 19-a quarter of the total Earth Science 
budget. These cuts are simply another manifestation of the 
Majority's continued war on climate science.
    However, these reckless cuts are so deep that they will 
likely threaten more than just climate science at NASA. The 
Earth Science budget supports numerous programs that help 
Americans, from aiding farmers to saving American lives in 
natural disaster response.
    Where does all this money go? The Majority diverts it to 
searching for space aliens and to the President's unexamined 
initiative to build an orbiting moon base, among other things. 
I wish I were joking.
    The Majority slashes funding for programs that help humans 
here on Earth, and instead prioritizes spending money to find 
space aliens.
    Let me be clear: I think the search for life in the 
universe is a fascinating quest, and I'm also a strong 
supporter of Exploration. But I think melting ice caps, rising 
sea levels, the increases in extreme weather events and 
drought, and the other serious manifestations of climate change 
here on Earth are also things we should be concerned about and 
studying.
    I don't have time today to discuss all the issues with this 
bill, and there are many. I would just note that the bill 
endorses President Trump's Exploration priorities and plans 
without the Committee having had a single hearing to review 
them.
    It directs NASA to follow the ISS Transition Plan before 
Committee Members have even had any opportunity to review it in 
depth or hear from stakeholders. I could go on with other 
examples, but I think you get my point.
    As problematic as the substance of the bill is, the process 
that brought us here today is just as problematic. The Majority 
staff began discussing this legislation with the Minority a 
couple of weeks ago. They first provided Minority staff with an 
early draft two weeks ago. A significantly different version 
was provided to the Minority on April 12th. It came with an 
ultimatum: In essence, if I didn't agree to support the bill as 
written, then the Chairman would notice the markup on April 
13th with a different, punitive version of the bill.
    And that's what happened, just as Members were leaving town 
for the weekend.
    I really don't think vindictiveness is a good basis for 
legislating. I also don't think it is very effective in the 
long run. But the reality is we are now marking up a partisan 
bill that has been rushed to markup with childish ultimatums 
and arbitrary deadlines-in the process, disenfranchising 
Members on both sides of the aisle from being able to conduct 
the oversight and hearings that one of our Committee's most 
significant agencies warrants.
    This is no way to legislate for an agency that accounts for 
fully one half of the total dollars our Committee authorizes.
    It has needlessly injected partisanship into our Nation's 
space program, yet again. That doesn't help NASA. Instead, it 
ultimately winds up weakening the widespread bipartisan support 
NASA has traditionally enjoyed, and it certainly diminishes the 
standing of this Committee.
    I yield back.

    Chairman Smith. Thank you, Ms. Johnson. I'm going to 
recognize myself for a minute to respond and--so that all 
Members know at least how I see the process.
    For several weeks going back to mid-March long before a 
draft bill was complete, my staff had been in discussion with 
their minority counterparts regarding the NASA authorization 
markup. Text was formally transmitted to minority staff on 
Monday, April 2. On April 3 and April 4, 2 weeks ago, majority 
staff met with their minority counterparts for more than 5 
hours to walk through the bill and answer questions. Indeed, 
several suggestions made during these discussions with minority 
staff were incorporated into the bill.
    Originally, this markup was scheduled for April 12, and 
majority and minority staff were working toward this date. The 
decision was made to postpone the markup to today, April 17, in 
order to allow staff more time to work on the bill at the 
minority' request.
    On April 11, a formal offer was made for a bipartisan bill 
with higher levels for the earth science account. On April 12, 
the most up-to-date version to the policy provisions of the 
bill were transmitted to minority staff literally within 
seconds after we received it. Majority staff offered to discuss 
the bill and the offer at the minority's convenience. The offer 
was never accepted.
    The majority staff in my view has acted in good faith and 
been in discussions of the bill with the minority on a regular 
basis for weeks.
    I'll now recognize the gentleman from Texas, the Chairman 
of the Space Subcommittee, Mr. Brian Babin.
    Mr. Babin. Thank you, Mr. Chairman. It's an honor and a 
privilege to bring the NASA 2018 authorization to this 
Committee today.
    Just over a year ago, the 2017 National Transition 
Authorization Act was signed into law, representing a clear 
bipartisan commitment to our Nation's space program. That law 
established and this bill continues to honor three very 
important provisions: Continuity of purpose, clear long-term 
goals for exploration, and a balanced space science portfolio. 
NASA must stay the course on future exploration while 
preserving our advancements in low Earth orbit.
    The first urgent question is the future of the 
International Space Station. The ISS is the jewel in the crown 
of America's space program. As a representative of the 
hardworking men and women of Johnson Space Center, I know how 
important the ISS is to our Nation.
    The Administration, in response to congressional direction 
in 2017, has provided a proposal for ISS transition. It is too 
early to say how or when the transition will occur, but the 
recent report outlines a credible course of action and early 
initial steps. I support the Administration carrying out these 
first steps, but it is critically important that we see a more 
detailed plan before steps are taken to sunset the ISS.
    The bill directs NASA to continue the operation of the ISS 
for such time as Congress authorizes. It prevents the 
Administration from pursuing any international agreements that 
would tie the hands of future Congresses. The Administrator 
must report directly to this Committee every 3 months on the 
status of the ISS transition. In other words, the ISS must be 
transitioned but not before we as a nation are ready to do so.
    This bill provides funding for the SLS and Orion programs 
at omnibus levels, signaling that we will support the programs 
as they move toward realization. It also explicitly authorizes 
and directs the development of a second mobile launch platform 
to increase safety, reduce delays, and provide flexibility for 
exploration.
    These and other measures provide a strong foundation, 
fostering a whole-of-government, indeed, a whole-of-nation 
approach to space. As Vice President Pence said yesterday, 
space exploration is essential to our national security, it's 
essential to our Nation's prosperity, and it is essential to 
the very character of America.
    I have and continue to support the idea of a balanced space 
program. We must also understand that balanced means not only 
balanced within NASA but also balanced across government.
    Within the proposed authorization levels, NASA's science 
portfolio is 30 percent of NASA's budget. This is consistent 
with both the omnibus and the President's budget request. In 
planetary science, this bill increases spending from the kind 
of science that only NASA can do and for which NASA is the 
first and perhaps the only customer such as Mars sample return 
and missions to Europa. In a responsible way, earth science is 
correspondingly reduced.
    The Administration is directed to provide NASA 
reimbursement for work undertaken for the benefit of other 
agencies such as the development of particular earth science 
systems. This will allow NASA--continuing working on missions 
like Landsat without undermining its exploration mission.
    NASA fills an essential and irreplaceable role for our 
country. It is the only agency to send humans to the surface of 
another celestial body, to send spacecraft to every planet in 
the solar system, and to send probes into interstellar space.
    I want to thank Chairman Smith for his leadership and 
guidance in reaffirming our national commitment to the 
exploration and use of space. I strongly recommend this bill 
and urge my colleagues to actively support it.

                    Prepared Statement of Mr. Babin

    It is an honor and a privilege to bring the NASA 2018 
Authorization to this committee today.
    Just over a year ago, the 2017 NASA Transition 
Authorization Act was signed into law, representing a clear 
bipartisan commitment to our nation's space program. That law 
established and this bill continues to honor three very 
important provisions: Continuity of purpose, clear long-term 
goals for exploration and a balanced space science portfolio. 
NASA must stay the course on future exploration while 
preserving our advancements in low-Earth orbit.
    The first urgent question is the future of the 
International Space Station (ISS). The ISS is the jewel in the 
crown of America's space program. As a representative of the 
hard working men and women of Johnson Space Center, I know how 
important the ISS is to our nation.
    The administration, in response to congressional direction 
in 2017, has provided a proposal for ISS transition. It is too 
early to say how or when the transition will occur but the 
recent report outlines a credible course of action and early 
initial steps. I support the administration in carrying out 
first steps. I support the administration carrying out these 
first steps but it is critically important that we see a more 
detailed plan before steps are taken to sunset ISS.
    The bill directs NASA to continue the operation of the ISS 
for such time as Congress authorizes. It prevents the 
administration from pursuing any international agreements that 
would tie the hands of a future Congress. The administrator 
must report directly to this committee every three months on 
the status of the ISS transition. In other words, the ISS must 
be transitioned, but not before we, as a nation, are ready to 
do so.
    This bill provides funding for the SLS and Orion programs 
at omnibus levels, signaling that we will support the programs 
as they move towards realization. It also explicitly authorizes 
and directs development of a second mobile launch platform to 
increase safety, reduce delays and provide flexibility for 
exploration.
    These and other measures provide a strong foundation, 
fostering a whole-ofgovernment, indeed, whole-of-nation 
approach to space. As Vice President Pence said yesterday: 
``Space exploration is essential to our national security, it's 
essential to our nation's prosperity, and it is essential to 
the very character of America.''
    I have and continue to support the idea of a balanced space 
program. We must also understand that ``balanced'' means not 
only balanced within NASA but also balanced across government.
    Within the proposed authorization levels, NASA's science 
portfolio is 30 percent of NASA's budget. This is consistent 
with both the omnibus and the president's budget request.
    In Planetary Science, this bill increases spending for the 
kind of science that only NASA can do and for which NASA is the 
first, and perhaps only, customer, such as Mars Sample Return 
and missions to Europa.
    In a responsible way, Earth science is correspondingly 
reduced. The administration is directed to provide NASA 
reimbursement for work undertaken for the benefit of other 
agencies, such as the development of particular Earth science 
systems. This will allow NASA to continuing working on missions 
like Landsat without undermining its exploration mission.
    NASA fills an essential and irreplaceable role for our 
country. It is the only agency to send humans to the surface of 
another celestial body, to send spacecraft to every planet in 
the solar system and to send probes to interstellar space.
    I thank Chairman Smith for his leadership and guidance in 
reaffirming our national commitment to the exploration and use 
of space.
    I strongly recommend this bill and urge my colleagues to 
actively support it.
    Before I yield back to the Chairman, without of objection, 
I'd like to place the following letters and statements of 
support in the record, from a number of organizations 
including:
    <bullet> LAerospace Industries Association
    <bullet> LAmerican Society for Gravitational and Space 
Research
    <bullet> LAssociation of Universities for Research in 
Astronomy
    <bullet> LAstrobotic
    <bullet> LBay Area Houston Economic Partnership
    <bullet> LBoeing
    <bullet> LCommercial Spaceflight Federation
    <bullet> LMade in Space
    <bullet> LMoon Express
    <bullet> LNanoracks
    <bullet> LNational Space Grant Alliance
    <bullet> LTexas A&M University System
    <bullet> LVector Space Systems
    <bullet> LVirginia Commercial Spaceflight Authority
    <bullet> LSpace Florida

    Mr. Babin. And before I yield back to the Chairman, without 
an objection, I'd like to place the following letters and 
statements of support in the record from a number of 
organizations, including the Aerospace Industries Association, 
American Society for Gravitational and Space Research, 
Association of Universities for Research and Astronomy, 
Astrobotic, Bay Area Houston Economic Partnership, Boeing, 
Commercial Spaceflight Federation, Made in Space, Moon Express, 
NanoRacks, National Space Grant Alliance, Texas A&M University 
System, Vector Space Systems, Virginia Commercial Spaceflight 
Authority, and Space Florida. I request to enter these 15 
letters and statements into the record without objection.
    Chairman Smith. Without objection, that list of 
individuals, organizations, companies, and stakeholders who 
endorse the bill will be made a part of the record.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Babin. Thank you, and I yield back.
    Chairman Smith. Thank you, Mr. Babin.
    The gentleman from California, the Ranking Member of the 
Space Subcommittee, Mr. Bera, is recognized for an opening 
statement.
    Mr. Bera. Thank you, Mr. Chairman.
    The importance of our investments in NASA and its ability 
to inspire can't be underestimated. I often talk about my 
childhood and vivid recollections of the space program and the 
influence that NASA and the Apollo program had in my pursuit of 
science and medicine.
    NASA's work also helps us attract the best and brightest to 
go into STEM disciplines and contributes to world-class work 
force. Our work force not only makes NASA's scientific 
discoveries possible, but it powers an engine of innovation and 
economic strength for our country through its advances in human 
exploration, aeronautics, and space technology.
    Mr. Chairman, one of the things that I've enjoyed most 
about, you know, working with the Ranking Subcommittee Chairman 
Mr. Babin is how bipartisan our--and collaborative our hearings 
have been, you know, whether we're talking about deep space 
exploration, the discovery of planets and the habitable zone, 
looking for life out there, you know.
    But what bothers me and what has me concerned about today's 
NASA authorization bill under consideration is that both I and 
my colleagues received this bill on Friday. With Fiscal Year 
2018 appropriations of $20.7 billion, NASA's the largest agency 
under the jurisdiction of this Committee. While I understand 
the majority and minority staff were communicating on a 
discussion draft of the bill, Democratic staff did not receive 
proposed funding numbers and a finalized bill text until late 
last week.
    Mr. Chairman, we both share the goal of sustaining a strong 
NASA that is funded sufficiently to complete the tasks the 
Nation has asked of it. However, I have concerns about how a 
rushed markup process can help us reach that goal together. Our 
colleagues just returned to Washington last night, leaving 
little time to fully consider the bill and the funding and 
policy direction it would give to NASA. Moreover, I remain 
worried about potential implications of a rushed markup on that 
important policy, issues regarding our space program, 
especially in light of NASA's need to reassess program and 
spending plans following the recently enacted Fiscal Year 2018 
omnibus.
    Turning to the content of the bill, the proposed $474 
million cut to earth sciences for Fiscal Year 2019 is deeply 
concerning when NASA's earth science data played a key role in 
informing our response to a number of natural disasters that 
wreaked havoc this past year.
    At the same time, the bill proposes increasing the 
planetary science account by more than $400 million above 
Fiscal Year 2018 appropriated levels without any basis policy 
guidance on how to--how the increase is to be spent. In 
addition, the astrophysics decadal survey's top-ranked WFIRST 
mission that we discussed during our NASA Fiscal Year 2019 
budget hearing and its potential to return transformational 
science is called into question in this bill.
    The role of NASA's space technology program, including 
important initiatives on satellite servicing and its potential 
applications for industry, also could be shortchanged. Further, 
policy would be set on the International Space Station 
transition without the opportunity of our Committee to review 
NASA's recently submitted transition plan, as required by last 
year's NASA Transitional Authorization Act. The future of ISS 
is a major policy issue and one that deserves the Committee's 
oversight.
    Mr. Chairman, this Committee's policy and direction for 
NASA will be felt in the next generation of stargazers, space 
explorers, business leaders, scientists, and engineers. Before 
we legislate, we have an obligation to take the time to hold 
hearings, gather the necessary information, consider the views 
of stakeholders, and weigh the decisions that will help sustain 
a strong and stable future for NASA.
    With that, I look forward to working with you to that end 
and having those hearings. Thank you, and I yield back.
    Chairman Smith. OK. Thank you, Mr. Bera. And let me respond 
to a couple of your points. And the first is to reassure you 
and other Members of the Committee that between now and the 
House floor we will continue to have discussions on policies, 
and those discussions will be in good faith.
    I realize that the minority has not had as much time as 
they would've liked. On the other hand, we have complied with 
all requirements, legislative and otherwise. And while I regret 
that staff has to work on weekends, I sometimes think that that 
simply has to be done. And I know the majority staff did work 
over the weekend as well.
    So I'm hoping we can go forward with a good-faith 
bipartisan effort that after the Perlmutter amendment will 
allow all Members to support the bill.
    And to that end let me say that we are going to take up the 
amendment in the nature of a substitute--I mean, the manager's 
amendment by Mr. Babin first, after which we will go to Mr. 
Perlmutter's amendment.
    Let's see. The gentleman from Texas, Mr. Babin, is 
recognized to offer the manager's amendment.
    Mr. Babin. Thank you, Mr. Chairman.
    Chairman Smith. And does the gentleman have an amendment at 
the desk?
    Mr. Babin. I do have an amendment at the desk.
    Chairman Smith. OK. The clerk will report the amendment.
    The Clerk. Amendment to H.R. 5503 offered by Mr. Babin of 
Texas, amendment number 001.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
his manager's amendment.
    Mr. Babin. Thank you, Mr. Chairman.
    This amendment represents a good-faith effort to 
incorporate constructive feedback received from stakeholders 
after the introduction of the bill. It also contains technical 
corrections. This amendment emphasizes the President's goal to 
lead the return of humans to the moon for long-term exploration 
and utilization, followed by human missions to Mars and other 
destinations.
    Furthermore, this amendment makes it clear that NASA shall 
pursue the expeditious development of a new-build second mobile 
launch platform, and NASA shall also procure a second interim 
cryogenic propulsion stage.
    Finally, this amendment encourages NASA to leverage State 
Government infrastructure investments and also requires a 
report by NASA on procurement opportunities, commercial and 
space services, or infrastructure for exploration.
    I support this amendment and urge my colleagues to do the 
same.
    Chairman Smith. Thank you, Mr. Babin.
    Let me respond real quickly and say that I thank him for 
this amendment. The manager's amendment makes technical and 
conforming changes to the bill and also makes changes that 
result from members' and stakeholder feedback. The amendment 
improves the bill, and I thank again the Chairman of the Space 
Subcommittee for his good work on this.
    And the gentlewoman from Texas, the Ranking Member, is 
recognized.
    Ms. Johnson. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Smith. The gentlewoman is recognized for 5 
minutes.
    Ms. Johnson. I'm reluctantly going to have to oppose the 
gentleman's amendment in its current form. I appreciate the 
fact that the amendment fixes some of the problems with the 
bill that resulted from the rush to mark up the bill that 
clearly is not ready for markup. Reversing the funding 
incorrectly allocated to the 2 million exploration projects, 
SLS and Orion is an obvious example. The amendment also gets 
rid of problematic commercialization language that had not been 
adequately vetted.
    If the changes had been confined to those items and to the 
technical corrections that are included, I probably could 
support this amendment. Unfortunately, the amendment also adds 
additional provisions, another indication of a bill that was 
brought to markup before it was ready.
    And some of these provisions are problematic or premature. 
These range from endorsing the President's exploration 
priorities without even having seen the long overdue 
exploration roadmap this Committee asked for in 2017 Transition 
Act, apparently imposing an unfunded mandate on NASA to develop 
a second ICPS, and requiring a wasteful and unnecessary GAO 
report.
    In sum, the gentleman's amendment makes some useful 
corrections, but it also includes additional provisions that 
need more scrutiny. I hope that the gentleman would consider 
withdrawing this amendment to allow time to address these 
issues.
    I thank you and yield back.
    Chairman Smith. Thank you, Ms. Johnson. Is there any 
further discussion on the amendment?
    If not, the question is on agreeing to the manager's 
amendment offered by Mr. Babin.
    All in favor, say aye.
    Opposed, no.
    The ayes have it, and the amendment is agreed to.
    The next amendment is going to be an amendment offered by 
the gentleman from Colorado, Mr. Perlmutter, and he is 
recognized for that purpose.
    Mr. Perlmutter. Thank you, Mr. Chairman. I have an 
amendment at the desk, number 28.
    Chairman Smith. The clerk will report the amendment.
    The Clerk. Amendment to H.R. 5503 offered by Mr. Perlmutter 
of Colorado, amendment number 028.
    Mr. Perlmutter. I ask unanimous consent to dispense with 
the reading of the amendment.
    Chairman Smith. OK. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
the amendment.
    Mr. Perlmutter. The amendment is sort of at the heart of 
some of the concerns that we have concerning the bill, and I 
appreciate the Chairman's agreement to continue to allow 
negotiations by all of us as this--as the overall bill moves 
forward.
    The amendment that I have proposed, amendment 28, is to 
restore $471 million, which was a 25 percent cut from the 
Fiscal Year 2018 budget for earth sciences. So the purpose is 
to restore that cut. I want to remind everyone what earth 
sciences, what this line item really is. It is to develop a 
scientific understanding of the earth system and its response 
to natural or human-induced changes and to improve prediction 
of climate, weather, and natural hazards both for personal 
safety, as well as commerce. What we're trying to do is have 
the best data we can gather about the earth's oceans, service, 
and atmosphere, and try to understand our planet to the best of 
our ability. That understanding will improve weather forecasts 
and has a tremendous impact on the safety of our constituents 
and the flow of commerce across the world.
    I was pleased to see language in this bill which 
acknowledges the work of the recently released earth sciences 
decadal survey. Included in the survey was a wealth of 
information on the importance of earth science data and how we 
use this data in our daily lives. The decadal survey 
acknowledged the tight budget environment facing earth science 
research, and they made some tough decisions in putting 
together that document, but the fact is that even under current 
funding there's about 1/3 less than what is necessary. Cuts 
like initially proposed in the bill of 25 percent only 
exacerbate the problem and undercut the earth science decadal 
survey that the bill actually endorses.
    So I urge my colleagues, Democrats and Republicans, to 
support the amendment to restore the $471 million cut to earth 
sciences so that we can have the equipment and the services 
that are necessary for us to understand how all of this fits 
together, whether it's through weather satellites or just the 
continued observations that we make through the NASA line item 
budget.
    With that, I yield back.
    Chairman Smith. Thank you, Mr. Perlmutter.
    Let me recognize myself in support of the amendment and say 
at the outset I appreciate his initiative in drafting this 
amendment and offering it now. I also appreciate the support of 
the Ranking Member and Mr. Bera, the Ranking Member of the 
Space Subcommittee.
    This was not an easy amendment for the majority to swallow, 
and I think you all know that. But we are going forward in good 
faith with majority support because we want to generally and 
hopefully increase the prospects of this NASA bill going 
forward on the floor and beyond that. So I recognize this 
amendment represents a compromise. I hope there will be strong 
support on both sides to show good faith for the process, which 
includes bipartisanship discussions, as well as an effort to 
try to do the best we can for NASA. So, again, thank you for 
the amendment.
    And is there anyone else who wishes to be recognized on 
this amendment? Does the Ranking Member want to be recognized?
    Ms. Johnson. I support the amendment, Mr. Chairman.
    Chairman Smith. OK. Thank you. Anyone else? Mr. Bera?
    Mr. Bera. I support the amendment as well.
    Chairman Smith. OK. Anyone else want to speak any longer on 
the amendment?
    Mr. Perlmutter. I'm happy to talk some more.
    Chairman Smith. OK. And I think we're fine over here. All 
right. Let's see. Without any further discussion on the 
amendment, the question is on agreeing to Mr. Perlmutter's 
amendment.
    All in favor, say aye.
    Opposed, no.
    The amendment is agreed to, and we will now--the gentleman 
from Colorado is recognized.
    Ms. Johnson. Can we have a recorded vote?
    Chairman Smith. A recorded vote has been requested, and as 
mentioned earlier, the recorded votes will be postponed.
    Up next is--we'll now go back to regular order on the list 
of amendments, and the next one is going to be offered by the 
gentleman from Florida, Mr. Posey, and he is recognized for 
that purpose.
    Mr. Posey. Thank you, Mr. Chairman. I have an amendment at 
the desk.
    Chairman Smith. The clerk will report the amendment.
    The Clerk. Amendment to H.R. 5503 offered by Mr. Posey of 
Florida, amendment number 049.
    Chairman Smith. And without objection, the amendment will 
be considered as read, and the gentleman is recognized to 
explain his amendment.
    Mr. Posey. Thank you, Mr. Chairman.
    Following the public disclosure of security and export 
control violations at its research centers, the Administration 
contacted--contracted with the National Academy of Public 
Administration to conduct an independent assessment of how the 
Administration carried out foreign national access management 
practices and other security matters. The assessment by the 
National Academy of Public Administration concluded that NASA 
networks are compromised and the Administration lacked a 
standardized and systematic approach to export compliance and 
that individuals within the Administration were not held 
accountable when making serious preventable errors in carrying 
out foreign national access management processes and other 
security matters.
    This amendment simply requires the Administration to report 
to the Committee on Science, Space, and Technology of the House 
of Representatives and the Committee on Commerce, Science, and 
Transportation over in the Senate on how it plans to address 
each of the recommendations made to the security assessment by 
the National Academy of Public Administration regarding 
security and safeguarding export control information. I ask my 
colleagues to support this amendment, and I yield back the 
remainder of my time.
    Chairman Smith. Thank you, Mr. Posey, for your amendment, 
and I support it. It will ensure that the information 
technology security recommendations from the National Academy 
of Public Administration on foreign national access management 
are in fact implemented, and I encourage Members to support the 
amendment.
    Is there anyone who wishes to be recognized on the 
amendment? If not, the question is on agreeing to the Posey 
amendment.
    All in favor, say aye.
    Opposed, no.
    The ayes have it and the amendment is agreed to.
    We will now go to an amendment to be offered by the 
gentleman from Florida, Mr. Dunn, and he is recognized.
    Mr. Dunn. Thank you, Mr. Chairman. And Chairman Babin of 
the Subcommittee, Ranking Members----
    Chairman Smith. And----
    Mr. Dunn [continuing]. Johnson and Ami Bera.
    Chairman Smith. And the gentleman has an amendment at the 
desk, and the clerk will report the amendment.
    The Clerk. Amendment to H.R. 5503 offered by Mr. Dunn of 
Florida, amendment number 041.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman continues to be 
recognized to explain his amendment.
    Mr. Dunn. Thank you very much, Mr. Chairman. This is an 
exciting day for the Members of the Committee. We have the 
opportunity to help shape the authorities and funding of NASA 
and its partners that they'll use to advance space exploration 
and science. So with that objective in mind, I'm offering 
amendment 41.
    State and local governments have invested hundreds of 
millions of dollars in new space-related infrastructure that 
benefits Federal civil programs, national security programs and 
missions, as well as the commercial space industry. This 
amendment proposes a report that describes those investments 
and partnerships that have benefited the Federal, commercial, 
and State users. It also requires reporting on the prospective 
or burgeoning opportunities for Federal-State matching grant 
funding to support shared infrastructure, as well as how these 
partnerships can be expanded to better serve civil, national 
security, and commercial space missions.
    And I ask that the Committee support this amendment to H.R. 
5503. And with that, I yield back. Thank you.
    Chairman Smith. Thank you, Mr. Dunn. I'll recognize myself 
in support of the amendment, which creates a lasting 
partnership between NASA and State and local governments.
    In a limited budget environment, we must make difficult 
choices about how to fund Federal programs. The ability to 
leverage the strengths and expertise of State and local 
governments will help to maintain American space leadership now 
and in the future. So I thank Mr. Dunn for offering this 
amendment. I urge my colleagues to support it.
    If there's no further discussion, all in favor, say aye.
    Opposed, no.
    The ayes have it and the amendment is agreed to.
    Next up is an amendment to be offered by the gentleman from 
California, Mr. Rohrabacher, and he is recognized for that 
purpose.
    Mr. Rohrabacher. Thank you very much.
    Chairman Smith. And----
    Mr. Rohrabacher. Mr. Chairman----
    Chairman Smith [continuing]. The gentleman has an amendment 
at the desk.
    Mr. Rohrabacher. I have an amendment at the desk.
    Chairman Smith. And without objection, the amendment is a--
the clerk will report the amendment.
    The Clerk. Amendment to H.R. 5503 offered by Mr. 
Rohrabacher of California, amendment number 025.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
his amendment.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    When I first arrived here a number of years ago, I was told 
that the House and the Senate have one thing in common with 
both the House and Senate, and that is that we both have 100 
Members who are total idiots. And let me just say that what we 
have been witnessing with the prevention of an Administrator 
for NASA for over 15 months is a disgrace. It's a disgrace for 
not just the Senate, not just the House, for Congress in 
general. Congress is not doing its job in a number of areas. I 
think it underscores that we do need some fundamental reform of 
our process, both Senate and House.
    But today, we realize that the Senate, on something that 
could very easily be done, and that is a confirmation of a NASA 
Administrator. And we have a fellow--a colleague who we all 
know who's bright, he's creative, who could do--be doing a 
fantastic job for our country through--as being the 
Administrator of NASA. He's been held up by the U.S. Senate.
    And we need--now, let me just note that Robert Lightfoot as 
Acting Administrator of NASA has done a terrific job. We've all 
had a chance to talk with him and work with them, so my hat's 
off to him, but it is disgraceful that we have not actually put 
in place an Administrator, permanent Administrator.
    So my amendment States--this is getting tough--no 
appropriations shall be authorized to NASA until a NASA 
Administrator nominee is confirmed by the U.S. Senate. That's 
simple as that. And if the Senate doesn't think that it's 
important enough to vote on a NASA Administrator, maybe they 
don't think it's important for us to fund NASA. And that's 
that.
    Mr. Perlmutter. Does the gentleman yield?
    Mr. Rohrabacher. I certainly would.
    Mr. Perlmutter. I thank the gentleman for yielding.
    And I agree with you 100 percent that Mr. Bridenstine ought 
to be confirmed by the Senate, and this delay is really 
unconscionable because the agency needs leadership. Mr. 
Lightfoot was fantastic. He has now stepped down. But I'd ask 
my friend, do you really need the sledgehammer at this point 
about no funding for NASA? That would be my----
    Mr. Rohrabacher. Well, if the Chairman would ask me to put 
my big hammer down and lay it aside for a little while, I guess 
I'd be willing to acquiesce to our fine Chairman.
    Chairman Smith. Does the gentleman wish to withdraw the 
amendment?
    Mr. Rohrabacher. I withdraw my amendment.
    Chairman Smith. OK. Without objection, the amendment is 
withdrawn, but you sure got Mr. Perlmutter's attention, which 
was worth doing.
    The gentleman from California has another amendment. He's 
recognized for the purposes of offering that.
    Mr. Rohrabacher. I have an amendment at the desk.
    Chairman Smith. The clerk will report the amendment. This 
is Rohrabacher second amendment.
    The Clerk. Amendment to H.R. 5503 offered by Mr. 
Rohrabacher of California, amendment number 026.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
the amendment.
    Mr. Rohrabacher. I have quite often mentioned that there is 
a major threat looming that we have not dealt with and that we 
should make sure that we spend more time making sure that our--
that the whole job we're trying to do in space cannot be 
destroyed by space debris. And I believe space debris is a very 
serious challenge. It's actually--I believe as we move on, 
space debris is going to be as great a challenge in getting 
things done in space as are the technical and just--of what 
we're trying to accomplish with various technologies that we're 
bringing to bear.
    So my amendment again emphasizes that the space debris 
actually is reaching a point where collisions of--with space 
debris may cause more space debris. And basically, what we're 
asking for is that this be reaffirmed in the authorization bill 
that space debris something that should be a high priority for 
NASA to be looking at and dealt with.
    Chairman Smith. Does the gentleman yield back his time?
    Mr. Rohrabacher. I yield back.
    Chairman Smith. Thank you, Mr. Rohrabacher. I just want to 
say I support your amendment. I appreciate your long-standing 
interest in this subject, and I hope other Members will support 
it as well.
    Does anyone wish to be heard on this amendment?
    If not----
    Ms. Johnson. It just makes more sense than the last one.
    Chairman Smith. The Ranking Member says it makes more sense 
than the last one. But I'll let--we'll take that as a yes. OK. 
OK.
    All--if there's no further discussion, all in favor of the 
Rohrabacher amendment--this is the second amendment--say aye.
    Opposed, nay.
    The ayes have it, and the amendment is agreed to.
    And the gentleman from California is recognized for his 
third and last amendment.
    Mr. Rohrabacher. Yes. I'm buoyed by the fact that I have 
received such support from the other side of the aisle on my 
last amendment. Let me note that what we have--and my--oh, I 
have an amendment at the floor. OK. What it is--we are--
determination--insert a new paragraph, determinations by the 
Administrator or Secretary under paragraph D must be publicly 
disclosed 30 days prior to the acquisition of such space 
products.
    What we're talking about--my amendment is talking about is 
there's a requirement that whenever the Administrator makes a 
decision as to what type of technologies and what type of 
supplies are needed by the space program, that it--that 
basically, we--and that we try to do commercial rather than 
simply leave it a matter of leaving it up to the government and 
the bureaucracy.
    Well, there is an exception to that that allows the--that 
permits the Administrator to actually, you know, go--to go and 
decide not to use the commercial alternatives. And it States, 
``In carrying out space exploration missions, Administrator 
shall prioritize acquisitions to use in space products provided 
by the United States and other commercial--and commercial 
United States providers.''
    Let me note there is an exception to that provision, and I 
like the provision. The provision underscores America's 
fundamental strengths, which is by using the commercial and the 
private sector, we're able to bring things in a costly manner, 
actually more costly than just using the government. It creates 
a marketplace which will bring down the cost of future needs. 
And anyway, we need to really encourage commercial use and 
alternatives for our space missions.
    My amendment comes to place in that exception which is the 
NASA Administrator or the Secretary of the Air Force to make a 
determination that the commercial approach is not--the 
commercial space is not really right in this specific decision. 
Well, I think that's fine, but what my amendment does is make 
certain that there is an accountability if commercial space 
alternatives are not being used. And it just requires that the 
Secretary--or the Administrator and the Secretary of Air Force 
actually make--you know, make public why they made that 
decision. And it's a matter of transparency basically.
    And so with that, I said, it is clear, however, to me that 
we have not worked out the wording of this in a way that's 
acceptable to everyone. And I appreciate your leadership, Mr. 
Chairman, and so I'm going to be withdrawing this amendment, 
which makes this mandate of whenever they're not using 
commercial, that it actually be explained and be publicly 
presented. But we--the idea is a good idea, but I understand 
there's some objections to specific wording of how my--with an 
understanding that we'll work together on finding the right 
wording where both sides of the aisle can agree and that we can 
all agree. I'd be willing to withdraw my amendment.
    Chairman Smith. OK. And without objection, the amendment is 
withdrawn, but let me reassure the gentleman from California 
that, as he suggested, we will continue to work on the 
language. And I do appreciate the statement and--that he made 
and his interest in the subject.
    We will now----
    Mr. Rohrabacher. And I withdraw my amendment.
    Chairman Smith. Without objection.
    We will now go to another amendment offered by the 
gentleman from California, Mr.--I mean by Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chair. I have an amendment 
number 27 at the desk.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment to H.R. 5503 offered by Mr. Perlmutter 
of Colorado, amendment number 027.
    Mr. Perlmutter. I ask for unanimous consent to dispense 
with the reading of the amendment.
    Chairman Smith. OK. Without objection.
    And the gentleman is recognized to explain the amendment, 
which is being handed out as we speak. OK. The gentleman is 
recognized on the condition that he doesn't hold up a bumper 
sticker that says Mars 2033. Oh, no, no, no, no, no.
    Mr. Perlmutter. Thanks, Mr. Chair. I know all of you were 
worried that I wouldn't hold up my bumper sticker of Mars 2033 
today, but I just want to assure you we still have plenty, and 
you're welcome to come to my office and get them for your cars.
    As you've all heard me discuss on numerous occasions, we 
had testimony a couple years ago detailing how the orbits of 
Earth and Mars align in the year 2033 to be one of the shortest 
distances which would allow a human mission to Mars to shave 
off months off of the trip to that planet. Obviously, by 
shortening the trip, it reduces the risks our astronauts might 
face from radiation or who knows what else.
    Today, we are building the Orion multipurpose crew vehicle 
and the Space Launch System to carry us on this historic 
journey, and American industry and our partners around the 
world are working on the other technologies needed to 
accomplish this feat.
    Because this endeavor is not going to be just NASA or just 
the United States, we're going to need public-private 
partnerships and the international community and all work 
together to get this done, as the Vice President discussed and 
described in his speech yesterday in Colorado.
    The missing piece to this puzzle right now is a requirement 
for NASA to efficiently plan on how we would take advantage of 
this opportunity in 2033, if not before, and what we need to be 
doing on what timelines to get humans to Mars in 2033 or before 
because we've had testimony from SpaceX and some others that 
it's possible to get our astronauts to Mars even before 2033. 
My amendment helps fix that problem by giving NASA the task to 
better incorporate a 2033 mission into their long-term 
exploration plans.
    A number of people on this panel or in industry are excited 
by talk from the Administration of going back to moon, but as 
the Vice President said yesterday and as we've talked about on 
this Committee, that could just be a steppingstone to our real 
mission, which ultimately is to get to Mars. I think our--the 
amendment that I propose accomplishes that, and I urge support 
for the amendment. And with that, I yield back.
    Chairman Smith. Thank you, Mr. Perlmutter. I support the 
amendment and yield to the gentleman from Texas, Chairman 
Babin.
    Mr. Babin. Thank you, Mr. Chairman.
    And I thank the gentleman from Colorado for his amendment, 
which I do support. Human exploration of Mars is a very 
important--it is the big--the big goal, the ultimate goal is to 
get to Mars by 2033, if not sooner. There are quite a few 
things that need to be done science-wise and experimentation-
wise. Radiation is one of them, a lot of medical problems that 
we need to address and remedy before we can get astronauts 
there and safely back. But this amendment provides great 
direction to NASA toward that ultimate end, and I fully support 
it. I yield back.
    Chairman Smith. Thank you, Mr. Babin.
    Is there anyone else who wishes to be--the gentlewoman from 
Texas, the Ranking Member, is recognized.
    Ms. Johnson. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Smith. The gentlewoman is recognized for 5 
minutes.
    Ms. Johnson. I support the gentleman's--from Colorado's 
amendment to privatize human exploration to Mars by 2033. While 
other human--OK. Prioritize, yes. While other human exploration 
endeavors that NASA engages in is--all have merit, and I do 
believe that they should contribute toward the goal of going to 
Mars.
    Mr. Perlmutter's amendment recognizes the priority and also 
provides a date for NASA to work toward. I think we've heard 
this date before, and I encourage all of my colleagues to 
support this amendment, and I yield back.
    Chairman Smith. Thank you, Ms. Johnson.
    If there's no further discussion on the amendment, the 
question is on the Perlmutter amendment.
    All in favor, say aye.
    All opposed, no.
    The ayes have it, and the amendment is agreed to.
    The gentleman from Colorado has the next amendment as well, 
and he is recognized for the purpose of offering that.
    Mr. Perlmutter. Thank you, Mr. Chair. I have an amendment 
at the desk, number 26.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment to H.R. 5503 offered by Mr. Perlmutter 
of Colorado, amendment number 026.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman from Colorado is 
recognized to explain the amendment.
    Mr. Perlmutter. Thank you, Mr. Chair. I'm going to offer 
this and then withdraw it pursuant to the Chairman's committing 
to the fact we can negotiate further as this bill moves along 
in the process.
    The bill--or the amendment that I proposed is to add $8 
million to the National Space Grant College and Fellowship 
Program or the Space Grant, and it allows--is part of a 
competitive State and Federal partnership through a consortia 
in all 50 States, Puerto Rico, and the District of Columbia. 
And the program enable students to engage in outreach 
activities and research projects that prepare them for STEM 
careers and working with a wide array of industry partners in 
their communities.
    Space Grant consortia are catalysts in each State to help 
grow the high-tech work force, and with nearly 1,000 partner 
institutions, this program promotes aerospace and other NASA 
and STEM education activities and helps sustain a pipeline of 
students for innovative high-tech jobs.
    When I speak with the aerospace industry in Colorado, one 
of their biggest needs is a passionate and skilled work force, 
and the Space Grant helps provide just that. We've held this 
Space Grant level for a number of years now, even as we've seen 
the NASA budget grow, and the purpose is to increase that Space 
Grant line item.
    And I would just--before I withdraw it, I would just say to 
my friends from Texas that just about every single institution 
in your State--and you have a lot of them--are--benefit in some 
way or another from the Space Grant program. And I didn't know 
the University of Texas has like a dozen different venues for 
their institution, and each one of those benefits.
    So it is a--it's an excellent program. It leverages both 
State and Federal money. The various aerospace companies 
benefit by it, but certainly NASA and our space program benefit 
by it. I will withdraw my amendment, Mr. Chairman, so that we 
can discuss it at greater length as the bill moves through the 
process.
    Chairman Smith. Without objection, the amendment is 
withdrawn, but let me reassure the individual that I am and I 
think a lot of us support the increase of $8 million. And just 
so that all Members understand why I think this is going to be 
able to be worked out, the gentleman from Colorado's amendment 
increases the amount for this fellowship program from $40 
million to $48 million. Again, I support that. The only 
difference of opinion we have is whether the entire category is 
increased from $100 million to $108 million, so that's, I 
suspect, fairly easy to work out between now and the House 
floor. But we do agree with the additional $8 million. The 
question is whether to increase the overall account by $8 
million. So I think we'll work that out.
    I appreciate the gentleman withdrawing the amendment. And 
we have two further amendments. We have a late amendment 
offered by Mr. Foster and then another amendment offered by Mr. 
Knight, and I believe that will conclude our markup.
    The gentleman from Illinois, Mr. Foster, is recognized for 
the purpose of offering an amendment.
    Mr. Foster. Thank you, Mr. Chairman. I have an amendment at 
the desk.
    Chairman Smith. All right. And the clerk will report the 
amendment.
    The Clerk. Amendment to H.R. 5503 offered by Mr. Foster of 
Illinois, amendment number 093.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
the amendment.
    Mr. Foster. Thank you, Chairman Smith.
    My amendment is designed to encourage NASA to have a hard 
look at reducing or eliminating the use of high-enriched 
uranium, otherwise known as weapons-grade uranium, in future 
missions. As you know, NASA is currently advancing various 
nuclear reactors for deep space missions, particularly to Mars. 
One of them is for spacecraft propulsion, which would likely 
utilize low-enriched, that is non-weapons-grade uranium. The 
second is for surface power, which would potentially utilize 
high-enriched or weapons-grade uranium.
    High-enriched uranium is one of the most dangerous 
materials on earth because of its direct significance for 
potential use in nuclear weapons and acts of nuclear terrorism, 
which is why the elimination globally of stockpiles has been a 
longstanding U.S. policy objective. It is also a material that 
is very dangerous to handle during normal assembly when you can 
have criticality incidents.
    This is appreciated by NASA's Marshall Spaceflight Center, 
which is leading the development of the propulsion reactor 
system utilizing low-enriched uranium. An underappreciated 
point about this is that the utilization of high-enriched 
uranium in any space reactor would result in considerable 
security-related cost and inhibit the participation of 
commercial and academic partners for development of testing--
and testing and establish a very worrisome precedent for other 
countries to use potentially large quantities of high-enriched 
uranium in their own space programs.
    And that is why I am introducing an amendment today to 
require that the space nuclear power report include a cost 
analysis of the use of high-enriched uranium versus low-
enriched uranium in power generation and other space 
applications, including surface power and in space propulsion. 
This cost analysis should include the long-term and especially 
the security-related costs of the high-enriched versus low-
enriched uranium. This I think will help Congress understand 
the true costs of these different nuclear power sources.
    Thank you, and--for your consideration of this amendment, 
and I urge all of my colleagues to support it.
    Chairman Smith. Thank you, Mr. Foster. I'll recognize 
myself to speak on the amendment.
    And I want to say to the gentleman from Illinois, as well 
as other Members of the Committee, initially, I was going to 
oppose this amendment because of its being submitted late and 
being concerned about the process. I know the Ranking Member 
and others have made comments about the process on the larger 
bill, but again, in an effort at comity and bipartisanship 
today, we're going to overlook the process and I endorse the 
gentleman's amendment.
    Is there anyone else--the gentleman from Texas, Mr. Babin, 
is recognized.
    Mr. Babin. Yes, sir. Thank you, Mr. Chairman.
    I appreciate this amendment from Mr. Foster. We have 
conducted a number of hearings on this very issue, and I 
support this amendment.
    Chairman Smith. OK. Thank you, Mr. Babin.
    The gentleman from South Carolina, Mr. Norman, is 
recognized.
    Mr. Norman. Thank you, Mr. Chairman. Is there a financial 
impact on this study, and who would the study actually go to? I 
yield back.
    Chairman Smith. Does the gentleman from Illinois want to 
respond?
    Mr. Foster. Well, eventually Congress. I mean, that's a 
decision we have to make. This is a decision that is--will be 
partly economic and partly due to national security and 
ultimately global security. You know, there's--it is almost 
always true that using high-enriched uranium by itself from an 
engineering point of view will be a less-expensive alternative. 
However, there are real secondary costs and, you know, you have 
to guard high-enriched uranium really carefully because a 
terrorist group that gets their hands on high-enriched uranium 
can unfortunately quite easily make a nuclear weapon.
    And so that if you go to high-enriched uranium facility, at 
least in the United States, you go through many levels of 
barbed wire and personal ID and all this. All of those costs 
will have to be absorbed by any future mission that 
contemplates using high-enriched uranium for space 
applications. And I think that's--that cost--you know, if you 
visit these facilities, there's an impressive number of people 
that draw their salaries protecting the high-enriched uranium 
from potential terrorist attack.
    And I just--when ultimately Congress makes that decision, 
we should appreciate the secondary costs of that decision and I 
think work hard on engineering and solutions using low-enriched 
uranium.
    Chairman Smith. Mr. Norman, do you yield back the balance 
of your time? Does that satisfy you? OK, good.
    The gentlewoman from Texas, Ms. Johnson, is recognized.
    Ms. Johnson. Thank you, Mr. Chairman. I just want to voice 
that I support the gentleman from Illinois' amendment, Dr. 
Foster. He raised this issue during the hearing with NASA's 
Acting Administrator, and I want to commend you for following 
through because this is the next sensible step, and I thank 
him.
    Chairman Smith. OK. Thank you, Ms. Johnson.
    If there's no further discussion, the question is on the 
Foster amendment.
    All in favor, say aye.
    Opposed, no.
    The ayes have it, and the amendment is agreed to.
    We will now go to our last amendment to be offered by the 
gentleman from California, Mr. Knight, and he is recognized for 
that purpose.
    Mr. Knight. Thank you, Mr. Chair. I have an amendment at 
the desk.
    Chairman Smith. The clerk will report the amendment.
    The Clerk. Amendment to H.R. 5503 offered by Mr. Knight of 
California.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman from California is 
recognized.
    Mr. Knight. Mr. Chairman, very simply, as Mr. Perlmutter 
always has his bumper sticker of 2033, I think we should have a 
new bumper sticker because we are embarking on a new 
demonstrator. It's the low-boom flight demonstrator, which will 
show that we can fly over land supersonic and not have the 
great big boom that everybody is accustomed to.
    So if we're going to do that and we are going to put people 
into airliners at some point and go over Mach 1, then we must 
make sure that we have all the infrastructure and the chase 
plane availability out at the test facility so that we can get 
through this program and be flying supersonic at some point. 
All of us who fly two times a week I'm sure are very interested 
in this, and a low-boom supersonic demonstrator will be 
something that we will all--all Americans will use at some 
point.
    So my amendment is very clear. Just make sure that we have 
the operational and testing infrastructure there and the 
availability of the chase planes for the low-boom supersonic 
demonstrator. Thank you, Mr. Chair.
    Chairman Smith. Thank you, Mr. Knight. We may have a little 
bit of problem getting that on a bumper sticker because the 
most succinct description I can come up with is ``boom-less 
supersonic,'' but that that may not be bad if people know what 
we're talking about.
    I support the gentleman's amendment, appreciate his 
offering that. Is there anyone else who wishes to be heard on 
the amendment?
    The gentleman----
    Mr. Rohrabacher. Mr. Chairman?
    Chairman Smith. OK. Let me go to Mr. McNerney and then to 
the gentleman from California. Mr. McNerney.
    Mr. McNerney. I just wanted to ask the gentleman from 
California, most often when you see an amendment, it tells you 
where it goes in the bill. I don't see any references in here. 
Is that settled in some way?
    Mr. Knight. Yes, I believe that is settled. It'll go into--
--
    Chairman Smith. It'll be under the aeronautics title.
    Mr. Knight [continuing]. The aeronautics part of that.
    Chairman Smith. OK. We should have--thank you for that 
clarification. It will go under the aeronautics title. We'll--
--
    Mr. Knight. Yes.
    Chairman Smith. Without objection, we'll amend the 
amendment to make that clear.
    Mr. McNerney. OK. I yield back.
    Chairman Smith. OK. And who else wanted to be recognized? 
OK. The gentleman from California, Mr.----
    Mr. Rohrabacher. Mr. Knight, I'm very pleased that this 
amendment has been offered. A lot of times we shortchange the 
aeronautics end of all of this, and this I think is really 
significant in the fact that if America is going to be a--not 
just a space power but the No. 1 aviation and aeronautics power 
in the world and where we're going to sell our future aircraft, 
we need to have this type of fundamental research that's being 
done. So I commend my colleague for this, and future aerospace 
workers throughout the United States will thank him as well. 
God bless.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    If there's no further discussion, all in favor of the 
Knight amendment, say aye.
    Opposed, nay.
    The ayes have it and the amendment is agreed to.
    We are now going to proceed with the recorded vote that was 
postponed on the amendment offered by the gentleman from 
Colorado, Mr. Perlmutter. It's number 28. The ayes prevailed by 
voice vote, but a recorded vote was requested, and the clerk 
will call the roll.
    The Clerk. Mr. Smith?
    Chairman Smith. Aye.
    The Clerk. Mr. Smith votes aye.
    Mr. Lucas?
    Mr. Lucas. Aye.
    The Clerk. Mr. Lucas votes aye.
    Mr. Rohrabacher?
    Mr. Rohrabacher. Aye.
    The Clerk. Mr. Rohrabacher votes aye.
    Mr. Brooks?
    [No response.]
    The Clerk. Mr. Hultgren?
    Mr. Hultgren. Aye.
    The Clerk. Mr. Hultgren votes aye.
    Mr. Posey?
    [No response.]
    The Clerk. Mr. Massie?
    Mr. Massie. Aye.
    The Clerk. Mr. Massie votes aye.
    Mr. Bridenstine?
    [No response.]
    The Clerk. Mr. Weber?
    [No response.]
    The Clerk. Mr. Knight?
    Mr. Knight. Aye.
    The Clerk. Mr. Knight votes aye.
    Mr. Babin?
    Mr. Babin. Aye.
    The Clerk. Mr. Babin votes aye.
    Mrs. Comstock?
    Mrs. Comstock. Aye.
    The Clerk. Mr.--Mrs. Comstock votes aye.
    Mr. Loudermilk?
    [No response.]
    The Clerk. Mr. Abraham?
    Mr. Abraham. Aye.
    The Clerk. Mr. Abraham votes aye.
    Mr. Webster?
    Mr. Webster. Maybe.
    The Clerk. Mr. Webster votes aye?
    Mr. Webster. Yes.
    The Clerk. Mr. Webster votes yes.
    Mr. Banks?
    Mr. Banks. Nay.
    The Clerk. Mr. Banks votes nay.
    Mr. Biggs?
    Mr. Biggs. Nay.
    The Clerk. Mr. Biggs votes nay.
    Mr. Marshall?
    [No response.]
    The Clerk. Mr. Dunn?
    Mr. Dunn. Yes. Yes.
    The Clerk. Mr. Dunn votes aye.
    Mr. Higgins?
    Mr. Higgins. Nay.
    The Clerk. Mr. Higgins votes nay.
    Mr. Norman?
    Mr. Norman. No.
    The Clerk. Mr. Norman votes nay.
    Ms. Johnson?
    Ms. Johnson. Excuse me. Aye.
    The Clerk. Ms. Johnson votes aye.
    Ms. Lofgren?
    Ms. Lofgren. Yes.
    The Clerk. Ms. Lofgren votes aye.
    Mr. Lipinski?
    Mr. Lipinski. Aye.
    The Clerk. Mr. Lipinski votes aye.
    Ms. Bonamici?
    Ms. Bonamici. Aye.
    The Clerk. Ms. Bonamici votes aye.
    Mr. Bera?
    Mr. Bera. Yes.
    The Clerk. Mr. Bera votes aye.
    Ms. Esty?
    Ms. Esty. Aye.
    The Clerk. Ms. Esty votes aye.
    Mr. Veasey?
    Mr. Veasey. Aye.
    The Clerk. Mr. Veasey votes aye.
    Mr. Beyer?
    Mr. Beyer. Aye.
    The Clerk. Mr. Beyer votes aye.
    Ms. Rosen?
    Ms. Rosen. Aye.
    The Clerk. Ms. Rosen votes aye.
    Mr. McNerney?
    Mr. McNerney. Aye.
    The Clerk. Mr. McNerney votes aye.
    Mr. Perlmutter?
    Mr. Perlmutter. Aye.
    The Clerk. Mr. Perlmutter votes aye.
    Mr. Tonko?
    Mr. Tonko. Aye.
    The Clerk. Mr. Tonko votes aye.
    Mr. Foster?
    Mr. Foster. Aye.
    The Clerk. Mr. Foster votes aye.
    Mr. Takano?
    Mr. Takano. Aye.
    The Clerk. Mr. Takano votes aye.
    Ms. Hanabusa?
    Ms. Hanabusa. Aye.
    The Clerk. Ms. Hanabusa votes aye.
    Mr. Crist?
    Mr. Crist. Aye.
    The Clerk. Mr. Crist votes aye.
    Chairman Smith. The--before the clerk reports, the 
gentleman from Kentucky, Mr. Massie, is recognized.
    Mr. Massie. Mr. Chairman, how am I recorded?
    Chairman Smith. How is Mr. Massie recorded?
    The Clerk. Mr. Massie is recorded as voting aye.
    Mr. Massie. I'd like to be recorded as nay.
    The Clerk. Mr. Massie votes nay.
    Chairman Smith. The gentleman from Florida, Mr. Posey?
    Mr. Posey. Yes.
    Chairman Smith. Votes aye. OK. The clerk will report when 
she is ready.
    The Clerk. Mr. Chairman, 27 Members voted aye, 5 Members 
voted nay.
[GRAPHIC] [TIFF OMITTED] T5710.294

    Chairman Smith. The amendment--the ayes have it, and the 
amendment is agreed to.
    A reporting quorum being present, I move that the Committee 
on Science, Space, and Technology report H.R. 5503, as amended, 
to the House with the recommendation that the bill be approved.
    The question is on favorably reporting H.R. 5503 to the 
House, as amended.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Ms. Johnson. Mr. Chairman, could we have a recorded vote?
    Chairman Smith. A recorded vote has been requested, and the 
clerk will call the roll.
    The Clerk. Mr. Smith?
    Chairman Smith. Aye.
    The Clerk. Mr. Smith votes aye.
    Mr. Lucas?
    Mr. Lucas. Aye.
    The Clerk. Mr. Lucas votes aye.
    Mr. Rohrabacher?
    Mr. Rohrabacher. Aye.
    The Clerk. Mr. Rohrabacher votes aye.
    Mr. Brooks?
    [No response.]
    The Clerk. Mr. Hultgren?
    Mr. Hultgren. Aye.
    The Clerk. Mr. Hultgren votes aye.
    Mr. Posey?
    Mr. Posey. Aye.
    The Clerk. Mr. Posey votes aye.
    Mr. Massie?
    Mr. Massie. Aye.
    The Clerk. Mr. Massie votes aye.
    Mr. Bridenstine?
    [No response.]
    The Clerk. Mr. Weber?
    Mr. Weber. Aye.
    The Clerk. Mr. Weber votes aye.
    Mr. Knight?
    Mr. Knight. Aye.
    The Clerk. Mr. Knight votes aye.
    Mr. Babin?
    Mr. Babin. Aye.
    The Clerk. Mr. Babin votes aye.
    Mrs. Comstock?
    Mrs. Comstock. Aye.
    The Clerk. Mrs. Comstock votes aye.
    Mr. Loudermilk?
    [No response.]
    The Clerk. Mr. Abraham?
    Mr. Abraham. Aye.
    The Clerk. Mr. Abraham votes aye.
    Mr. Webster?
    Mr. Webster. Aye.
    The Clerk. Mr. Webster votes aye.
    Mr. Banks?
    Mr. Banks. Aye.
    The Clerk. Mr. Banks votes aye.
    Mr. Biggs?
    Mr. Biggs. Aye.
    The Clerk. Mr. Biggs votes aye.
    Mr. Marshall?
    [No response.]
    The Clerk. Mr. Dunn?
    Mr. Dunn. Aye.
    The Clerk. Mr. Dunn votes aye.
    Mr. Higgins?
    Mr. Higgins. Aye.
    The Clerk. Mr. Higgins votes aye.
    Mr. Norman?
    Mr. Norman. Aye.
    The Clerk. Mr. Norman votes aye.
    Ms. Johnson?
    Ms. Johnson. Aye.
    The Clerk. Ms. Johnson votes aye.
    Ms. Lofgren?
    Ms. Lofgren. No.
    The Clerk. Ms. Lofgren votes nay.
    Mr. Lipinski?
    Mr. Lipinski. Aye.
    The Clerk. Mr. Lipinski votes aye.
    Ms. Bonamici?
    Ms. Bonamici. Nay.
    The Clerk. Ms. Bonamici votes nay.
    Mr. Bera?
    Mr. Bera. Aye.
    The Clerk. Mr. Bera votes aye.
    Ms. Esty?
    Ms. Esty. Aye.
    The Clerk. Ms. Esty votes aye.
    Mr. Veasey?
    Mr. Veasey. Yes.
    The Clerk. Mr. Veasey votes aye.
    Mr. Beyer?
    Mr. Beyer. Nay.
    The Clerk. Mr. Beyer votes nay.
    Ms. Rosen?
    Ms. Rosen. Nay.
    The Clerk. Ms. Rosen votes nay.
    Mr. McNerney?
    Mr. McNerney. Aye.
    The Clerk. Mr. McNerney votes aye.
    Mr. Perlmutter?
    Mr. Perlmutter. Aye.
    The Clerk. Mr. Perlmutter votes aye.
    Mr. Tonko?
    Mr. Tonko. No.
    The Clerk. Mr. Tonko votes nay.
    Mr. Foster?
    Mr. Foster. Nay.
    The Clerk. Mr. Foster votes nay.
    Mr. Takano?
    Mr. Takano. No.
    The Clerk. Mr. Takano votes nay.
    Ms. Hanabusa?
    Ms. Hanabusa. Aye.
    The Clerk. Ms. Hanabusa votes aye.
    Mr. Crist?
    Mr. Crist. Aye.
    The Clerk. Mr. Crist votes aye.
    Chairman Smith. And the clerk will report.
    The Clerk. Mr. Chairman, 26 Members voted aye, 7 Members 
voted nay.
    Chairman Smith. The ayes have it, and the bill is ordered 
reported favorably.
[GRAPHIC] [TIFF OMITTED] T5710.295

    Without objection, the motion to reconsider is laid upon 
the table. H.R. 5503 is ordered reported to the House. I ask 
unanimous consent that staff be authorized to make any 
necessary technical and conforming changes. Without objection, 
so ordered.
    Before we adjourn, real quickly, I thank Members for their 
participation. We had a great turnout today. And I thank those 
who decided to vote aye in favor of this bipartisan bill, which 
I hope and expect will increase its prospects of being enacted. 
So I thank everyone for their participation regardless.
    If there's no further discussion, that completes our 
business, and this concludes the Science Committee markup. 
Without objection, the Committee stands adjourned, and Alden is 
going to come up here and hit the gavel for me.
    [Whereupon, at 12:21 p.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


        H.R. 5509, Amendment Roster, H.R. 5503, Amendment Roster

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                   PROCEEDINGS OF THE FULL COMMITTEE
                     MARKUPS: H.R. 5905, DEPARTMENT
                         OF ENERGY SCIENCE AND
                         INNOVATION ACT OF 2018;
                     H.R. 5907, NATIONAL INNOVATION
                       MODERNIZATION BY LABORATORY
                          EMPOWERMENT ACT; AND
                     H.R. 5906, ARPA-E ACT OF 2018

                              ----------                              


                        WEDNESDAY, MAY 23, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:36 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lamar 
Smith [Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recess at any time.
    Pursuant to Committee Rule II(e) and House Rule 
XI(2)(h)(4), the Chair announces that he may postpone roll call 
votes.
    Today we meet to consider H.R. 5905, the Department of 
Energy Science and Innovation Act of 2018; H.R. 5907, the 
National Innovation Modernization by Laboratory Empowerment 
Act; and H.R. 5906, the ARPA-E Act of 2018. I'll recognize 
myself for an opening statement.
    Today we consider these three energy bills. Together, they 
prioritize basic science research, modernize and increase the 
productivity of the DOE national labs, and enable the 
development of new technologies for the next generation.
    The first bill is H.R. 5905, the Department of Energy 
Science and Innovation Act of 2018, sponsored by Energy 
Subcommittee Chairman Randy Weber and Representative Zoe 
Lofgren. This legislation authorizes the basic research 
programs within the DOE Office of Science for fiscal years 2018 
and 2019. It includes research in basic energy sciences, 
advanced scientific computing, high-energy physics, biological 
and environmental research, fusion energy science, and nuclear 
physics. These basic research programs are the core mission of 
the Department and will lead to scientific discoveries that 
will maintain U.S. leadership in technology. The bill 
authorizes basic research programs in solar fuels, electricity 
storage, bioenergy research, exascale computing, and low-dose 
radiation. It also authorizes Office of Science funding for 
upgrades and construction of seven high-priority user 
facilities at DOE national labs. These infrastructure and 
program investments are crucial to ensuring America remains a 
leader in basic research and innovation.
    This legislation is the product of over 4 years of 
bipartisan work by the Science Committee to advance basic 
research and set clear science priorities for the Department of 
Energy. It builds on the achievements of the House-passed H.R. 
589, the Department of Energy Research and Innovation Act, and 
incorporates four bipartisan Science Committee infrastructure 
bills that passed the House in February.
    One example of the central missions authorized in the DOE 
Science and Innovation Act is the Exascale Computing program. 
Developing an exascale system is critical to enabling 
scientific discovery, strengthening national security, and 
promoting U.S. industrial competitiveness. Exascale computing 
will have real-world benefits for American industry and entice 
the best researchers in the world to conduct groundbreaking 
science at the DOE labs.
    In order to strengthen U.S. energy independence, this 
legislation also provides support for fusion energy sciences. 
When commercial fusion becomes available, it will revolutionize 
the energy market and could significantly reduce global carbon 
emissions.
    This bill authorizes funds for U.S. contributions to the 
International Thermonuclear Experimental Reactor, or ITER, 
project, a critical step to achieving commercial fusion energy.
    I again thank Representative Weber as well as 
Representative Lofgren for their longstanding support of basic 
research and investments in our world class science facilities 
at the DOE national labs.
    The next energy bill is H.R. 5907, the National Innovation 
Modernization by Laboratory Empowerment Act. This legislation 
directs the Secretary to provide signature authority to the 
directors of the national laboratories, allowing lab directors 
to make decisions on cooperative agreements with industry where 
the total cost is less than $1 million. This provides the labs 
with more flexibility and removes red tape that makes it 
difficult for businesses to partner with the labs. DOE national 
labs can provide the private sector with access to research 
infrastructure as they develop new technologies but a lengthy 
approval process can smother industry's interest. This bill 
gives the labs freedom to pursue agreements that will increase 
U.S. competitiveness and maintain our technology leadership.
    I want to thank this bill's sponsors, Representative Randy 
Hultgren and Representative Ed Perlmutter, for their efforts on 
this initiative.
    H.R. 5906, the ARPA-E Act of 2018, is our third and last 
energy bill today. H.R. 5906, sponsored by Science Committee 
Vice Chairman Frank Lucas and Ranking Member Eddie Bernice 
Johnson, establishes DOE policy for the Advanced Research 
Projects Agency-Energy program. This legislation expands the 
mission of ARPA-E, and allows the program to develop 
transformative science and technology solutions to address 
energy, environmental, economic, and national security 
challenges. Notably, this includes allowing ARPA-E to develop 
technologies to address the management, clean-up, and disposal 
of nuclear waste.
    This bill also maximizes the Department's resources. It 
requires ARPA-E to coordinate with other DOE programs and avoid 
duplication and ensures that ARPA-E grants go to innovative 
technologies that would not otherwise be funded by the private 
sector.
    Together, these three bills prioritize critical research 
and outline important reforms to DOE programs within Science 
Committee jurisdiction.

                  Prepared Statement of Chairman Smith

    Today we will consider three energy bills. Together, they 
prioritize basic science research, modernize and increase the 
productivity of the Department of Energy (DOE) national labs 
and enable the development of new technologies for the next 
generation.
    The first bill is H.R. 5905, the Department of Energy 
Science and Innovation Act of 2018, sponsored by Energy 
Subcommittee Chairman Randy Weber and Rep. Zoe Lofgren. This 
legislation authorizes the basic research programs within the 
DOE Office of Science for fiscal years 2018 and 2019. It 
includes research in basic energy sciences, advanced scientific 
computing, high energy physics, biological and environmental 
research, fusion energy science and nuclear physics.
    These basic research programs are the core mission of the 
department and will lead to scientific discoveries that will 
maintain U.S. leadership in technology.
    This bill authorizes basic research programs in solar 
fuels, electricity storage, bioenergy research, exascale 
computing and low dose radiation. It also authorizes Office of 
Science funding for upgrades and construction of seven high-
priority user facilities at DOE national labs. These 
infrastructure and program investments are crucial to ensuring 
America remains a leader in basic research and innovation.
    This legislation is the product of over four years of 
bipartisan work by the Science Committee to advance basic 
research and set clear science priorities for the Department of 
Energy.
    It builds on the achievements of the House passed H.R. 589, 
the Department of Energy Research and Innovation Act, and 
incorporates four bipartisan Science Committee infrastructure 
bills that passed the House in February.
    One example of the central missions authorized in the DOE 
Science and Innovation Act is the Exascale Computing Program. 
Developing an exascale system is critical to enabling 
scientific discovery, strengthening national security and 
promoting U.S. industrial competitiveness. Exascale computing 
will have real world benefits for American industry and entice 
the best researchers in the world to conduct groundbreaking 
science at the DOE labs.
    In order to strengthen U.S. energy independence, this 
legislation also provides support for fusion energy sciences. 
When commercial fusion becomes available, it will revolutionize 
the energy market and could significantly reduce global carbon 
emissions.
    This bill authorizes funds for U.S. contributions to the 
International Thermonuclear Experimental Reactor (ITER) 
project, a critical step to achieving commercial fusion energy.
    I again thank Rep. Weber as well as Rep. Lofgren for their 
long-standing support of basic research and investments in our 
world class science facilities at the DOE national labs.
    The next energy bill is H.R. 5907, the National Innovation 
Modernization by Laboratory Empowerment (NIMBLE) Act.
    This legislation directs the secretary to provide signature 
authority to the directors of the national laboratories, 
allowing lab directors to make decisions on cooperative 
agreements with industry where the total cost is less than $1 
million.
    This provides the labs with more flexibility and removes 
red tape that makes it difficult for businesses to partner with 
the labs. DOE national labs can provide the private sector with 
access to research infrastructure as they develop new 
technologies. But a lengthy approval process can smother 
industry's interest. This bill gives the labs freedom to pursue 
agreements that will increase U.S. competitiveness and maintain 
our technology leadership.
    I want to thank this bill's sponsors, Rep. Randy Hultgren 
and Rep. Ed Perlmutter, for their efforts on this initiative.
    H.R. 5906, the ARPA-E Act of 2018 is our third energy bill 
today.
    H.R. 5906, sponsored by Science Committee Vice Chairman 
Frank Lucas and Ranking Member Eddie Bernice Johnson, 
establishes DOE policy for the Advanced Research Projects 
Agency-Energy (ARPA-E) program.
    This legislation expands the mission of ARPA-E, and allows 
the program to develop transformative science and technology 
solutions to address energy, environmental, economic and 
national security challenges. Notably, this includes allowing 
ARPA-E to develop technologies to address the management, 
clean-up, and disposal of nuclear waste.
    This bill also maximizes the department's resources. It 
requires ARPA-E to coordinate with other DOE programs and avoid 
duplication and ensures that ARPA-E grants go to innovative 
technologies that would not otherwise be funded by the private 
sector.
    Together, these three bills prioritize critical research 
and outline important reforms to DOE programs within Science 
Committee jurisdiction.

    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, the gentlewoman from Texas, Ms. Johnson, is 
recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, for holding 
today's markup of three important bills that support science 
and innovation at Department of Energy. The bills that we are 
considering today reflect many bipartisan priorities, and I 
hope each of them will receive strong support from Committee 
Members on both sides of the aisle today.
    The first bill we are considering, the Department of Energy 
Science and Innovation Act of 2018, provides important 
statutory direction to one of the most critical agencies that 
this Committee oversees. The Department of Energy's Office of 
Science funds a wide range of research and development that has 
far-reaching impacts across DOE, the Federal Government, 
academia, and industry. Much of this language is derived from 
previous bipartisan, bicameral agreements that were included in 
H.R. 589, the House-passed Department of Energy Research and 
Innovation Act of 2017. As we await Senate action on that 
legislation, I support moving forward with additional language 
included in today's bill that would authorize upgrades to 
important Office of Science user facilities, direct DOE to 
provide sufficient support to maintain our commitments to the 
ITER international fusion project, and provide statutory 
authority to fund low-dose radiation research as well as a 
promising computational materials initiative at our national 
labs. I am also happy to see robust funding levels included in 
this bipartisan bill, particularly for the Biological and 
Environmental Research program, which supports critical 
research to reduce uncertainties and better understand the 
impacts of climate change.
    If signed into law, I want to make it clear that I expect 
the Department of Energy to appropriately fund and steward all 
of these activities, including important work in environmental 
systems modeling. However, amidst all of the positive aspects 
of this bill, I must say that I am a little disappointed in the 
process that we used to get to this markup. With a more 
deliberative and collaborative process, we certainly could have 
produced more comprehensive, well-vetted language that better 
reflects input from national laboratories, academic 
institutions, and industry on important projects and programs 
funded by the Office of Science. Such a process would have made 
a good bill better.
    The next bill we are considering is the National Innovation 
Modernization by Laboratory Empowerment Act. This bill would 
provide our national laboratories with the authority to 
directly enter into certain research agreements with the 
private sector as long as those activities align with the 
laboratories' strategic plans approved by the Department of 
Energy. This bill also includes appropriate safeguards to 
prevent waste, fraud, or abuse. I am happy to see us moving 
forward once again with this important policy change.
    The ARPA-E Act of 2018 is a welcome development from my 
perspective. I understand some of my Majority colleagues have 
not always been the biggest supporters of ARPA-E, but after 
years of successes and several independent assessments praising 
the agency's work, we are finally passing a bill out of this 
Committee reauthorizing this now-vital component of our energy 
innovation pipeline. This bill preserves the mission and form 
of ARPA-E, while enabling it to also consider funding projects 
or technologies that can address DOE'' monumental and 
longstanding challenge of environmental cleanup at the legacy 
sites of the Manhattan Project.
    It also includes language from a bipartisan ARPA-E 
Reauthorization Act that I introduced last year, which would 
ensure that sensitive business information collected by the 
agency remains protected. This will enable even greater private 
sector engagement in its programs.
    ARPA-E projects have attracted more than $2.6 billion in 
private-sector follow-on funding. Seventy-one projects have 
formed new companies, and 109 have gone on to partner with 
other government agencies to further their research.
    I want to thank you, Mr. Chairman and Congressman Lucas, 
for embracing ARPA-E's innovative model and joining me in 
supporting its reauthorization.
    I thank you, and I yield back.

                   Prepared Statement of Ms. Johnson

    Thank you, Chairman Smith, for holding today's markup of 
three important bills that support science and innovation at 
DOE. The bills that we are considering today reflect many 
bipartisan priorities and I hope each of them will receive 
strong support from Committee Members on both sides of the 
aisle today. The first bill we are considering, the Department 
of Energy Science and Innovation Act of 2018 provides important 
statutory direction to one of the most critical agencies that 
this Committee oversees. The Department of Energy's Office of 
Science funds a wide-range of research and development that has 
far-reaching impacts across DOE, the federal government, 
academia, and industry. Much of this language is derived from 
previous bipartisan, bicameral agreements that were included in 
H.R. 589, the House-passed Department of Energy Research and 
Innovation Act of 2017.
    As we await Senate action on that legislation, I support 
moving forward with additional language included in today's 
bill that would authorize upgrades to important Office of 
Science user facilities, direct DOE to provide sufficient 
support to maintain our commitments to the ITER international 
fusion project, and provide statutory authority to fund low-
dose radiation research as well as a promising computational 
materials initiative at our national labs.
    I am also happy to see robust funding levels included in 
this bipartisan bill, particularly for the Biological and 
Environmental Research program, which supports critical 
research to reduce uncertainties and better understand the 
impacts of climate change. If signed into law, I want to make 
it clear that I expect the Department of Energy to 
appropriately fund and steward all of these activities, 
including important work in environmental systems modeling.
    However, amidst all the positive aspects of this bill, I 
must say that I am a little disappointed in the process that we 
used to get to this markup. With a more deliberative and 
collaborative process, we certainly could have produced more 
comprehensive, well-vetted language that better reflects input 
from national laboratories, academic institutions, and industry 
on important projects and programs funded by the Office of 
Science. Such a process would have made a good bill better.
    The next bill we are considering is the National Innovation 
Modernization by Laboratory Empowerment Act. This bill would 
provide our national laboratories with the authority to 
directly enter into certain research agreements with the 
private sector as long as those activities align with the 
laboratories' strategic plans approved by the Department of 
Energy. This bill also includes appropriate safeguards to 
prevent waste, fraud, or abuse. I am happy to see us moving 
forward once again with this important policy change.
    The ARPA-E Act of 2018 is a welcome development from my 
perspective. I understand some of my Majority colleagues have 
not always been the biggest supporters of ARPA-E, but after 
years of successes and several independent assessments praising 
the agency's work, we are finally passing a bill out of this 
Committee reauthorizing this now-vital component of our energy 
innovation pipeline.
    This bill preserves the mission and form of ARPA-E, while 
enabling it to also consider funding projects or technologies 
that can address DOE's monumental and longstanding challenge of 
environmental cleanup at the legacy sites of the Manhattan 
Project. It also includes language from a bipartisan ARPA-E 
Reauthorization Act that I introduced last year which would 
ensure that sensitive business information collected by the 
agency remains protected. This will enable even greater private 
sector engagement in its programs.
    ARPA-E projects have attracted more than 2.6 billion 
dollars in private sector follow-on funding. 71 projects have 
formed new companies and 109 have gone on to partner with other 
government agencies to further their research. I want to thank 
the Chairman and Congressman Lucas for embracing ARPA-E's 
innovative model and joining me in supporting its 
reauthorization.
    Thank you Mr. Chairman, I yield back.

    Chairman Smith. Thank you, Ms. Johnson.

    H.R. 5905

    Chairman Smith. Pursuant to notice, I now call up H.R. 
5905, the Department of Energy Science and Innovation Act of 
2018, and the clerk will report the bill.
    The Clerk. H.R. 5905, a bill to authorize basic research 
programs in the Department of Energy Office of Science for 
fiscal years 2018 and 2019.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    I'll recognize the bill's sponsor, the gentleman from 
Texas, the Chairman of the Energy Committee, Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman, for the opportunity to 
speak on behalf of my bill, H.R. 5905, the Department of Energy 
Science and Innovation Act of 2018.
    This legislation authorizes the Department of Energy's 
Office of Science programs for fiscal years 2018 and 2019. It 
also authorizes upgrades and new construction of major user 
facilities at Department of Energy national labs and 
universities.
    Over the past 4 years, the Energy Subcommittee has held 
hearings, met with stakeholders, and worked extensively with 
our colleagues to draft the language included in today's 
legislation. We spoke with lab directors, DOE officials, 
academia, and industry about the right priorities for the 
Office of Science. The result was a series of bills that the 
Science Committee has advanced this Congress, including H.R. 
589, H.R. 4376, H.R. 4377, and H.R. 4675.
    The legislation we will consider today combines these bills 
to form a comprehensive, bipartisan authorization of the 
Department's basic science research. This includes over $6 
billion in fundamental research and discovery science, largely 
performed at DOE national laboratories and user facilities 
around the country.
    Two weeks ago, I, along with several of my Science 
Committee colleagues, had the opportunity to visit a number of 
these facilities at Argonne National Laboratory and Fermi 
National Accelerator Laboratory. We got to see firsthand the 
incredible work that these men and women do not only for our 
country but for the world. And I have to agree with Secretary 
Perry when he testified before this Committee earlier this 
month that these labs are, and I quote, ``incubators of 
innovation, and they are among America's greatest treasures.'' 
High-energy physics, advanced scientific computing, focusing on 
basic and fundamental research at our national labs, these all 
provide the best opportunity for innovation and economic 
growth. The DOE Science and Innovation Act authorizes funding 
for critical infrastructure projects at these national labs.
    In the Basic Energy Sciences program, it authorizes 
upgrades to world-leading x-ray light source facilities around 
the country, like the Advanced Photon Source at Argonne 
National Laboratory, and the LINAC Coherent Light Source at 
SLAC National Accelerator Laboratory. These facilities give 
American scientists the tools they need to study the structure 
and behavior of physical and biological materials, enabling 
innovation in many fields, including creating new materials for 
industry and developing new pharmaceuticals.
    This legislation also authorizes the construction of new 
DOE research facilities in nuclear physics and high-energy 
physics. This includes construction of the Facility for Rare 
Isotope Beams, or FRIB, at Michigan State University, which 
will enable critical nuclear physics research across a wide 
breadth of fields, ranging from astrophysics to medicine. It'll 
also the construction of the Long-Baseline Neutrino Facility at 
Fermilab, which is an internationally coordinated project 
designed to build the world's highest intensity neutrino beam. 
The research at this facility will help shed light on the 
universe and its origins.
    This bill also specifically authorizes basic research in 
fields that are critical to U.S. dominance in science and 
technology. It authorizes research in exascale computing, in 
electricity storage, and fusion energy sciences. It establishes 
a DOE Exascale Computing program, a low-dose radiation research 
program, and programs for managing our Energy Frontier Research 
Centers and Bioenergy Research Centers and ensures that we 
fulfill our commitments to the ITER project for fiscal years 
2018 as well as 2019.
    Significant investments in basic science research by 
foreign countries like China threaten America's global standing 
as the leader in scientific knowledge. To maintain our 
competitive advantage as the world leader in science, we must 
continue to support this research and the research 
infrastructure that will lead to next-generation energy 
technologies.
    H.R. 5905 is a commonsense bill that will maintain American 
leadership in science.
    I want to thank Chairman Smith, Representative Lofgren, 
Vice Chairman Lucas, and many of my Science Committee 
colleagues for cosponsoring this important legislation. I'm 
grateful for the opportunity to work with the Members of this 
Committee to guide research that will help America compete 
around the world.
    I encourage my colleagues to support this bill, and I yield 
back the balance of my time.

                    Prepared Statement of Mr. Weber

    Thank you Mr. Chairman for the opportunity to speak on 
behalf of my bill, H.R. 5905, the Department of Energy Science 
and Innovation Act of 2018.
    This legislation authorizes the Department of Energy's 
Office of Science programs for fiscal years 2018 and 2019. It 
also authorizes upgrades and new construction of major user 
facilities at Department of Energy (DOE) national labs and 
universities.
    Over the past four years, the Energy Subcommittee has held 
hearings, met with stakeholders, and worked extensively with 
our colleagues to draft the language included in today's 
legislation. We spoke with lab directors, DOE officials, 
academia and industry about the right priorities for the Office 
of Science.
    The result was a series of bills that the Science Committee 
has advanced this Congress, including H.R. 589, H.R. 4376, H.R. 
4377 and H.R. 4675.
    The legislation we will consider today combines these bills 
to form a comprehensive, bipartisan authorization of the 
department's basic science research. This includes over $6 
billion in fundamental research and discovery science, largely 
performed at DOE national laboratories and user facilities 
around the country.
    Two weeks ago, I, along with several of my Science 
Committee colleagues, had the opportunity to visit a number of 
these facilities at Argonne National Laboratory and Fermi 
National Accelerator Laboratory. We got to see first-hand the 
incredible work that these men and women do for our country and 
for the world. I have to agree with Secretary Perry when he 
testified before this committee earlier this month that these 
labs are ``incubators of innovation, and they are among 
America's greatest treasures.''
    From high energy physics to advanced scientific computing, 
focusing on basic and fundamental research at our national labs 
provides the best opportunity for innovation and economic 
growth.
    The DOE Science and Innovation Act authorizes funding for 
critical infrastructure projects at these national labs. In the 
Basic Energy Sciences program, it authorizes upgrades to world-
leading x-ray light source facilities around the country, like 
the
    Advanced Photon Source at Argonne National Laboratory, and 
the LINAC Coherent Light Source at SLAC National Accelerator 
Laboratory.
    These facilities give American scientists the tools they 
need to study the structure and behavior of physical and 
biological materials, enabling innovation in many fields, 
including creating new materials for industry and developing 
new pharmaceuticals.
    This legislation also authorizes the construction of new 
DOE research facilities in nuclear physics and high energy 
physics.
    This includes construction of the Facility for Rare Isotope 
Beams (FRIB) at Michigan State University, which will enable 
critical nuclear physics research across a wide breadth of 
fields, ranging from astrophysics to medicine, and the 
construction of the Long-Baseline Neutrino Facility at 
Fermilab, an internationally coordinated project designed to 
build the world's highest intensity neutrino beam. The research 
at this facility will help shed light on the universe and its 
origins.
    This bill also specifically authorizes basic research in 
fields that are critical to U.S. dominance in science and 
technology. It authorizes research in exascale computing, 
electricity storage and fusion energy sciences. It establishes 
a DOE Exascale Computing Program, a low dose radiation research 
program, and programs for managing our Energy Frontier Research 
Centers and Bioenergy Research Centers and ensures that we 
fulfill our commitments to the ITER project for fiscal years 
2018 and 2019.
    Significant investments in basic science research by 
foreign countries, like China, threaten America's global 
standing as the leader in scientific knowledge. To maintain our 
competitive advantage as a world leader in science, we must 
continue to support the research, and the research 
infrastructure, that will lead to next generation energy 
technologies.
    H.R. 5905 is a common sense bill that will maintain 
American leadership in science. I want to thank Chairman Smith, 
Rep. Lofgren, Vice Chairman Lucas and many of my Science 
Committee colleagues for cosponsoring this important 
legislation. I'm grateful for the opportunity to work with the 
members of this committee to guide research that will help 
America compete around the world.
    I encourage my colleagues to support this bill and I yield 
back the balance of my time.

    Chairman Smith. Thank you, Mr. Weber, and I'm going to go 
first to the gentleman from Illinois, Mr. Foster, and then to 
the gentleman from New York, Mr. Tonko.
    Mr. Foster. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Smith. The gentleman's recognized for 5 minutes.
    Mr. Foster. Thank you again, Chairman Smith and Ranking 
Member Johnson, for holding this markup and for allowing me to 
say a few words.
    I'm pleased to see that this comprehensive bill authorizing 
funding for the Department of Energy Office of Science includes 
two important projects: Argonne's Advanced Photon Source and 
Fermilab's Long-Baseline Neutrino Facility. I especially want 
to thank my colleague, Mr. Weber, for sponsoring this important 
legislation, and also for leading a delegation of Science 
Committee Members to visit Fermilab and Argonne a few weeks 
ago, and several of my colleagues on this Committee saw 
firsthand on that congressional delegation trip the cutting-
edge science conducted at Argonne and at the user facilities 
they support are critical to U.S. industry and academic 
science.
    Argonne's Advanced Photon Source, or APS, supports 
discovery science and market-driven research on materials, 
chemistry, physics, and biology. The APS is a user facility for 
thousands of academic national lab and industry scientists 
across the country. The APS has allowed scientists to visualize 
everything from nanoscale materials to high-speed liquid jets. 
The APS also facilitates development of products from solar 
shingles to drugs to treat HIV. The upgrade authorized in this 
bill will leverage existing infrastructure to create a world-
leading facility at substantially less cost than a new 
facility. This upgrade will enable the APS to become the 
ultimate 3D microscope, opening up scientific frontiers at the 
nanoscale that are completely inaccessible today. Without it, 
the United States will lose its global leadership in x-ray 
science.
    The second critical project that this bill authorizes is 
the LBNF DUNE project, which is critical to maintaining U.S. 
leadership in high-energy physics and fundamental science. The 
Long-Baseline Neutrino Facility at Fermilab in Batavia, 
Illinois, will power the Deep Underground Neutrino Experiment 
at the Sanford Underground Research Facility in Lead, South 
Dakota. LBNF DUNE will bring us great understanding of 
neutrinos, the most abundant and mysterious matter particles in 
the universe. LBNF DUNE will also be the first major 
international mega science project to be hosted by the 
Department of Energy in the United States. The LBNF DUNE 
international collaboration involves 1,000 scientists and 
engineers from 30 countries around the world.
    On the congressional delegation tour of Fermilab earlier 
this month, several of my colleagues on the Science Committee 
were able to personally see some of the high-tech leading-edge 
work being done in high-energy physics and to meet many of my 
old friends from Argonne and Fermilab, where I worked for over 
20 years. The work at these national labs is critical to 
maintaining our U.S. scientific leadership, and in fact, 
earlier this year I was proud to personally escort Secretary 
Perry on his visits to both Argonne and Fermilab and was 
thrilled to see his genuine enthusiasm for the science that is 
done there. This bill takes the important step of authorizing 
the funding for these projects in addition to providing 
comprehensive authorization language for the DOE Office of 
Science.
    Science requires long-term and sustained funding in order 
to plan ahead and ensure opportunities are not missed, 
especially for large-scale, long-term projects such as these. 
This bill is an----
    [Audio malfunction in hearing room]
    Ms. Lofgren [continuing]. Like Lawrence Berkeley and SLAC 
near my district but also excellent facilities across the 
United States. They are Centers of Innovation in many subjects, 
and especially for energy, used by scientists, researchers, 
students, even the private sector. There's a broad spectrum of 
topics where we see advances.
    Now, it's no secret to Members of this Committee that I've 
been a longtime supporter and advocate for fusion energy 
research. A fusion has such a potential to provide abundant, 
reliable, emission-free, and practically limitless energy that 
would satisfy our electricity needs for the foreseeable future. 
It's a huge challenge. We have achieved fusion but not ignition 
so this is basically a research project at this point, but the 
potential benefits are so enormous for our world that it's 
important that the research be continued, and that's an 
additional reason why I am so pleased to be the Democratic 
cosponsor of this bill. In particular, I'm happy to see that it 
would establish an inertial fusion energy program that's 
consistent with the 2013 National Academies report and include 
inertial and other innovative fusion concepts in the 
development of a comprehensive strategic plan for fusion, also 
has been mentioned, sufficient support for both the U.S. 
commitments to ITER's international fusion project as well as 
the non-ITER portions of the fusion budget.
    I want to thank Mr. Weber for introducing this bill and 
just say I'm proud to be the lead Democratic sponsor of this 
bill, and I thank both Mr. Weber and the Chairman for 
recognizing me.
    I yield back.
    Chairman Smith. Thank you, Ms. Lofgren.
    And the gentleman from New York, Mr. Tonko, is recognized.
    Mr. Tonko. Thank you, Mr. Chair. I move to strike the last 
word.
    Chairman Smith. The gentleman is recognized for 5 minutes.
    Mr. Tonko. Thank you, and thank you, Mr. Chair and Ranking 
Member Johnson, for this bill package that speaks significantly 
to our future, I believe.
    Before I offer my comments, I would that I could recognize 
Cheyenne, who is our rep from the foster family program that's 
shadowing many of us today, and I thank Cheyenne for being 
here.
    The only way America will meet our greatest energy 
challenges is with smart, visionary investments in research and 
development. Our Federal Government has an exemplary record of 
partnering with universities and private-sector leaders to 
drive innovation including critical smartphone technologies and 
the framework for the internet.
    Groundbreaking advances by America's private sector and 
university communities are propelled and even made possible by 
a public R&D portfolio that covers the spectrum from basic 
science to technology development, testing and deployment. 
Ongoing support of these smart investments is essential to 
driving down costs and improving performance of advanced and 
everyday energy technologies.
    I am relieved to be working on a bipartisan basis to move 
this legislation forward to support American science and energy 
innovation. The Office of Science at DOE supports critical work 
that is producing major breakthroughs in science, in energy 
innovation, and, indeed, in national security.
    ARPA-E continues to play a critical role in expanding our 
portfolio of innovation programs and lowering risk on projects 
that advance the horizon of our discovery, a vial pathfinding 
tool for our future economy and national security that simply 
would not be supported by the private sector. Failing to 
adequately support and fund these critical initiatives will 
undermine development of our next generation of scientists and 
engineers and the transformative achievements they will be 
responsible for, and our Nation will future lose its standing 
as a world leader in energy innovation. We must press forward 
and innovate.
    Supporting such innovation must also mean support for 
adequate funding. I hope that this Committee continues to 
invest in America's future and redouble our bipartisan 
commitment to this critical innovation.
    And with that, Mr. Chair, I yield back.
    Chairman Smith. Thank you, Mr. Tonko.
    The only amendment to H.R. 5905 on the roster that I'm 
aware of is a Manager's Amendment offered by the gentleman from 
Texas, Mr. Weber, and he's recognized for that purpose.
    Mr. Weber. Thank you, Mr. Chairman. I have an amendment at 
the desk.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment to Department of Energy and Science 
Innovation Act of 2018 offered by Mr. Weber of Texas, amendment 
#019.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
his amendment.
    Mr. Weber. Thank you, Chairman.
    This amendment provides for technical changes to the 
legislation. I do appreciate the opportunity to work with the 
Minority and to identify these changes prior to today's markup 
and for their support of this important legislation authorizing 
the Department of Energy Office of Science. I encourage my 
colleagues to support the amendment, and with that, Mr. 
Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Weber, and the Ranking 
Member is recognized.
    Ms. Johnson. Thank you, Mr. Chairman. I'd like to strike 
the last word.
    Chairman Smith. The gentlewoman is recognized for 5 
minutes.
    Ms. Johnson. Thank you very much. I support this Manager's 
Amendment, which makes some positive changes to the bill.
    I'd also like to take a moment to thank both Chairman Smith 
and Subcommittee Chairman Weber and their staffs for working 
with us on this amendment. It's a good amendment to a good 
bill, and I urge my colleagues to support it.
    I yield back.
    Chairman Smith. Thank you, Ms. Johnson.
    If there's no further discussion on the amendment, the 
question is on agreeing to the amendment offered by Mr. Weber.
    All in favor, say aye.
    Those opposed, say no.
    The ayes have it, and the amendment is agreed to.
    If there are no further amendments, a reporting quorum 
being present, I move that the Committee on Science, Space, and 
Technology report H.R. 5905 to the House as amended with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 5905 to the 
House as amended.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the Motion to Reconsider is laid upon 
the table. H.R. 5905 is ordered reported to the House, and I 
ask unanimous consent that staff be authorized to make any 
necessary technical and conforming changes. Without objection, 
so ordered.

    H.R. 5907

    Chairman Smith. Pursuant to notice, I now call up H.R. 
5907, the National Innovation Modernization by Laboratory 
Empowerment Act, and the clerk will report the bill.
    The Clerk. H.R. 5907, a bill to provide Directors of the 
National Laboratories signature authority for certain 
agreements, and for other purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    Chairman Smith. I'll recognize the bill's sponsor, Mr. 
Hultgren, for his opening statement.
    Mr. Hultgren. Thank you, Chairman, for this markup today 
and for all your help on this. I'd also like to thank the 
distinguished Chairman of the Energy Subcommittee for his help 
on the underlying bill. I'd also like to thank my colleague 
from Colorado, Mr. Perlmutter, for his help on this bipartisan 
legislation that would help our national labs better work with 
all businesses, but especially small businesses, by being more 
nimble and being able to quickly react to the needs of the 
private sector working with the labs.
    In the previous Congress, this House passed legislation I 
introduced with the gentleman from Colorado, which would do a 
number of things to modernize the national laboratories, 
including the provision we have introduced as a standalone 
today. In the 113th Congress, this House passed similar 
legislation without opposition.
    I've had the opportunity to visit a number of our national 
laboratories, and the thing they all have in common is the 
unique expertise they house and the world-leading instruments 
they maintain. They truly are the crown jewel in our research 
ecosystem, and this legislation would make it easier to access 
the labs for the general public.
    One of the primary issues I have heard about, with the 
public trying to work with our laboratories, is the time it 
takes for many agreements to be worked out, often taking months 
after laboratory approval before final sign-off from the 
Department. Make no mistake: I believe oversight of our 
national labs by the Department is vital, and the labs must be 
aligned under the mission of the Department, but I do believe 
there should be some level of trust given to the labs to enter 
into smaller agreements. With this legislation, signature 
authority for cooperative research and development agreements, 
work-for-other agreements, and other agreements determined 
appropriate by DOE would be given to the labs so long as they 
totaled less than $1 million. With the increased reporting 
requirements for these agreements, I believe this strikes the 
proper balance for oversight with the Department and the 
intentions of Congress in creating the government-owned, 
contractor-operated model of the national labs.
    I'm grateful for the Secretary at our recent hearing 
signaling his willingness to work with this idea, and I believe 
it fits with the Administration's priorities in removing red 
tape where it's not needed and freeing the private sector up to 
innovate and bring new ideas to market.
    So again, thank you, Chairman. I want to thank also the 
gentleman from Colorado and all of my colleagues on the 
Committee for their support, and I urge passage of this 
important legislation.
    With that, I yield back.

                   Prepared Statement of Mr. Hultgren

    Thank you Chairman Smith for this markup today. And I would 
like to thank the distinguished chairman of the Energy 
Subcommittee for his help on the underlying bill.
    I'd also like to thank my colleague from Colorado, Mr. 
Perlmutter, for his help on this bipartisan legislation that 
would help our national labs better work with all businesses-
but especially small businesses-by being more nimble and 
quickly react to the needs of the private sector working with 
the labs.
    In the previous Congress, this House passed legislation I 
introduced with the gentleman from Colorado which would do a 
number of things to modernize the national laboratories, 
including the provision we have introduced as a standalone 
today.
    In the 113th Congress, this House passed similar 
legislation without opposition.
    I've had the opportunity to visit a number of our national 
laboratories, and the thing they all have in common is the 
unique expertise they house and the world-leading instruments 
they maintain.
    They truly are the crown jewel in our research ecosystem, 
and this legislation would make it easier to access the labs 
for the general public.
    One of the primary issues I have heard about, with the 
public trying to work with our laboratories, is the time it 
takes for many agreements to be worked out, often taking months 
after laboratory approval before final sign-off from the 
department.
    Make no mistake, I believe oversight of our national labs 
by the department is vital, and the labs must be aligned under 
the mission of the department, but I do believe there should be 
some level of trust given to the labs to enter into smaller 
agreements.
    With this legislation, signature authority for cooperative 
research and development agreements, work-for-other agreements 
and other agreements determined appropriate by DOE, would be 
given to the labs so long as they totaled less than $1 million.
    With the increased reporting requirements for these 
agreements, I believe this strikes the proper balance for 
oversight with the department and the intentions of Congress in 
creating the government-owned, contractor-operated model of the 
national labs.
    I am grateful for the secretary at our recent hearing 
signaling his willingness to work with this idea, and I believe 
it fits with the administration's priorities in removing red-
tape where it is not needed and freeing the private sector up 
to innovate and bring new ideas to market.
    So again, I thank the chairman, the gentleman from Colorado 
and all of my colleagues on the committee for their support, 
and I urge passage of this important legislation.

    Chairman Smith. Thank you, Mr. Hultgren. I appreciate that.
    And the gentleman from Colorado, Mr. Perlmutter, is 
recognized.
    Mr. Perlmutter. Thank you, Mr. Chairman, and thank you, Mr. 
Hultgren. I was surprised at the gentleman from Illinois that 
you didn't talk about any of your labs or the universities of 
Illinois, but Dr. Foster took care of that, so I think you're 
good.
    But I appreciate the gentleman for bringing this bill. It 
does give the opportunity to the directors of the labs to have 
authority and some discretion in dealing with contracts and 
agreements that are a million dollars or less. That will allow 
the labs to enter into these agreements in a much quicker basis 
but it doesn't relieve us of oversight, doesn't relieve the 
labs of auditing trails and appropriate accounting for these 
kinds of things but it does allow them to enter into contracts 
on a much quicker basis.
    So I think this is a good bill. It was part of the overall 
Modernization of our Laboratories Act that Mr. Hultgren and I 
sponsored earlier. This piece, I think, should move very 
quickly through the process, and as this Committee knows, I 
represent Golden, Colorado, and the National Renewable Energy 
Lab. NREL is the premiere, energy efficiency and renewable 
energy lab in the world, and for more than 40 years, NREL has 
led the charge in research and design of renewable-energy 
products directly affecting the way we utilize and secure 
American energy.
    This bill would allow that director of that laboratory to 
enter into contracts of a million dollars or less without going 
through a whole bunch of levels of approval. Obviously over 
that, then the approval process kicks in but the auditing 
process to make sure that there isn't any funny business will 
always be there. So this gives us an opportunity to be nimble, 
as the title to the bill would suggest. It gives the 
opportunity to have discretion within our directors, who are 
all very accomplished individuals and will allow us to move 
quickly in a very fast field that is competitive all around the 
world.
    So I thank the gentleman from Illinois for bringing this 
bill and allowing me to cosponsor with him.
    I yield back.
    Chairman Smith. Thank you, Mr. Perlmutter.
    If there are no amendments, a reporting quorum being 
present, I move that the Committee on Science, Space, and 
Technology report H.R. 5907 to the House with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 5907 to the 
House.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the Motion to Reconsider is laid upon 
the table, and H.R. 5907 is ordered reported to the House.

    H.R. 5906

    Chairman Smith. Now, pursuant to notice, I now call up H.R. 
5906, the ARPA-Act of 2018, and the clerk will report the bill.
    The Clerk. H.R. 5906, a bill to amend the America COMPETES 
Act to establish Department of Energy policy for Advanced 
Research Projects Agency-Energy, and for other purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    Chairman Smith. And the bill's sponsor, the gentleman from 
Oklahoma, Mr. Lucas, is recognized for his opening statement.
    Mr. Lucas. Thank you, Mr. Chairman, for the opportunity to 
speak on behalf of this important legislation.
    The ARPA-E Act of 2018 requires the Department of Energy to 
refocus ARPA-E toward developing transformative science and 
technology solutions to address energy, environment, economic, 
and national security challenges.
    ARPA-E was created to ensure that the U.S. energy sector 
maintained a competitive edge in developing energy 
technologies. The program was established to help develop high-
potential, high-impact energy technologies that were too early 
stage to attract private-sector investment. ARPA-E was designed 
to provide finite research and development funding for a 
limited time, with the intention to have quick, notable impact 
on the development of new energy technologies. In order to 
accomplish this, ARPA-E was given a unique management 
structure, with flexibility start and stop research projects 
that are no longer achieving individual goals, expedited hiring 
and firing authority to make sure ARPA-E staff could adequately 
select and support projects, and the tools to identify market 
challenges that could affect the advancement in project 
technologies.
    However, there are a number of issues that have made ARPA-E 
controversial over the years. The first is the worry this is 
just more of the same from the Department of Energy. After all, 
with the Energy Efficiency and Renewable Energy program funded 
at over $2.3 billion, why did we need another clean energy 
program? Second, we've heard concerns over the years that ARPA-
E wasn't meeting its intended goal--to fund the kind of 
technologies that are so innovative they would never attract 
private-sector investment--but was instead providing funding to 
big companies with access to market capital, or funding 
research that was already underway in other Federal agencies, 
or in the private sector. I believe that while these are valid 
concerns, ARPA-E is a program that can and has had tremendous 
impact on the development of new energy technologies.
    Over the 10-years after its establishment, the bill we will 
consider today will both address these concerns, and enable 
ARPA-E to apply its innovative approach to a broader set of 
technology challenges.
    The reforms in this legislation will expand the mission of 
ARPA-E to include the full DOE mission, and empower the agency 
to promote science and technology-driven solutions to DOE's 
broad mission goals. Following the mission of the Department, 
the ARPA-E Act of 2018 will allow the agency to solve big 
challenges, like nuclear waste management and cleanup, reducing 
the environmental impact of energy production, and improving 
the reliability, resiliency, and security of the electric grid.
    The bill also provides the Secretary with flexibility to 
identify additional challenges for ARPA-E to address within the 
core mission of the Department. The ARPA-E Act also takes 
important steps to prevent the duplication of research across 
DOE and to require applicants to indicate that they have 
attempted to find private-sector financing for a particular 
technology. This good-governance provision ensures limited 
taxpayer dollars are spent on the most innovative and 
transformative technologies, not in competition with the 
private sector.
    With the right mission goals and management, I believe 
ARPA-E's innovative approach can build on the basic science and 
early stage research at the Department, and help fast-track new 
technologies that will grow our economy.
    Once again, I'd like to thank Chairman Smith for supporting 
this legislation. I'd also to thank Ranking Member Johnson for 
cosponsoring this bipartisan bill. I encourage my colleagues to 
support the bill, and I yield back the balance of my time, Mr. 
Chairman.

                    Prepared Statement of Mr. Lucas

    Thank you, Chairman Smith, for the opportunity to speak on 
behalf of this important legislation.
    The ARPA-E Act of 2018 requires the Department of Energy 
(DOE) to refocus ARPA-E towards developing transformative 
science and technology solutions to address energy, 
environment, economic and national security challenges.
    ARPA-E was created to ensure the U.S. energy sector 
maintained a competitive in developing emerging energy 
technologies. The program was established to help develop 
``high-potential, high-impact energy technologies'' that were 
too early stage to attract private sector investment.
    ARPA-E was designed to provide finite research and 
development funding for a limited time, with the intention to 
have quick, notable impact on the development of new energy 
technologies. In order to accomplish this goal, ARPA-E was 
given a unique management structure, with flexibility start and 
stop research projects that are no longer achieving individual 
goals, expedited hiring and firing authority to make sure ARPA-
E staff could adequately select and support projects, and the 
tools to identify market challenges that could affect the 
advancement in project technologies.
    However, there are a number of issues that have made ARPA-E 
controversial over the years. The first is the worry this is 
just more of the same from the Department of Energy. After all, 
with the Energy Efficiency and Renewable Energy program funded 
at over $2.3 billion, why did we need another clean energy 
program?
    Second, we've heard concerns over the years that ARPA-E 
wasn't meeting its intended goal-to fund the kind of 
technologies that are so innovative they would never attract 
private sector investment-but was instead providing funding to 
big companies with access to market capital, or funding 
research that was already underway in other federal agencies, 
or in the private sector.
    I believe that while these are valid concerns, ARPA-E is a 
program that can and has had tremendous impact on the 
development of new energy technologies. Over ten years after 
its establishment, the bill we will consider today will both 
address these concerns, and enable ARPA-E to apply its 
innovative approach to a broader set of technology challenges.
    This legislation will expand the mission of ARPA-E to 
include the full DOE mission, and empower the agency to promote 
science and technology driven solutions to DOE's broad mission 
goals.
    Following the mission of the department, the ARPA-E Act of 
2018 will allow the agency to solve big challenges, like 
nuclear waste management and clean-up, reducing the 
environmental impact of energy production, and improving the 
reliability, resiliency and security of the electric grid.
    The bill also provides the secretary with the flexibility 
to identify additional challenges for ARPA-E to address within 
the core mission of the department.
    The ARPA-E Act also takes important steps to prevent the 
duplication of research across DOE and to require applicants to 
indicate that they have attempted to find private sector 
financing for a particular technology.
    This good governance provision ensures limited taxpayer 
dollars are spent on the most innovative and transformative 
technologies, not in competition with the private sector.
    With the right mission goals and management, I believe 
ARPA-E's innovative approach can build on the basic science and 
early-stage research at the department, and help fast track new 
technologies that will grow our economy.
    Once again, I would like to thank Chairman Smith for 
supporting this important legislation. I also want to thank 
Ranking Member Johnson for cosponsoring this bipartisan 
legislation. I encourage my colleagues to support this bill, 
and I yield back the balance of my time.

    Chairman Smith. Thank you, Mr. Lucas.
    And the gentlewoman from Texas, the Ranking Member, is 
recognized for her comments.
    Ms. Johnson. Thank you, Mr. Chairman.
    I have spoken on this bill in the opening statement so I'll 
be brief. I just want to thank Mr. Lucas for sponsoring this 
bill, which I am cosponsoring.
    ARPA-E is widely considered one of the most successful and 
cost-effective programs at the Department of Energy. I am a big 
supporter of their work, and as the appropriators' process 
moves forward, I hope that we can work together to ensure that 
this program is fully funded.
    I want to again thank Mr. Lucas and Chairman Smith for 
working with us. I yield back.
    Chairman Smith. Thank you, Ms. Johnson.
    The only amendment on the roster is a Manager's Amendment 
offered by the gentleman from Oklahoma--oh, I am sorry. The 
gentleman from California, Mr. McNerney, is recognized.
    Mr. McNerney. I move to strike the last word.
    Chairman Smith. The gentleman is recognized for 5 minutes.
    Mr. McNerney. I thank the Chairman for bringing these bills 
today.
    I want to second the comments of my colleague from 
California, Ms. Lofgren. The national labs are a tremendous 
asset for our Nation. I worked at the Sandia National Lab in 
Albuquerque for a number of years, and I saw the tremendous 
resource of innovative talent and innovative drive that my 
colleagues had at the labs. Livermore National Lab is right 
outside of my district, and I see the passion of people that 
work there so I appreciate their work, and this Committee 
should continue to support the work that's conducted by our 
national laboratories. In particular, I support the nuclear 
fusion programs. Again, like Ms. Lofgren, I see tremendous 
potential for that technology as it matures.
    And I also want to say that ARPA-E, the bill under 
discussion now, has been a real opportunity for energy 
innovation, which is badly needed. We do have energy challenges 
in this country. We need to address climate change, and ARPA-E 
is a tremendous tool for doing that.
    So I support the bill and I support the Chairman and the 
Ranking Member, and my friend from Oklahoma, Mr. Lucas, for 
bringing this forward. I yield back.
    Chairman Smith. Thank you, Mr. McNerney.
    And the gentlewoman from Oregon, Ms. Bonamici, is 
recognized.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and I want 
to join my colleagues in offering support for this important 
bill, and thank Mr. Lucas and Ranking Member Johnson for 
bringing it forward, and also say that I'm pleased that we're 
doing this bipartisan package of bills today.
    I also want to ask the Science Committee to welcome my 
foster intern for the day, Isaiah Paloma. Isaiah spent time--
although he lives in Oregon now, he spent time in the Idaho 
foster youth system, serving on the Idaho Foster Youth Advisory 
Board. He now lives in Seaside, Oregon, in the district I'm 
honored to represent, and is part of the congressional Foster 
Youth Shadow program, and I want to say, Mr. Chairman and 
Committee Members, I think it's really important that we're 
doing this package of bipartisan bills today when we have 
foster youth here from around the country to show them that we 
are able to work together and willing to invest in something as 
important as research and innovation into our energy future.
    So thank you, Mr. Chairman, and thank you, colleagues. Yes, 
Isaiah is here today sitting behind me today. Thank you so much 
for bringing this package of bills forward. I look forward to 
supporting them here in the Committee and on the floor, and I 
yield back. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici.
    The only amendment on the roster is a Manager's Amendment--
--
    Mr. Lucas. Mr. Chairman?
    Chairman Smith [continuing]. By the gentleman of Oklahoma, 
and he's recognized for purposes of offering that amendment.
    Mr. Lucas. Mr. Chairman, I have an amendment at the desk.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment to H.R. 5906 offered by Mr. Lucas of 
Oklahoma, amendment #008.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
his amendment.
    Mr. Lucas. Thank you, Mr. Chairman.
    This amendment provides for technical changes to the 
legislation. I appreciate the opportunity to work with the 
Minority to identify these changes prior to today's markup and 
for their support on this important legislation.
    I encourage my colleagues to vote for this amendment, and 
with that, I yield back, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Lucas.
    Is there any further discussion on the amendment?
    The gentlewoman from Texas, Ms. Johnson, is recognized.
    Ms. Johnson. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Smith. The gentlewoman is recognized for 5 
minutes.
    Ms. Johnson. Thank you.
    I want to thank Mr. Lucas for offering the amendment, which 
I support. The amendment makes minor but helpful changes to the 
base bill. I urge my colleagues to support the amendment, and I 
yield back.
    Chairman Smith. Thank you, Ms. Johnson. This is going very 
quickly.
    Is there any further discussion? Any further amendments?
    If not, the question is on agreeing to the amendment 
offered by Mr. Lucas.
    All in favor, say aye.
    Opposed, no.
    The ayes have it, and the amendment is agreed to.
    If there is no--if there are no further amendments, a 
reporting quorum being present, I move that the Committee on 
Science, Space, and Technology report H.R. 5906 as amended to 
the House with the recommendation that the bill be approved.
    The question is on favorably reporting H.R. 5906 to the 
House as amended.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the Motion to Reconsider is laid upon 
the table. H.R. 5906 is ordered reported to the House, and I 
ask unanimous consent that staff be authorized to make any 
necessary technical and conforming changes, and without 
objection, so ordered.
    I hope all Members will stay in the room just for a minute. 
I've got three announcements I'd like to make, so if you all 
will stay close by?
    The first is to welcome our newest Member of the Science 
Committee, and that is Arizona's newest Member of the House, 
Debbie Lesko. She served in the Arizona House of 
Representatives for 6 years and then in the Arizona Senate, 
where she was President Pro Tem from 2017 to 2018. 
Representative Lesko has a keen interest in STEM education and 
the right kind of climate change. We look forward to having her 
expertise and perspective on the Committee. Welcome, Debbie.
    Second announcement that particularly the Members to my 
right may be interested in knowing is that of the 32 bills this 
Committee has approved, 28 of the 32 are bipartisan and have 
been bipartisan bills. That's as good as it gets. OK.
    And the last announcement is sort of a mixed announcement, 
and it is with gratitude for Molly Fromm's skills and with 
excitement for her next step that I have to announce that our 
General Counsel and the woman either sitting next to me or 
behind me will leave the Science Committee this Friday, day 
after tomorrow, after 3-1/2 years. Molly is a native of La 
Jolla, California, otherwise known as far west Texas. Before 
joining the Science Committee, Molly worked with my California 
colleague, Representative Darrell Issa, for a decade, first in 
his personal office and then as Deputy General Counsel and 
Parliamentarian for the Committee on Oversight and Government 
Reform. Molly has served the Science Committee tirelessly and 
well during the 114th and 115th Congresses. She understands 
Committee and House procedures. She works hard, and she has 
helped the Committee advance numerous pieces of legislation. 
Though we are sad to see her go, we're glad she won't be going 
far. Molly will take over as General Counsel and 
Parliamentarian for the House Financial Services Committee 
under my friend and Texas Colleague, Chairman Jed Hensarling. 
We wish Molly, her husband Adam, and her son, Patrick, who just 
turned one this past weekend, a happy future as they embark on 
a new adventure. So Molly, we will miss you but we will 
continue to appreciate all your good work.
    She--well, I'll stop there except that she has a great--
look at her dress closely is all I can tell you. Those are 
wonderful red elephants. It's my--I used to have a tie that 
matched it but I don't know what I've done with it. I would 
have worn it today. But anyway, Molly, thank you again.
    I thank all the Members for being here. I appreciate 
everybody's attendance, and we stand adjourned.
    [Whereupon, at 11:20 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


  H.R. 5905, Amendment Roster, H.R. 5907, H.R. 5906, Amendment Roster


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                   PROCEEDINGS OF THE FULL COMMITTEE
                      MARKUPS: H.R. 6227, NATIONAL
                        QUANTUM INITIATIVE ACT;
                    H.R. 6229, NATIONAL INSTITUTE OF
                        STANDARDS AND TECHNOLOGY
                    REAUTHORIZATION ACT OF 2018; AND
                       H.R. 6226, AMERICAN SPACE
                          SAFE MANAGEMENT ACT

                              ----------                              


                        WEDNESDAY, JUNE 27, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:11 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lamar 
Smith [Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Pursuant to Committee rule 2(e) and House rule XI(2)(h)(4), 
the Chair announces that he may postpone roll call votes.
    Today, we meet to consider H.R. 6227, the National Quantum 
Initiative Act; H.R. 6229, the National Institute of Standards 
and Technology Reauthorization Act of 2018; and H.R. 6226, the 
American Space SAFE Management Act. I'll recognize myself for 
an opening statement.
    The first bill we consider, H.R. 6227, the National Quantum 
Initiative Act, supports a much more concentrated, coordinated 
Federal effort to accelerate quantum research and technology 
development for the economic and national security of the 
United States. Let me thank Ranking Member Eddie Bernice 
Johnson and the 28 other Members of the Committee for 
cosponsoring this bipartisan legislation.
    The second bill is H.R. 6229, the National Institute of 
Standards and Technology Reauthorization Act of 2018. This 
legislation, sponsored by Research and Technology Subcommittee 
Chairwoman Barbara Comstock, authorizes NIST's research and 
technology programs for 2 years. The bill provides for 
increased fundamental scientific and technical research and 
investments in emerging technology areas. This will ensure 
continued U.S. innovation leadership in quantum science, 
artificial intelligence and big data science, cybersecurity, 
the Internet of Things and sustainable infrastructure. 
Chairwoman Comstock's bill also directs NIST to use its 
cybersecurity expertise to assist Federal agencies in improving 
critical infrastructure cybersecurity.
    The final bill is H.R. 6226, the American Space SAFE 
Management Act. This landmark legislation, cosponsored by Space 
Subcommittee Chairman Brian Babin, Ranking Member Ami Bera, and 
Congressman Ed Perlmutter, establishes a space traffic 
management framework that will ensure a safe operating 
environment in outer space.

                  Prepared Statement of Chairman Smith

    Today we meet to consider three bills. The first is H.R. 
6227, the National Quantum Initiative Act. This legislation 
supports a much more concentrated, coordinated Federal effort 
to accelerate quantum research and technology development for 
the economic and national security of the United States.
    Let me thank Ranking Member Eddie Bernice Johnson and the 
28 other members of the committee for co-sponsoring this 
bipartisan legislation. The second bill is H.R. 6229, the 
National Institute of Standards and Technology (NIST) 
Reauthorization Act of 2018. This legislation, sponsored by 
Research and Technology Subcommittee Chairwoman Barbara 
Comstock, authorizes NIST's research and technology programs 
for two years.
    The bill provides for increased fundamental scientific and 
technical research and investments in emerging technology 
areas. This will ensure continued U.S. innovation leadership in 
quantum science, artificial intelligence and big data science, 
cybersecurity, the internet of things and sustainable 
infrastructure.
    Chairwoman Comstock's bill also directs NIST to use its 
cybersecurity expertise to assist federal agencies in improving 
critical infrastructure cybersecurity. The final bill is H.R. 
6226, the American Space SAFE Management Act. This landmark 
legislation, co-sponsored by Space Subcommittee Chairman Brian 
Babin, Ranking Member Ami Bera and Congressman Ed Perlmutter, 
establishes a space traffic management framework that will 
ensure a safe operating environment in outer space.

    Chairman Smith. I'll recognize the Ranking Member, the 
gentlewoman from Texas, Eddie Bernice Johnson, for her opening 
statement.
    Ms. Johnson. Thank you very much, Chairman Smith, for 
holding today's markup of three bills. The first bill we are 
considering is the National Quantum Initiative Act. This is a 
good bill, and I'm happy to urge my colleagues to join me in 
cosponsoring the legislation. I'll speak more on this bill in a 
little while. So let me just say that I'm very happy the 
Science Committee is taking the lead here in this cutting-edge 
field.
    I also want to thank the Chair for working closely with us 
to draft a bipartisan bill that I think will also be widely 
supported by industry and academia. This bill really is a good 
example of what the Science Committee does best, and I look 
forward to its passage.
    The second bill we are considering, the National Institute 
of Standards and Technology Reauthorization Act of 2018 is 
another good bill which I'm cosponsoring. This bill 
reauthorizes one of our most important but underappreciated 
agencies in the Federal Government. NIST is a vital partner for 
American industry in fields as diverse as infrastructure 
construction to cybersecurity. They're also an essential 
collaborator with American manufacturing.
    I want to thank the Chairman for working with us to address 
some concerns we had with the original draft of the bill, and I 
support the manager's amendment that is intended to address 
several of those concerns. I look forward to advancing this 
bill through the House and working with the Senate to get it 
enacted.
    Finally, we're marking up the American Space SAFE 
Management Act. Unfortunately, I must reluctantly oppose this 
bill today. I want to be clear. I strongly support efforts to 
establish a civilian space situational awareness capacity. 
However, I do not support our Committee rubberstamping the 
half-baked efforts of the Trump Administration to address the 
issue.
    Currently, the Department of Defense handles space 
situational awareness for the U.S. Government. There's been a 
growing recognition that the civilian side of this work would 
be more appropriate outside DOD. The Obama Administration began 
to plan for this and work was underway to place this function 
at the Department of Transportation, which currently is the 
body that promotes and regulates commercial space launch and 
reentry.
    Then, the Trump Administration came in and decided it 
wanted to move this function to the Department of Commerce 
instead. This is in spite of the fact that Commerce has no 
existing infrastructure or expertise to support this important 
work. In fact, no credible reason has been articulated for why 
the Commerce Department is the best place to house the 
function. The only discernible motivation for reversing course 
is that they didn't want to endorse something Obama had 
started. This is no way to govern, and it wouldn't be the first 
time this Administration has acted that way.
    I'll have an amendment later to do this oversight Congress 
should have demanded. I've been in hearings in other Committees 
on this very same subject. Let's have the Academies look at the 
issue and give us guidance on what civilian agency is best 
suited to shoulder this new responsibility. Maybe they decide 
Commerce is the right one, or maybe they will decide that our 
$21 billion civilian space agency would be best. Then, we can 
come back and make an informed decision instead of just 
rubberstamping the ill-formed ideas coming from the Trump 
Administration.
    Thank you, and I yield back.

                   Prepared Statement of Ms. Johnson

    Thank you, Chairman Smith, for holding today's markup of 
three bills.
    The first bill we are considering is the National Quantum 
Initiative Act. This is a good bill, and I am happy to urge my 
colleagues to join me in cosponsoring the legislation. I will 
speak more on this bill in a minute, so let me just say that I 
am very happy the Science Committee is taking the lead here in 
a cutting-edge field. I also want to thank the Chairman for 
working closely with us to craft a bipartisan bill that I think 
will also be widely supported by industry and academia. This 
bill really is a good example of what the Science Committee 
does best, and I look forward to its passage.
    The second bill we are considering, the National Institute 
of Standards and Technology Reauthorization Act of 2018, is 
another good bill which I am cosponsoring. This bill 
reauthorizes one of our most important but underappreciated 
agencies in the Federal government. NIST is a vital partner for 
American industry in fields as diverse as infrastructure 
construction to cybersecurity. They are also an essential 
collaborator with American manufacturing. I want to thank the 
Chairman for working with us to address some concerns we had 
with the original draft of the bill, and I support the 
manager's amendment that is intended to address several of 
those concerns. I look forward to advancing this bill through 
the House and working with the Senate to get it enacted.
    Finally, we are marking up the American Space SAFE 
Management Act. Unfortunately, I must reluctantly oppose this 
bill today. I want to be clear. I strongly support efforts to 
establish a civilian space situational awareness capability. 
However, I do not support our Committee rubber stamping the 
half-baked efforts of the Trump Administration to address the 
issue.
    Currently, the Department of Defense handles space 
situational awareness for the U.S. Government. There has been a 
growing recognition that the civilian side of this work would 
be more appropriate outside of DOD. The Obama Administration 
began to plan for this, and work was underway to place this 
function at the Department of Transportation, which currently 
is the body that promotes and regulates commercial space launch 
and reentry. Then the Trump Administration came in and decided 
it wanted to move this function to the Department of Commerce 
instead. This is in spite of the fact that Commerce has no 
existing infrastructure or expertise to support this important 
work. In fact, no credible reason has been articulated for why 
the Commerce Department is the best place to house this 
function. The only discernible motivation for reversing course 
is that they just didn't want to endorse something Obama 
started. That is a no way to govern, but it wouldn't be the 
first time this Administration has acted that way.
    I'll have an amendment later to do the oversight Congress 
should have demanded when the Trump Administration first 
started pushing this agenda. Let's have the Academies look at 
the issue and give us guidance on what civilian agency is best 
suited to shoulder this new responsibility. Maybe they decide 
Commerce is. Or maybe they will decide that our 21 billion 
dollar civilian space agency would be best. Then we can come 
back and make an informed decision, instead of just rubber 
stamping the ill-formed ideas coming from the Trump 
Administration. I yield back.

    Chairman Smith. Thank you, Ms. Johnson.

    H.R. 6227

    Chairman Smith. Pursuant to notice, I now call up H.R. 
6227, the National Quantum Initiative Act. And the clerk will 
report the bill.
    The Clerk. H.R. 6227, a bill to provide for coordinated 
Federal program to accelerate quantum research and development 
for the economic and national security of the United States.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point, and I'll recognize 
myself to speak on the bill.
    Sixty years ago, the first commercial computer was almost 
the size of this room. Today, we hold more computing power in 
our hand with an iPhone. Just as classical computing redefined 
the 20th century, quantum has posed--seems poised to redefine 
the next generation of scientific breakthroughs.
    Conventional computing uses a series of tiny, electronic 
on-off switches within a processing chip. Technological 
advances have made possible supercomputers that can perform 
series of on-off operations at astonishing speeds. But 
classical computing technology is nearing its limits. Quantum 
computing is different. Quantum computers rely on q-bits. These 
are subatomic particles that are both on and off at the same 
time. This will enable quantum computers to perform complex 
calculations at speeds that are potentially millions of times 
faster than today's most advanced supercomputers.
    Quantum will create exciting new opportunities in areas 
like cybersecurity, medicine, communications, financial 
services and transportation. But the potential threat to 
America's security is sobering. The nation that develops 
quantum communications technology first may be able to decode, 
in a matter of seconds, other countries' sensitive national 
security information, proprietary technologies, and personal 
information.
    Last October, the Science Committee held a hearing on 
American leadership in quantum technology. Experts testified 
that, as other nations around the word are rapidly advancing 
quantum programs, the United States faces the threat of falling 
behind. China and the European Union are investing billions of 
dollars in new research facilities and equipment for quantum 
computing. China, in particular, has Stated publicly its 
national goal of surpassing the United States during the next 
decade. Now is the time to compose a national quantum strategy 
and preserve America's dominance in the scientific world.
    The National Quantum Initiative Act will meet these 
challenges by forming a 10-year program to advance quantum 
science development and technology applications in the United 
States. The bill leverages the expertise and resources of U.S. 
industry, academia, and government to move quantum information 
science to the next level of research and development.
    The legislation establishes a National Quantum Coordination 
Office within the White House Office of Science and Technology 
Policy. The office will oversee interagency coordination and 
strategic planning, serve as a central point of contact for 
stakeholders, conduct outreach, and promote commercialization 
of Federal research by the private sector.
    The bill also supports basic research, education, and 
standards development at the National Institute of Standards 
and Technology, the National Science Foundation, and the 
Department of Energy. Two hundred and twenty-five million 
dollars a year of these agencies' baseline funding will now be 
directed to new quantum research centers and laboratory 
research. Their activities will address fundamental research 
gaps, create a stronger work force, and develop revolutionary 
knowledge and transformative innovations to give U.S. companies 
and workers an enduring competitive advantage.
    The bill ensures that U.S. high-tech companies, which are 
investing heavily in quantum research, and a surge of quantum 
technology startups will contribute their knowledge and 
resources to a national effort.
    H.R. 6227 was developed with input from industry, academia, 
national laboratories, Federal agencies, and the 
Administration. It was an open and bipartisan process. The 
input of those stakeholders has yielded a good consensus bill. 
We have received broad support, including letters from the 
National Photonics Initiative, the Quantum Industry Coalition--
which I think consists of about 15 members--IBM, Intel, Google, 
Harris Corporation, Yale, Harvard, the University of Maryland, 
and the Optical Society, among many others.
    I thank Ranking Member Johnson for joining me in 
introducing this bill and the many Members of the Committee who 
have signed on as original cosponsors.
    I would also like to acknowledge that Senator Thune and 
Senator Nelson, the Chairman and Ranking Member of the Senate 
Commerce Committee, have introduced a companion bill in the 
Senate. With bipartisan, bicameral support and the backing of 
the Administration, I believe this bill could become law by the 
end of the year.
    Winning this scientific race requires a new moonshot for 
the 21st century. This bill will align ongoing Federal, 
academic, and private sector research for a quantum leap in the 
right direction.

                  Prepared Statement of Chairman Smith

    Sixty years ago, the first commercial computer was almost 
the size of this room. Today we hold more computing power in 
our hand with an I-phone.
    Just as classical computing redefined the 20th Century, 
quantum is poised to redefine the next generation of scientific 
breakthroughs.
    Conventional computing uses a series of tiny, electronic 
on-off switches within a processing chip. Technological 
advances have made possible supercomputers that can perform 
series of on-off operations at astonishing speeds. But 
classical computing technology is nearing its limits.
    Quantum computing is different. Quantum computers rely on 
``q-bits.'' These are subatomic particles that are both on and 
off at the same time.
    This will enable quantum computers to perform complex 
calculations at speeds that are potentially millions of times 
faster than today's most advanced supercomputers.
    Quantum will create exciting new opportunities in areas 
like cyber security, medicine, communications, financial 
services and transportation.
    But the potential threat to America's security is sobering. 
The nation that develops quantum communications technology 
first may be able to decode-in a matter of seconds-other 
countries' sensitive national security information, proprietary 
technologies and personal information.
    Last October, the Science Committee held a hearing on 
``American Leadership in Quantum Technology.'' Experts 
testified that as other nations around the word are rapidly 
advancing quantum programs, the United States faces the threat 
of falling behind.
    China and the European Union are investing billions of 
dollars in new research facilities and equipment for quantum 
computing. China, in particular, has stated publicly its 
national goal of surpassing the U.S. during the next decade.
    Now is the time to compose a national quantum strategy and 
preserve America's dominance in the scientific world.
    The National Quantum Initiative Act will meet these 
challenges by forming a 10-year program to advance quantum 
science development and technology applications in the United 
States.
    The bill leverages the expertise and resources of U.S. 
industry, academia and government to move quantum information 
science to the next level of research and development.
    The legislation establishes a National Quantum Coordination 
Office within the White House Office of Science and Technology 
Policy.
    The office will oversee interagency coordination and 
strategic planning, serve as a central point of contact for 
stakeholders, conduct outreach and promote commercialization of 
federal research by the private sector.
    The bill also supports basic research, education and 
standards development at the National Institute of Standards 
and Technology, the National Science Foundation, and the 
Department of Energy.
    $225 million a year of these agencies' baseline funding 
will now be directed to new quantum research centers and 
laboratory research. Their activities will address fundamental 
research gaps, create a stronger workforce, and develop 
revolutionary knowledge and transformative innovations to give 
U.S. companies and workers an enduring competitive advantage.
    The bill ensures that U.S. high-tech companies, which are 
investing heavily in quantum research, and a surge of quantum 
technology start-ups will contribute their knowledge and 
resources to a national effort.
    H.R. 6227 was developed with input from industry, academia, 
National Laboratories, federal agencies and the administration. 
It was an open and bipartisan process.
    The input of those stakeholders has yielded a good 
consensus bill.
    We have received broad support, including letters from the 
National Photonics Initiative, the Quantum Industry Coalition, 
IBM, Intel, Google, Harris Corporation, Yale, Harvard, the 
University of Maryland and the Optical Society.
    I thank Ranking Member Johnson for joining me in 
introducing this bill, and the many members of the committee 
who have signed on as original co-sponsors.
    I would also like to acknowledge that Senator Thune and 
Senator Nelson, the Chairman and Ranking Member of the Senate 
Commerce Committee, have introduced a companion bill in the 
Senate. With bipartisan, bicameral support and the backing of 
the administration, I believe this bill could become law by the 
end of the year.
    Winning this scientific race requires a new moonshot for 
the 21st Century. This bill will align ongoing federal, 
academic and private sector research for a quantum leap in the 
right direction.

    Chairman Smith. That concludes my statement, and now, the 
Ranking Member Ms. Johnson is recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I appreciate the fact that you've introduced H.R. 6227, the 
National Quantum Initiative Act, on which I'm happy to be a 
cosponsor.
    This legislation will establish a national program to 
accelerate progress in research and technology development 
related to quantum information science. Research in this area 
promises to revolutionize the way we solve problems by 
leveraging quantum effects such as superposition and 
entanglement.
    Many believe quantum computing technology has the potential 
to accelerate progress on some of our most pressing challenges, 
including how to address climate change and understand complex 
diseases like cancer. The race is on to build the world's first 
quantum computer capable of solving problems that have long 
eluded conventional computers. Not unlike the space race in the 
1960's, the stakes in today's quantum race are high.
    Global leadership in quantum computing brings with it a 
military and intelligence edge, as well as a competitive 
advantage in what many expect to be a massive industry for 
decades to come. The National Quantum Initiative authorized in 
this bill enables coordinated activities at the Department of 
Education, the National Science Foundation, and the National 
Institute of Standards and Technology, as well as many other 
important Federal agencies that will have a role in developing 
and benefiting from these technologies.
    Along with sustaining support for research in this area in 
general, DOE and NSF will fund new national centers to bring 
together preeminent experts in quantum science, hardware and 
software development, and education at NIST will lead the way 
in developing the measurement and standards infrastructure 
vital to the emerging industry.
    By promoting access to the products of these activities 
across the Federal Government and to academia and the private 
sector, the National Quantum Initiative enables--ensures that 
we will maximize the return on this investment. We must invest 
more in this research. We need to ensure that we are educating 
and training the next generation of top quantum scientists and 
engineers, and we should do more to encourage partnerships 
between government, academia, and industry.
    This is good legislation, and this will let us--or put us 
on the right track, and I urge my colleagues to join me in 
supporting its passage.
    Chairman Smith. And you yield back? The gentlewoman yields 
back, and her statement is appreciated.
    We will now go to amendments on this particular bill, and 
the first one is going to be offered by the gentleman from 
Illinois, Mr. Hultgren, and he is recognized for that purpose.
    Mr. Hultgren. Thank you, Mr. Chairman. I have an amendment 
at the desk.
    Chairman Smith. And the--I'm sorry. The clerk will report 
the amendment.
    The Clerk. Amendment to H.R. 6227, offered by Mr. Hultgren 
of Illinois, amendment number 002.
    Chairman Smith. OK. Without objection, the amendment will 
be considered as read, and the gentleman is recognized.
    Mr. Hultgren. Thank you, Mr. Chairman.
    My amendment adds a provision to the duties of the National 
Quantum Coordination Office tasking it with and ensuring that 
the Federal research agencies, through their quantum research 
programs and the new NSF and DOE centers, are utilizing 
existing quantum computers and communication systems for 
federally funded research.
    Several U.S. companies, universities, and laboratories have 
developed or are developing functioning quantum systems. It's 
important that the government not duplicate those efforts 
already underway but tap those resources to further basic 
research and application development.
    DOE, NSF, and NIST have all supported research grants in 
the past, utilizing private supercomputer and cloud computing 
systems, and this will ensure that they continue to do the same 
thing for quantum systems.
    Again, I want to thank Chairman Smith and Ranking Member 
Johnson for working with me and the external stakeholders on 
this amendment, and I yield back.
    Chairman Smith. Thank you, Mr. Hultgren.
    I support the amendment and recommend our colleagues 
support it as well.
    Is there any further discussion?
    Mr. Lipinski. Move to strike the last word?
    Chairman Smith. Who seeks recognize? Oh, I'm sorry. Mr. 
Lipinski is recognized.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I support the amendment, and I thank the Chairman for 
working in a bipartisan way on this bill. I think it's very 
important that what we--we do what we aim to accomplish in this 
bill: Invest significant Federal resources in a promising 
technology whose benefits may be a long way off but where 
there's fierce international competition.
    It's going to be through strategic decisions like these 
that we will become the world's economic, scientific, and 
technical leader in this as we start out now, and we can only 
maintain that position through continuous significant 
investment in cutting-edge basic research. We know other 
countries are increasing their investments in quantum 
technology, in some cases guided by long-term strategies, and 
this bill will make sure that we develop a coherent strategy of 
our own.
    Mr. Hultgren and I were--both come from the Chicago area, 
and I think it's important to highlight and commend the 
research partnership from Chicago that's been instrumental in 
contributing to the Committee's understanding of quantum 
information science, including testifying at hearings, 
participating in roundtables, and reviewing drafts of this 
legislation.
    Chicago Quantum Exchange, the partnership between 
University of Chicago, Argonne National Lab, and Fermi National 
Accelerator Lab, Chairman Weber had a codel out to the--these 
labs a few weeks ago, and a number of Members of the Committee 
got to hear more about what they're doing when it comes to 
quantum.
    The Exchange was created to develop and grow 
interdisciplinary collaborations for the exploration and 
development of new quantum-enabled technologies and to help 
educate a new generation of quantum information scientists and 
engineers.
    Partnership with the private sector is also an important 
element of the Exchange. Chicago Quantum Exchange may be a 
model for the future of R&D in quantum information science, and 
this bill will help that and help our country when it comes to 
moving ahead with quantum.
    With that, I yield--my colleagues to support the amendment 
and the bill, and I yield back.
    Chairman Smith. OK. Thank you, Mr. Lipinski.
    Is there any further discussion?
    If not, the question is on the Hultgren amendment.
    All in favor, say aye.
    Opposed, no.
    The ayes have it, and the amendment is agreed to.
    The next amendment is going to be offered by the gentleman 
from California, Mr. Rohrabacher, and he's recognized for that 
purpose.
    Mr. Rohrabacher. I have an amendment at the desk, Mr. 
Chairman.
    Chairman Smith. The clerk will report the amendment.
    The Clerk. Amendment to H.R. 6227, offered by Mr. 
Rohrabacher of California, amendment number 057.
    Chairman Smith. Without objection, the amendment will be 
considered as read, and the gentleman is recognized to explain 
his amendment.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Ronald Reagan, who I once worked for, once said, ``No 
government ever voluntarily reduces itself in size. So 
government's programs, once launched, never disappear. 
Actually, they're the nearest thing to eternal life we'll ever 
see on this earth,'' end of quote. My amendment would end the 
National Nanotechnology Initiative by transitioning the duties 
and activities to the appropriate Federal agencies and offices 
as we stand up the National Quantum Initiative.
    Since the passage of the 21st Century Nanotechnology 
Research and Development Act of 2003, which I supported, the 
Nanotechnology Initiative, which I--which is the NTI--has 
helped make the United States a global leader in 
nanotechnology. From Fiscal Year 2001 through Fiscal Year 2015, 
the Federal Government has spent approximately $20 billion, 
close to $21 billion actually, in this--in nanoscale research, 
engineering technology through the NNI.
    After years of nanotechnology research, Federal agencies 
have well-established this research, nanotechnology research, 
and regulatory activities. Nanotechnology is not some new 
morphous thing that we are trying to get a handle on and build 
a strategy around. We have been successful at that. And while I 
am certain some level of cross-collaboration will continue to 
be useful in this area, there is no longer any necessity for 
this overreaching program. The NNI is 15 years old this year. 
The Manhattan Project lasted 5 years. The Human Genome 
Project--and I--again, which I supported, lasted 13 years.
    There is clearly more research to be done in 
nanotechnology, and this proposal doesn't stop Federal agencies 
from pursuing nanotechnology in their specific areas, but this 
type of overarching coordination and spending has reached its 
logical endpoint. The NNI has been a great catalyst to bring 
our Nation to the next level, but continuing it requires the 
use of limited resources, which threatens new initiatives like 
the National Quantum Initiative, which is critical for 
America's future. We should not continue to subsidize our 
focus. It is important to sunset these things, and they should 
not just go on in perpetuity.
    I would not the Quantum Initiative and the base bill 
sunsets, what we are about to pass, sunsets after 10 years. And 
I know some will oppose what I'm suggesting here as a reflexive 
refusal to end any government program, to close any government 
office, no matter how clearly it has outlived its usefulness. 
But I would note that the NNI was never intended to be a never-
ending entitlement. That--and again, I voted for that 
initiative when we started it, but it wasn't meant to be a 
never-ending program. The program has succeeded in helping push 
the United States to the next frontier of nanotechnology. It 
did its job, and now it's time to move on to the next phase, 
which is the Quantum Initiative.
    And the Quantum Initiative is a proper way for Congress to 
coordinate and support pioneering scientific research over the 
next decade by establishing a 10-year framework, which is what 
our bill does, for moving quantum past this point and into the 
next stage of development, just--which is to maintain 
scientific leadership in the--for the United States.
    All things being said, I have no interest in derailing this 
agreement that our Chairman and others have worked so hard to 
put in place. So I expect to withdraw this amendment once 
everyone has had an opportunity to discuss it, and I thought I 
would add these thoughts so people can basically understand the 
dynamics of why we have a $20 trillion bill that we're passing 
on to future generations. We need to be able to end programs as 
well as begin them. We cannot create endless programs and 
initiatives that--with no end dates included.
    John Kennedy set the goal of landing a man on the moon 
before the decade was out. Deadlines focus minds and efforts. 
End points for our programs can be just as important as 
starting points. And so I will be withdrawing my amendment if 
there's no other discussion. But I thank the leadership for the 
initiative that you're showing today. And let us be responsible 
when we create new initiatives that are important for our 
country.
    I yield back.
    Chairman Smith. Mr. Rohrabacher, thank you for your good 
points. As you suggested, we'll see if there's any further 
discussion, but I appreciate your willingness to withdraw the 
amendment and let us advance the legislation.
    But is there any further discussion on this particular 
amendment?
    If not, without objection, the amendment will be----
    Mr. Rohrabacher. I withdraw my amendment.
    Chairman Smith. Without objection, so ordered. Thank you, 
Mr. Rohrabacher.
    The last amendment is by the gentleman from Illinois, Mr. 
Foster, and he is recognized to offer the amendment.
    Mr. Foster. Thank you, Mr.--Chairman Smith. I'd like to 
also thank my colleague, Congresswoman Esty, for----
    Chairman Smith. OK. And the clerk will report the amendment 
first.
    Mr. Foster. Oh.
    The Clerk. Amendment to H.R. 6227, offered by Mr. Foster of 
Illinois, amendment number 110.
    Chairman Smith. And, without objection, the amendment is 
considered as read. And the gentleman is recognized to explain 
his amendment.
    Mr. Foster. Thank you, Chairman Smith.
    I'd like to thank my colleague, Congresswoman Esty, for 
cosponsoring this amendment, which I intend to withdraw at the 
conclusion of the debate.
    This was a very--a few months ago we held a joint 
Subcommittee hearing on American leadership in quantum 
technology, and this was a very productive and bipartisan 
discussion, and I'm glad that the Committee followed up with 
outreach to many stakeholders on this important issue.
    I join my Republican and Democratic colleagues in 
supporting the National Quantum Initiative. I appreciate that 
this bill instructs the coordination of quantum research and 
development across agencies and with industry and academic 
partners. I believe this is key to ensuring the success of this 
effort.
    I would like to emphasize that this is a technically risky 
endeavor, and neither technological success nor practical--nor 
great practical relevance is assured. But I'm proud that 
Congress is operating on the advice of top scientists is 
willing to take that risk.
    There's a famous quote that's attributed to two great 
scientists--Michael Faraday and Benjamin Franklin--when asked 
about new technologies such as electricity and what the 
practical relevance is, and their response was ``Of what use is 
a newborn baby?'' And this I think really is a fair description 
of quantum technology at this point.
    However, given the bipartisan support for this initiative, 
I was disappointed to see that this bill explicitly does not 
fund the participating agencies to start several new 
activities. And my amendment today corrects this problem by 
striking language in the bill that States that no additional 
funds are authorized to carry out the National Quantum 
Initiative.
    The decision to legislative new activities without new 
funding would inevitably mean that other valuable research in 
these agencies would suffer. I'm also concerned that the 
Director of National Quantum Coordination Office is appointed 
by the Director of the Office of Science and Technology Policy, 
a position that President Trump has not filled almost 2 years 
into his term of office.
    Now, I understand that the Chair is opposed to this 
amendment, so as a courtesy to him, I will withdraw it, but I 
do hope to work with my Republican colleagues to increase 
funding for the participating agencies so that the National 
Quantum Initiative can be properly funded without damage to 
other activities.
    And with that, I'd like to yield 1 minute to my colleague, 
Ms. Esty.
    Ms. Esty. Thank you. And I, too--and I know from our 
hearings that quantum has enormous potential for this country, 
and other countries are leaning in hard, allocating lots of 
resources. And I think it would be pennywise and pound foolish 
for us to try to support in name this initiative and not 
actually secure vital funding. We know China is investing 
massive resources in basic R&D, and again, for us to remain on 
the cutting edge, we need to actually back that up with some 
resources.
    So I join my colleague Mr. Foster and thank him for raising 
this amendment, and I think it's important, and I hope moving 
forward we can look to find a way to ensure that this 
critically important initiative receives the funding--not just 
the titles but the funding it's going to need to, again, keep 
the United States on that cutting edge of research and allow us 
to be competitive in the world.
    Thank you, and I yield back.
    Mr. Foster. Thank you. And I----
    Chairman Smith. OK.
    Mr. Foster [continuing]. Withdraw the amendment.
    Chairman Smith. OK. Thank you, Mr. Foster. And thank you, 
Ms. Esty, as well.
    Let me say that I know you all are aware of the constraints 
we sometimes operate under, and under House rules, we can't 
increase the funding right now. But let me reassure both of you 
that I do support an increase in funding and will look for ways 
to try to achieve that.
    And, Mr. Foster, I appreciate the courtesy, and without 
objection, the amendment is withdrawn.
    If there are no further amendments, a reporting quorum 
being present, I move that the Committee on Science, Space, and 
Technology report H.R. 6227 to the House, as amended, with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 6227 to the 
House, as amended.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it. The bill is ordered reported favorably.
    And without objection, the motion to reconsider is laid 
upon the table. H.R. 6227 is ordered reported to the House. I 
ask unanimous consent that staff be authorized to make any 
necessary technical and conforming changes. And without 
objection, so ordered.

    H.R. 6229

    Chairman Smith. Pursuant to notice, we now go to H.R. 6229, 
the National Institute of Standards and Technology 
Reauthorization Act of 2018. And the clerk will report the 
bill.
    The Clerk. H.R. 22--6229, a bill to authorize the programs 
of the National Institute of Standards and Technology and for 
other purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point.
    And I understand we will now go to the gentleman from 
Oklahoma, Mr. Lucas, for a statement.
    Mr. Lucas. Thank you, Mr. Chairman, for the opportunity to 
speak on behalf of Subcommittee Chairman Comstock's bill, H.R. 
6229, the National Institute of Standards and Technology 
Reauthorization Act of 2018.
    NIST works to promote innovation and industry 
competitiveness by advancing measurement science, standards, 
and technology. This legislation authorizes NIST's Industrial 
Technology Services account, construction accounts, and 
bolsters the Science and Technical Research and Services lab 
account for fiscal years of 2018 and 2019.
    NIST has the mission and capabilities to contribute to 
areas critical to the United States' global competitiveness. To 
this end, for Fiscal Year 2019, this legislation authorizes 
increased investments in four emerging technology areas: 
Quantum science, artificial science, data science, advanced 
communications, and the Internet of Things and composites 
research and standards development.
    As we've just heard during our consideration of the 
National Quantum Initiative Act of 2018, an international race 
to claim quantum supremacy has begun. And it is not just in 
quantum that we are racing our international rivals to develop. 
By facilitating NIST's development of tools to address 
performance and reliability concerns of artificial 
intelligence, NIST will develop--will accelerate I should say 
the implementation of AI systems and give U.S. industries a 
competitive edge. The discoveries and technological advances 
that will stem from these investments will significantly affect 
the Nation's economy in decades to come.
    One of the great challenges of the 21st century is 
cybersecurity, and this legislation helps NIST address growing 
cyber threat landscape by providing for the increase of its 
fundamental and applied cyber research to address key questions 
relating to the measurement of privacy, security, and the 
vulnerability of software tools and communication networks.
    This Committee has held multiple hearings on cybersecurity 
since the news that the Office of Personnel Management, OPM, 
was the target of two massive data breaches, exposing the 
sensitive information of over 21 million Americans, and yes, 
many of our constituents.
    Last month, the office of OMB published the Federal 
Cybersecurity Risk Determination Report and Action Plan in 
accordance with Trump Executive Order 13800. The report 
identifies that 74 percent of Federal agencies participating in 
the risk assessment process have cybersecurity programs that 
are either at risk or high risk. The report also confirms the 
need to take bold approaches to improve Federal cybersecurity.
    NIST plays a very important role in protecting from cyber 
threats through its ongoing cybersecurity research, including 
the applications of blockchain technology and by providing 
guidelines and standards to help reduce cyber risk in Federal 
agencies and critical infrastructure. This legislation requires 
NIST to enhance and expand its guidance and assist Federal 
agencies to help them to effectively use the NIST-authored 
Framework for Improving Critical Infrastructure Cybersecurity. 
The President's executive order directed each agency to use the 
framework. It is my hope that this language will prompt 
agencies to rely on NIST's expertise in order to adopt these 
best risk management practices within their agencies.
    This Committee has a long, bipartisan record of support for 
NIST and its contribution to research and development. It is my 
hope that all of my colleagues on the Committee will continue 
that tradition and support this bill.
    Thank you again, Mr. Chairman, for bringing this important 
piece of legislation up for consideration. Thank you, Ranking 
Member Johnson, Ranking Member Lipinski, and other Members of 
the Committee for your work with the Chairwoman and supporting 
this bill.
    I yield back the balance of my time, Mr. Chairman.

                    Prepared Statement of Mr. Lucas

    Thank you Mr. Chairman for the opportunity to speak on 
behalf of my bill, H.R. 6229, the National Institute of 
Standards and Technology (NIST) Reauthorization Act of 2018.
    NIST works to promote U.S. innovation and industrial 
competitiveness by advancing measurement science, standards and 
technology. This legislation authorizes NIST's Industrial 
Technology Services account, construction accounts, and 
bolsters the Scientific and Technical Research and Services lab 
account for fiscal years 2018 and 2019.
    NIST has the mission and capabilities to contribute to 
areas critical to the United States' global competitiveness. To 
this end, for fiscal year 2019, this legislation authorizes 
increased investments in four emerging technology areas: 
Quantum science, artificial intelligence and data science, 
advanced communications and the internet of things and 
composites research and standards development.
    As we've just heard during our consideration of the 
National Quantum Initiative Act of 2018, an international race 
to claim quantum supremacy has begun. And it is not just in 
quantum that we are racing our international rivals to develop. 
By facilitating NIST's development of tools to address 
performance and reliability concerns of artificial intelligence 
(AI), NIST will accelerate the implementation of AI systems and 
give U.S. industries a competitive edge.
    The discoveries and technological advances that will stem 
from these investments will significantly affect the nation's 
economy in the coming decades.
    One of the great challenges of the 21st Century is 
cybersecurity. This legislation helps NIST address the growing 
cybersecurity threat landscape by providing for the increase of 
its fundamental and applied cybersecurity research to address 
key questions relating to the measurement of privacy, security 
and the vulnerability of software tools and communication 
networks.
    This committee has held multiple hearings on cybersecurity 
since the news that the Office of Personnel Management (OPM) 
was the target of two massive data breaches-exposing the 
sensitive information of over 21 million Americans, including 
me and many of my constituents.
    Last month the Office of Management and Budget (OMB) 
published its ``Federal Cybersecurity Risk Determination Report 
and Action Plan'' in accordance with Trump Executive Order 
13800. The report identifies that 74 percent of federal 
agencies participating in the risk assessment process have 
cybersecurity programs that are either at risk or high risk. 
The report also confirms the need to take bold approaches to 
improve federal cybersecurity.
    NIST plays a very important role in protecting from cyber 
threats through its ongoing cybersecurity research, including 
the applications of blockchain technology, and by providing 
guidelines and standards to help reduce cyber risks in federal 
agencies and critical infrastructure. This legislation requires 
NIST to enhance and expand its guidance and assistance to 
Federal Agencies to help them to effectively use the NIST-
authored ``Framework for Improving Critical Infrastructure 
Cybersecurity.''
    The President's Executive Order directed each agency to use 
the framework. It is my hope that this language will prompt 
agencies to rely on NIST's expertise in order to adopt these 
best risk management practices within their agencies.
    This committee has a long, bipartisan record of support for 
NIST and its contributions to research and development. It is 
my hope that all of my colleagues on the committee will 
continue that tradition and support this bill. Thank you again 
Mr. Chairman for bringing this important piece of legislation 
up for consideration, and thank you to Ranking Member Johnson, 
Ranking Member Lipinski and the many other members of this 
committee for working with me and supporting this bill. I yield 
back the balance of my time.

    Chairman Smith. Thank you, Mr. Lucas.
    I also want to mention that the sponsor of the bill, 
Barbara Comstock, is at a funeral and appreciate the gentleman 
from Oklahoma stepping in for her.
    Mr. Lipinski. Mr. Chairman?
    Chairman Smith. The gentleman from Illinois, Mr.----
    Mr. Lipinski. Move to strike the last word.
    Chairman Smith [continuing]. Lipinski. The gentleman from 
Illinois is recognized.
    Mr. Lipinski. Thank you. I appreciate the majority moving 
this bill and happy to cosponsor it with the assurances of the 
manager's amendment, which I believe will momentarily be 
passing. We really need--this really helps to put NIST in a 
good position to carry out its work through the end of Fiscal 
Year 2019. And, as we all know, NIST expertise across many 
fields is critical to our economy, our research enterprise, and 
our manufacturing sector.
    And I want to particularly highlight the strong support for 
the Hollings Manufacturing Extension Partnership and the 
Manufacturing USA programs, which received robust authorization 
under the Industrial Technology Services account. And I thank 
the majority for their willingness to increase the Fiscal Year 
2019 authorization level to match the agency request.
    I have a strong relationship with the Manufacturing USA 
Institute for Digital Manufacturing located just outside my 
district in Chicago. Through partnerships with universities, 
manufacturers, nonprofits, and government entities, they work 
to develop the technology-enabled manufacturing tools industry 
needs, pilot them on the factory floor, and train the 
manufacturing work force.
    Beyond manufacturing, I also want to highlight the critical 
position pay authority this bill gives NIST to hire talented 
cybersecurity and quantum information science professionals. It 
is often difficult for Federal agencies to attract top-level 
talent in these fields because the Federal pay scale cannot 
compete with the private sector. This bill grants a limited 
exemption to the Federal pay scale to ensure that NIST will 
have access to the right people to lead the Nation in 
cybersecurity and quantum information science. This is an issue 
that has been raised before this Committee in hearings, and so 
I'm very happy that we do this in the bill. It will certainly 
be very helpful to hire the people that we need. So I want to 
urge my colleagues to support the bill and yield back.
    Chairman Smith. Thank you, Mr. Lipinski.
    We will now proceed with amendments, and the first one up 
is the manager's amendment that will be offered by the 
gentleman from Oklahoma, Mr. Lucas. And he's recognized for 
that purpose.
    Mr. Lucas. Mr. Chairman, I have an amendment at the desk.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment to H.R. 6229, offered by Mr. Lucas of 
Oklahoma on behalf of Mrs. Comstock of Virginia, amendment 
number 01.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman from Oklahoma is 
recognized to explain the amendment.
    Mr. Lucas. Thank you, Mr. Chairman. I offer today a 
manager's amendment on behalf of Chair Comstock that makes a 
few changes in the bill, responding to feedback from Members of 
the Committee. The amendment authorizes the current level for 
NIST's Industrial Technology Services account in the fiscal 
years of 2018 and 2019. It also clarifies NIST's role in 
assisting Federal agencies and their staffs with using NIST's 
framework for improving critical infrastructure cybersecurity.
    I want to thank the Chairman, the Ranking Member, and 
Ranking Member Lipinski for working with the Chairwoman on this 
manager's amendment, and I urge my colleagues to support the 
amendment and reserve the balance of my time.
    Chairman Smith. Thank you, Mr. Lucas.
    Is there any further discussion on the amendment?
    The gentleman from New York, Mr. Tonko, is recognized.
    Mr. Tonko. Mr. Chairman, I move to strike the last word.
    Chairman Smith. The gentleman is recognized for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chairman.
    I move to strike the last word because I'm relieved that we 
were able to work in a bipartisan manner to restore level 
funding for the Fiscal Year 2019 funding for the Industrial 
Technology Service's activities, which include important 
manufacturing programs such as NNMI and MEP.
    Manufacturing is critical to the American economy, to jobs, 
and our national security. Our manufacturing sector employs 
nearly 1 in 10 of our workers, makes up some 12 percent of our 
GDP.
    Reports have confirmed that, on average, each manufacturing 
job creates additional three to four jobs due to the required 
research, development, and process design and needed supply 
chain and post-sales services, as well as boosting the service 
sector as a result of high-paying manufacturing jobs with an 
average annual compensation of about $80,000.
    Personally, I strongly believe that the government should 
be a partner in working to revitalize and strengthen the U.S. 
manufacturing sector and that NIST plays a vital role in this 
endeavor. As a Representative for the capital region of New 
York, I realize that moving toward an innovation economy is the 
key to economic growth. With that in mind, I am pleased to 
witness our Nation's renewed desire to invest in a high-tech 
manufacturing effort and in an innovation economy.
    I was proud when we came together as a Nation and made a 
commitment to invest in manufacturing when we created the 
first-ever national network of manufacturing hubs or National 
Network of Manufacturing Initiative, NNMI, through the 
overwhelming bipartisan package of the Revitalize American 
Manufacturing and Innovation, or RAMI, Act. I see great hope 
for these efforts if we have continued support and sustained 
long-term funding, as we see in other countries.
    NNMIs help accelerate Innovation by investing in 
industrially relevant manufacturing technologies with broad 
applications and by supporting manufacturing technology 
commercialization, by bridging the gap between the laboratory 
and the market.
    They also support the work of MEPs. The MEP program is a 
nationwide network of proven resources that enables 
manufacturers to complete--or to compete rather globally, 
supports greater supply chain integration, and provides access 
to information, training, and technologies that improve 
efficiency, productivity, and profitability.
    The MEP program's well-documented impact is substantial. In 
Fiscal Year 2016 alone MEP projects with small and medium-size 
manufacturers created or retained some 68,477 jobs, generated 
more than $8 billion in new and retained sales, and provide 
cost savings of more than $1.2 billion.
    I thank this Committee for continued support of NNMIs and 
MEPs, which are both vital to revitalizing and supporting 
American manufacturing. While I support visionary investments 
that include increases and sustained long-term funding, I am 
relieved that at least this funding has been restored to Fiscal 
Year 2019.
    And with that, Mr. Chair, I yield back.
    Chairman Smith. All right. Thank you, Mr. Tonko, for those 
comments.
    If there's no further discussion, the question is on the 
Lucas amendment.
    All in favor, say aye.
    Opposed, no.
    The ayes have it, and the amendment is agreed to.
    Mr. Tonko, after that last great statement, do you still 
want to offer an amendment?
    Mr. Tonko. Well, I have an amendment at the desk, Mr. 
Chair, but because of the manager's amendment, I don't know if 
there's anyone that wants to speak to my amendment, but if not, 
I would withdraw.
    Chairman Smith. OK. I appreciate that. Without objection, 
the amendment is withdrawn.
    Mr. Tonko. Thank you.
    Chairman Smith. OK.
    Mr. Rohrabacher. Mr. Chairman?
    Chairman Smith. The gentleman from California, Mr. 
Rohrabacher, seeks recognition. What----
    Mr. Rohrabacher. As we move forward with this 
reauthorization, let us note that in the Constitution of the 
United States at article 1, section 8 of the Constitution 
establishes what authorities we have in our--what we are 
dealing from, the legal authority we started and where we're 
at. And in article 1, section 8, it says that the Federal 
Government shall have the power to fix standards and weights 
and measures. And I think that what we're doing today, I 
think--when we're--when we have such a massive debt that we're 
having to deal with, we need to go back and understand that 
when we are doing things that are fundamental and are important 
and fixing the standards and weights and measures for our 
country is exactly what NIST is all about and exactly what 
science is all about.
    And this I believe I would just like to remind our 
colleagues that we're doing something that our Founding Fathers 
could envision us doing, but it's up to us to do so in a 
responsible manner.
    Thank you very much.
    Chairman Smith. Good reminder, Mr. Rohrabacher. Thank you 
for that.
    If there are no further amendments, a reporting quorum 
being present, I move that the Committee on Science, Space, and 
Technology report H.R. 6229 to the House, as amended, with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 6229 to the 
House.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the motion to reconsider is laid upon 
the table. H.R. 6229 is ordered reported to the House. I ask 
unanimous consent that the staff be authorized to make any 
necessary technical and conforming changes. And without 
objection, so ordered.

    H.R. 6226

    Chairman Smith. Great. We now go to consideration of H.R. 
6226, and pursuant to notice, I call up H.R. 6226, the American 
Space SAFE Management Act. And the clerk will report the bill.
    The Clerk. H.R. 6226, a bill to direct the Secretary of 
Commerce to provide for civil space situational awareness 
services and information and for other purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point. And I'll recognize 
myself to speak in favor of the legislation.
    The world is on the cusp of an amazing revolution in space. 
Today, there are 1,100 active satellites in orbit. In a few 
years, there will be tens of thousands. And a variety of new 
and dynamic spacecraft will go into operation, such as private 
space stations, on-orbit repair and refueling satellites, and 
celestial resource prospectors. With this great increase in 
activity, it is time for our Nation to lead the world by 
establishing a space traffic management framework that will 
ensure a safe operating environment in outer space.
    The American Space SAFE Management Act addresses this 
timely and important challenge facing spacefaring nations. It 
does so by addressing science and technology, space situational 
awareness, and space traffic management. First, this act 
directs the Administration to coordinate its Federal research 
and development investments in space traffic management. It 
also directs the Administration to work collaboratively with 
the private sector. Finally, it establishes a NASA Center of 
Excellence that will develop, lead, and promote research in 
space traffic management.
    Second, this act creates a space situational awareness, or 
SSA, program within the Department of Commerce. Commerce will 
provide a basic level of SSA information and services, free of 
charge, to the public. While the Department of Defense retains 
the tracking sources currently used to compile the catalog of 
space objects, Commerce will augment that with data from other 
sources, including the private sector and foreign partners.
    Many stakeholders want access not only to SSA services but 
also to the underlying data, so this act establishes a space 
situational awareness testbed that complements the broader SSA 
program. This testbed will allow the public to access certain 
SSA data subject to relevant national security and foreign 
policy concerns.
    Third, a space traffic management framework will be 
established. This framework will be built on top-down voluntary 
guidelines developed by the government, bottom-up standards 
developed by industry, and a pilot space traffic coordination 
program. The pilot program will allow the government and 
stakeholders to experiment and learn more about the best ways 
to manage space traffic. This framework is a commonsense first 
step in what will be a long-term process of developing a 
comprehensive space traffic management framework.
    The American Space SAFE Management Act is the culmination 
of years of work that this Committee has undertaken. Over 4 
years ago, this Committee held its first of several hearings on 
space traffic management followed by many hearings, roundtable 
events, and meetings with stakeholders. The Space SAFE 
Management Act has the full support of the President; Vice 
President; the National Space Council; and Secretaries of 
Defense, Transportation, and Commerce.
    Original co-sponsors include Space Subcommittee Chairman 
Brian Babin, Representative Bera, Representative Lucas, 
Representative Perlmutter, and Representative Rohrabacher. 
Thanks go to the Committee Members and staff for developing 
this history-making, commonsense, bipartisan bill.

                  Prepared Statement of Chairman Smith

    The world is on the cusp of an amazing revolution in space. 
Today, there are eleven hundred active satellites in orbit. In 
a few years, there will be tens of thousands. And, a variety of 
new and dynamic spacecraft will go into operation, such as 
private space stations, on-orbit repair and refueling 
satellites and celestial resource prospectors.
    With this great increase in activity, it is time for our 
nation to lead the world by establishing a space traffic 
management framework that will ensure a safe operating 
environment in outer space.
    The American Space SAFE Management Act addresses this 
timely and important challenge facing spacefaring nations. It 
does so by addressing science and technology, space situational 
awareness, and space traffic management.
    First, this act directs the administration to coordinate 
its Federal research and development investments in space 
traffic management. It also directs the administration to work 
collaboratively with the private sector. Finally, it 
establishes a NASA Center of Excellence that will develop, lead 
and promote research in space traffic management.
    Second, this act creates a civil space situational 
awareness (SSA) program within the Department of Commerce. 
Commerce will provide a basic level of SSA information and 
services, free of charge, to the public. While the Department 
of Defense retains the tracking sources currently used to 
compile the catalog of space objects, Commerce will augment 
that with data from other sources, including the private sector 
and foreign partners.
    Many stakeholders want access not only to SSA services but 
also to the underlying data. So this act establishes a space 
situational awareness testbed that complements the broader SSA 
program. This testbed will allow the public to access certain 
SSA data subject to relevant national security and foreign 
policy concerns.
    Third, a space traffic management framework will be 
established. This framework will be built on top-down voluntary 
guidelines developed by the government, bottom-up standards 
developed by industry and a pilot space traffic coordination 
program.
    The pilot program will allow the government and 
stakeholders to experiment and learn more about the best ways 
to manage space traffic. This framework is a commonsense first 
step in what will be a long-term process of developing a 
comprehensive space traffic management framework.
    The American Space SAFE Management Act is the culmination 
of years of work that this committee has undertaken. Over four 
years ago, this committee held its first of several hearings on 
space traffic management followed by many hearings, roundtable 
events and meetings with stakeholders.
    The Space SAFE Management Act has the full support of the 
president, vice-president, the National Space Council, and the 
Secretaries of Defense, Transportation and Commerce.
    Original co-sponsors include Space Subcommittee Chairman 
Brian Babin, Rep. Bera, Rep. Lucas, Rep. Perlmutter and Rep. 
Rohrabacher. Thanks go to the committee members and staff for 
developing this history-making, common sense, bipartisan bill.

    Chairman Smith. At this time, I ask unanimous consent to 
enter in the record letters of support for the American Space 
SAFE Management Act from the following organizations: 
Commercial Spaceflight Federation, a trade association with 
over 80 members, companies, and organizations; Bigelow 
Aerospace; Maxar; and SpaceX.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    That concludes my statement.
    And do you want to be recognized? No.
    And we will now proceed with amendments in the order listed 
in the roster, and the first amendment on the roster is a 
manager's amendment, and I'll recognize myself to offer the 
amendment. And the clerk will report the amendment.
    The Clerk. Amendment to H.R. 6226, offered by Mr. Smith of 
Texas, amendment number 002.
    Chairman Smith. Without objection, the amendment is 
considered as read, and I recognize myself to explain the 
amendment.
    This amendment represents a good-faith effort to 
incorporate constructive feedback received from Representative 
Bera and Representative Perlmutter and other stakeholders after 
the bill was noticed for markup.
    This amendment directs the Secretaries of Commerce and 
Defense, in coordination with relevant agencies, to submit a 
plan outlining the transition of space situational awareness 
information and services program to the Department of Commerce 
and how a gap in providing SSA information and services will be 
prevented.
    This amendment clarifies that the Secretary of Commerce may 
leverage existing work force and experience of other Federal 
agencies.
    The amendment also makes it clear that the policy of the 
United States is to timely develop voluntary civil space 
traffic coordination guidelines, practices, and standards to 
ensure a safe operating environment and inform the development 
of a comprehensive space traffic management framework.
    Finally, the Secretary of Commerce is directed to report 
biannually on recommendations to facilitate the development of 
a comprehensive space traffic management framework. I firmly 
believe this amendment improves and strengthens the policy of 
the American Space SAFE Management Act.
    And I thank Representatives Bera and Perlmutter for their 
constructive engagement and negotiation of these policy 
provisions. It is a better bill as a result.
    Is there further discussion?
    The gentleman from California, Mr. Bera, the Ranking 
Member, is recognize for his----
    Mr. Bera. Thank you, Mr. Chairman.
    Chairman Smith [continuing]. Comments.
    Mr. Bera. As you've already noted, we've had multiple 
hearings on the complexity of space and the importance of space 
traffic management, and so I'm glad that this process continues 
to move forward.
    As we discussed at the hearing last week in the 
Subcommittee, you know, it still remains to be seen what the 
best transition looks like, but we all agree that there does 
need to be a transition. And I'm glad that the Chairman was 
able to direct DOD and Commerce through the manager's amendment 
and improving the bill to come back to Congress for a report on 
what this would look like.
    I think General Hyten said it best in--you know, when he 
described, you know, if you're walking on a wing and a wing-
walker, you don't let go of one strut until you're firmly 
holding the next strut. And, you know, let's make sure have a 
firm grip on that next strut before we let go of this--the 
current DOD strategy.
    So, again, I thank the Chairman for, you know, accepting 
some of the suggestions that Mr. Perlmutter and I made, and I 
think it does make the bill a better bill. And I'll be 
supporting the bill.
    Chairman Smith. Thank you, Mr. Bera.
    And the gentleman from Colorado, Mr. Perlmutter, is 
recognized.
    I might warn the gentleman there's nothing about Mars in 
this amendment.
    Mr. Perlmutter. Move to strike the last word.
    Chairman Smith. And the gentleman's recognized for 5 
minutes.
    Mr. Perlmutter. Thanks, Mr. Chairman. And I appreciate the 
Chairman's willingness to work with me and Congressman Bera in 
connection with this bill. I think this is an important bill. 
Obviously, from the testimony we heard last week from General 
Hyten, Administrator Bridenstine, and Secretary Ross, and we 
know on this Committee that as we continue to launch, as we 
continue to add satellites and CubeSats, as the debris 
continues to mount, we have to have management of the traffic 
up there.
    And within this bill, we talk about space situational 
awareness. That's really knowing what is up there and where it 
is, and that would be primarily the Defense Department's 
responsibility to pinpoint. And then under the bill to have 
Commerce working with NASA, DOD, and other agencies develop 
this management plan in case of collisions and figuring out 
who's in what lane and the like.
    And so one of the things that we've done--and I appreciate 
the majority's willing to work with us in this manager's 
amendment is to make sure that Commerce has sufficient 
personnel either through NASA's cooperation or Department of 
Defense's cooperation to be able to do this right.
    And so we'll figure out as we develop this space 
situational awareness and space traffic management, you know, 
who's doing what, but we have to get busy. And I appreciate the 
Chairman's taking this bill and moving forward.
    I do want us to continue to visit about this because I 
think there are some other sections we do need to talk about so 
that they aren't counterproductive, and that would be the 
section on immunity, which is found on page 9, lines 3 through 
11. We ought to talk about that some more as the bill proceeds.
    And then also as to the voluntary guidelines because at 
some point there needs to be the ability to enforce who's in 
what lane, who was negligent, who did what. And it's not just 
going to be a voluntary kind of a setting I don't think because 
I liken it to actual traffic management here on Earth, to make 
sure people know how things are being managed and who's in what 
lane.
    But I think this is a--really a good approach. I'm prepared 
to support it. And I thank the Chairman for working with us in 
trying to figure out how best to implement this management 
program.
    I yield back.
    Chairman Smith. OK. Thank you, Mr. Perlmutter, for your 
contributions to the bill through the amendment. And you 
mentioned liability, which we all know is a delicate balance, 
but we can continue to try to address that as well.
    If there's no further discussion on the amendment, all in 
favor, say aye.
    Those opposed, no.
    The ayes have it, and the amendment is agreed to.
    We'll now go to what I believe will be the last amendment 
of the day, and this will be an amendment offered by the 
Ranking Member, the gentlewoman from Texas, Ms. Johnson. She's 
recognized for that purpose.
    Ms. Johnson. Thank you, Mr. Chairman. I have an amendment 
at the desk.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment in the nature of a substitute to H.R. 
6226, offered by Ms. Johnson of Texas, amendment number 001.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentlewoman is recognized to 
explain her amendment.
    Ms. Johnson. Thank you, Mr. Chairman.
    My amendment is very straightforward. It would direct NASA 
Administrator to enter into an arrangement with the National 
Academies to carry out an assessment of what capabilities are 
needed for the provision of civil Federal Government space 
situational awareness data, information, and services, as well 
as what capabilities currently exist at Federal agencies to 
meet these needs.
    The assessment would provide a recommendation to Congress 
as to which agencies should be the lead in delivering the space 
situational awareness functions. The National Academies would 
deliver this assessment to Congress within 1 year.
    The intent of my amendment is also very straightforward. It 
is intended to give Congress the information it will need to 
determine which government agency should be the lead for the 
provision of civil space situational awareness or SSA. Because 
we should not simply rubberstamp the Trump Administration's 
proposal to have the Department of Commerce be the lead agency 
any more than we should simply adopt the interagency consensus 
reached in the Obama Administration that FAA should be the 
lead.
    As was strongly argued by at least one Member of the first 
of last Friday's hearing on SSA, the one we have held on the 
topic in more than 4 years, the Administration can propose its 
approach to civil SSA, but Congress then needs to do its job 
and engage in serious oversight, hold hearings in here from a 
broad array of stakeholders. Only after it has been done--it 
has done its own work on the issue and examined the 
Administration's proposals in depth can Congress make informed 
decisions about the best way to proceed.
    This Committee has somehow found the time to hold at least 
five hearings under our Chairman on the search of alien life, 
an interesting topic to be sure, but with little legislative 
relevance. At the same time, we can't be bothered to seriously 
investigate the legislative and policy proposals put forth by 
the current Administration. We're once again rushing to a 
markup today without having first done our homework and our job 
as legislators, and so we will once again mark up a bill that 
has received very little serious scrutiny.
    My amendment would allow the rush to be blindly fall in 
line--would slow the rush to the--blindly fall in line behind 
this Administration's plan and instead let us make sure the 
independent and objective analysis of the National Academies.
    Some may say that we can't afford to wait a year to get the 
information we need, but I ask why not? The DOD is going to 
continue to provide their SSA services. It is not going to 
unilaterally walk away from that responsibility. We are not 
risking anything by taking time to do our job as Members of 
Congress.
    I had planned to offer an amendment that would have 
assigned the lead SSA responsibility to our Nation's premiere 
space agency NASA to make the point that there are serious 
alternatives to Commerce that need to be considered by 
Congress. In many ways, it makes more sense to assign the role 
to NASA. NASA already works closely with DOD on SSA and on 
collision avoidance. It has a wealth of knowledge and 
experience and resources that it can bring to bear. NASA has 
demonstrated the ability to garner international support on 
past issues, and I believe it can do the same for SSA and space 
traffic management because it is trusted as an unbiased, 
neutral agency.
    Some will say that while NASA is the most qualified civil 
agency to do the job, they're not a regulatory agency. I agree. 
NASA is not a regulatory agency. But as I read the bill, there 
are no regulatory responsibilities defined or mandated in the 
lead civil agency for SSA. But at the end of the day, I'm not 
prepared to say that NASA is the answer even if it appears to 
be an obviously better choice than Commerce.
    We simply do not yet have enough information to make an 
informed decision. This is why we need the National Academies 
to help us understand these complex issues. We might not agree 
with the Academies' recommendation, but if in the meantime we 
are also doing our job as a Committee and holding hearings and 
getting input from experts and stakeholders, we will be far 
better prepared to legislate in this area after we get the 
Academies' assessment.
    And there could be serious consequences if we get this 
wrong. In the past, when Congress has legislated haphazardly 
and assigned brand-new functions to agencies ill-equipped to 
deal with them, bad things have happened. Assigned SSA function 
to an unprepared agency could end up costing the Federal 
Government a lot of wasted money and time, and we stand up to 
what is essentially a new agency when other better alternatives 
may already exist.
    In summary, my amendment is really a Science Committee do-
your-job amendment, and I urge my colleagues to support it. And 
I thank you and yield back.
    Chairman Smith. Thank you, Ms. Johnson.
    And I'll recognize myself in opposition to the amendment.
    This amendment would direct the National Academy of Science 
to conduct an assessment and recommend a space traffic 
management framework. I don't think we need to wait for another 
study on this topic. Congress has asked and received similar 
studies. Pursuant to the Commercial Space Launch 
Competitiveness Act of 2015, NASA delivered to Congress over 18 
months ago a report on, quote, ``frameworks for the management 
of space traffic and orbital activities,'' end quote.
    In addition, the Institute for Defense Analyses did a 
report, which is publicly available, for the Obama 
Administration in 2016 evaluating options for civil space 
situational awareness. It is time for us to act.
    As General Hyten and Administrator Bridenstine testified 
last week, time is critical. The number of commercial 
satellites in space are predicted to grow from 1,300 active 
satellites today to more than 10,000 in just the next few 
years. If we don't develop a space traffic management framework 
immediately, we risk the safety of the space operational 
environment, so I have to oppose the amendment.
    Is there any further discussion?
    If not, the question is on agreeing to the amendment 
offered by Ms. Johnson.
    All in favor, say aye.
    Ms. Johnson. I ask for record vote.
    Chairman Smith. A recorded vote has been requested, and the 
clerk will call the roll. And let me say we may be leaving the 
vote open for a couple of minutes, too, depending on the 
result. No, I think we've got--I take it back. I think we've 
got good representation over here. OK.
    The Clerk. Mr. Smith?
    Chairman Smith. No.
    The Clerk. Mr. Smith votes no.
    Mr. Lucas?
    Mr. Lucas. No.
    The Clerk. Mr. Lucas votes no.
    Mr. Rohrabacher?
    Mr. Rohrabacher. No.
    The Clerk. Mr. Rohrabacher votes no.
    Mr. Brooks?
    Mr. Brooks. No.
    The Clerk. Mr. Brooks votes no.
    Mr. Hultgren?
    Mr. Hultgren. No.
    The Clerk. Mr. Hultgren votes no.
    Mr. Posey?
    Mr. Posey. No.
    The Clerk. Mr. Posey votes no.
    Mr. Massie?
    [No response.]
    The Clerk. Mr. Weber?
    [No response.]
    The Clerk. Mr. Knight?
    Mr. Knight. No.
    The Clerk. Mr. Knight votes no.
    Mr. Babin?
    [No response.]
    The Clerk. Mrs. Comstock?
    [No response.]
    The Clerk. Mr. Loudermilk?
    Mr. Loudermilk. No.
    The Clerk. Mr. Loudermilk votes no.
    Mr. Abraham?
    [No response.]
    The Clerk. Mr. Palmer?
    Mr. Palmer. No.
    The Clerk. Mr. Palmer votes no.
    Mr. Webster?
    [No response.]
    The Clerk. Mr. Biggs?
    Mr. Biggs. No.
    The Clerk. Mr. Biggs votes no.
    Mr. Marshall?
    Mr. Marshall. No.
    The Clerk. Mr. Marshall votes no.
    Mr. Dunn?
    Mr. Dunn. No.
    The Clerk. Mr. Dunn votes no.
    Mr. Higgins?
    Mr. Higgins. No.
    The Clerk. Mr. Higgins votes no.
    Mr. Norman?
    Mr. Norman. No.
    The Clerk. Mr. Norman votes no.
    Mrs. Lesko?
    Mrs. Lesko. No.
    The Clerk. Mrs. Lesko votes no.
    Ms. Johnson?
    Ms. Johnson. Aye.
    The Clerk. Ms. Johnson votes yes.
    Ms. Lofgren?
    [No response.]
    The Clerk. Mr. Lipinski?
    Mr. Lipinski. Aye.
    The Clerk. Mr. Lipinski votes yes.
    Ms. Bonamici?
    Ms. Bonamici. Aye.
    The Clerk. Ms. Bonamici votes yes.
    Mr. Bera?
    Mr. Bera. No.
    The Clerk. Mr. Bera votes no.
    Ms. Esty?
    Ms. Esty. Aye.
    The Clerk. Ms. Esty votes yes.
    Mr. Veasey?
    Mr. Veasey. Aye.
    The Clerk. Mr. Veasey votes yes.
    Mr. Beyer?
    [No response.]
    The Clerk. Ms. Rosen?
    Ms. Rosen. Aye.
    The Clerk. Ms. Rosen votes yes.
    Mr. Lamb?
    Mr. Lamb. Yes.
    The Clerk. Mr. Lamb votes yes.
    Mr. McNerney?
    Mr. McNerney. Yes.
    The Clerk. Mr. McNerney votes yes.
    Mr. Perlmutter?
    Mr. Perlmutter. My Ranking Member makes a lot of good 
points, but no.
    The Clerk. Mr. Perlmutter votes no.
    Mr. Tonko?
    Mr. Tonko. Aye.
    The Clerk. Mr. Tonko votes yes.
    Mr. Foster?
    Mr. Foster. Aye.
    The Clerk. Mr. Foster votes yes.
    Mr. Takano?
    Mr. Takano. Aye.
    The Clerk. Mr. Takano votes yes.
    Ms. Hanabusa?
    Ms. Hanabusa. Aye.
    The Clerk. Ms. Hanabusa votes yes.
    Mr. Crist?
    Mr. Crist. Aye.
    The Clerk. Mr. Crist votes yes.
    Chairman Smith. You got back. Thank you. Do we have some--
who's on their way? The clerk will report the vote.
    The Clerk. Mr. Chairman, 13 Members have voted yes, 17 
Members have voted no.
    Chairman Smith. OK. And the amendment is not agreed to.
    [GRAPHIC] [TIFF OMITTED] T5710.460
    
    If there are no further amendments, a reporting quorum 
being present, I move that the Committee on Science, Space, and 
Technology report H.R. 6226, as amended, to the House with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 6226 to the 
House, as amended.
    All those in favor, say aye.
    Mr. Rohrabacher. Mr. Chairman?
    Chairman Smith. Who seeks to be recognized? The gentleman 
from California in the middle of a vote wants to be recognized.
    Mr. Rohrabacher. I tried to get your attention before you 
called the vote.
    Chairman Smith. OK. The gentleman is recognized.
    Mr. Rohrabacher. I'll make this very quick. I'd just like 
to express my strong support for this bill, H.R. 6226. Just to 
note that I've been working on legislation like this for about 
20 years, and so I'm very gratified by your leadership and the 
unanimity that we have among our colleagues to actually provide 
a useful nonregulatory approach to dealing with very serious 
challenges of space debris, space situational awareness, and 
space traffic coordination.
    This act lays the foundation for developing the 
technologies that will enable private industry and--as well as 
government and provide the development of the standards and the 
framework that will lead us to the best solutions of these very 
serious challenges that, as I say, for 15 years I've been 
talking about debris, and I'm gratified that we have taken it 
seriously and that this Administration is taking it seriously.
    This is a major step in the right direction that will 
enable us to deal with roadblocks that if we do not deal with 
these roadblocks, we will be prevented from utilizing to its 
best degree the benefits of space for our country and for all 
mankind.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Rohrabacher, for those 
constructive comments.
    And the gentlewoman from Texas, the Ranking Member, Ms. 
Johnson, is also recognized for her comments.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    That statement supports why I want us to do our work well, 
and I want to thank Mr. Rohrabacher for making my point. I will 
not object to the passing of this legislation, but I want the 
record to reflect that we have a responsibility to do the work 
that we were sent here to do for the good of the people of the 
Nation.
    Chairman Smith. OK. Thank you, too, Ms. Johnson.
    The question is on favorably reporting H.R. 6226 to the 
House, as amended.
    All those in favor, say aye.
    All those opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the motion to reconsider is laid upon 
the table. H.R. 6227 is ordered reported to the House. I ask 
unanimous consent that staff be authorized to make any 
necessary technical and conforming changes. Without objection, 
so ordered.
    Before we adjourn, I just want to--this is probably the 
best turnout we've had of Members of this Committee, and I just 
appreciate everybody's participation and presence. And I also 
want to especially thank the staff. We had staff on both sides 
of four Subcommittees involved with these three bills, and for 
some reason Chris Wydler always seems to be in the middle of 
everything. But anyway, we appreciate the work of all the staff 
on both sides.
    And also, I think this--let me make a rough prediction here 
that when we finish our suspension votes on the floor this 
afternoon, I think the Committee will have successfully taken 
33 bills to the floor, 30 of which were bipartisan, so it's a 
credit to Members of this Committee on both sides.
    If there's no further discussion, that completes our 
business. This concludes the Science Committee markup. Without 
objection, the Committee stands adjourned.
    [Whereupon, at 11:19 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


  H.R. 6227, Amendment Roster, H.R. 6229, H.R. 6226, Amendment Roster

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                   PROCEEDINGS OF THE FULL COMMITTEE
                          MARKUP ON H.R. 6398,
                          DEPARTMENT OF ENERGY
                    VETERANS' HEALTH INITIATIVE ACT
                    
                               ----------                              


                        WEDNESDAY, JULY 18, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:09 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lamar 
Smith [Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Pursuant to Committee rule 2(e) and House rule XI(2)(h)(4), 
the Chair announces that he may postpone roll call votes on the 
following bill, which we meet to consider, H.R. 6398, the 
Department of Energy Veterans' Health Initiative Act.
    I now recognize myself for an opening statement.
    Today, we consider H.R. 6398, the Department of Energy 
Veterans' Health Initiative Act, introduced by Energy 
Subcommittee Member Ralph Norman and co-sponsored by joint 
Veterans Affairs and Science Committee Members Neal Dunn and 
Clay Higgins, as well as 12 other Science Committee Members.
    This legislation authorizes the Department of Energy to 
conduct collaborative research with the Department of Veterans 
Affairs in order to solve complex, big-data challenges focused 
on veterans' health care and basic science.
    Currently, DOE and the VA collaborate through the Million 
Veterans Program-Computational Health Analytics for Medical 
Precision to Improve Outcomes Now, or MVP-CHAMPION program, 
which is the longest acronym I've ever encountered. And I 
forgot to ask which staff Member came up with that. We'll talk 
later on. Oh, DOE, OK.
    Through this initiative, the VA collects genomic and 
healthcare data from veterans who volunteer for the program. 
The VA then provides this data to DOE, where it is stored in a 
secure site at Oak Ridge National Laboratory. This partnership 
provides VA researchers access to DOE's high-performance 
computing research facilities, like the world's fastest 
supercomputer, the Summit computer at Oak Ridge. It also 
leverages DOE's expertise in complex modeling and data 
analysis, which can help the VA use their data to learn more 
about the causes and warning signs of various diseases.
    By giving DOE access to a large-scale data base, the VA 
will help the Energy Department develop next-generation 
computing, algorithms, and modeling capability. While these 
tools can help the VA develop quality health care for veterans, 
they can also be applied to computing efforts in support of 
DOE's core mission programs, such as materials science, 
physics, or nuclear weapons research.
    This legislation will leverage DOE's world-leading 
computing capability to provide the VA with data analysis to 
improve veterans' quality of life.
    Mr. Norman's bill also authorizes a 2-year, crosscutting 
research pilot program to advance research in artificial 
intelligence, data analytics, and computational research. This 
pilot program supports DOE's efforts to improve the analysis 
and interpretation of big-data challenges to meet the nuclear 
security, energy, and science mission goals of the Department. 
It will facilitate more collaborations like DOE's work with the 
VA, giving Federal agencies, academia, and industry the chance 
to benefit from the Department's expertise.
    I thank the bill's sponsors for bringing this important 
legislation before us today.
    And finally, we are postponing action on the other bill 
noticed for this morning to address jurisdictional concerns.

                  Prepared Statement of Chairman Smith

    Today we will consider H.R. 6398, the Department of Energy 
Veterans' Health Initiative Act, introduced by Energy 
Subcommittee member Ralph Norman, and co-sponsored by joint 
Veterans Affairs and Science Committee members Neal Dunn and 
Clay Higgins, as well as 12 other Science Committee members.
    This legislation authorizes the Department of Energy (DOE) 
to conduct collaborative research with the Department of 
Veterans Affairs (VA) in order to solve complex, big data 
challenges focused on veteran's health care and basic science.
    Currently, DOE and the VA collaborate through the ``Million 
Veterans Program-Computational Health Analytics for Medical 
Precision to Improve Outcomes Now,'' or MVP-CHAMPION program.
    Through this initiative, the VA collects genomic and health 
care data from veterans who volunteer for the program. The VA 
then provides this data to DOE, where it is stored in a secure 
site at Oak Ridge National Laboratory.
    This partnership provides VA researchers access to DOE's 
high performance computing research facilities-like the world's 
fastest supercomputer, the Summit computer at Oak Ridge. It 
also leverages DOE's expertise in complex modeling and data 
analysis, which can help the VA use their data to learn more 
about the causes and warning signs of various diseases.
    By giving DOE access to a large-scale database, the VA will 
help the Energy Department develop next generation computing, 
algorithms and modeling capability.
    While these tools can help the VA develop quality 
healthcare for veterans, they can also be applied to computing 
efforts in support of DOE's core mission programs, such as 
materials science, physics or nuclear weapons research.
    This legislation will leverage DOE's world-leading 
computing capability to provide the VA with data analysis to 
improve veterans' quality of life.
    Mr. Norman's bill also authorizes a two-year, cross-cutting 
research pilot program to advance research in artificial 
intelligence, data analytics and computational research. This 
pilot program supports DOE's efforts to improve the analysis 
and interpretation of big data challenges to meet the nuclear 
security, energy and science mission goals of the Department.
    It will facilitate more collaborations like DOE's work with 
the VA, giving federal agencies, academia and industry the 
chance to benefit from the Department's expertise. I thank the 
bill's sponsors for bringing this important legislation before 
us today.
    Finally, we are postponing action on the other bill noticed 
for this morning to address jurisdictional matters related to 
the bill. We plan to take action on the bill in the near 
future.

    Chairman Smith. With that, I'll yield to the Ranking 
Member, the gentlewoman from Texas, Ms. Johnson, for her 
opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman. And good 
morning to everyone.
    Today, we are marking up the Department of Energy's 
Veterans' Health Initiative Act. This bill codifies actions 
that were proposed in the last budget request. The bill 
authorizes the Department of Energy or DOE to conduct 
collaborative research with Department of Veterans Affairs in 
order to address complex, large data-management challenges 
associated with veterans' healthcare issues.
    This bill also directs DOE to carry out a 2-year research 
pilot program to advance research in artificial intelligence 
and data analytics for a broad range of potential applications. 
These are both worthy ideas, and I support both of these 
activities. For that reason, I will not oppose the passage of 
this bill today. However, I think these worthy activities could 
have been better addressed by our Committee if we had been a 
little bit more thoughtful in drafting this legislation.
    When this bill was noticed for markup last Friday, the bill 
had still not been vetted by the VA or the Veterans' Affairs 
Committee. Given that the bill is about veterans' affairs, that 
seems like a pretty big oversight.
    We're going to consider the manager's amendment to address 
some of the concerns that we have heard from them, and I 
understand that the VA has expressed concern about the bill in 
general. Perhaps if we really wanted to help the veterans at 
the heart of this bill, we should have legislated with a little 
bit more care because passing this bill out of Committee today 
doesn't accomplish anything if the bill ends up dying in the 
Veterans' Affairs Committee.
    I would note that this bill has already been referred to 
the Veterans' Affairs Committee, so I think it is vitally 
important that we work collaboratively with them on this 
legislation as we move forward.
    Thank you, and I yield back.

                   Prepared Statement of Ms. Johnson

    Thank you, Chairman Smith, and good morning to everyone. 
Today we are marking up the Department of Energy Veterans' 
Health Initiative Act. This bill codifies actions that were 
proposed in the last budget request. The bill authorizes the 
Department of Energy (DOE) to conduct collaborative research 
with the Department of Veterans Affairs (VA) in order to 
address complex, large data management challenges associated 
with veterans' health care issues.
    This bill also directs DOE to carry out a two-year research 
pilot program to advance research in artificial intelligence 
and data analytics for a broad range of potential applications. 
These are both worthy ideas, and I support both of these 
activities. For that reason, I will not oppose passage of this 
bill today. However, I think these worthy activities could have 
been better addressed by our Committee if we had been a little 
more thoughtful in drafting this legislation. When this bill 
was noticed for markup last Friday, the bill had still not been 
vetted by the VA or the Veterans Affairs Committee. Given that 
the bill is about veterans affairs, that seems like a big 
oversight. We are going to consider a Manager's Amendment to 
address some of the concerns that we've now heard from them, 
but I understand that the VA has expressed concern about the 
bill in general.
    Perhaps if we really wanted to help the veterans at the 
heart of this bill, we should have legislated with a little 
more care, because passing this bill out of Committee today 
doesn't accomplish anything if the bill ends up dying at the 
Veterans Affairs Committee. I would note that this bill has 
already been referred to the Veterans Affairs Committee. So I 
think it is vitally important that we work collaboratively with 
them on this legislation as we move forward.
    I yield back.

    Chairman Smith. Thank you, Ms. Johnson.
    Pursuant to notice, I now call up H.R. 6398, the Department 
of Energy Veterans' Health Initiative Act, and the clerk will 
report the bill.
    The Clerk. H.R. 6398, a bill to authorize the Department of 
Energy to conduct collaborative research with the Department of 
Veterans Affairs in order to improve healthcare services for 
veterans in the United States and for other purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point. And I'll recognize 
myself briefly to comment on the legislation.
    H.R. 6398 maximizes the impact of Department of Energy 
resources, research, and expertise, and ensures that the 
Department of Veterans Affairs can provide the best possible 
care to our veterans.
    I look forward to hearing from the bill's sponsors and 
encourage my colleagues to support this bill.
    I now recognize the bill's sponsor, the gentleman from 
South Carolina, Mr. Norman, to speak on the legislation.
    Mr. Norman. Thank you, Chairman Smith and Ranking Member 
Johnson.
    I got an excited call this morning from a military vet 
who--and I didn't realize this, but Marcus Latrell, the lone 
survivor whose publicized brother is a vital part of this 
action that we've decided to take today, which adds more 
emphasis to it.
    My bill--as has been said, my bill authorizes partnership 
between DOE and the Department of Veterans Affairs to advance 
research focused on artificial intelligence, big-data science, 
and the high-priority health care needs of the Veterans 
Administration.
    Because of the millions of veterans that have received care 
over time, the VA hosts one of the world's largest and most 
valuable health and genomic data repositories. In order to 
learn from this data and provide better health care for 
veterans, the VA needs access to more advanced computing 
capabilities, expertise, and infrastructure than is currently 
available within the agency.
    DOE is a world leader in high-performance computing and is 
well-suited to meet this need. With its national laboratory 
system, DOE has a unique set of cutting-edge research 
capabilities like six of the world's ten fastest computers, 
which were designed to solve a variety of complex big-data 
challenges in the physical sciences.
    The interagency partnership authorizes in my bill combines 
DOE's big-data science expertise with VA clinical and 
population science expertise in order to solve critical 
healthcare challenges for veterans, while promising to advance 
big-data science tools for American researchers.
    This partnership, called the Million Veterans Program-
Computational Health Analytics for Medical Precision to Improve 
Outcomes Now or MVP-CHAMPION--the most valuable champion 
program--will use DOE supercomputers to analyze VA health data, 
looking for patterns and symptoms to improve treatment for 
heart disease, traumatic brain injury, and cancer.
    The bill also requires the Department to establish data 
enclaves to securely store and transmit data provided by the 
VA, making sure privacy and security are maintained for 
veterans involved in this program.
    In addition, this legislation establishes a pilot program 
within DOE to implement a crosscutting research initiative in 
artificial intelligence, data analytics, and computational 
research. This program will help DOE scientists gain 
fundamental knowledge and improved understanding of big-data 
analytics tools in order to address big-data challenges. These 
tools will both help improve the existing DOE-VA partnership 
and will advance DOE mission goals in nuclear security, energy 
technology development, and innovative science research.
    Ultimately, the goal of this legislation is for the DOE 
national laboratories to provide the VA with information it can 
use to improve healthcare services for veterans. The access to 
the breadth, depth, and complexity of the VA dataset will also 
advance the next generation of data science tools.
    The DOE Veterans' Health Initiative Act promises to improve 
veterans' health care and advance DOE capabilities in computer 
science. Our veterans should have access to better healthcare 
services, and our scientists should remain on the cutting edge 
of big-data analytics and advanced computing.
    Once again, I would like to thank Chairman Smith and the 
other Science Committee Members who cosponsored this 
legislation for supporting my bill. I encourage my colleagues 
to support this bill, and I yield back the balance of my time.

                    Prepared Statement of Mr. Norman

    Thank you, Chairman Smith, for the opportunity to speak on 
behalf of my bill, H.R. 6398, the Department of Energy 
Veterans' Health Initiative Act.
    My bill authorizes partnership between the Department of 
Energy (DOE) and the Department of Veterans Affairs (VA) to 
advance research focused on artificial intelligence, big data 
science and the high priority health care needs of the VA.
    Because of the millions of veterans that have received care 
overtime, the VA hosts one of the world's largest and most 
valuable health and genomic data repositories.
    In order to learn from this data and provide better health 
care for veterans, the VA needs access to more advanced 
computing capabilities, expertise and infrastructure than is 
currently available in the agency.
    DOE is a world leader in high performance computing, and is 
well suited to meet this need. With its national laboratory 
system, DOE has a unique set of cutting-edge research 
capabilities-like six of the world's ten fastest 
supercomputers-designed to solve a variety of complex big data 
challenges in the physical sciences.
    The interagency partnership authorized in my bill combines 
DOE's big data science expertise with VA clinical and 
population science expertise in order to solve critical health 
challenges for veterans, while promising to advance big data 
science tools for American researchers.
    This partnership-called the Million Veterans Program-
Computational Health Analytics for Medical Precision to Improve 
Outcomes Now or MVP-CHAMPION program-will use DOE 
supercomputers to analyze VA health data, looking for patterns 
and symptoms to improve treatment for heart disease, traumatic 
brain injury and cancer.
    The bill also requires the Department to establish data 
enclaves to securely store and transmit data provided by the 
VA, making sure privacy and security are maintained for 
veterans involved in the program.
    In addition, this legislation establishes a pilot program 
within DOE to implement a crosscutting research initiative in 
artificial intelligence, data analytics and computational 
research.
    This program will help DOE scientists gain fundamental 
knowledge and improved understanding of big data analytics 
tools in order to address big data challenges.
    These tools will both help improve the existing DOE-VA 
partnership, and will advance DOE mission goals in nuclear 
security, energy technology development and innovative science 
research.
    Ultimately, the goal of this legislation is for the DOE 
national laboratories to provide the VA with information it can 
use to improve health care services for veterans. The access to 
the breadth, depth and complexity of the VA dataset will also 
advance the next generation of data science tools.
    The Department of Energy Veterans' Health Initiative Act 
promises to improve veterans' health care and advance DOE 
capabilities in computer science.
    Our veterans should have access to better health care 
services and our scientists should remain on the cutting edge 
of big data analytics and advanced computing.
    Once again, I would like to thank Chairman Smith and the 13 
other Science Committee members who cosponsored this 
legislation for supporting my bill. I encourage my colleagues 
to support this bill, and I yield back the balance of my time.

    Chairman Smith. Thank you, Mr. Norman.
    I understand the gentleman from California, Mr. Takano, has 
a comment on the bill, and he's recognized for that purpose.
    Mr. Takano. Thank you, Chairman Smith and Ranking Member 
Johnson. I move to strike the last word.
    I want to express my concerns for how this bill has been 
handled. I support the aims of the bill, and I think everyone 
here agrees that leveraging technology to improve the health of 
veterans is a good thing. However, the VA and the Department of 
Energy already have a reimbursement agreement in place to do 
this work. And Veterans' Affairs Committee staff have informed 
me that this bill might actually make it more difficult for the 
two departments to continue this work.
    Now, I'm encouraged the manager's amendment seeks to 
address the VA's concerns, but in the future we need to be 
engaging agencies sooner and all the stakeholders involved 
sooner. While I think we should be devoting more resources for 
veterans' health care and research, it is essential that we 
spend the money effectively.
    I know the VA has expressed concerns about how they would 
spend the money in this bill and the program's duplicative 
nature. Just yesterday, I presided over a hearing in Veterans' 
Affairs Committee where Federal employee representatives told 
us VA is struggling to find and retain high-quality staff. Now, 
when we write legislation that affects multiple agencies like 
this, it is important that we take time to consult all the 
stakeholders.
    I'm very proud of the bipartisan manner in which we often 
work when it comes to veterans' issues, as many of my 
colleagues here know who serve on both Committees of 
jurisdiction. In the future, and as we move forward on this 
bill, I hope we can work together to make sure we get this 
right.
    Thank you, and I yield back.
    Chairman Smith. Thank you, Mr. Takano.
    We will now go to amendments, and the only amendment I'm 
aware of I believe will be offered by the gentleman from 
Florida, Mr. Dunn, and he's recognized for that purpose.
    Mr. Dunn. Mr. Chairman, I have an amendment at the desk.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment to H.R. 6398, offered by Mr. Dunn of 
Florida, amendment number 01. Page 5, line 13, insert an order 
to carry out a reimbursable agreement after memorandum of 
understanding. Page 6, line 11, strike section 4 and all that 
follows through 2020 and line 12 and insert the following: 
``section during fiscal years 2019 through 2013.''
    Chairman Smith. And without objection, the amendment is 
considered as read and the gentleman is recognized to explain 
his amendment.
    Mr. Dunn. Thank you, Mr. Chairman, for the opportunity to 
introduce my amendment. This straightforward amendment makes 
technical changes requested by the Department of Veterans 
Affairs. My amendment reflects how the VA manages the research 
program authorized in the bill, and it includes language to 
ensure the appropriate structure for interagency cooperation 
between the VA and the Department of Energy.
    As the Chairman of the Subcommittee on Health on Veterans 
Affairs, a Member of this Committee, Science, Space, and 
Technology, and as a veteran myself, I'm happy to be an 
original cosponsor of Mr. Norman's legislation. The 
collaborative research authorized in this bill provides the VA 
researchers access to the Department of Energy's high-
performance computing systems, systems capable of making over 
200,000 trillion calculations per second. That's properly 200 
quintillion calculations per second. In turn, the Department of 
Energy receives an access to a massive treasure trove of rich, 
contextualized data from the Veterans Administration.
    VA patients have volunteered for many years genomic and 
healthcare data that the Department of Energy transferred to a 
secure data site in Oak Ridge. Part of the data includes the 
most detailed DNA sequencing, allowing for high-quality genomic 
research. With a rich and expansive dataset, the VA's Million 
Veterans Program provides an incredible opportunity to use 
DOE's next-generation quantum computing capabilities to study 
and solve complex healthcare problems, problems that were 
previously beyond our reach.
    My colleagues on this Committee and I first heard about 
this DOE-VA research partnership during a tour of Argonne 
National Laboratories in May. Not only were DOE researchers 
excited to develop new methods to help our veterans, but the 
DOE and the VA have potential to solve healthcare problems for 
all Americans by applying these analytical methods, models, and 
whatnot that are developed through this program.
    I'm pleased that the Science Committee has worked so hard 
and so closely with the House Veterans' Affairs Committee in 
developing my amendment, which addresses the VA's technical 
changes and recommendations to improve this bill. I look 
forward to our continued collaboration on H.R. 6398 and 
hopefully many other similar projects in the future.
    I want to thank Representative Ralph Norman and Chairman 
Lamar Smith and all of my Science Committee colleagues for 
their leadership and support of this important and exciting 
legislation. I encourage all of my colleagues to support this 
amendment, and I yield back the balance of my time.
    Chairman Smith. Thank you, Mr. Dunn.
    And the Ranking Member, the gentlewoman from Texas, is 
recognized for her comments.
    Ms. Johnson. Thank you very much, Mr. Chairman. I move to 
strike the last word.
    I support the adoption of this amendment. It addresses some 
of the concerns that we've heard from the VA and it makes the 
bill a better bill. However, as I noted in my opening 
statement, it would have made more sense to have consulted with 
the VA and the Veterans' Affairs Committee prior to announcing 
the markup. Then we probably wouldn't have needed this 
amendment, and more importantly, the bill would face such an--
would not be facing such an uncertain future.
    I thank you and yield back.
    Chairman Smith. Thank you, Ms. Johnson.
    Is there any further discussion on the amendment?
    If not, the question is on agreeing to the amendment 
offered by Mr. Dunn.
    All in favor, say aye.
    Opposed no.
    The ayes have it, and the amendment is agreed to.
    If there are no further amendments, a reporting quorum 
being present, I move that the Committee on Science, Space, and 
Technology report H.R. 6398 to the House, as amended, with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 6398 to the 
House, as amended.
    All those in favor, say aye.
    Opposed, nay.
    The ayes have it, and the bill is ordered reported 
favorably.
    Without objection, the motion to reconsider is laid upon 
the table. H.R. 6398 is ordered reported to the House.
    I ask unanimous consent that staff be authorized to make 
any necessary technical and conforming changes. Without 
objection, so ordered.
    And the gentlewoman from Texas seeks recognition.
    Ms. Johnson. Mr. Chairman, I simply want to welcome our new 
Member, Mr. Cloud----
    Chairman Smith. No, no, wait a minute. Wait a minute.
    Ms. Johnson. Oh, I'm sorry.
    Chairman Smith. I'm just getting ready to do that.
    Ms. Johnson. OK.
    Chairman Smith. You can't----
    Ms. Johnson. I'll wait.
    Chairman Smith. You--I--you can't get ahead of me on this.
    And--you weren't looking at my notes or you would have 
seen----
    Ms. Johnson. No, I didn't.
    Chairman Smith [continuing]. He was up next.
    Ms. Johnson. I should have been looking over there.
    Chairman Smith. OK. And I would like to welcome and 
obviously recognize the newest Member of the Science Committee, 
the gentleman from Texas' 27th District, Michael Cloud. 
Michael, welcome.
    There is absolutely no truth whatsoever to the rumor that 
we are stacking the Committee with Texans, but it just so 
happens this is the newest Member. And we had a great position 
for him. His Subcommittees will be announced shortly.
    Michael, thanks.
    OK. If there's no further discussion, that completes our 
business. This concludes the Science Committee markup. Without 
objection, the Committee stands adjourned. Thank you all.
    [Whereupon, at 10:23 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                      H.R. 6398, Amendment Roster

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                   PROCEEDINGS OF THE FULL COMMITTEE
                     MARKUPS: S. 141, SPACE WEATHER
                      RESEARCH AND FORECASTING ACT;
                             AND H.R. 6468,
                          IMPROVING SCIENCE IN
                        CHEMICAL ASSESSMENTS ACT

                              ----------                              


                         TUESDAY, JULY 24, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 2:55 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lamar 
Smith [Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Pursuant to Committee rule 2(e) and House rule XI(2)(h)(4), 
the Committee announces that he may postpone roll call votes.
    Today, we meet to consider S. 141, the Space Weather 
Research and Forecasting Act; and H.R. 6468, the Improving 
Science in Chemical Assessments Act. And I'll recognize myself 
for an opening statement.
    Today, we meet to consider two bills primarily referred to 
the Science Committee. One is S. 141, the Space Weather 
Research and Forecasting Act. The Committee will consider an 
amendment in the nature of a substitute by Representative 
Perlmutter as base text. The Perlmutter-Brooks substitute 
requires the establishment of roles and responsibilities for 
Federal agencies within the Nation's space weather enterprise. 
It codifies a formal approach to assessing and addressing the 
challenges posed by space weather in the areas of observation, 
forecasting, and response.
    Broadly speaking, space weather is the way the behavior of 
the sun and the nature of the Earth's magnetic field and 
atmosphere interact. Space weather can affect the modern 
technology we rely upon daily.
    The electric grid, oil pipelines, passengers on commercial 
airlines, and satellites that provide telecommunications and 
GPS services can all be impacted by space weather. Depending on 
the severity of the event, these impacts can prove disastrous. 
As with terrestrial weather, without thorough monitoring and 
accurate modeling, we simply have no good way to predict space 
weather events and, in turn, no ability to ensure that life and 
property are protected if severe events occur.
    While the National Oceanic and Atmospheric Administration, 
the National Aeronautics and Space Administration, and the U.S. 
Air Force currently monitor space weather, issue forecasts, and 
create other products to inform the public, space weather 
science, as a discipline, is still in its early stages. Without 
marked improvements in understanding the causes of space 
weather led by NASA and the ability to more accurately forecast 
and predict events, much of our modern technological 
infrastructure is at risk.
    The Perlmutter-Brooks substitute creates, for the first 
time, a formal national framework to leverage the capabilities 
and expertise of the government, commercial sector, academic 
community, and international partners. By tasking the National 
Space Council with overseeing this framework, this amendment 
sets out a strategy that is consistent with the current 
Administration's approach to the management of space issues and 
raises the profile of space weather and the serious threat it 
poses.
    Additionally, this amendment codifies the reality of the 
threat posed by space weather and requires the establishment 
and maintenance of a baseline capability for space weather 
observation and forecasting.
    However, through the creation of a pilot program for the 
purchase of space weather data and services from the commercial 
sector, the substitute also ensures that innovative, cost-
effective strategies can be pursued. And our burgeoning 
commercial space industry can help address the challenges posed 
by space weather. The Perlmutter-Brooks amendment will help us 
better prepare for, respond to, and recover from potential 
space weather events.
    The other is H.R. 6468, the Improving Science in Chemical 
Assessments Act, introduced by Environment Subcommittee 
Chairman Andy Biggs, and cosponsored by Committee Vice Chairman 
Lucas, Environment Subcommittee Vice Chairman Norman, and 
Representatives Rohrabacher, Posey, Weber, Babin, Higgins, 
Lesko, Hultgren, Abraham, Webster, Marshall, and Dunn.
    This legislation amends the Environmental Research, 
Development, and Demonstration Act to require any chemical 
hazard identification and dose response assessments previously 
conducted by the Integrated Risk Information System, or IRIS 
program, to be carried out by the relevant national program 
offices within the EPA.
    Since 2009, the Government Accountability Office and the 
National Academy of Sciences have raised multiple reports 
criticizing the IRIS program for a lack of transparency, 
procedural flaws, and improper science. This Committee held a 
hearing last September examining many of these problems and 
learning more about their impact on industry. Committee staff 
have held two briefings with the EPA to learn more about the 
practices and procedures of the IRIS program.
    Although much work has been done in recent years to address 
shortcomings in the program, the results just aren't there. The 
time is ripe for an overhaul to bring the chemical assessment 
process at EPA back to its core mission of conducting complete 
and transparent scientific research as the foundation for 
regulatory decisions. This bill does just that by making agency 
science more useful to EPA program offices while increasing 
transparency and efficiency in the conduct of chemical 
assessments.
    H.R. 6468 requires the EPA to follow strict scientific 
standards in conducting hazard identification and dose response 
assessments. The bill requires the EPA to ensure the underlying 
scientific data is complete, relevant, and reproducible. It 
also explicitly requires the EPA to integrate all lines of 
scientific evidence, a suggestion made by the National 
Academies of Sciences in 2014.
    The EPA Office of Research and Development must certify 
that each chemical assessment completed by the relevant program 
offices meets the scientific standards in the legislation. 
Together, these improvements will increase the public's 
confidence in the EPA's chemical toxicity assessments by 
ensuring they are conducted using the best available science 
and are based on the weight of the evidence.
    Taken together, the two bills we consider today prioritize 
key programs and vital reforms within the Science Committee's 
jurisdiction, though I should mention that the second bill also 
has joint jurisdiction with the Energy Committee, as John 
Shimkus just reminded me on the House floor a few minutes ago.

                  Prepared Statement of Chairman Smith

    Today we meet to consider two bills primarily referred to 
the Science Committee.
    One is S. 141, the Space Weather Research and Forecasting 
Act. The committee will consider an amendment in the nature of 
a substitute by Rep. Perlmutter as base text.
    The Perlmutter-Brooks substitute requires the establishment 
of roles and responsibilities for federal agencies within the 
nation's space weather enterprise. It codifies a formal 
approach to assessing and addressing the challenges posed by 
space weather in the areas of observation, forecasting, and 
response.
    Broadly speaking, space weather is the way the behavior of 
the sun and the nature of the Earth's magnetic field and 
atmosphere interact. Space weather can affect the modern 
technology we rely upon daily.
    The electric grid, oil pipelines, passengers on commercial 
airlines, and satellites that provide telecommunications and 
GPS services can all be impacted by space weather. Depending on 
the severity of the event, these impacts can prove disastrous. 
As with terrestrial weather, without thorough monitoring and 
accurate modeling, we simply have no good way to predict space 
weather events and, in turn, no ability to ensure that life and 
property are protected if severe events occur.
    While the National Oceanic and Atmospheric Administration 
(NOAA), the National Aeronautics and Space Administration 
(NASA), and the U.S. Air Force currently monitor space weather, 
issue forecasts, and create other products to inform the 
public, space weather science, as a discipline, is in its early 
stages.
    Without marked improvements in understanding the causes of 
space weather, led by NASA, and the ability to more accurately 
forecast and predict events, much of our modern technological 
infrastructure is at risk.
    The Perlmutter-Brooks substitute creates, for the first 
time, a formal national framework to leverage the capabilities 
and expertise of the government, commercial sector, academic 
community, and international partners.
    By tasking the National Space Council with overseeing this 
framework, this amendment sets out a strategy that is 
consistent with the current Administration's approach to the 
management of space issues, and raises the profile of space 
weather and the serious threat it poses.
    Additionally, this amendment codifies the reality of the 
threat posed by space weather and requires the establishment 
and maintenance of a baseline capability for space weather 
observation and forecasting.
    However, through the creation of a pilot program for the 
purchase of space weather data and services from the commercial 
sector, the substitute also ensures that innovative, cost-
effective strategies can be pursued. And our burgeoning 
commercial space industry can help address the challenges posed 
by space weather.
    The Perlmutter-Brooks amendment will help us better prepare 
for, respond to, and recover from potential space weather 
events.
    The other is H.R. 6468, the Improving Science in Chemical 
Assessments Act, introduced by Environment Subcommittee 
Chairman Andy Biggs, and co-sponsored by Committee Vice 
Chairman Lucas, Environment Subcommittee Vice Chairman Norman, 
and Representatives Rohrabacher, Posey, Weber, Babin, Higgins, 
Lesko, Hultgren, Abraham, Webster, Marshall, and Dunn.
    This legislation amends the Environmental Research, 
Development, and Demonstration Act to require any chemical 
hazard identification and dose response assessments previously 
conducted by the Integrated Risk Information System, or 
``IRIS'' program, to be carried out by the relevant national 
program offices within the EPA.
    Since 2009, the Government Accountability Office and the 
National Academy of Sciences have issued multiple reports 
criticizing the IRIS program for a lack of transparency, 
procedural flaws, and improper science.
    This committee held a hearing last September examining many 
of these problems and learning more about their impact on 
industry. Committee staff have held two briefings with the EPA 
to learn more about the practices and procedures of the IRIS 
program.
    Although much work has been done in recent years to address 
shortcomings in the program, the results just aren't there. The 
time is ripe for an overhaul to bring the chemical assessment 
process at EPA back to its core mission of conducting complete 
and transparent scientific research as the foundation for 
regulatory decisions. This bill does just that by making agency 
science more useful to EPA program offices while increasing 
transparency and efficiency in the conduct of chemical 
assessments.
    H.R. 6468 requires the EPA to follow strict scientific 
standards in conducting hazard identification and dose response 
assessments. The bill requires the EPA to ensure the underlying 
scientific data is complete, relevant, and reproducible. It 
also explicitly requires the EPA to integrate all lines of 
scientific evidence, a suggestion made by the National 
Academies of Sciences in 2014.
    The EPA Office of Research and Development must certify 
that each chemical assessment completed by the relevant program 
offices meets the scientific standards in the legislation.
    Together, these improvements will increase the public's 
confidence in the EPA's chemical toxicity assessments by 
ensuring they are conducted using the best available science 
and are based on the weight of the evidence.
    Taken together, the two bills we consider today prioritize 
key programs and vital reforms within the Science Committee's 
jurisdiction.

    Chairman Smith. I will now recognize the gentlewoman from 
Texas, the Ranking Member, for her opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
afternoon to everyone.
    Today, we are marking up two bills, the Space Weather 
Research and Forecasting Act and the Improving Science in 
Chemical Assessments Act. Before I speak on the specifics of 
the bills, I again want to take a moment to comment on the 
Committee's dramatic turn-away from regular order.
    This markup was noticed on Friday afternoon when we left on 
Thursday, well after most Members were out of town. Moreover, 
since the markup is on a Tuesday, the amendment deadline was 2 
p.m. on Monday, which is before most Members are back in 
Washington. This hardly seems conducive to a Member 
participation in a markup.
    Then, on Saturday afternoon, another bill was added to the 
markup. This may be the least amount of notice I've ever 
received on a bill being marked up in the Science Committee. In 
fact, until last Congress, this would have broken the 
longstanding Committee notice requirements. However, Chairman 
Smith changed the rules to allow weekend days to count toward 
the notice requirements.
    On top of these issues, our Committee rarely holds 
legislative hearings, and we haven't held a Subcommittee markup 
in years. Bills are concocted in secret and thrown at the 
Committee Members with no real chance for meaningful review. 
The result is that Members are disenfranchised, and the work of 
this Committee suffers. We can do better than this.
    The first bill up in the--is the Space Weather Research and 
Forecasting Act. I will speak more about this in a minute when 
we consider it. However, I want to note how ridiculous it is to 
jam the Members of this Committee by noticing this bill over 
the weekend.
    The bill we are marking up, S. 141, was introduced in 
January 2017. It was referred to our Committee in May 2017, 
which is well over a year ago. Mr. Perlmutter's companion bill 
was introduced in June 2017. We could have considered these 
bills at any point in the past year instead of jamming the 
Members of this Committee with the late markup notice.
    This bill has been referred to four additional House 
Committees, so I suspect it is going nowhere in a hurry. In 
fact, it seems like this entire markup is a complete waste of 
our Members' time.
    The next bill we're marking up is a good example of the 
silliness that ensues when the Committee engages in these half-
baked markups. We were supposed to mark this bill up last week. 
However, the majority had to pull the bill when it wasn't even 
referred to our Committee, so here we are again.
    The bill appears to have been hastily drafted in secret 
without getting any feedback from the affected agencies or the 
affected community. On top of being sloppily drafted and poorly 
vetted, this bill is just plain bad. The bill would remove 
chemical assessments from EPA's IRIS program and shift them to 
the separate program offices within the agency. Essentially, it 
is shutting down IRIS without explicitly saying so. The end 
results, perhaps surprisingly, is that the chemical assessments 
will be delayed and of worse quality than under the IRIS 
program. Ultimately, though, my greatest concern is the harm 
that will come to the Americans if this chemical assessments 
are undermined.
    That is why the bill is opposed by the Union of Concerned 
Scientists, the Natural Resources Defense Council, and the 
Environmental Defense Fund. They've written letters to the 
Committee expressing their opposition, and I ask that they may 
be made part of the record.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    This really is a bad bill that will ultimately result in 
bad science and sick people. I urge all of my colleagues to 
oppose it.
    I thank you and yield back.

                   Prepared Statement of Ms. Johnson

    Thank you, Chairman Smith, and good afternoon to everyone. 
Today we are marking up two bills: The Space Weather Research 
and Forecasting Act and the Improving Science in Chemical 
Assessments Act.
    Before I speak on the specifics of the bills, I again want 
to take a moment to comment on the Committee's dramatic turn 
away from regular order. This markup was noticed on Friday 
afternoon, well after most Members had left town. Moreover, 
since the markup is on a Tuesday, the amendment deadline was at 
2pm Monday- which is before most Members are back in 
Washington. This hardly seems conducive to Member participation 
in the markup.
    Then on Saturday afternoon, another bill was added to the 
markup. This may be the least amount of notice I have ever 
received of a bill being marked up in the Science Committee. In 
fact, until last Congress, this would have broken the 
longstanding Committee notice requirements. However, Chairman 
Smith changed the rules to allow weekend days to count toward 
the notice requirements.
    On top of these issues, our Committee rarely holds 
legislative hearings, and we haven't held a subcommittee markup 
in years. Bills are concocted in secret and thrown at Committee 
Members with no real chance for meaningful review. The result 
is that Members are disenfranchised and the work of this 
Committee suffers. We can do better than this.
    The first bill up is the Space Weather Research and 
Forecasting Act. I will speak more about this in a minute when 
we consider it. However, I want to note how ridiculous it is to 
jam the Members of this Committee by noticing this bill over 
the weekend.
    The bill we are marking up, S. 141, was introduced in 
January of 2017. It was referred to our Committee in May of 
2017, which is well over a year ago. Mr. Perlmutter's companion 
bill was introduced in June of 2017. We could have considered 
these bills at any point in the past year instead of jamming 
the Members of this Committee with a late markup notice.
    This bill has been referred to four additional House 
committees, so I suspect it is going nowhere in a hurry. In 
fact, it seems like this entire markup is a complete waste of 
our Members time. The next bill we are marking up is a good 
example of the silliness that ensues when the Committee engages 
in these half-baked markups. We were supposed to mark this bill 
up last week. However, the Majority had to pull the bill when 
it wasn't even referred to our Committee. So here we are to try 
again.
    The bill appears to have been hastily drafted in secret, 
without getting any feedback from the affected agency or 
affected community. On top of being sloppily drafted and poorly 
vetted, this bill is just plain bad.
    The bill would remove chemical assessments from the EPA's 
IRIS program and shift them to the separate program offices 
within the agency. Essentially, it shuts down IRIS without 
explicitly saying so. The end result, perhaps unsurprisingly, 
is that chemical assessments will be delayed and of worse 
quality than under the IRIS program.
    Ultimately though, my greatest concern is the harm that 
will come to Americans if these chemical assessments are 
undermined. That is why the bill is opposed by the Union of 
Concerned Scientists, the Natural Resources Defense Council, 
and the Environmental Defense Fund. They have written letters 
to the committee expressing their opposition, and I ask that 
they be made a part of the record.
    This is a bad bill that will ultimately result in bad 
science and sick people. I urge all of my colleagues to oppose 
it.
    I yield back.

    Chairman Smith. Thank you, Ms. Johnson.
    I'll recognize myself for a minute.
    I just want to give Members a complete picture about why we 
had a weekend notice of particularly the weather bill. Other 
Members can respond to the merits or demerits of the bills and 
the substance of the bills.
    But the bill that we talked about over the weekend and I 
talked to Mr. Perlmutter about it at least once or twice and we 
exchanged other messages, I talked to Senator Peters about the 
space weather bill over the weekend, and we exchanged several 
messages. And this was all in an effort to try to keep, 
frankly, a commitment I made to Mr. Perlmutter and the Senator 
to mark up this bill before we broke for our August recess. So 
we bent over backward over the weekend to make sure that we 
were ready for markup, and I'm a little surprised to hear the 
Ranking Member complain about a Democratic bill over which we 
put in a lot of--into which we put in a lot of effort so that 
we would be prepared to mark it up today. So I just want, 
again, Members to have a full picture of the space weather bill 
and why that weekend notice was necessary.

    S. 141

    Chairman Smith. Pursuant to notice, I now call up S. 141, 
the Space Weather Research and Forecasting Act. And the clerk 
will report the bill.
    The Clerk. S. 141, an act to improve understanding and 
forecasting of space weather events and for other purposes.
    Chairman Smith. Without objection, the bill is considered 
as read and open for amendment at any point. And we will now 
proceed with consideration of amendments in the order listed in 
the roster.
    And I now recognize the gentleman from Colorado, Mr. 
Perlmutter, to offer an amendment in the nature of a 
substitute. And does the gentleman have an amendment at the 
desk?
    Mr. Perlmutter. I have an amendment in the nature of a 
substitute to Senate Bill 141 at the desk.
    Chairman Smith. And the clerk will report the amendment.
    The Clerk. Amendment in the nature of a substitute to S. 
141 offered by Mr. Perlmutter of Colorado, amendment number 
ANS-01.
    Chairman Smith. Without objection, the amendment is 
considered as read and will serve as base text for purposes of 
amendment.
    The gentleman from Colorado, Mr. Perlmutter, is recognized 
for 5 minutes on his amendment.
    Mr. Perlmutter. Thank you, Mr. Chairman. And I am very 
pleased we're here today to finally mark up legislation on 
space weather. And the Ranking Member is correct. This has--
this subject has been hanging around now for at least a year.
    Space weather is electromagnetic activity from the sun. 
It's radiation, it's flares, it's eruptions, and it can have 
significant societal, economic, national security, and health 
implications both here on Earth, as well as in space.
    Almost 3 years ago, Dr. Dan Baker from the University of 
Colorado Boulder testified in front of this Committee about the 
dangers of space weather events on our electrical grid. At that 
hearing, he said, ``Had an observed July 2012 space weather 
event actually hit the Earth, we would still be picking up the 
pieces.'' That testimony stuck with me, and when Senators Gary 
Peters and Cory Gardner introduced a Space Weather Research and 
Forecasting Act a few months later, I was eager to start 
working on a House companion bill.
    Last year, Senate Bill 141 passed the Senate by unanimous 
consent, and I introduced the House companion with a few 
additions to that text with then-Representative Jim Bridenstine 
as my Republican cosponsor. Since last summer, I've been 
reminding and bugging the Chairman of my interest in the topic 
and calling for a hearing, and, good to his word, we had that 
hearing in April. And I thought all of the Members who 
participated in that hearing were engaged and interested in 
taking action.
    After that hearing in April, I worked with Chairman Smith 
and my new lead Republican cosponsor, Representative Mo Brooks, 
to agree on legislative text the Chairman could support and 
which moves the ball forward on this subject. That is the text 
reflected in my amendment today.
    This legislation will better coordinate Federal research 
investments with forecasters who provide warnings to affected 
industries and to ensure the academic community and commercial 
sector work hand-in-hand to improve space weather forecasting. 
This text takes a different approach about how to meet these 
goals than the Senate-passed bill, but with this shared goal in 
mind, it is another step toward getting space weather 
legislation signed into law this year.
    This amendment builds upon the work done in 2015 under the 
Obama Administration and tasks the National Space Council and a 
newly created National Committee for Space Weather Observation 
and Forecasting with developing our national space weather 
priorities. It also requires the Office of Science and 
Technology Policy to develop a national space weather research 
roadmap to coordinate Federal research on space weather.
    We found in the hearing--it showed that the commercial 
sector, the academic sector, and the Federal sector were all 
working kind of in silos and not collaborating in the way that 
would best serve all of us as Americans.
    Throughout the bill, Federal agencies will be required to 
collaborate more with the academic community and the commercial 
sector, one of the driving factors behind the legislation. The 
bill also sets up formal mechanisms to help break down barriers 
between the research community and operational forecasters by 
encouraging sharing of information and requirements to improve 
the pipeline of new observations, technologies, models, and 
forecasts.
    Today's markup is certainly not the end of the 
conversation. There were multiple referrals, and one of the 
desires--and I think as accomplished by the substitute--is to 
eliminate some if not all of the referrals.
    Over the coming months, we will all have to work together, 
Chairman Smith, Ranking Member Johnson, Representative Brooks, 
along with the Senators Peters, Gardner, Thune, and Nelson from 
the Senate Commerce Committee. I'm confident we can take the 
two versions of this legislation and agree on a final text, 
which will pass the House and the Senate to be signed into law 
later this year.
    I look forward to this continued dialog and the input we'll 
receive from the space weather community in the coming months.
    I want to thank Representative Brooks for his help and for 
Chairman Smith for working with me.
    I'd also like to thank the Ranking Member for her support 
of H.R. 3086 and strong collaborative legislation on space 
weather.
    With that, I yield back.
    Chairman Smith. Thank you, Mr. Perlmutter.
    The gentleman from Alabama, Mr. Brooks, is recognized for 
his comments on the amendment.
    Mr. Brooks. Thank you, Mr. Chairman, for bringing this 
legislation, the Perlmutter-Brooks amendment in the nature of a 
substitute up for Committee consideration today.
    Space weather is an important issue because the 
consequences of a severe space weather event can be far-
reaching and disastrous. The Perlmutter-Brooks amendment helps 
to establish a formal space weather observation and forecasting 
architecture that, hopefully, will help mitigate the harmful 
consequences of space weather to life and property on Earth and 
in space.
    Space weather is a collection of physical processes, 
beginning at the sun with solar winds and ultimately affecting 
human activities on Earth and in space. Solar winds and their 
interaction with Earth's atmosphere are not as understood as 
they should be. Fortunately, numerous people and organizations 
are changing this. Scientists and engineers at Marshall Space 
Flight Center in my district have been at the forefront of this 
vital research for many years. Under the Perlmutter-Brooks 
amendment, their research will not only continue but improve so 
as to help advance the Nation's space weather knowledge to 
where it needs to be.
    I thank my colleague, Mr. Perlmutter, for the leadership on 
space weather and his partnership on this amendment. I urge my 
colleagues to vote for it.
    Mr. Chairman, I yield back.

                    Prepared Statement of Mr. Brooks

    Mr. Chairman, thank you for bringing this legislation and 
the Perlmutter-Brooks amendment in the nature of a substitute 
up for Committee consideration today. Space weather is an 
important issue because the consequences of a severe space 
weather event can be far-reaching and disastrous. The 
PerlmutterBrooks amendment helps to establish a formal space 
weather observation and forecasting architecture that, 
hopefully, will help mitigate the harmful consequences of space 
weather to life and property on Earth and in space.
    Space weather is a collection of physical processes, 
beginning at the Sun with solar winds and ultimately affecting 
human activities on Earth and in space. Solar winds and their 
interaction with Earth's atmosphere are not as understood as 
they should be. Fortunately, numerous people and organizations 
are changing this. Scientists and engineers at Marshall Space 
Flight Center, in my district, have been at the forefront of 
this vital research for many years. Under the Perlmutter-Brooks 
amendment, their research will not only continue, but improve 
so as to help advance the nation's space weather knowledge to 
where it needs to be.
    I thank my colleague, Mr. Perlmutter, for his leadership on 
space weather and his partnership on this amendment. I urge my 
colleagues to vote for it.

    Chairman Smith. Thank you, Mr. Brooks.
    And I'll recognize myself to speak on the amendment as 
well.
    And, first of all, I want to thank Mr. Perlmutter and Mr. 
Brooks for their hard work on this issue and urge my colleagues 
to support this bipartisan substitute to S. 141.
    Their initiative for the safety and security of the 
American people and economy is welcome. The Perlmutter-Brooks 
amendment in the nature of a substitute will further the goals 
of S. 141 and better address the complex challenges posed by 
space weather and space weather events. By establishing a 
national coordinating framework and providing ways for the 
commercial sector, academic community, and international 
partners to contribute in innovative, meaningful, and cost-
saving ways, the amendment not only advances space weather 
observation and forecasting capabilities but also increases the 
vigor of the national space enterprise on the whole.
    Again, I especially appreciate Mr. Perlmutter's efforts to 
move this legislation forward.
    Does the gentleman from Colorado seek to be recognized 
again? With----
    Mr. Perlmutter. I----
    Chairman Smith. With no objection, the gentleman is 
recognized.
    Mr. Perlmutter. I have--I think this is where I do it. I 
have an amendment to the substitute amendment.
    Chairman Smith. If you'll give me 10 seconds----
    Mr. Perlmutter. Oh, sorry.
    Chairman Smith [continuing]. We're on the way there.
    The next amendment on the roster is a manager's amendment 
offered by the gentleman from Colorado, Mr. Perlmutter. And 
does the--I know the gentleman seeks to be recognized, and he 
is so recognized.
    Mr. Perlmutter. Thanks, Mr. Chairman. I have an amendment 
to the substitute amendment at the desk.
    Chairman Smith. The clerk will report the amendment.
    The Clerk. Amendment to the Perlmutter amendment in the 
nature of a substitute to S. 141 offered by Mr. Perlmutter of 
Colorado, amendment number 002.
    Chairman Smith. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
that amendment.
    Mr. Perlmutter. Thank you, Mr. Chairman.
    And the Ranking Member was correct. Things were moving very 
quickly this weekend with conversations between me and the 
Chairman, Senators Gardner and Peters, about the changes that 
we have proposed in the substitute amendment. And we've got a 
couple other changes to the bill text that we worked on over 
the weekend.
    So, in addition, there are technical changes to the 
amendment that will ensure that NOAA, NASA, and the NSF support 
both basic applied and research to improve the space weather 
forecasting. The amendment that I'm proposing now also 
requirements the priorities and plans under the bill to be 
reevaluated and updated at least every 4 years or more 
frequently, as deemed necessary by the Administration.
    The amendment also makes clear the importance of space 
weather data and forecasting to successful deep-space 
exploration, which was suggested by Representative Brooks and 
is clearly a very important facet of the space weather 
legislation we're proposing.
    I encourage all my colleagues to support the amendment to 
the substitute amendment, and I yield back.
    Chairman Smith. Thank you, Mr. Perlmutter.
    And the gentleman from Alabama, Mr. Brooks, is recognized.
    Mr. Brooks. Mr. Chairman, I support the manager's amendment 
to the Perlmutter-Brooks amendment in the nature of a 
substitute. This amendment brings commonsense additions to the 
Perlmutter-Brooks amendment. One in particular merits emphasis. 
It's explicitly outlining the importance of space weather 
observation and forecasting to deep-space exploration. This 
manager's amendment makes it clear that not only can space 
weather impact us on the terrestrial frontier, Earth, but it 
can and will impact us in deep-space exploration as well.
    I encourage my colleagues to vote for the manager's 
amendment, as well as the underlying Perlmutter-Brooks 
amendment in the nature of a substitute to Senate S. 141.
    I yield back.
    Chairman Smith. And thank you, Mr. Brooks.
    And the Ranking Member, Ms. Johnson, is recognized.
    Ms. Johnson. Thank you, Mr. Chairman.
    I do not oppose this manager's amendment. However, it is 
worth noting that we apparently need a 3-page manager's 
amendment to perfect an amendment in the nature of a substitute 
that was noticed 3 days ago. This just reinforces my opinion 
that our Committee has rushed to a poorly--to a markup of a 
poorly vetted piece of legislation.
    I yield back.
    Chairman Smith. Thank you, Ms. Johnson.
    And the gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Today, we recognize the enormous impact that the sun has on 
the Earth, and today, we're focusing of course on the powerful 
danger that any type of hiccup on the sun could cause enormous 
damage here.
    Let us just note the sun also--well, many of us believe has 
the--is the deciding factor as to what our climate will be like 
on the Earth. And this impact should not be ignored when we are 
debating the various issues that come before this Committee, 
and I just thought I would point out how important the sun is.
    Thank you very much, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The last amendment on the roster is an amendment in the 
nature of a substitute offered by the Ranking Member, Ms. 
Johnson, and she is recognized for that purpose.
    Ms. Johnson. Thank you, Mr. Chairman. I have an amendment 
at the desk.
    Chairman Smith. The clerk will report the amendment.
    The Clerk. Amendment in the nature of a substitute offered 
by Ms. Eddie Bernice Johnson of Texas to the amendment in the 
nature of a substitute offered by Mr. Perlmutter of Colorado, 
amendment number 035.
    Chairman Smith. Without objection, the amendment is 
considered as read and the Ranking Member is recognized to 
explain her amendment.
    Ms. Johnson. Thank you, Mr. Chairman.
    My amendment is very straightforward. The text of this 
amendment is drawn from the bipartisan Space Weather Research 
and Forecasting Act, H.R. 3086. This bill was introduced by my 
colleague from Colorado, Mr. Perlmutter, and I was the original 
cosponsor. It was also cosponsored by current NASA 
Administration, Mr. Jim Bridenstine, before he left the House.
    The legislation was drafted in a bipartisan fashion with 
minority Committee staff involvement, unlike the amendment in 
the nature of a substitute being offered today by Mr. 
Perlmutter that neither I nor the staff saw until negotiations 
had already been completed.
    This bill builds on the Senate-passed space weather 
legislation that we're marking up today with some additional 
improvements. These improvements include strengthening 
international, commercial, and academic collaboration and 
research to operations activities, incorporation of the 
National Academies' decadal survey recommendations, and 
providing for research in behavioral, economic, and social 
sciences for the improved national preparedness for space 
weather events.
    In particular, this bill directs NOAA Administrator to 
enter into an agreement with the National Academies to 
establish a space weather government-industry-university 
roundtable to bring the various stakeholders together to 
facilitate communication and the transfer of knowledge, 
language that was widely supported by the community.
    Many groups are supportive of H.R. 3086, including 
academia, scientific societies, and the commercial sector. I'd 
like to contrast this amendment with the amendment in the 
nature of a substitute noticed this past Saturday.
    The text of my amendment has been vetted by the outside 
community for well over a year versus 3 days for the ANS. In 
fact, my staff found out that NOAA Legislative Affairs had not 
even been given a copy of the ANS until we reached out to them 
yesterday afternoon.
    NOAA is one of the agencies most affected by this bill.
    Our Committee held a hearing on space weather in April 
where H.R. 3086 was endorsed by the expert witnesses. We've had 
no hearings on the ANS because we've only just received it. My 
amendment also more closely resembles Senator Peters' Senate 
companion bill, which has already received unanimous support 
from the other body.
    All of this suggests that my amendment represents a better 
and more rigorous thought-out policy choice than the ANS 
noticed this past weekend. Given the Senate's prior support of 
S. 141, I think adopting my amendment would also make it more 
likely that we can actually get a good bill enacted into law, 
which should be our goal as legislators.
    I think we ought to be supporting the best policy in this 
Committee, and I hope my colleagues will do that today and 
support this amendment.
    Thank you, and I yield back.
    Chairman Smith. Thank you, Ms. Johnson.
    I'll recognize myself in opposition to the amendment.
    On April 26, the Subcommittees on Environment and Space 
held a hearing titled ``Surveying the Space Weather Landscape'' 
in which Members learned about the potential negative impacts 
of space weather events and the current State of research, 
forecasting, and preparedness efforts related to space weather.
    The Committee's position was always that more knowledge was 
needed before acting legislatively, and consideration of 
today's legislation, which comes just over 3 months after the 
initial April hearing, is entirely consistent with that 
position.
    Shortly after the April 26 hearing, Mr. Perlmutter began 
moving the ball forward on space weather legislation in a 
constructive, bipartisan manner. Mr. Perlmutter and his staff 
undertook proactive, good-faith negotiations and worked closely 
with the Committee in crafting the consensus text of the 
Perlmutter-Brooks amendment before us today. The Perlmutter-
Brooks amendment in the nature of a substitute is a culmination 
of a rigorous bipartisan negotiation and represents a 
substantive good-faith effort to address a serious issue.
    The amendment offered by the Ranking Member would reject 
those efforts, so I encourage my colleagues to vote against 
this amendment.
    Does anyone else seek to be recognized?
    The gentleman from Colorado.
    Mr. Perlmutter. Thanks, Mr. Chairman.
    And I can't dispute the Ranking Member's complaint that 
things really did accelerate over the course of the last few 
weeks, but on the other hand, we have been negotiating. My 
office has been negotiating with the Chairman and the Committee 
staff. We've been working on this. It really accelerated--all 
of this really accelerated over the weekend. Much of what's in 
House Resolution 3086 is in the substitute amendment, and there 
still is a long way to go to resolve this. And I appreciate the 
critiques by the Ranking Member, and I like 3086 better than my 
substitute amendment, but reality is that this is what we 
agreed on, and this is what I agreed on with Representative 
Brooks and with the Chairman and with the--Senator Peters so 
that we could advance this legislation and have it go through 
further conversation and negotiation as it goes through the 
process. So I like my bill, but I'll probably have to vote 
against it because I agreed on this substitute motion.
    Chairman Smith. Thank you, Mr. Perlmutter, for those 
comments.
    Does anyone else seek to be recognized?
    If not, we have a series of amendments to vote on. And if 
there are no further amendments, the question is on agreeing to 
the manager's amendment offered by the gentleman from Colorado, 
Mr. Perlmutter.
    All in favor, say aye.
    Opposed, no.
    The ayes have it, and the amendment is agreed to.
    The question is now on agreeing to the amendment in the 
nature of a substitute offered by the Ranking Member, Ms. 
Johnson.
    Ms. Johnson. Record vote.
    Chairman Smith. All in favor, say aye.
    Ms. Johnson. Record vote, please.
    Chairman Smith. I understand. The record vote has been 
requested, and the clerk will call the roll.
    The Clerk. Mr. Smith?
    Chairman Smith. No.
    The Clerk. Mr. Smith votes no.
    Mr. Lucas?
    Mr. Lucas. No.
    The Clerk. Mr. Lucas votes no.
    Mr. Rohrabacher?
    Mr. Rohrabacher. No.
    The Clerk. Mr. Rohrabacher votes no.
    Mr. Brooks?
    Mr. Brooks. No.
    The Clerk. Mr. Brooks votes no.
    Mr. Hultgren?
    Mr. Hultgren. No.
    The Clerk. Mr. Hultgren votes no.
    Mr. Posey?
    Mr. Posey. No.
    The Clerk. Mr. Posey votes no.
    Mr. Massie?
    [No response.]
    The Clerk. Mr. Weber?
    Mr. Weber. No.
    The Clerk. Mr. Weber votes no.
    Mr. Knight?
    Mr. Knight. No.
    The Clerk. Mr. Knight votes no.
    Mr. Babin?
    Mr. Babin. No.
    The Clerk. Mr. Babin votes no.
    Mrs. Comstock?
    Mrs. Comstock. No.
    The Clerk. Mrs. Comstock votes no.
    Mr. Loudermilk?
    Mr. Loudermilk. No.
    The Clerk. Mr. Loudermilk votes no.
    Mr. Abraham?
    [No response.]
    The Clerk. Mr. Palmer?
    [No response.]
    The Clerk. Mr. Webster?
    Mr. Webster. Nay.
    The Clerk. Mr. Webster votes no? Thank you.
    Mr. Biggs?
    Mr. Biggs. No.
    The Clerk. Mr. Biggs votes no.
    Mr. Marshall?
    Mr. Marshall. No.
    The Clerk. Mr. Marshall votes no.
    Mr. Dunn?
    Mr. Dunn. No.
    The Clerk. Mr. Dunn votes no.
    Mr. Higgins?
    Mr. Higgins. No.
    The Clerk. Mr. Higgins votes no.
    Mr. Norman?
    Mr. Norman. No.
    The Clerk. Mr. Norman votes no.
    Mrs. Lesko?
    Mrs. Lesko. No.
    The Clerk. Mrs. Lesko votes no.
    Mr. Cloud?
    [No response.]
    The Clerk. Ms. Johnson?
    Ms. Johnson. Aye.
    The Clerk. Ms. Johnson votes yes.
    Ms. Lofgren?
    Ms. Lofgren. Aye.
    The Clerk. Ms. Lofgren votes yes.
    Mr. Lipinski?
    Mr. Lipinski. Aye.
    The Clerk. Mr. Lipinski votes yes.
    Ms. Bonamici?
    [No response.]
    The Clerk. Mr. Bera?
    Mr. Bera. Yes.
    The Clerk. Mr. Bera votes yes.
    Ms. Esty?
    Ms. Esty. Aye.
    The Clerk. Ms. Esty votes yes.
    Mr. Veasey?
    Mr. Veasey. Aye.
    The Clerk. Mr. Veasey votes yes.
    Mr. Beyer?
    Mr. Beyer. Aye.
    The Clerk. Mr. Beyer votes yes.
    Ms. Rosen?
    Ms. Rosen. Aye.
    The Clerk. Ms. Rosen votes yes.
    Mr. Lamb?
    Mr. Lamb. Yes.
    The Clerk. Mr. Lamb votes yes.
    Mr. McNerney?
    Mr. McNerney. Yes.
    The Clerk. Mr. McNerney votes yes.
    Mr. Perlmutter?
    Mr. Perlmutter. No.
    The Clerk. Mr. Perlmutter votes no.
    Mr. Tonko?
    Mr. Tonko. Yes.
    The Clerk. Mr. Tonko votes yes.
    Mr. Foster?
    [No response.]
    The Clerk. Mr. Takano?
    Mr. Takano. Yes.
    The Clerk. Mr. Takano votes yes.
    Ms. Hanabusa?
    [No response.]
    The Clerk. Mr. Crist?
    Mr. Crist. Yes.
    The Clerk. Mr. Crist votes yes.
    Chairman Smith. The clerk will report the vote.
    The Clerk. Mr. Chairman, 13 Members voted aye, 19 Members 
voted nay.
    Chairman Smith. The nays have it and the amendment is not 
agreed to.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    The question is now on agreeing to the amendment in the 
nature of a substitute offered by the gentleman from Colorado, 
Mr. Perlmutter.
    All in favor, say aye.
    Those opposed, no.
    The ayes have it and the amendment is agreed to.
    A reporting quorum being present, I move that the Committee 
on Science, Space, and Technology report S. 141 to the House, 
as amended, with the recommendation that the bill be approved.
    The question is on favorably reporting S. 141 to the House, 
as amended.
    All in favor, say aye.
    Those opposed, no.
    The ayes have it, and S. 141, as amended, is ordered 
reportedly favorably to the House.
    Without objection, the motion to reconsider is laid upon 
the table. S. 141, as amended, is ordered reported to the House 
with a favorable recommendation. I ask unanimous consent that 
the staff be authorized to make any necessary technical and 
conforming changes. Without objection, so ordered.

    H.R. 6468

    Chairman Smith. Pursuant to notice, I now call up H.R. 
6468, the Improving Science in Chemical Assessments Act. And 
the clerk will report the bill.
    The Clerk. H.R. 6468, a bill to direct that certain 
assessments with respect to toxicity of chemicals be carried 
out by the program offices of the Environmental Protection 
Agency and for other purposes.
    Chairman Smith. Without objection, the bill will be 
considered as read and open for amendment at any point, and 
I'll recognize myself to speak on the legislation.
    Today, we are considering a bill that restores the 
scientific integrity of chemical toxicity assessments being 
conducted by the EPA. H.R. 6468 ensures that chemical hazard 
identification and dose response assessments will be 
transparent, complete, and tailored to the regulatory needs of 
EPA program offices.
    I want to thank Chairman Biggs for his hard work on this 
legislation and urge my colleagues to support this bill.
    And the bill's sponsor, the gentleman from Arizona, Mr. 
Biggs, is recognized to speak on the legislation.
    Mr. Biggs. Thank you, Mr. Chairman, for the opportunity to 
speak on behalf of my bill, the Improving Science in Chemical 
Assessments Act. This legislation ensures that chemical 
assessments conducted by the EPA will advance the Agency's core 
mission of protecting human health and the environment.
    Specifically, the bill will eliminate EPA's flawed 
Integrated Risk Information System, or IRIS, and return the 
responsibility of conducting hazard identification and dose 
response assessments to the EPA's program offices, which are 
best situated to perform the work.
    Without any foundation in law or direction from Congress, 
EPA administratively created the IRIS program in 1985 to 
``foster consistency'' in chemical assessments conducted by 
EPA. Unfortunately, IRIS has evolved into a program plagued by 
inefficiencies and a lack of transparency, resulting in 
questionable science that can have a significant impact on the 
marketplace.
    When IRIS assigns a toxicity value to a chemical, Federal, 
State, and local regulatory authorities use it to make rules 
and regulations that can impact commerce. While in practice the 
program does not have any regulatory authority, the assessments 
produced by the program can still have a negative impact on the 
economy similar to the effect of regulation.
    Over the past year, the Environment Subcommittee has 
conducted a hearing, hosted briefings with the EPA, met with 
stakeholders, and worked with our colleagues to learn more 
about the IRIS program. It has become very apparent that the 
program has lost its way. This bill will address the problems 
of the program by ensuring that any future chemical assessments 
performed are tailored to the regulatory need of the relevant 
EPA program office.
    Let me be clear: Chemical toxicity assessments will still 
be performed by the Agency. They will just be performed by the 
program offices rather than IRIS. These future assessments will 
be stored in a publicly accessible chemical assessment data 
base, which will also retain the existing IRIS assessments.
    Most importantly, this legislation promotes reliability in 
chemical hazard identification and dose response assessments by 
ensuring they will be carried out using the best available 
science and based on the weight of the scientific evidence.
    The bill requires that the EPA meet stringent scientific 
standards when assessing any given chemical by considering the 
relevance of the data, the uncertainty in the scientific 
information, the extent to which it has been peer-reviewed, and 
whether the findings are reproducible.
    Last, the bill creates a Chemical Hazard Identification and 
Dose Response Steering Committee, chaired by the Office of 
Research and Development, to prevent duplication of work 
performed by the program offices. The Steering Committee will 
also be authorized to consider third-party assessments as a 
supplement to the work being performed by the program offices, 
provided that the third-party assessments meet the scientific 
standards which are outlined in the bill. The Chemical 
Assessment Improvement Act is a commonsense effort to refocus 
EPA science back to its core mission.
    I thank Chairman Smith, Vice Chairman Lucas, Environment 
Subcommittee Chairman Norman, Representatives Rohrabacher, 
Posey, Weber, Babin, Higgins, Lesko, Hultgren, Abraham, 
Webster, Marshall, and Dunn for cosponsoring this important 
legislation. I encourage the rest of my colleagues to support 
this bill.

                    Prepared Statement of Mr. Biggs

    Thank you, Mr. Chairman for the opportunity to speak on 
behalf of my bill, H.R. 6468, the Improving Science in Chemical 
Assessments Act.
    This legislation ensures that chemical assessments 
conducted by the Environmental Protection Agency (EPA) will be 
transparent, reliable, and useful for program offices to carry 
out EPA's core mission of protecting human health and the 
environment.
    Specifically, the bill will eliminate EPA's flawed 
Integrated Risk Information System, or IRIS, and return the 
responsibility of conducting hazard identification and dose 
response assessments to the agency's program offices, which are 
best situated to perform the work.
    Without any foundation in law or direction from Congress, 
EPA administratively created the IRIS program in 1985 to 
``foster consistency'' in chemical assessments conducted by 
EPA. Unfortunately, IRIS has evolved into a program plagued by 
inefficiencies and a lack of transparency, resulting in 
questionable science that can have a significant impact on the 
marketplace.
    When IRIS assigns a toxicity value to a chemical, federal, 
state, and local regulatory authorities use it to make rules 
and regulations that can impact commerce. While in practice the 
program does not have any regulatory authority, the assessments 
produced by the program can still have a negative impact on the 
economy similar to the effect of regulation.
    Over the past year, the Environment Subcommittee has 
conducted a hearing, hosted briefings with the EPA, met with 
stakeholders, and worked with our colleagues to learn more 
about the IRIS program. It has become very apparent that the 
program has lost its way.
    H.R. 6468 will address the problems of the program by 
ensuring that any future chemical assessments performed are 
tailored to the regulatory need of the relevant EPA program 
office. Let me be clear: Chemical toxicity assessments will 
still be performed by the agency. They will just be performed 
by the program offices rather than IRIS. These future 
assessments will be stored in a publicly accessible Chemical 
Assessment Database, which will also retain the existing IRIS 
assessments.
    Most importantly, this legislation promotes reliability in 
chemical hazard identification and dose response assessments by 
ensuring they will be carried out using the best available 
science and based on the weight of the scientific evidence. 
H.R. 6468 requires that the EPA meet stringent scientific 
standards when assessing any given chemical by considering the 
relevance of the data, the uncertainty in the scientific 
information, the extent to which it has been peer reviewed, and 
whether the findings are reproducible.
    Lastly, the bill creates a chemical hazard identification 
and dose response steering committee, chaired by the Office of 
Research and Development, to prevent duplication of work 
performed by the program offices. The steering committee will 
also be authorized to consider third-party assessments as a 
supplement to the work being performed by the program offices 
provided that the third-party assessments meet the scientific 
standards outlined in the bill.
    H.R. 6468 is common-sense legislation that will re-focus 
EPA science back to its core mission. I want to thank Chairman 
Smith, Vice Chairman Lucas, Environment Subcommittee Vice 
Chairman Norman, and Representatives Rohrabacher, Posey, Weber, 
Babin, Higgins, Lesko, Hultgren, Abraham, Webster, Marshall, 
and Dunn for cosponsoring this important legislation. I 
encourage the rest of my colleagues to support this bill, and I 
yield back the balance of my time.

    Mr. Biggs. Mr. Chairman, I also ask unanimous consent to 
enter into the record a letter from former Democratic 
Congressman Cal Dooley, the CEO of the American Chemistry 
Council, which represents more than 170 companies that do 
business in the field of chemistry, which supports the 
Improving Science in Chemical Assessments Act. This letter 
acknowledges that IRIS has had a, quote, ``routine lack of 
transparency in the program, as well as failures in efficiency 
and direction that have mired the credibility of the program,'' 
close quote.
    Furthermore, his letter asserts that the, quote, 
``legislation will ensure that EPA's program offices conduct 
chemical assessments in a timely manner consistent with the 
best available science,'' close quote.
    So, Mr. Chairman, I ask that the--that that letter be 
incorporated into the record.
    Chairman Smith. OK. Without objection, so ordered.
    Mr. Biggs. And I encourage my colleagues to vote for this 
bill, and I yield back the balance of my time.
    Chairman Smith. OK. Thank you, Mr. Biggs.
    The gentleman from New York, Mr. Tonko, is recognized.
    Mr. Tonko. Mr. Chair, I move to strike the last word.
    Chairman Smith. The gentleman is recognized for 5 minutes.
    Mr. Tonko. Thank you. I strongly oppose the bill, which 
would decimate the IRIS program. The IRIS program provides 
human health assessments of chemicals found in our environment. 
The IRIS program has reviewed hundreds of chemicals and 
supports programs across the entire agency. This is an 
important program that keeps us safe. We should not be gutting 
it; we should be ensuring that it has the resources and staff 
to thrive and continue to provide toxicity information. It does 
not make sense to tear apart this program and ignore research 
expertise.
    By fragmenting the office, we would be creating a system 
where critical assessments would occur in other offices that 
lack the capacity and expertise to properly conduct these 
assessments. Instead, we would be giving an even louder voice 
to industry interests who would replace unbiased expertise. 
This would hurt public health and is a dangerous endeavor.
    On EPA's own website it States the IRIS program is located 
within EPA's National Center for Environmental Assessment in 
the Office of Research and Development. The placement of the 
IRIS program in ORD is intentional. It ensures that IRIS can't 
develop impartial toxicity information independent of its use 
by EPA's programs and regional offices to set national 
standards and cleanup hazardous sites.
    I'm also concerned by the secret science language in the 
bill. This type of language is thinly veiled campaign to limit 
serious and highly credible scientific research that supports 
critical regulatory action.
    We also have seen a disturbing trend at EPA lately where 
science is being sidelined. I am extremely concerned by reports 
that the release of a study which detailed cancer risks from 
formaldehyde is being delayed, with the results kept hidden 
from the public. EPA's priority must be to protect public 
health and the environment. Weakening the IRIS program will 
likely delay other critical toxicity assessments, and some may 
never see the light of day.
    In addition to my objections to the substance, I also have 
serious process concerns with this bill. Not only am I on this 
Committee, I also serve as the Ranking Member of the Energy and 
Commerce Subcommittee on the Environment. This bill meddles 
with existing regulatory and program requirements contained in 
the many public health statutes that EPA implements. These 
statutes are under the jurisdiction of the Committee on Energy 
and Commerce.
    I understand that the majority has not had substantive 
discussions with the staff of Energy and Commerce Committee 
about this bill to avoid unintentional, overlapping, or adverse 
consequences in law and regulation.
    Moreover, I am concerned by the process behind the first 
bill, H.R. 6399, the Chemical Assessments Improvement Act. That 
bill was introduced last Tuesday and noticed for a markup last 
Wednesday, but the House Parliamentarian determined that the 
bill was entirely within the jurisdiction of the Energy and 
Commerce Committee. The morning of the markup, the bill was 
abruptly pulled.
    Before this bill is considered, the following questions 
should be answered: One, has Committee spoken with EPA, and 
have formal comments from the Agency on this bill been 
received? If so, will the majority please share them?
    Two, what other groups have been talked to about this bill? 
Can we see all the comments received from them on this bill.
    Three, what is the cost estimate of this bill?
    Four, what are the potential impacts of this bill on the 
programs and laws of EPA?
    I do not believe we should be marking up this legislation 
at all. I will oppose this legislation and encourage my 
colleagues to do the same.
    And with that, Mr. Chair, I yield back.
    Chairman Smith. Thank you, Mr. Tonko.
    Are there other Members who wish to be heard?
    Down here, the gentleman from Texas, Mr. Babin, is 
recognized.
    Mr. Babin. Yes, sir. Thank you, Mr. Chairman. I appreciate 
it.
    Thank you for bringing forward this critical piece of 
legislation. I applaud the efforts of the Environmental 
Subcommittee Chairman Mr. Biggs of Arizona in introducing the 
Improving Science in Chemical Assessments Act to bring much-
needed improvements to the way that EPA conducts dose response 
chemical assessments.
    The mission of the EPA is protect human health and the 
environment, and this legislation will further empower the 
Agency to ensure that the assessments that it undertakes will 
do just that. The Committee has heard for too long about the 
issues facing the Integrated Risk Information System, or IRIS, 
program. In fact, the Committee held a hearing in which many 
concerns regarding scientific integrity and a lack of 
transparency in the IRIS process were raised. Similar concerns 
have also been raised by the National Academy of Sciences and 
the U.S. Government Accountability Office.
    Given the shortcomings of the current program, it is 
necessary to make improvements to the way that chemicals are 
chosen and assessed. This legislation will improve coordination 
amongst the national program offices and regional offices by 
establishing a much-needed Steering Committee. This Committee 
will allow for chemicals to be appropriately selected for 
assessment, avoiding duplication, and ensuring that they meet a 
regulatory need.
    Moreover, this legislation will ensure that EPA is using 
the best available science and rely on a weight-of-the-
scientific evidence approach when performing these assessments. 
Together with the commonsense scientific standards further 
outlined in the bill, these principles will ensure greater 
certainty to the marketplace and to the American people.
    As a cosponsor of H.R. 6468, the Improving Science in 
Chemical Assessments Act, I urge my colleagues to support this 
legislation. I want to thank you, and I yield back the balance 
of my time.
    Chairman Smith. Thank you, Mr. Babin.
    And the gentlewoman from Oregon, Ms. Bonamici, is 
recognized.
    Ms. Bonamici. Thank you very much, Mr. Chairman. I move to 
strike the last word.
    Chairman Smith. The gentlewoman is recognized for 5 
minutes.
    Ms. Bonamici. Thank you, Mr. Chairman.
    I oppose the Improving Science in Chemical Assessments Act 
because it would effectively eliminate the Integrated Risk 
Information System within the EPA's Office of Research and 
Development. The bill proposes a fragmented and weak system of 
conducting chemical assessments that would undermine the 
Agency's mission to protect human health.
    The EPA created the IRIS back in 1985 to independently 
assess the toxicity of chemicals and to provide a consistent 
data base of human health assessments of chemicals that are 
found in our environment. It was specifically placed within 
ORD, so those tasked with protecting the public's health are 
able to make the best independent decisions they can by using 
the best available science to determine the potential harmful 
effects of chemical exposures.
    The chemical assessment process requires advanced technical 
knowledge and expertise. Unfortunately, this bill would 
disperse the process across program offices within the EPA that 
do not have the scientific capacity to conduct the rigorous 
review required to provide a thorough chemical analysis. The 
bill would also allow for individual program offices to assign 
a range of toxicity values instead of a single toxicity value 
for chemical substances. This could allow regulated entities to 
essentially choose from a number of toxicity values that could 
lead to very disparate risk assessment decisions nationwide, 
and the consequences could be dangerous.
    I'm also disappointed that, once again, this Committee 
chooses to ignore processes associated with an agency program. 
Both the National Academies and EPA's own Scientific Advisory 
Board, which is comprised of members selected by former 
Administrator Pruitt, have recently commended the IRIS program 
for its work conducting vital chemical assessments. In fact, 
the National Academies concluded that the EPA has been 
responsive to its previous recommendations regarding the IRIS 
program and has made substantial progress in their 
implementation.
    Also, this bill was not written in a bipartisan fashion and 
is a shortsighted attempt by our majority to restrict science 
and allow for industry influence. It is imperative that these 
chemical assessments be conducted and the IRIS program should 
be placed in an impartial office like the ORD that has the 
scientific expertise required to provide critical toxicity 
information. Disassembling a program that relies on a science-
based review process to conduct human health assessments and 
replacing it with a weakened substitute to placate industry is 
a disservice to the American public.
    I oppose this dangerous bill. I align myself with Mr. 
Tonko's concerns about the Committee jurisdiction as well, and 
I urge my colleagues to vote no.
    Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Ms. Bonamici.
    And the gentleman from Florida, Mr. Dunn, is recognized for 
his comments.
    Mr. Dunn. Thank you very much, Mr. Chairman, for bringing 
this important legislation markup, and thank you for your 
leadership on this, Chairman Biggs, introducing the Improving 
Science in Chemical Assessments Act.
    This bill addresses many concerns raised by the National 
Academy of Sciences and the Government Accountability Office 
regarding the integrated risk program system that is the IRIS 
program at EPA. Both the National Academy of Sciences and the 
GAO have been highly critical of the IRIS program and the 
process it uses to review chemicals. This bill improves the 
EPA's process for conducting these assessments.
    In order to make these important changes, the Improving 
Science in Chemical Assessments Act will shift the 
responsibility of performing dose response chemical assessments 
to the national program offices at the EPA. These offices 
require such assessments to fulfill statutory requirements.
    Moreover, the bill will codify the scientific principles 
that strengthen the quality of chemical assessments. Many of 
the scientific standards put forward in this legislation come 
directly from the EPA's own guidelines for undertaking 
assessments. These are commonsense standards that position the 
EPA to better protect human health and the environment.
    As a cosponsor of H.R. 6468, the Improving Science in 
Chemical Assessments Act, I urge my colleagues to support this 
important bill.
    Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Dunn.
    And the gentleman from California, Mr. McNerney, is 
recognized.
    Mr. McNerney. Well, I thank the Chairman for yielding--or I 
move to strike the last word first.
    Chairman Smith. The gentleman is recognized for 5 minutes.
    Mr. McNerney. I want to thank the Chairman for giving me a 
few minutes here.
    I'm going to oppose this purely partisan bill, H.R. 6468. 
Mr. Chairman, good legislation needs bipartisan input. We don't 
see that here. Second, I question the Committee's jurisdiction, 
again repeating what Mr. Tonko said. E&C, Energy and Commerce 
should be responsible to markup this bill. And third, of the 
many problems with this bill, I will focus on the 
politicization and introduction of conflict-of-interest 
influences in the chemical assessment process, as well as the 
overall degradation in the quality of chemical assessments if 
this bill were to become law.
    H.R. 6468 sets up a Steering Committee that would be 
chaired by a political appointee and have the remainder of its 
membership appointed by the EPA Administrator, creating a 
highly politicized body that would be responsible for 
determining which assessments are carried out and by which 
program office. Additionally, the Steering Committee would have 
the ability to include third-party assessments and to choose 
the author of these assessments, essentially rolling out the 
welcome mat for further politicization of what should be 
inherently science-based process.
    Moving chemical assessments conducted by the IRS--IRIS 
program out of the Office of Research and Development and into 
individual program offices at the EPA would offer gaps in 
scientific review process. Program offices use the toxicity 
information generated by the IRIS program to set national 
standards and cleanup hazardous sites. If only one program 
office is responsible for conducting an assessment on a given 
chemical, there's a danger that different routes of exposure 
could be ignored.
    For example, under this bill, if more than one program 
office intends to conduct an assessment on a chemical, the 
previously described Steering Committee would choose which 
program office would lead the chemical assessment. If this bill 
were to become law and a chemical assessment is needed to be 
conducted on lead, which program office would conduct it? If 
the Office of Air and Radiation took the lead, would it ignore 
the hazards of lead in water? Or if the Office of Water took 
charge, would it ignore the hazards of lead in the air?
    Chemicals found in our environment don't always follow only 
one route of exposure and can be found across various media 
such as air, water, and soil. Relegating a chemical assessment 
to one program office would introduce bias in the way the 
assessments are conducted and lead to lower-quality 
assessments.
    This bill would ultimately endanger human health. Dividing 
up chemical assessments among program offices is a recipe for 
problems as different routes of exposure to chemical hazards 
could be ignored or under-valuated and would allow for a bias 
to creep into these critical assessments. This is not 
acceptable for an agency charged with protecting human health. 
The IRIS program provides vital toxicity information that is 
relied upon by States, tribes, regions, and other Federal 
agencies, and they should continue to be housed in an impartial 
office of research and development that has the appropriate 
scientific expertise and capacity.
    Mr. Chairman, I yield back, and I urge my colleagues to 
vote no on this bill.
    Chairman Smith. Thank you, Mr. McNerney.
    And the gentleman from South Carolina, Mr. Norman, is 
recognized.
    Mr. Norman. Thank you, Chairman Smith, for bringing this 
important legislation to a markup. And I also want to thank 
Environmental Subcommittee Chairman Andy Biggs for his 
leadership in sponsoring this Improving Science in Chemical 
Assessments Act, a bill that would increase transparency and 
efficiency in EPA's chemical toxicity assessment program.
    H.R. 6468 is designed to refocus EPA science on its core 
mission of protecting humans and the--protecting human health 
and the environment. One of the priorities of President Trump's 
EPA has been to ensure that agency science is useful and 
relevant. This bill will make chemical toxicity data relevant 
for the regulatory needs of the EPA program offices and useful 
for States and localities, which will continue to have access 
to the data through the publicly available chemical assessments 
data base.
    For years, the Internal--Integrated Risk Information 
System, or IRIS, program has been unresponsive to national 
programs office needs. The assessments take years, sometimes a 
decade to complete. Thus, by the time the assessments are 
complete, they're useless for the program offices, which must 
regulate within the statutory time limits.
    This legislation guarantees that chemical assessments will 
be conducted efficiency--efficiently and will be valuable to 
national program offices to carry out their core functions. 
H.R. 6468 also creates a Steering Committee to coordinate 
functions and to prevent duplications of work among the program 
offices. EPA regional offices will sit on the Steering 
Committee and will thus continue to have a role in determining 
which assessments are needed for regulatory purposes.
    Furthermore, this Steering Committee will be allowed to 
consider third-party assessments performed by academia, outside 
scientific bodies, foreign agencies, and industry, provided 
that these third-party assessments meet the stringent 
scientific standards in the legislation. This will increase the 
efficiency of the chemical assessment process by allowing 
program offices to use these third-party assessments as 
supplements and build off the work already done by others.
    As a cosponsor of H.R. 6468, the Improving Science in 
Chemical Assessments Act, I urge my colleagues to support this 
bill.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Smith. Thank you, Mr. Norman.
    If there are no other amendments, a reporting quorum being 
present, I move that the Committee on Science, Space, and 
Technology report H.R. 6468 to the House with the 
recommendation that the bill be approved.
    The question is on favorably reporting H.R. 6468 to the 
House.
    Ms. Johnson. Recorded.
    Chairman Smith. A recorded vote has been requested, and the 
clerk will call the roll.
    The Clerk. Mr. Smith?
    Chairman Smith. No.
    The Clerk. Mr. Smith votes no.
    Chairman Smith. I mean, thank you for looking up again. I 
was looking at Eddie Bernice Johnson. That's why I said no. I 
vote yes.
    The Clerk. Mr. Smith votes yes.
    Mr. Lucas?
    [No response.]
    The Clerk. Mr. Rohrabacher?
    Mr. Rohrabacher. I vote no but I'm going to change it to 
yes.
    The Clerk. Mr. Rohrabacher votes yes.
    Mr. Brooks?
    Mr. Brooks. Yes.
    The Clerk. Mr. Brooks votes yes.
    Mr. Hultgren?
    [No response.]
    The Clerk. Mr. Posey?
    [No response.]
    The Clerk. Mr. Massie?
    [No response.]
    The Clerk. Mr. Weber?
    [No response.]
    The Clerk. Mr. Knight?
    Mr. Knight. Yes.
    The Clerk. Mr. Knight votes yes.
    Mr. Babin?
    Mr. Babin. Yes.
    The Clerk. Mr. Babin votes yes.
    Mrs. Comstock?
    [No response.]
    The Clerk. Mr. Loudermilk?
    [No response.]
    The Clerk. Mr. Abraham?
    Mr. Abraham. Yes.
    The Clerk. Mr. Abraham votes yes.
    Mr. Palmer?
    Mr. Palmer. Yes.
    The Clerk. Mr. Palmer votes yes.
    Mr. Webster?
    Mr. Webster. Yea.
    The Clerk. Mr. Webster votes yes.
    Mr. Biggs?
    Mr. Biggs. Aye.
    The Clerk. Mr. Biggs votes yes.
    Mr. Marshall?
    Mr. Marshall. Yes.
    The Clerk. Mr. Marshall votes yes.
    Mr. Dunn?
    Mr. Dunn. Yes.
    The Clerk. Mr. Dunn votes yes.
    Mr. Higgins?
    Mr. Higgins. Yes.
    The Clerk. Mr. Higgins votes yes.
    Mr. Norman?
    Mr. Norman. Yes.
    The Clerk. Mr. Norman votes yes.
    Mrs. Lesko?
    Mrs. Lesko. Yes.
    The Clerk. Mrs. Lesko votes yes.
    Mr. Cloud?
    [No response.]
    The Clerk. Ms. Johnson?
    Ms. Johnson. No.
    The Clerk. Ms. Johnson votes no.
    Ms. Lofgren?
    Ms. Lofgren. No.
    The Clerk. Ms. Lofgren votes no.
    Mr. Lipinski?
    Mr. Lipinski. No.
    The Clerk. Mr. Lipinski votes no.
    Ms. Bonamici?
    Ms. Bonamici. No.
    The Clerk. Ms. Bonamici votes no.
    Mr. Bera?
    Mr. Bera. No.
    The Clerk. Mr. Bera votes no.
    Ms. Esty?
    Ms. Esty. No.
    The Clerk. Ms. Esty votes no.
    Mr. Veasey?
    Mr. Veasey. No.
    The Clerk. Mr. Veasey votes no.
    Mr. Beyer?
    Mr. Beyer. No.
    The Clerk. Mr. Beyer votes no.
    Ms. Rosen?
    Ms. Rosen. No.
    The Clerk. Ms. Rosen votes no.
    Mr. Lamb?
    Mr. Lamb. No.
    The Clerk. Mr. Lamb votes no.
    Mr. McNerney?
    Mr. McNerney. No.
    The Clerk. Mr. McNerney votes no.
    Mr. Perlmutter?
    Mr. Perlmutter. No.
    The Clerk. Mr. Perlmutter votes no.
    Mr. Tonko?
    Mr. Tonko. No.
    The Clerk. Mr. Tonko votes no.
    Mr. Foster?
    [No response.]
    The Clerk. Mr. Takano?
    Mr. Takano. No.
    The Clerk. Mr. Takano votes no.
    Ms. Hanabusa?
    [No response.]
    The Clerk. Mr. Crist?
    [No response.]
    The Clerk. Mr. Cloud?
    Mr. Cloud. Yes.
    The Clerk. Mr. Cloud votes yes.
    Mrs. Comstock?
    Mrs. Comstock. Yes.
    The Clerk. Mrs. Comstock votes yes.
    Mr. Massie?
    Mr. Massie. Yes.
    The Clerk. Mr. Massie votes yes.
    Chairman Smith. The clerk will report the vote.
    The Clerk. Mr. Chairman, 17 Members voted ayes, 13 Members 
voted no.
    OK. The ayes have it, and the bill is agreed to.
    [GRAPHIC] [TIFF OMITTED] T5710.544
    
    Without objection, the motion to reconsider is laid upon 
the table. H.R. 6468 is ordered reported to the House. I ask 
unanimous consent that staff be authorized to make any 
necessary technical and conforming changes. Without objection, 
so ordered.
    If there's no further discussion, that completes our 
business. This concludes the Science Committee markup. Without 
objection, the gentleman, Mr. Palmer, is recognized.
    Mr. Palmer. Mr. Chairman, I was unavoidably delayed by two 
hearings held simultaneously. I would like to be recorded on 
the--without objection, I would ask unanimous consent to be 
recorded as a no on the previous vote.
    Chairman Smith. OK. Without objection, no on--yes on this 
vote obviously but no on which vote, the----
    Mr. Palmer. On the amendment.
    Chairman Smith. On the amendment. Is that clear enough? We 
had three votes.
    Ms. Johnson. You got enough to pass.
    Chairman Smith. We know what you meant. OK. Let me ask the 
clerk, can we go through those amendments and make sure that 
Mr. Palmer knows which amendments he's voting on? Is that 
possible? Let's get--can you all help him out? We need----
    Ms. Bonamici. Mr. Chairman, I was detained and was late for 
the vote on Ms. Johnson's amendment and----
    Chairman Smith. OK.
    Ms. Bonamici [continuing]. Request unanimous consent to be 
recorded as an aye on the amendment vote.
    Chairman Smith. Without objection, the gentlewoman will be 
recorded as an aye on the Johnson amendment.
    Ms. Bonamici. Thank you, Mr. Chairman.
    Chairman Smith. And we're still going to get clarification 
from Mr. Palmer here. OK. OK. We'll put Mr. Palmer's comments 
in the record, but for purposes today, he was recorded as 
voting yes on final passage right now----
    Mr. Palmer. Yes.
    Chairman Smith [continuing]. Is that correct? OK. Do we 
need to announce a recount on those previous votes, considering 
the Bonamici vote yes for the Johnson amendment and the Palmer 
vote yes on final?
    The Clerk. Sir, the final passage of S. 141 was by voice 
vote.
    Chairman Smith. OK.
    The Clerk. If Mr. Palmer would care to register his vote on 
Ms. Johnson's amendment to S. 141?
    Chairman Smith. OK. And, Mr. Palmer, is that a no on the 
Johnson amendment?
    Mr. Palmer. It's a no on the Johnson amendment.
    Chairman Smith. OK. Without objection.
    The Clerk. Sir, the final vote on Ms. Johnson's amendment 
to S. 141 is 20 Members--excuse me, 14 Members voting yes, 20 
Members voting no.
    Chairman Smith. OK. Great. If there's no further 
discussion, this completes our business and this concludes the 
Science Committee markup. Without objection, the Committee 
stands adjourned.
    [Whereupon, at 3:57 p.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                  S. 141, Amendment Roster, H.R. 6468


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
